<html>
<title> - CLEAN AIR ACT: PROPOSED REGIONAL HAZE REGULATIONS</title>
<body><pre>[Senate Hearing 105-677]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-677

 
                             CLEAN AIR ACT:
                   PROPOSED REGIONAL HAZE REGULATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
        CLEAN AIR, WETLANDS, PRIVATE PROPERTY AND NUCLEAR SAFETY

                                AND THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 1998

                               __________

  Printed for the use of the Committee on Environment and Public Works



                   U.S. GOVERNMENT PRINTING OFFICE
49-521 cc                  WASHINGTON : 1998
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED FIFTH CONGRESS
                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                

  Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear 
                                 Safety

               JAMES M. INHOFE, North Carolina, Chairman

TIM HUTCHINSON, Arkansas             BOB GRAHAM, Florida
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               BARBARA BOXER, California

                                  (ii)






                            C O N T E N T S

                              ----------                              

                             APRIL 23, 1998

                                                                   Page

                           OPENING STATEMENTS

Allard, Hon. Wayne, U.S. Senator from the State of Colorado......     4
Baucus, Hon. Max, U.S. Senator from the State of Montana.........     2
Boxer, Hon. Barbara, U.S. Senator from the State of California...    11
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Kempthorne, Hon. Dirk, U.S. Senator from the State of Idaho......    11
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     4

                               WITNESSES

Colburn, Kenneth A., Director, Air Resources Division, New 
  Hampshire Department of Environmental Sciences.................    26
    Additional information submitted for the record..............    27
    Letter, New Hampshire Clean Air Strategy Advisory Committee..    29
    Prepared statement...........................................   111
    Resolution by NESCAUM........................................   113
Leavitt, Hon. Michael O., Governor, State of Utah................     5
    Letter, Western Governors' Association.......................    46
    Prepared statement...........................................    44
Seitz, John S., Director, Office of Air Quality Planning and 
  Standards, Environment Protection Agency.......................    18
    Additional information submitted for the record..............32, 62
    Executive summary of report, Regulatory Impact Analyses for 
      the Particulate Matter and Ozone NAAQS and Proposed 
      Regional Haze Rule.........................................    52
    Prepared statement...........................................    48
    Response to additional questions from:
        Senator Allard...........................................    32
        Senator Inhofe...........................................    62
Shaver, Christine L., National Park Service, Department of the 
  Interior.......................................................    20
    Prepared statement...........................................   114
Terry, Lynn, Deputy Executive Officer, California Air Resources 
  Board..........................................................    22
    Prepared statement...........................................   120
Wood, Randolph, Director, Department of Environmental Quality....    25
    Prepared statement...........................................   122

                          ADDITIONAL MATERIAL

Report, Regional Haze: EPA's Proposal to Improve Visibility in 
  National Parks and Wilderness Areas, Congressional Research 
  Service........................................................   129
Statements:
    Alley, Tom, Michigan State representative....................   125
    American Road and Transportation Builders Association, Peter 
      Ruane......................................................   126

                                 (iii)




           CLEAN AIR ACT: PROPOSED REGIONAL HAZE REGULATIONS

                              ----------                              


                        THURSDAY, APRIL 23, 1998

                               U.S. Senate,
       Committee on Environment and Public Works,  
                     Subcommittee on Clean Air, Wetlands,  
                      Private Property, and Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9 a.m. in room 
406, Senate Dirksen Building, Hon. James M. Inhofe (chairman of 
the subcommittee) presiding.
    Present: Senators Inhofe, Allard, Sessions, and Kempthorne.
    Also present: Senator Baucus.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. I will call the meeting to order.
    We are going to move rapidly here because, unfortunately, 
Governor, we don't have the controls around here that you have 
in your State, and we're going to have three stacked votes 
starting at 9:30, which means we can stay here until about 
9:40.
    So what I would like to do is get through our opening 
statements and get through your opening statement, and actually 
get to some questions, before we have to go for the votes.
    Senator Baucus is here. Senator, I understand we have three 
votes at 9:30, so we're going to try to get through our 
statements.
    The purpose of today's hearing is to examine the proposed 
regional haze regulations that the EPA announced last July. The 
regional haze rule is supposed to address the problems of haze 
in our National Parks and wilderness areas that decreases the 
visibility in these important scenic areas. The regional haze 
rule came right after the PM<INF>2.5</INF> rule came last July.
    I want to identify the witnesses for today's hearing. We 
will be receiving testimony from Federal and State officials, 
including Governor Leavitt of Utah. This is an important point 
because since the regulation was proposed, over 40 States have 
requested major changes in the rule. Because the States are 
supposed to manage the haze program, it is important for the 
subcommittee to understand where the conflicts exist between 
the States and the EPA and how they can be resolved.
    Today's hearing is the first one of this subcommittee to be 
held on regional haze since passage of the 1990 Clean Air Act 
amendments. I don't expect the committee to reach any 
conclusions today, but we want to get a good start on it and 
have the information for the members.
    As I read over the comments submitted by the States to the 
EPA, I notice many of the same concerns being raised by 
different States--different States spread all over the United 
States.
    No. 1, the implementation schedule--and I would like to 
have all the witnesses who are here right now who will be 
testifying in the second panel, as well as Governor Leavitt, 
try to address these--the implementation schedule for the haze 
rule does not match the implementation for the 
PM<INF>2.5</INF>, even though we are talking about the same 
particles. In Mr. Seitz' testimony he states that the EPA will 
coordinate the two; my concern is how the EPA will do this and 
whether or not that will meet the States' needs.
    No. 2, how will prescribed burnings affect the haze rule? 
The Forest Service has announced a dramatic increase in 
prescribed burnings. How do we treat this without throwing 
States into noncompliance or causing even more drastic emission 
cuts in other areas?
    No. 3, how will reasonable progress be measured without 
penalizing Western States that are already relatively clean? A 
``one-size-fits-all'' standard never seems to work. The current 
EPA proposal for ``reasonable progress'' appears to be much 
closer to a visibility standard amendment offered during the 
1990 Clean Air Act debate that was rejected by Congress, than 
the provisions that were passed into law.
    No. 4, along the same lines, how will the ``deciview'' work 
and how will it be used by the EPA?
    No. 5, what requirements will be made by the States under 
Best Available Retrofit Technology (BART)? Is there enough 
flexibility in the rule for the States to develop their own 
programs?
    No. 6, the last but certainly not the least important 
question, is how does the proposal take into account the 
recommendations of the Grand Canyon Visibility Commission.
    We want to address these six issues, as well as other 
questions that will arise.
    At this time I would recognize Senator Baucus for comments 
or an opening statement that he would like to make.

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman.
    I must say, this hearing brings back some very vivid 
memories of the 1990 Clean Air Act conference. I don't know how 
many on this subcommittee were involved, but one of the last 
moments in that conference--I think it was the last issue in 
the 1990 Clean Air Act--was this issue, and it was a heated 
debate, perhaps the most rancorous portion of the conference. 
It was finally settled at 3 a.m.
    There were some who wanted EPA to set the regulations for 
regional haze in the West, and there were others that wanted 
for the States to be more of a full partner in the setting of 
standards and how we deal with the question of western regional 
haze. I pushed strenuously for the second alternative, and 
finally prevailed, but I have to tell you, it was a knock-down, 
drag-out battle to get that accomplished.
    So we are here today to determine how well all that has 
been working. Before we do that, though, I would like to step 
back for a moment and say that I think it is very important to 
improve visibility, particularly in the West. We know it's not 
simple. This isn't like other Clean Air Act issues. It can't be 
translated into cancer deaths or asthma cases or cranked into a 
risk assessment and cost-benefit analysis. It can't be analyzed 
that way. We all know, nevertheless, that it's very important.
    Now, we're going to hear a lot of technical jargon today, 
things like ``deciviews'' and so forth, but step back a moment 
and think about it. There's something much more to it than 
that. I'm from Montana; we call ourselves the Big Sky State. 
For Montanans, our views, the vistas, the sense of broad, open 
space, helps define us. I think the same is true of most 
everywhere in the country, not only in the West, but all around 
the country. The American character has been formed by a sense 
of open space and wide horizons.
    But this sense of space is diminishing. In 1993 the 
National Academy of Sciences reported that the average visual 
range in most of the Western United States--that includes 
National Parks and wilderness areas--was about 60 to 100 miles, 
and that's about half to two-thirds of what you would see 
naturally. In most of the East, including parklands, you can 
see less than 20 miles, or about one-fifth of what is natural. 
Obviously, these figures can be improved.
    In 1970 we also insisted that States be full partners in 
planning visibility improvements. I am pleased by the efforts 
of the Grand Canyon Visibility Transport Commission. When we 
created this Commission, some predicted that it wouldn't work. 
They said that the collaboration among States, the Federal 
Government, industry, and environmentalists would produce 
nothing but bickering. As we know now, they were wrong.
    As we will hear today, the Commission has made a valuable 
contribution in creating a foundation for success. The report 
lays out some solid recommendations on how we can clear the air 
and improve visibility, but we have to go beyond the report 
state.
    First, EPA must ensure that the final rule permits 
implementation of the Commission's long-term strategy; I don't 
think the draft rule does that.
    Second, States must carry out the strategy aggressively.
    I look forward to hearing from the witnesses on both of 
these points, and I am particularly happy to see, as our first 
witness, Governor Leavitt from Utah, who has worked very hard 
on this and I must say, Mr. Chairman, I think has done a great 
job in trying to work with all the various interests in trying 
to find a reasonable common-sense solution that people can live 
with to advance the ball forward, rather than taking extreme--
some might say demagogic--positions. Instead, he has taken a 
very reasonable and balanced position, and it is his work, 
frankly, which has helped move this issue along as far as it 
has.
    Senator Inhofe. Thank you, Senator Baucus.
    Senator Sessions.

OPENING STATEMENT OF HON. JEFF SESSIONS, U.S. SENATOR FROM THE 
                        STATE OF ALABAMA

    Senator Sessions. Thank you, Mr. Chairman.
    I am very interested in the issues that are implicated 
here. As a new member of the Senate, I was not involved in the 
history of this, and I want to ascertain what are going to be 
the burdens placed upon the States to comply with the 
regulations. What is the connection between haze and parks and 
the areas around them? Will anything be required in their 
behavior? Why don't we have a coordinated relationship between 
haze issue and the particulate matter and ozone issue that 
we've recently been dealing with, and can we eliminate some of 
the duplications.
    Mr. Chairman, I am interested in learning more about this 
issue. I want to be sure that we're not using this issue as a 
way around the goals that we have set for ozone and particulate 
matter by imposing a major new burden at an accelerated 
timeframe, even faster than we've decided to do for health 
reasons.
    So thank you for your leadership.
    Senator Inhofe. Thank you, Senator Sessions.
    I do agree with that. This panel has spent a year and a 
half working on the problems associated with particulate matter 
and ozone in the National Ambient Air Quality Standards 
changes, and you're exactly right. As I said in my opening 
statement, we're dealing with the same thing in 
PM<INF>2.5</INF> here.
    Senator Allard.

 OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM THE 
                       STATE OF COLORADO

    Senator Allard. Mr. Chairman, I want to thank you for 
holding this hearing on the issue, which is of critical 
importance to the West--EPA's regional haze proposal. I agree 
with my colleague from Montana, that we in Colorado are very 
proud of our vistas. However, one of the concerns that I must 
raise is that Federal agencies apply actions in neighboring 
States that sometimes affect our haze in the State of Colorado. 
They allow forests to burn, or they actually burn forests for 
management reasons; this creates a really serious haze problem. 
Yet, they are exempted. They don't have to live under the same 
provisions that many other entities in the country are expected 
to live under.
    The impact of this regulation on economic activity could be 
large. Before it is made final, I think it is important that we 
go through it in detail.
    While this proposal has a laudable goal--to increase 
visibility in Class I areas around the country--it is a 
different goal than protecting human health. As such, we should 
not rush into approval and implementation of new regulations 
until we fully understand the impact.
    While many parts of this proposed rule cause me concern, my 
main focus has been on its applicability to Federal agencies. 
This committee has a long history of treating the Federal 
Government the same as any ordinary citizen. As evidence of 
that I would point to the Federal Facility Compliance Act of 
1992, which amended RCRA to ensure Federal compliance, and also 
the amendment that I had offered was accepted in the Superfund 
markup several weeks ago clarifying the applicability of CERCLA 
on Federal agencies.
    I believe this rule needs to state, clearly and 
unambiguously, that Federal agency actions will be subject to 
any controls that a State or regional group determines is 
necessary to meet the standards established in any final 
regulation. If, in fact, Federal land management agencies are 
concerned with Class I area visibility, then they should have 
State approval for letting a fire burn on Federal land or 
following a policy of prescribed burning. In fact, any action 
they take that could impact a Class I area should be subject to 
State approval. If this isn't the case, my misgivings about 
this regulation will only deepen.
    Thank you, Mr. Chairman. I look forward to today's hearing.
    Senator Inhofe. Thank you, Senator Allard.
    Governor Leavitt, we are delighted to have you here. I 
agree with Senator Baucus that you are the appropriate witness: 
you are on the Grand Canyon Commission; and you have gone back 
to the very roots of this. You are co-chairman of the Western 
Region Air Partnership. So we are delighted that you took the 
time to come. As will be the case with all the witnesses, we 
would like to have you try to confine your statement to 5 
minutes. We will, of course, have your full statement submitted 
as part of the record.
    Governor Leavitt.

 STATEMENT OF HON. MICHAEL O. LEAVITT, GOVERNOR, STATE OF UTAH

    Governor Leavitt. Thank you, Senator. I will summarize the 
written statement that I have submitted.
    Let me acknowledge what Senator Baucus said. This has been 
a lengthy process, one that was established by Congress in 1991 
as part of the debate. It was a rancorous part of the debate, I 
understand. It set forward a 5-year process, and it was a very 
challenging process. We brought eight States together, five 
Indian tribal nations, three Federal agencies, and the private 
sector, with the objective of being able to find a way that we 
could agree to clean up the air over the Grand Canyon. Over the 
5 years there were regional advisory groups appointed from each 
State. It was a very democratic, almost arduous process. We 
held hearing after hearing after hearing. We had input from 
everyone. Frankly, there were many times through the course of 
this process that I think all of us thought that this was an 
impossible task. But there were magic moments along the way 
where, suddenly, we started to agree, and we emerged at the end 
of that period of time with not just an agreement, but a 
consensus, essentially, among eight States, five Indian tribal 
nations, three Federal agencies, and the private sector on a 
means by which we could cleanup the air over the Grand Canyon.
    It was an exhilarating, remarkable moment. It was a time 
when we stood on the rim of the Grand Canyon and agreed on how 
it would be cleaned up. It has been a very powerful process. 
Originally we submitted our plan to the EPA with the full 
expectation that it would be implemented. Regrettably, at least 
the original proposed regional air regulations haven't been 
consistent with that. We are optimistic and feeling good about 
the fact that EPA is hearing our concerns, and we are very 
anxious that when the final rule is offered that it will, in 
fact, include our suggestions and our recommendations.
    I would like to say in passing that we have come up with a 
plan that I believe will work to clean up the air over the 
Grand Canyon. But more importantly, I believe we discovered a 
process that States, tribal nations, and Federal agencies can 
come together to develop regional solutions that are far more 
powerful than the top-down solution that would be offered from 
Washington--not that we are smarter, but that we are more in 
tune with the individual situations that go on in our States.
    And what has emerged from this is, essentially, a new 
environmental management doctrine that has been adopted by the 
western Governors. It outlines a group of principles. The 
principles are very well illustrated in this Grand Canyon 
process and indicate what we would like to do now as we move 
forward into our further efforts in regional haze. We have come 
together to put together a Western Regional Air Group that 
would like to continue implementing these, and that would go 
further.
    I would like to quickly review with you the key principles 
of this new environmental doctrine that we are developing as a 
result of this.
    The first principle is ``Collaboration, not polarization.'' 
It was very clear from the beginning that there were sides of 
this that would polarize, and as long as we spent our time 
protecting either our partisan or financial interests, we were 
not coming together. But we found that if we collaborated and 
didn't polarize, that there was a middle ground where we could 
find a solution.
    The second is ``Reward results, not programs.'' When we 
finally got down to the point of starting to ask, ``What are we 
trying to achieve here,'' and started to focus and measure 
results and not programs, we made progress.
    The third is ``Science for facts, process for priorities.'' 
It became very clear to us that where in some cases there was 
competing science, we could ultimately come up with a set of 
facts that we could agree upon, and then we used a very 
deliberate process to use those facts to spell out what the 
priorities should be. And there are competing priorities. We 
found that we could use process to sort through the competing 
priorities, but that we ought to use science for facts.
    ``Markets before mandates''--it is very clear to us in the 
West, as it is in other places, that the command and control 
means of environmental management does not work, but that if we 
use market forces, it can. The plan over the Grand Canyon, and 
plans that I believe would ultimately be developed in our 
regional air process, would include the market forces that 
would ultimately change and clean up the air.
    The next one is ``Change a heart, change a nation.'' That 
was our way of recognizing that environmental education is 
critical.
    The sixth principle is ``Recognize both costs and 
benefits.'' This was a classic example of where we had to weigh 
what the costs were and the benefits.
    The last one is, ``Solutions transcend political 
boundaries.'' It was very clear that this problem could not be 
solved by prescribing a group of ``one-size-fits-all'' 
standards, ``one-size-fits-all'' solutions. What happened in 
California in backyards affected what went over the Grand 
Canyon. What happens in Utah with the weather affects the air 
over the Grand Canyon. The solutions have to transcend 
political boundaries.
    So even as my colleagues and I flesh out this new 
environmental doctrine, we are moving ahead. I mentioned this 
Western Regional Air Partnership, known as WRAP. It is a 
partnership between States, tribes, the EPA, and the Department 
of the Interior. Our purpose is to implement the Grand Canyon 
strategies, but also to work now on other air quality issues.
    My written statement talks about some of the things that 
we've talked with EPA about changing. EPA needs to be a 
participant in the Regional Air Partnerships. They need to be 
at the table as the process goes forward. There needs to be a 
specific process for the creation and adoption of alternate 
regional strategies to define and obtain reasonable process.
    The deciview target is just not workable as a regulatory 
measure because of the large uncertainty in the relationship 
between the measure and the identification of related 
controllable emission sources. We have had significant trouble 
with BART, Best Available Retrofit Technology. Its requirements 
are incompatible with other more efficient State and tribal 
strategies. We've had a lot of discussion--it's been mentioned 
here--with prescribed burns and the need for coordination. It 
has been very discouraging at times to look at all of the 
things that could be implemented, and then to find out that the 
largest source of pollution over the Grand Canyon has, in fact, 
been that.
    That would conclude my remarks.
    Senator Inhofe. Thank you, Governor Leavitt. I do apologize 
for the voting that's coming up. It is making us hurry more 
than we want.
    When you were talking about who all was involved in the 
Grand Canyon process as was prescribed by the Clean Air Act, I 
didn't hear you say it--maybe you did--but the EPA was a 
participant all the way through this process with you folks?
    Governor Leavitt. EPA was a very productive and helpful 
partner as we went through it. They were part of the consensus, 
and for that reason we fully expected, when we submitted our 
report to the national level, that it would be adopted with 
some completeness. And while that didn't occur in the first 
draft, we feel they've been very willing to listen to us and 
hear our points of view, and we're very hopeful that the 
recommendations that they participated in developing will be 
fully incorporated.
    Senator Inhofe. That's why we're here, and we hope the same 
thing, Governor. You are familiar with the proposed EPA haze 
rule. I guess I would have to ask you, just to make sure we 
have it on the record, even though I think you answered it, can 
the Grand Canyon Commission recommendations be implemented if 
the proposed EPA haze rule is finalized as it is written now?
    Governor Leavitt. In a word, no.
    Senator Inhofe. All right, sir.
    When the Clean Air Act called for the creation of the Grand 
Canyon Commission and required the Administrator of the EPA to 
issue regulations based upon the recommendations, in proposing 
the regional haze rule, did the EPA follow--the haze rule as it 
is right now, would you say, since you were involved in the 
process, that that did follow the recommendations of the 
Commission?
    Governor Leavitt. The initial rule did not incorporate the 
recommendations of the Commission.
    Senator Inhofe. The term is used, ``reasonable progress.'' 
Under the Commission report, will the Western States make 
reasonable progress in obtaining the national goal for 
visibility----
    Governor Leavitt. It is very clear that----
    Senator Inhofe [continuing]. Under the Commission report?
    Governor Leavitt. The answer to that is yes.
    Senator Inhofe. All right, sir.
    Does the EPA proposal for reasonable progress allow the 
Western States the flexibility that would be necessary to 
develop their alternative approaches?
    Governor Leavitt. The original rule did not. We are hopeful 
that the final rule will.
    Senator Inhofe. I think you answered the question--I had 
several questions concerning deciview, but you have responded 
to those.
    I would now yield to Senator Baucus for his questions.
    Senator Baucus. Thank you, Mr. Chairman.
    Governor, Nevada is not participating in this, as I 
understand it?
    Governor Leavitt. They were participating in the process of 
the Grand Canyon. They have not chosen to go forward with 
respect to the Western Regional Air Partnership.
    Senator Baucus. And California is a reluctant participant?
    Governor Leavitt. They continue to come to the meetings, 
but at this moment they are not participants. We hope that that 
will change in time. Ultimately they are going to need some 
kind of regional effort to meet their own standards.
    Senator Baucus. That is my next question. Your suggestion 
as to how the regional matter should be addressed--if, as I 
understand it, some of the haze that comes into Utah is from 
that part of the country, how are we going to deal with all of 
this?
    Governor Leavitt. This is such a common-sense approach. The 
bottom line is that if anybody is going to meet their 
standards, they're going to have to cooperate. We're at a point 
where we're going to have to adopt a mantra of ``central 
coordination, but local control.'' We have to coordinate and we 
have to have the power to do that, and we have to have the 
national government implement--or be willing to allow us to 
implement--whatever we come up with as an agreement. California 
and Nevada currently are not part of it, but I think as they 
get further into their process they will find that they will 
find it is absolutely necessary that we have such a process.
    Senator Baucus. Did you have other regional transport 
commissions' work?
    Governor Leavitt. There are a number of others. We have 
identified a number of issues, particularly in this whole area 
of regional haze. You can't cleanup a vista in the West without 
cooperating, and that's the reason that this is of such 
importance. We've got to have the capacity to have delegated 
authority from the national government to coordinate. We're not 
asking for EPA to give up the authority; we're asking them to 
delegate the responsibility for us to come up with a solution, 
that when we do come up with a solution, that could be an 
agreement among six or eight States, Indian tribal nations, the 
Federal agencies who have been at the table, that we would be 
able to see that incorporated into the rule. It's a very 
common-sense approach and we believe it works far better than 
what currently exists.
    Senator Baucus. Do you need help from the Federal 
Government to include Nevada and California?
    Governor Leavitt. I think anytime a State--I think the 
Federal Government has done the thing that the Federal 
Government ought to do, and that's establish a standard. The 
States are going to have to meet that standard, and all of the 
States will find in time that we need each other. I believe 
that California and Nevada ultimately will voluntarily join 
with us, or at least coordinate in being able to come up with a 
solution.
    Senator Baucus. So you're saying that there should be a 
Federal haze standard?
    Governor Leavitt. We need to have standards. Those have 
been established, but we need to have the flexibility, and I 
believe that States and tribal nations and Federal agencies 
voluntarily coming together to coordinate their efforts to meet 
those standards will be far more effective than if we have one 
solution that is established, a prescriptive standard from 
Washington.
    Senator Baucus. This is the old dilemma, power, and 
freedom. How do we draw the line here to accomplish our 
objective?
    Governor Leavitt. I think the good news is that when you 
drew the line in 1991 and said to the States, ``Go out and find 
a solution,'' we did. We brought it back, and I think we've got 
a plan that is far superior to what would have emerged if it 
had been just the old process of the Federal agencies coming up 
with a plan, implementing it, the States objecting, filing 
plans, and ending up in litigation. We would spend the next 20 
years in litigation had it been the old system; as it is now, 
we have a clear-cut plan on which everyone has agreed. That's 
the power of being able to have collaboration, not 
polarization. Top-down solutions feed nothing but polarization; 
bottom-up solutions create collaboration, and that's what we 
have here.
    Senator Baucus. What if portions of the bottom don't 
participate, California and Nevada, for example?
    Governor Leavitt. They still need to meet the standard. And 
I think what they're going to find is that without cooperation, 
they're not going to meet their standard.
    Senator Baucus. Which standard is this, again?
    Governor Leavitt. This would be the standards that have 
been established by the national government.
    Senator Baucus. So you're basically saying that it has to 
be both?
    Governor Leavitt. It does have to be both. I've always seen 
the need for standards to be established, but they have to be 
flexible standards, recognizing that there are differences in 
areas.
    Senator Baucus. Instead of technology-based standards, some 
kind of performance-based standard--is that something that you 
are striving toward?
    Governor Leavitt. We really ought to be measuring results, 
not the process. A phrase I like is ``national standards, 
neighborhood strategies.'' You can't solve the problem simply 
by establishing a standard. Yes, there has to be a standard; 
yes, there has to be coordination; but there has to be a means 
by which we can acknowledge the fact that every area is 
different. There are so many conditions that exist that affect 
us.
    Senator Baucus. They're different, all right.
    One final question, Mr. Chairman.
    What is the most legitimate concern that you think EPA has 
with your approach?
    Governor Leavitt. What's the most legitimate concern that 
they have with the approach?
    Senator Baucus. That you're taking--that is, with WRAP 
basically calling the shots.
    Governor Leavitt. I think the most legitimate concern is if 
they thought we were in some way asking for them to give up 
their authority. We're not. We are----
    Senator Baucus. They're going to come next. Isn't the EPA 
witness next?
    Senator Inhofe. Yes.
    Senator Baucus. Here's your chance to tell them.
    Governor Leavitt. If they were suggesting--or thought--that 
we were asking them to give up their statutory responsibility, 
that would be a legitimate concern. That's not what we're 
doing. We are only asking them to exercise their responsibility 
at the table, not after the fact.
    Senator Baucus. I'm not quite sure if I know what that 
means.
    Governor Leavitt. They were at the table when we developed 
the Grand Canyon Visibility Transport Commission's 
recommendations. They were a collaborator. It was a very hard-
negotiated process, where all of the factors were in play. When 
we submitted the recommendations, of which they were a part, we 
fought our way through this with the full expectation that it 
would be implemented as part of the rule.
    This kind of environmental management, this kind of 
cooperative and collaborative environmental management, that 
has proven effective will never go forward if those who 
participate over a 5-year period get to the end of the day and 
find out that all of that work is for naught. There is no 
reason to come to the table again. The only thing for us to do 
is polarize and fight and litigate. Once we become interested 
in finding a solution, we can.
    Senator Baucus. Thank you.
    My time is up.
    Senator Inhofe. Thank you, Senator Baucus.
    We are going to try our best to get through this first 
round of questioning, but I'm afraid we're going to ask you to 
stay until after this series of three votes.
    Senator Kempthorne, if you don't object, if you could 
withhold your opening statement until after we get the first 
line of questions?
    Senator Kempthorne. Sure, Mr. Chairman. In fact, if I could 
make that part of the record, that would be satisfactory.
    Senator Inhofe. Without objection. I also place in the 
record Senator Boxer's statement.
    [The prepared statements of Senators Kempthorne and Boxer 
follow:]
Statement of Hon. Dirk Kempthorne, U.S. Senator from the State of Idaho
    Mr. Chairman, I thank you for the opportunity to address the 
Environmental Protection Agency's proposed rule on Regional Haze. 
Quality of life is something we prize highly in Idaho, where we are 
fortunate to have some of the cleanest air and most spectacular vistas 
in the Nation. In Idaho, people are enthusiastic about finding 
innovative ways to preserve the quality of our environment. But we are 
adamant about crafting solutions which target our unique environmental 
challenges and make the best use of the resources we have available.
    EPA is mandating States to meet a new Federal standard of one 
``deciview'' improvement in visibility within 10 or 15 years. For 
States like Idaho, that standard is not appropriate. And while the rule 
offers States the option of developing alternative reasonable progress 
targets, it does so without providing the necessary guidelines and 
funding. States like Idaho will be forced to develop their own tools 
which EPA may or may not find satisfactory a few years down the road. 
Under EPA's proposal, alternatives to the deciview standard are 
expensive and logistically unfeasible. Idaho's Air Quality Program is 
already over-worked and underfunded. This new regional haze program 
adds a number of new tasks for overburdened State agencies, such as the 
revision of State Implementation Plans every three years. This unfunded 
mandate sets my State up for failure.
    But funding and alternatives aren't the only obstacles complicating 
the Federal regional haze rule. Believe it or not, the Federal 
Government is a major contributor to haze in Idaho. On the one hand, 
Idaho is being asked to make major economic sacrifices to achieve that 
little bit of improvement we could make towards natural visibility 
conditions. At the same time, the Federal Government is using 
prescribed burns as a forest management tool. These fires are the 
single biggest contributor to haze in Idaho--yet Federal land managers 
want to be exempted! The Forest Service is currently burning the hills 
just north of Boise, and I've already heard complaints from folks in 
Idaho about how the smoke is affecting health and visibility. Now, I 
understand the reasons behind using prescribed fire as a forest 
management tool, but the regional haze regulations need to address the 
impact of prescribed fires on reasonable progress targets in the West. 
Otherwise, it makes little sense to ask Idaho to work hard for 
improvements that are totally masked by the kind of haze which is 
currently clogging Boise. The Forest Service should consider 
alternatives which are more consistent with the regional haze rule, 
like selective harvest. At the very least, one hand of the Federal 
Government needs to take into account what the other hand is doing as 
we consider these regulations. Again, Mr. Chairman, thank you for this 
opportunity. I look forward to seeing these issues addressed as we work 
toward preserving visibility in our national treasures.
                                 ______
                                 
 Prepared Statement of Hon. Barbara Boxer, U.S. Senator from the State 
                             of California
    Mr. Chairman, the spectacular vistas and natural beauty of our 
national parks and wilderness areas draws some 265 million visitors 
annually. The experience that brings Americans to Yosemite, Redwood and 
Sequoia in California year after year is of great intrinsic value. It 
is also of significant economic value to the small communities 
surrounding these areas which depend on the tourism dollars generated 
by our devotion to our national parks. Despite our historic commitment 
to protecting our national park and wilderness areas, however, today 
our view of them is fading in the haze caused by man-made air 
pollution.
    The National Academy of Sciences, in its 1993 report entitled 
Protecting Visibility in National Parks and Wilderness Areas, outlined 
the proportions of the problem we face. In the Western United States, 
Americans are able to appreciate only about one-half to two-thirds of 
the view they would otherwise enjoy in the absence of this haze. In the 
East, the range of visibility is only one-fifth the distance it would 
be in the absence of such pollution.
    Over twenty years ago, Congress recognized the importance of this 
problem, and took steps to protect against it. In the Clean Air Act 
amendments of 1977, we established the national goal of remedying and 
preventing visibility problems in 156 national parks and wilderness 
areas. Congress also directed EPA to make ``reasonable progress'' 
toward accomplishing this goal.
    EPA took a modest step toward this goal in 1980 by acting to 
address discrete sources of such pollution. Nonetheless, it deferred 
action on the regional sources of pollution that are the predominant 
cause of the current problem, citing a lack of scientific knowledge on 
how to measure and deal with the problem.
    Frustrated by this slow progress, Congress spoke to the issue again 
in the 1990 amendments to the Clean Air Act. In those amendments, we 
reaffirmed our commitment to the national goal of improving and 
protecting visibility in our national parks and wilderness areas. Once 
again, we directed EPA to take concrete steps to advance that goal.
    Since the 1990 amendments, the committee of scientists convened by 
the National Academy in 1993--experts in meteorology, atmospheric 
chemistry, air pollution monitoring and modeling, statistics, control 
technology--have found that current scientific knowledge and control 
technologies are finally available to address regional haze. EPA has 
responded by proposing the first-ever rule to combat regional haze.
    The proposed rule would establish presumptive targets against which 
reasonable progress toward improving visibility may be measured. While 
EPA would provide States with the flexibility to determine how to meet 
these presumptive standards, EPA should ensure that enforcing those 
presumptive standards is the rule rather than the exception. That is, 
the provision for allowing a State unable to meet the presumptive 
standards to propose alternate standards should be a narrow one. EPA's 
proposed rule also properly asks States to demonstrate, at reasonable 
intervals, that they are making progress toward meeting these goals. 
After waiting twenty years to begin to correct the problem of regional 
haze in our parks, we need to know that we are taking meaningful steps 
in this direction.
    In recent random survey polling conducted by the National Parks and 
Conservation Association, 88 percent of respondents supported the 
reduction of air pollution affecting our parks and wilderness areas. 
Importantly, those polled supported such measures even if imposed at a 
cost to them. EPA's current proposal is a reasonable approach which 
will begin to remove the cloud of haze that now hangs over some of our 
most spectacular natural treasures. Those treasures--among them 
Yosemite, the Grand Canyon, and Yellowstone--deserve no less.
    Thank you, Mr. Chairman.

    Senator Inhofe. Thank you, Senator.
    Senator Sessions.
    Governor Leavitt. Governor Leavitt, I am new to this 
Capitol. I am sitting here wondering how it is, with all the 
challenges facing us concerning the environment and all, that 
we've had a massive effort that doesn't affect health, but 
affects haze over the Grand Canyon, and how much time and 
effort is spent in that project, presumably to the exclusion of 
other projects that might be more valuable.
    We just tend to accept national standards. I think good 
national standards are good. Have you given any thought to 
whether or not if you were starting afresh in trying to improve 
the environment in your State, you would have approached it 
from this angle, haze over the Grand Canyon? Is that a rational 
way to approach it?
    Governor Leavitt. This is not the only environmental 
problem we wrestle with, but it's an important goal. We could 
all express why it's important, but that area is an 
international treasure, and I think it is a symbol of our 
commitment to clean up air over the parks, our wilderness 
areas, and our vistas.
    But frankly, one of the values that it has provided is that 
you can't cleanup the air over the Grand Canyon without 
cleaning up the air over Salt Lake City and Phoenix and Los 
Angeles----
    Senator Sessions. I understand that. I understand that. I 
understand that is a more valid goal. I wonder how we get 
started--I mean, we've got the Sipsey Forest in Alabama which 
apparently will be one of the areas that we want to clean the 
air over, but if I were developing an air policy for the State 
of Alabama, I wouldn't focus on the Sipsey Forest necessarily.
    I mean, is this the right way for us--we have to set that 
policy; you have to live with it, but we are the ones who are 
empowered and elected to set those policies. Do you have any 
thought that that's a good way for us to require action, 
collaborative action, by the States?
    Governor Leavitt. Senator, I just have two comments. One is 
that the priority of the Grand Canyon is one that I think we 
should all support. It's one that----
    Senator Sessions. It is particularly unique, I will admit 
that.
    Governor Leavitt. But I will tell you that whether or not 
it was the right priority--and I kind of believe it should have 
been a priority--one of the real values that came out of this 
was learning a new process of environmental management, and I 
think that process will apply in the State of Alabama as well 
as it does in the West. What I am here to argue is that what we 
need is a means by which we can all do our part. The national 
government can do its part, but we can allow these 
collaborative forces to go forward. If you want to clean the 
air up over that forest in Alabama, what we have learned here 
will be of great value to you.
    Senator Sessions. I would rather clean it up over 
Birmingham, where there are 650,000 people.
    Well, I did a lot of effort in a collaborative neighborhood 
effort, the ``weed and seed'' effort, to deal with crime and 
unemployment and bad living conditions, and I agree with you. 
It is a thrilling thing when all agencies come together and get 
committed, barriers get broken down, things can be accomplished 
that you never dreamed possible.
    I really do believe that, Mr. Chairman. And I think this 
concept of ``from the bottom up'' is precisely the way we need 
to set public policy in America, and not a ``one-size-fits-
all'' from Washington. You are correct there.
    I am just wrestling--since we are talking at this hearing 
about whether or not and how--I anticipated that the 
collaborative process would be how to get ozone and particulate 
standards met, and not how to deal with the forest issue.
    My time is up, Mr. Chairman.
    Governor Leavitt. I would like to say that one of the 
reasons we have such a problem with this deciview target, is 
that there's a disconnect between what you're measuring in the 
Grand Canyon and what has been going on in other cities. So 
your point is a good one with respect to that.
    Senator Sessions. And my basic feeling, and what I 
understand that science supports, is that as we reduce 
particulate matter--which we are committed to and have some 
stringent standards on--that will help eliminate the haze, 
also.
    Senator Inhofe. Thank you, Senator Sessions.
    The buzzer has gone off and we have a rollcall vote in 15 
minutes, but we will have a good 10 more minutes here for 
questions before we do our recess.
    Senator Allard.
    Senator Allard. Mr. Chairman, I am going to be very brief, 
and maybe my colleague from Idaho can use my time to ask the 
necessary questions.
    Let me say, first of all, that I think your leadership in 
this area is tremendous and I listened very closely to your 
comments. Obviously, your group has recognized that 
predominantly the winds come from the West, blowing east, and 
that the Rocky Mountains do create sort of a dam on those air 
currents, so you have things tend to dam up against the Rocky 
Mountains. That's why I am so interested in it from a Colorado 
perspective.
    I would appreciate it if you could review the materials 
that you have and actually submit a written record, a written 
position, to this committee's deliberations here.
    Thank you, Mr. Chairman, and I will conclude and turn the 
rest of my time over to my colleague from Idaho.
    Senator Inhofe. Senator Kempthorne.
    Senator Kempthorne. Mr. Chairman, thank you very much.
    Governor Leavitt, I want to commend you for your leadership 
on this issue and many issues in the West. Again, I think a 
great deal of wisdom comes from our States.
    Let me ask you this. We experience this in the State of 
Idaho, but here we are, dealing with a Federal standard, 
Federal regulation, and yet we find that the Federal Government 
actually impacts that negatively--for example, in the 
prescribed burns that they now conduct on our National Forests 
that are within our State boundaries, which probably has the 
greatest single impact on the haze in Idaho, the prescribed 
burn that the Federal Government calls for, and yet they want 
to be exempted from this.
    Could you comment on that aspect?
    Governor Leavitt. That was a revealing experience to me. We 
sorted through everything from backyard barbecues in California 
to Mexico and back to cars in Phoenix and power plants in 
Arizona and people driving the Strip in Las Vegas, in terms of 
having an impact on the Grand Canyon.
    Frankly, we concluded that if we could do miracles in being 
able to clean all of those things up and change the weather and 
everything else, there would still be a problem because the 
single largest contributor was the prescribed burns and the 
smoke that came from them.
    Now, there is a rational reason why those were made, and 
that's not an illogical policy. But you can't have a clean air 
plan that doesn't acknowledge and recognize that that's a 
substantial contributor to it, and if Federal agencies want to 
say, ``We're just going to conduct a policy in one department 
of the Government, and then on the other hand we're going to 
hold you accountable for what happens over the Grand Canyon, 
and we're going to use a measure called deciview, and it's 
going to measure what happens right here, not here, here, and 
here,'' it's illogical. We're talking about something that 
isn't even logical.
    So what we've asked is that the Federal agencies that were 
participants here recognize that if you're going to conduct 
prescribed burns, it's going to have an impact. If you're going 
to have fire, it will have smoke; and if you're going to have 
smoke, you're going to cut the visibility down. If the goal 
here isn't a bunch of processes, a bunch of plans, if it's 
cleaning up the air, you have to participate. And, gratefully, 
what's happened here is that we've started to get people 
working together toward a goal of actually cleaning up the air. 
Our big worry is that now we've gotten everybody together, this 
common-sense approach can't prevail, and nobody is ever going 
to come to the table again, Federal agencies or otherwise.
    Senator Kempthorne. Mr. Chairman, I think that points out, 
too--it really calls for us to examine some of the other 
Federal policies. Yes, a prescribed burn--we're getting a fuel 
load that's building up, and it jeopardizes--we may see 
hundreds of thousands of acres of forest lost, so somehow we 
need to deal with this. Selective harvest may be a way to go, 
and helicopter harvest. There is a variety of ways that we can 
be doing this which do not then contribute to impacting one of 
these Federal regulations.
    And too, one of the interesting things that I've found, 
Governor Leavitt, is that in coming out here to the East, when 
people from this area go to the Western States and see the 
mountains that we have, they then realize the topography and 
that you have these majestic peaks, but that they form a bowl. 
And once you get this smoke in that bowl, if you don't have a 
good wind, it's going to stay there. During the winters you get 
the inversions that put the cap on it. I know that Salt Lake 
City is hit with that terribly.
    I appreciate that, and in light of the time I will withhold 
any further questions, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Kempthorne.
    I wanted to get around to my favorite subject. I was in a 
similar position to you--not in the lofty position of being a 
Governor, but I was the mayor of a major city for three terms, 
and the villain at that time was not crime in the streets or 
welfare reform; it was unfunded mandates.
    I am concerned about the EPA's estimate of the cost of the 
haze rule. I think their estimate was $2.7 billion if they did 
it over a 15-year period--or $2.1 billion, I think it was--and 
then $2.7 billion if they tried to compress that into a 10-year 
period.
    But I remember so well, as this panel has shared with you, 
that we went through a year and a half of hearings, seven 
hearings, on the proposed PM<INF>2.5</INF>. That was estimated 
originally by the EPA to cost $6 billion; then the President's 
economic advisors came out and said it was going to be $60 
billion; then the Reason Foundation out in California put 
together an extensive study, and the range was somewhere 
between $90 billion and $150 billion.
    So I am concerned about two things. No. 1 is the accuracy 
of the cost of this. No. 2 is the fact that we are supposed to 
end the era of unfunded mandates to political subdivisions, in 
which case you have been told, I understand, that if there is a 
cost, this will be picked up by the EPA through grants. In the 
case of the monitoring costs, those grants actually did come 
out--or are proposed to come out--to the States, but they are 
taken away from other grants that the States would have.
    So I would like to have your response to those two 
questions--first of all, the accuracy of the amount, as nearly 
as you can determine it; and second, on how you think you would 
be compensated.
    Governor Leavitt. I am not in a position to give you an 
exact dollar amount, but I will tell you that we have done 
considerable study on what the large picture costs will be. It 
costs money to clean up the air; I don't think there's any 
question about that. But our estimate is, on the Grand Canyon 
Visibility Transport Commission, that we will clean the air up 
at literally half the cost with the collaborative approach, 
over what it would be with the top-down mandate approach. This 
is clean air at half the cost.
    Senator Inhofe. OK. You're saying then that your approach, 
after all the studying that you have done and the 
recommendations that you are making, comparing that to the 
proposed rule by the EPA, you believe it to be half the cost?
    Governor Leavitt. That is correct.
    Senator Inhofe. When you say half the cost, are you talking 
about half of their projected costs?
    Governor Leavitt. Yes.
    Senator Inhofe. Which would be, say, $2.7 billion if it 
were over a 10-year period?
    Governor Leavitt. That estimate was made by the eight 
States, six Indian tribal nations, and the three Federal 
agencies. That takes all of the costs of all of the agencies 
and the private sector. When we measure cost, we ought not to 
be measuring the Government's cost; we ought to be measuring 
the citizens' cost in. And by being able to go after those most 
efficient ways of cleaning up the air, it costs half as much to 
clean up the air as it would otherwise. Plus you get the air 
cleaned up, and we're not convinced that you would get it the 
other way.
    Senator Inhofe. OK. How comfortable are you, out in your 
State, that these costs would be picked up without jeopardizing 
other State grants?
    Governor Leavitt. I do not share that.
    Senator Baucus. Mr. Chairman, if I may, very briefly?
    Senator Inhofe. Yes.
    Senator Baucus. These cost questions are very important. It 
is also important to note that there are great benefits in the 
Clean Air Act. Congress in 1990--I forget what year it was, in 
this decade--asked EPA to do a congressionally mandated study 
to compare the benefits and the costs of the Clean Air Act, 
concluding that the benefits outweigh the costs by a ratio of 
40 to 1. That study has never been disputed.
    Now, in the interest of full disclosure, I will say that 
that's up through 1990. The study does not include assessments 
since 1990. But it is important to remember that there are 
tremendous benefits under the Clean Air Act in addition to the 
costs, and I think any responsible businessman or businesswoman 
would know that clean air and clean water is good for business 
all the way around.
    We have to be mindful of the costs; I'm not trying to say 
that we shouldn't be mindful of the costs, but there is also a 
balance here, and the balance is benefits, also, in addition to 
the costs.
    Senator Allard. Would the Senator from Montana yield 
briefly?
    Senator Baucus. Sure.
    Senator Allard. The way I interpret his testimony, we're 
talking about the same benefits, but he's saying we cut the 
costs for the same benefits.
    Senator Baucus. I'm not disputing that. I'm saying that 
when you talk about costs, it is also important to talk about 
the benefits.
    Senator Allard. If I could interject one comment, an 
observation, I'm glad we're talking about cost-benefits. I've 
been trying to do that now for the 4 years I've been here.
    Senator Sessions. Mr. Chairman, I think the last estimate 
you mentioned on the particulate matter, $140 billion, was 
basically what this highway bill is going to cost. It is a lot 
of money, and we do need to make sure that we get the absolute 
most benefit when we impose a cost in a regulation, and a 
requirement on the States. We need to be sure that that 
requirement gets the most possible benefit in terms of 
aesthetics and health.
    Senator Inhofe. Senator Kempthorne.
    Senator Kempthorne. Mr. Chairman, I would make the point, 
too, that our Safe Drinking Water Act, which was passed last 
year, is the first piece of environmental legislation that 
contains cost-benefit analysis, for the first time. And I hope 
it's not the last time.
    Senator Baucus. Also, visibility rules, by definition, 
include costs, unlike the health standards----
    Senator Inhofe. We have 3 minutes left in the vote. 
Governor Leavitt, if you could remain for just a few minutes 
after the vote, there may be some final questions.
    Thank you very much. We are in recess for about 20 minutes.
    [Recess.]
    Senator Inhofe. I would ask the second panel to come to the 
table.
    While the panel is coming up--by the way, we're back in 
session--we do have four States represented here. We were 
supposed to have a fifth State, the Commonwealth of Virginia, 
but they had to cancel at the last minute. I think their 
testimony would have been important because it would have 
offered the Eastern States' concerns with the haze rule, and 
there is some diversity of opinion by the Eastern States.
    I would also like to mention a few key points from their 
comments.
    No. 1, the haze timeline needs to be coordinated with the 
PM<INF>2.5</INF> program, as we discussed in the last panel.
    No. 2, there needs to be an alternative to the BART 
program; more flexibility is needed.
    No. 3, the proposal does not encourage States to work 
together in regional commissions. It should provide incentives 
by allowing the direct implementation of programs developed 
through such commissions.
    Our second panel consists of Mr. John Seitz, Director, 
Office of Air Quality Planning and Standards for the U.S. 
Environmental Protection Agency; Ms. Christine Shaver, National 
Park Service; Mr. Randolph Wood, director of the Nebraska 
Department of Environment Quality; Mr. Kenneth Colburn, 
director, New Hampshire Air Resources Division; and Ms. Lynn 
Terry, Deputy executive officer, California Air Resources 
Board.
    We are going to hear from all five of you, and we would 
like to have you adhere, if you would, to our 5-minute rule on 
opening statements. Your entire statements will be made part of 
the record. We will be joined by at least two other Senators, 
and for the benefit of those who are here, I would suggest that 
we do have the staff of all of the members of the committee so 
that your testimony will reach the ears of all the members of 
the committee.
    Mr. Seitz, why don't we start with you?
    And if you folks would try to adhere to the timeline, we 
would appreciate it very much.

  STATEMENT OF JOHN S. SEITZ, DIRECTOR, OFFICE OF AIR QUALITY 
    PLANNING AND STANDARDS, ENVIRONMENTAL PROTECTION AGENCY

    Mr. Seitz. Thank you, Mr. Chairman. Thank you for inviting 
me here today to talk about EPA's proposed regional haze rule, 
and I will try to cover the points you addressed in your 
opening statement as I go through my opening statement.
    Senator Inhofe. That would dramatically shorten my 
questions, then.
    Mr. Seitz. I hope to cover them all. I may go a little more 
than 5 minutes to cover them all, but if that's OK with you, I 
will try to touch on each and every one of them.
    As you know, there has been significant documentation 
across the country showing how haze has significantly impaired 
visibility in a lot of our National Parks and Wilderness Areas. 
Haze is caused by a variety of pollutants that are emitted from 
industrial sources, as varied as manufacturing, chemical 
facilities, and automobiles. And the problem, as we all know, 
is they are transported long distances and impact these 
particular areas that were designated for protection under the 
Clean Air Act, called Class I areas.
    We also know that the causes and severity of regional haze 
differ dramatically between east and west. The normal visual 
range in the West is some 60 to 90 miles, while in the East--
normally it is probably one-half to two-thirds what the visual 
range would be without the pollution--and in the East it is 15 
to 30 miles, or one-sixth to one-third of what it should be.
    The real problem in this issue, as the Governor mentioned, 
is the mix of pollutants that are causing this problem are 
emitted from a wide variety of sources over a large 
geographical range. In the 1977 amendments to the Clean Air 
Act, Congress set the national goal for visibility: 
``prevention of any future, and the remedying of any existing, 
impairment of visibility in mandatory Class I Federal areas 
which impairment results from manmade air pollution.''
    As you know, in the 1990 amendments Congress reinforced 
this goal and directed the Agency to tackle the issue of 
regional haze. To that end the Agency established the Grand 
Canyon Visibility Transport Commission, and they concluded 
their work in June, 1996 with a report to the Agency.
    Based upon that report, reports from the National Academy 
of Sciences, and input from the Agency's Clean Air Act Advisory 
Committee, on July 31 we proposed the rule. The public comment 
period closed on December 5, and we hope to finalize that rule 
sometime this summer.
    As you have indicated, I will submit a written statement 
covering many points in the rule, but now I will try to address 
the points you have raised.
    One of the issues concerning the rule was that we directed 
the States to improve visibility on the worst days, and try to 
prevent degradation of visibility on the best days. This would 
occur through a two-part process. First, States would have to 
establish an overall visibility improvement goal for each Class 
I area. EPA proposed a presumptive goal, and specifically 
allowed for States to propose an alternative.
    Let me say--and this is one of the first points made--that 
is not a national standard. It is an analytical point. It is 
not a standard. The States have the ability to choose an 
alternative goal.
    Second, and most importantly, the second part of the 
program is for the States using that goal to put in place an 
emission reduction strategy that would be enforceable, that 
would realize improvement to visibility.
    Together, the goal of visibility improvement and the 
emission reduction strategy would equal reasonable progress.
    In addition, EPA proposed to express the goal in terms of a 
deciview as measurement, and there has been a lot of comment on 
the deciview. EPA proposed and is taking comment on the 
deciview. We proposed the deciview as a concept because, like 
the decibel scale, it is an easy measure to examine the clarity 
of the air--if you will, from the cleanest to the dirtiest 
days.
    A change in one deciview is a very small change, but is 
considered to be perceptible in our National Parks and the 
vistas in these parks.
    Using the deciview scale, in addition States have the 
flexibility to be able to take a look at what emissions are 
causing impairment to visibility and address their control 
strategies to the most directly impact visibility improvement.
    EPA also provides flexibility to the States by allowing 
them, as I mentioned, to address and develop an alternative 
target. Specifically, the Act provides for the consideration of 
the cost of compliance; time necessary for compliance; and 
remaining useful life of these air pollution sources in this 
alternative goal. So the States have the ability, using the 
very factors set forth in the statute, to develop an 
alternative goal that meets these ``reasonable progress'' 
requirements.
    Since visibility impairment is caused primarily by fine 
particles, and this goes to another point that you raise, it 
was intended in the proposal to integrate the planning and 
implementation requirements of the PM-Fine program with the 
regional haze program. We specifically addressed in the 
preamble that the intent was to ensure that the control 
programs for PM-Fine come in at the same time that regional 
haze is done. So we intended to do that; we're taking comment 
on that, and we are committed to continuing that.
    One of the next issues that you addressed was the Grand 
Canyon Visibility Transport Commission. As the Governor 
mentioned and other witnesses have mentioned, we were committed 
to the Canyon report. We were at the table with them, we 
committed technical resources, we committed financial 
resources. The intent of the Agency is to ensure, in the final 
report, that the recommendations of the Canyon are implemented 
through this rule. We stand committed to doing that; as the 
Governor mentioned, the final piece of this, the Western 
Regional Air Partnership, is attempting to put together those 
elements that go into the specific State implementation plan, 
and we stand ready to work with them to develop that.
    One important issue that I ask you to remember, however, is 
that the Grand Canyon is only 16 areas. There are an additional 
140 areas across this Nation that this rule must address, and 
the Agency, in putting this rule together, tried to develop a 
rule that provided flexibility for States to develop goals and 
strategies that enabled them to achieve reasonable progress in 
a way that would fit the criteria in the statute. We did not 
try to have a ``one-size-fits-all'' approach to this. We want 
to ensure that visibility is the objective, as well as the 
enforceable programs on emission reductions.
    So in conclusion, Senator, I think I covered most of the 
points. The EPA is still reviewing the public comments. We 
intend to complete that process, develop options, and come out 
with a rule that hopefully will address the intent of the Clean 
Air Act and the States, Federal agencies, and tribal entities 
that are working with us on it.
    Senator Inhofe. Thank you, Mr. Seitz. I will have a follow-
up question on that.
    Ms. Shaver.

   STATEMENT OF CHRISTINE L. SHAVER, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Ms. Shaver. Thank you, Senator. Good morning. My name is 
Christine Shaver. I am the chief of the National Park Service's 
Air Resources Division, and I thank you for the opportunity to 
speak to you today.
    We are legally mandated to protect the resources and values 
of all our National Parks and Wilderness Areas, consistent with 
the high public value placed on these areas. These mandates 
come from the National Park Service Organic Act; the Wilderness 
Act; the enabling legislation for each park unit; and the Clean 
Air Act, which gives us an affirmative responsibility to 
protect our quality-related values, including visibility, in 
our Class I areas. The National Park Service manages 48 of 
those Class I areas in the United States.
    The public loves its parks. In 1997, there were 
approximately 275 million recreational visits to units of the 
National Park Service. To put that number in perspective, 
that's roughly one visit per person in the population.
    Travel-related expenditures alone have been estimated at 
$10 billion to $19 billion a year. Surveys conducted at several 
of our parks have documented that clean, clear air is one of 
the most important attributes in our parks, and even people who 
never visit parks and never intend to visit parks place an 
extremely high value on knowing that those resources are being 
protected as part of our legacy to future generations.
    The National Park Service has been monitoring visibility 
parameters for up to 20 years in some of our areas. Based on 
the monitoring data collected, we know that visibility in the 
Western United States is generally one-half what it should be 
under natural conditions, whereas visibility in the East is 
one-fifth what it should be and what it was only 50 years ago.
    Based on this data, in 1985 the Department of the Interior 
certified to EPA that we had existing visibility impairment in 
all the Class I areas managed by both the National Park Service 
and the Fish and Wildlife Service. We reaffirmed that 
certification to EPA in our comments on the regional haze rule 
late last year.
    Congress has told Federal land managers to assume an 
aggressive role in protecting these resources, yet we generally 
lack the regulatory authority to bring about the emission 
reductions that are needed to carry out our stewardship 
responsibility. Therefore we applaud EPA's decision to develop 
regional haze regulations. We need strong, clear guidance from 
EPA and sustained performance from the States and tribes to 
ensure that reasonable progress toward a national visibility 
goal is made.
    We recognize, and are encouraged, that progress may result 
from other air quality programs that are already in place or 
expected to occur over the next several years, but we need, and 
our National Parks and Wilderness Areas deserve, the kind of 
insurance policy that would be provided through a regional haze 
regulation.
    EPA's proposal provides a good foundation for the 
development of those emission management programs that will be 
needed to unveil the spectacularly scenic resources that are so 
important to our public.
    I would like to highlight a few issues related to EPA's 
regional haze proposal and touch on some of the points that you 
mentioned in your opening remarks, Senator.
    First, we support the use of the deciview metric as a means 
of tracking visibility conditions so that we will know if the 
emission strategies that have been taken are working, and so 
that we can tell the public whether the visibility in our parks 
is getting better or worse over the long term.
    However, we also believe that tracking emission changes and 
implementation of specific programs is extremely useful in 
assessing accountability, as well as progress, in the short 
term.
    Second, with respect to what constitutes ``reasonable 
progress,'' we have questioned whether EPA's suggested ``no 
degradation'' approach for the best days is really adequate, 
particularly in some of our eastern parks, where our best days 
are still substantially degraded.
    In addition, EPA's proposed ``reasonable progress'' target 
for the dirtier days would allow up to 220 to 330 years to meet 
the visibility goal in our National Parks in the East. This is 
not acceptable to the people who visit our parks, and it is not 
acceptable to the people who think we are protecting these 
parks for future generations. I don't think they meant ``future 
generations'' 10 generations from now should be the only ones 
to enjoy these spectacular visits.
    Third, we support EPA's promotion of a regional approach to 
establishing emission reduction objectives, tracking progress, 
and allocating responsibility among sources and jurisdictions. 
Some of our parks straddle State lines, and the specter of 
individual States coming up with their own goals, their own 
strategies, their own methods of tracking not only creates a 
considerable duplication of effort, but potential 
inconsistencies. Nonetheless, we recognize and highlight that 
the States and tribes are the ones that have the responsibility 
for implementing and enforcing these strategies.
    With respect to the work of the Grand Canyon Visibility 
Transport Commission, the Department of the Interior was an 
active participant in this process. We devoted significant time 
and resources, just like others did, to help form the consensus 
that emerged. We support the ``reasonable progress'' objectives 
adopted by the Commission, and we agree with the 
recommendation. But those recommendations, while comprehensive, 
need to be translated into enforceable strategies that 
demonstrate compliance with the objectives--that is, continuous 
emission reductions, steady visibility improvement, and no 
perceptible degradation.
    We encourage EPA to provide the States and tribes with an 
incentive to proceed expeditiously with the activities and the 
actions that they have committed to take and the reductions 
that they have committed to produce.
    Finally, on the issue of prescribed fire, and in an effort 
to perhaps decrease the number of questions on this issue, 
Secretary Babbitt testified before the House Resources 
Committee on September 30, 1997, regarding the Federal 
Government's wildland fire policy and the need for that policy, 
including a great deal of detail on what was involved. If you 
would like, I could submit that testimony for the record, or 
provide it for you separately.
    I think the issue that has been of concern here today is 
the impact of fire on visibility, and I wanted to state for the 
record that the National Park Service, as well as other bureaus 
within the Department of the Interior, do have memorandums of 
understanding with many States--with any State that has asked--
that determine how and when we can burn, determine whether or 
not we will get permits, determine how we will manage smoke 
from fires to minimize or avoid unacceptable visibility 
impacts, determine consequences of our failure to perform. We 
are happy to enter into those agreements with any State that 
asks.
    More specifically, the Grand Canyon Visibility Transport 
Commission had some very specific recommendations related to 
fire that we are actively involved in developing an action plan 
for implementing--not only for the Grand Canyon Commission 
States, but for the entire country. We recognize that we will 
need to do some training of our field personnel who have 
operated differently in the past, but generally speaking, we 
are committed to taking care of the part of the so-called 
problem that we are causing and being held accountable for 
doing that. We do not believe the prescribed fire activities 
will interfere with any reasonable progress goals; the fires 
are episodic in nature, they don't occur every day, and with a 
metric target such as a deciview a decade, it is very unlikely 
that a fire in one place will cause that metric to be 
disturbed.
    In any event, we do not believe that any other source 
category should be held accountable for making up for the 
visibility impairment that we might cause through this very 
natural process.
    I would be happy to answer your questions.
    Senator Inhofe. Thank you, Ms. Shaver.
    Ms. Terry.

 STATEMENT OF LYNN TERRY, DEPUTY EXECUTIVE OFFICER, CALIFORNIA 
                      AIR RESOURCES BOARD

    Ms. Terry. Thank you for the opportunity to be here today.
    In California, the Air Resources Board is charged with 
overseeing the State's implementation of the Federal Clean Air 
Act, as well as California's own Clean Air Act. We are 
committed to protecting and enhancing visibility, as well as 
meeting health-based air quality standards. It is important 
that these two activities be done in concert.
    So while we support efforts to improve visibility, we 
strongly oppose the regulatory framework that was outlined in 
EPA's proposed regulation.
    In terms of making the program successful, the regulatory 
framework needs to be sensible, be scientifically sound, and be 
sure that it compliments our health-based air quality 
standards. In our evaluation, EPA's proposed regional haze 
regulation does not meet these criteria. I would like to 
highlight four key areas and recommendations that need to be 
addressed in the final regulation from our standpoint.
    The first and most critical issue is that EPA should drop 
the deciview approach as the test for visibility progress, and 
replace it with steady emission reductions in the emissions of 
pollutants that are shown to contribute to regional haze. As 
Governor Leavitt indicated earlier, the Grand Canyon Visibility 
Transport Commission, including California, wrestled with the 
question, ``What is reasonable progress?'' The Commission 
ultimately defined reasonable progress as continuous emission 
reductions. This parallels the Clean Air Act's approach for 
progress toward health-based air quality standards.
    Although the proposed regulation purports to offer States 
flexibility to choose an appropriate progress target, States 
must demonstrate to the satisfaction of EPA that even obvious 
alternatives are justified. California knows all too well how 
difficult and expensive it can be to pursue EPA approval for 
alternatives when there are federally prescribed approaches, no 
matter how innovative or effective those alternatives may be.
    In California, as in other parts of the country, regional 
haze, fine particulate matter, and ozone share common 
components, so our existing and planned air quality programs to 
address ozone pollution will cut particulate matter pollution 
and improve visibility throughout California and in downwind 
areas. California and States in other situations should be able 
to satisfy the ``reasonable progress'' requirements by reducing 
emissions to meet the progress requirements for the health-
based standards, until those health-based standards are 
achieved.
    The deciview metric, in our view, is too subjective to be 
the basis for holding States accountable for visibility 
improvement. The technical tools for translating emissions into 
increments of visibility into visibility improvements are just 
not available.
    Congress created the Grand Canyon Visibility Transport 
Commission to advise EPA on strategies for improving visibility 
at National Parks and Wilderness Areas on the Colorado plateau. 
The Commission process resulted in the conclusion that emission 
reductions are the appropriate progress target for visibility. 
EPA should not ignore this conclusion.
    I would comment that California is committed to 
implementing the recommendations of the Grand Canyon 
Commission, and I would be happy to answer any follow-up 
questions regarding our participation.
    Our second recommendation is that EPA should change the 
timing for planning and implementation of the regional haze 
program to parallel and compliment the schedule for fine 
particles. The timelines in the proposed regulation would 
preclude a thoughtful and efficient approach to visibility 
improvement. Most of the extensive technical work needed for 
fine particles is also critical to support visibility planning. 
The schedule should allow States to integrate these efforts to 
capitalize on the overlap between the sources of fine particle 
and haze pollution.
    Third, new funding must be provided to support efforts to 
meet the Federal requirements for regional haze. Visibility 
plans will be extremely resource-intensive, including 
monitoring, inventory, modeling, technology assessment, control 
measure development, public review, agency adoption, and 
implementation. States, tribes, and local agencies should not 
be asked to divert funds from existing programs focused on 
health-based standards in order to implement a regional haze 
program.
    And finally, Federal agencies must be full partners in 
visibility solutions. You heard that discussed extensively 
earlier. National emission standards for Federal sources are 
key to meeting all of our air quality goals, health-based 
standards as well as visibility. While we are encouraged by the 
Federal Government's actions to require lower emitting diesel 
engines in trucks, off-road equipment, and locomotives, a more 
proactive approach is needed to make progress on cleaner 
engines for ships and aircraft. Clearly, in terms of prescribed 
burning, we also need improved coordination and responsibility 
and accountability with Federal land managers. Land managers 
and air agencies have to work together to accommodate increased 
burning needed for public safety and forest health without 
smoking out downwind communities.
    California intends to improve our own smoke management 
programs to address both visibility and public health concerns. 
Federal land managers must be a partner in that process.
    In conclusion, EPA has an opportunity to create a sound 
framework to support visibility improvement through the next 
century, but the structure must be rebuilt to ensure a common-
sense implementation that is integrated with existing air 
quality programs and our focus on public health-based 
standards.
    We appreciate the opportunity to share our comments on that 
goal. California will continue to implement our State's clean 
air plan for achieving health-based standards and will 
incorporate additional strategies to meet the new ozone and 
particulate matter standards. These efforts will clearly 
improve visibility, as well. In fact, our Board has a very 
aggressive regulatory agenda this year to continue to pursue 
the emission reductions under our authority, primarily mobile 
sources, and we will be looking at an enhanced low-emission 
motor vehicle program later this year that will continue to 
reduce the emissions from motor vehicles and several other 
types of mobile sources.
    Thank you very much.
    Senator Inhofe. Thank you, Ms. Terry.
    Mr. Wood.

      STATEMENT OF RANDOLPH WOOD, DIRECTOR, DEPARTMENT OF 
                     ENVIRONMENTAL QUALITY

    Mr. Wood. Thank you, Mr. Chairman.
    Much like Oklahoma, Nebraska is a Midwest State. We are 
neither a Western, nor an Eastern State, and there has been 
much discussed today about the problems in the West and the 
problems in the East. We are often described as those 
transition States that are somewhere between those Eastern 
States that have funny kinds of borders, and the Western States 
which have square kinds of borders. So we are sometimes 
schizophrenic about that.
    But therein, I think, lies part of the problem as EPA's 
proposal applies to the State of Nebraska. I want to make 
several points, and then I want to give you an example.
    The point I want to make first is that there is a lack of 
rationale, scientifically sound rationale, for the program as 
EPA has proposed it that would apply to the State of Nebraska. 
We believe in the State of Nebraska that whenever we write 
regulations, they must pass either what we call the ``front 
page test'' or the ``straight-faced test,'' and we do not 
believe that EPA's proposal as it applies to Nebraska meets 
those tests.
    We have a frustration of not being able to do everything 
that we need to do in the State of Nebraska with respect to the 
environment, yet we face this proposal from EPA that would 
require us to spend a lot of our resources and spread those 
even more thinly in an exercise which we fail to see will 
accomplish anything.
    Third, there is an apparent lack of regard for the need--as 
you have already asked a question about--for coordination 
between the fine particulate standards and regional haze, and 
we would go even further and talk about the ozone program. It 
is not apparent to us how EPA would, in fact, integrate those 
programs. There has been discussion that, yes, they would want 
to do that, but we're not really sure in fact how they would 
integrate those things.
    Finally, a point that I want to make is that I know because 
I am appearing here today, and we are providing negative 
testimony regarding EPA's proposal. We will be characterized by 
some as being insensitive to the environment and not dedicated 
to the protection of our environment, and I want to say for the 
record that nothing can be further from the truth.
    Let me rush on, given the short amount of time. I have 
covered a lot of the rest of the things in my written 
testimony, which you have read. I want to talk about an example 
in Nebraska that I think is characteristic of the problems of 
EPA's proposal with respect to Nebraska.
    We have a county in the northeastern corner of Nebraska 
called Cumming County. That county is 750 miles, or 1,250 kilo-
meters, south-southeast of Voyager National Park in the State 
of Minnesota on the Canadian-United States border. The wind 
doesn't blow much from the south-southwest to that area. 
However, Cumming County, which covers 575 square miles with a 
population of 10,000 people, is an agricultural county which 
produces crops. It has no industrial sources as EPA talked 
about industrial emissions causing regional haze. This is not a 
bastion of smokestack industry. The only emissions from that 
county are rural fugitive dust emissions and fugitive 
emissions, whatever they might be, from agricultural 
operations. And under the stretch of anybody's imagination, as 
ground level emissions under most modeling scenarios, you 
wouldn't expect those emissions to travel very far before they 
are either precipitated out or they are translated into 
something else, much less travel 1,250 kilometers.
    EPA's analysis indicates that Cumming County's fugitive 
emissions contribute 0.23 percent to the regional haze in 
Voyager National Park, which is 1,250 kilometers distant. EPA 
calculates that the total visibility reduction in Voyager 
National Park is a total of 1.642 micrograms per cubic meter. 
If you relate that to the various standards, you will know that 
that is a very, very small number.
    What this means is that Cumming County is responsible for 
0.0032 micrograms per cubic meter in the Voyager National Park. 
I believe that most of us would question the veracity of the 
analysis and would scoff at a calculation of this parameter, to 
the fourth decimal place.
    My first impression, and one that has not been dissolved by 
anything that I have heard or read in the recent timeframe, is 
that it was very important for EPA to somehow figure out a way 
to include every State in the requirement to have a regional 
haze visibility program, and the way to do this was to 
calculate that every State had some contribution to a 
visibility reduction and regional haze in at least some Class I 
area, regardless of the rationality of the numbers.
    I would say that it reminds me a little bit of a problem 
that we've been talking about in Washington as well as the 
States for a number of years in the Superfund Program, and that 
is where in some sites, local Pizza Huts or local pizza 
cookeries have had to spend tens of thousands of dollars just 
to prove that they don't ship PCBs and did not ship PCBs to 
landfills in the past. Under EPA's proposal, what the State of 
Nebraska would have to do is to dedicate numerous resources 
that we don't have, that are not forthcoming and will not be 
forthcoming from the Federal Government, to prove that we don't 
have a problem. They have in fact, as I said in my written 
testimony, indicated to us, ``Well, all you have to do is write 
an implementation plan that says that you have an insignificant 
impact, and then you don't have to do anything further, except 
every 3 years you have to rewrite that implementation plan or 
revisit it.''
    I would suggest to you that that's not a common-sense kind 
of thing to do as we in the Midwest like to think that we ought 
to do things. Our suggestion is that EPA needs to totally 
revisit this issue, particularly as it reflects these kinds of 
issues, and come forth with a proposed rule that is more 
rationally and more technically sound.
    Thank you, sir.
    Senator Inhofe. Thank you, Mr. Wood.
    Mr. Colburn.

   STATEMENT OF KENNETH A. COLBURN, DIRECTOR, AIR RESOURCES 
  DIVISION, NEW HAMPSHIRE DEPARTMENT OF ENVIRONMENTAL SCIENCES

    Mr. Colburn. Thank you, Mr. Chairman.
    As an initial comment, whatever our differences as States, 
I suspect that we all concur in our appreciation for your 
vigilance, Senator, and that of your colleagues in ensuring 
that the Federal commitment to fully fund the new PM monitoring 
network is honored. Please maintain that vigilance.
    Though haze is often considered to be a western issue, 
pervasive visibility impairment is actually two to three times 
worse in the East. We don't have as many Class I airsheds, but 
the wilderness areas that we do have are very important 
recreational resources for our densely populated region. All of 
our wilderness areas are significantly impacted by haze and 
will benefit from regional efforts to improve visibility, as 
these pictures show.
    The White Mountain National Forest, with its two Class I 
airsheds, has 7 million visitor-days per year, more than 
Yellowstone and Yosemite National Parks combined----
    Senator Inhofe. Could you identify these two pictures?
    Mr. Colburn. Senator, these pictures were just provided to 
me by the Appalachian Mountain Club. I do not know for certain 
at this time whether they represent the top 5 percent and 
bottom 5 percent, top 20 percent or worst 20 percent. I can 
find out that information for you, and I have copies----
    Senator Inhofe. It's my understanding that we didn't 
receive these as advance testimony, so it would be helpful if 
you would identify those for the record.
    Mr. Colburn. I would be pleased to do so, Senator.
    [Information to be supplied follows:]

    The two photographs provided to the subcommittee depict the Great 
Gulf Wilderness, a Class I airshed located in the White Mountain 
National Forest in New Hampshire. While provided to Mr. Colburn by the 
Appalachian Mountain Club, the photographs were actually taken by the 
U.S. Forest Service visibility camera at Camp Dodge in the Great Gulf 
Wilderness.
Dirtier Photograph
    The dirtier photograph was taken on August 4, 1988, at noon. It 
shows 39 deciviews, or visibility of only 8 kilometers (approximately 5 
miles). On such days, there is essentially no vista. The 10-hour 
daytime sample for this date had a fine particulate matter 
(PM<INF>2.5</INF>) reading of 81 micrograms per cubic meter 
(<greek-m>g/m<SUP>3</SUP>). Relative humidity was 82 percent. The 
identification number of this photograph is #1120.
Cleaner Photograph
    The cleaner photograph was taken on August 19, 1988, at noon. It 
shows 6 deciviews, or visibility of 221 kilometers (approximately 137 
miles). On such days, the Adirondack Mountains, 133 miles distant, are 
visible from the summit of Mt. Washington. The 10-hour daytime sample 
for this date had a PM<INF>2.5</INF> reading of 2<greek-m>g/
m<SUP>3</SUP>. Relative humidity was 68 percent. The identification 
number of this photograph is #1010.

    Mr. Colburn. One-quarter of the population of the United 
States lives within a day's drive of the White Mountains, and 
48 million sightseers spend over $2.5 billion annually in New 
Hampshire. Tourism directly supports 1 out of 12 jobs in the 
State and contributes almost $150 million in taxes to our State 
budget. Clearly, visibility is important to New Hampshire.
    Surveys show that hikers in the White Mountains not only 
notice haze, but are physically affected by it. The public sees 
haze as a sign of unhealthy air, and they're right; that's why 
New Hampshire supports EPA's efforts to address this problem. 
We agree with EPA that a framework should be established for 
steady, perceptible progress in reducing haze, and that all 
States throughout the East should be included.
    We also support EPA's use of the deciview metric. The Clean 
Air Act requires visibility to be protected, and deciviews are 
an appropriate visibility yardstick.
    EPA should not, however, impose identical requirements 
across the country. The causes of haze in the West are complex 
and vary from place to place. The causes of haze in the East 
are well-understood and much the same throughout the region. 
The haze problem is more manageable in the East because it is 
dominated by the same sources and same pollutants that we 
already know how to control cost-effectively.
    The key is sulfates. They comprise more than half of 
eastern haze. We are making an important dent with the acid 
rain program, but further reductions will be necessary, even 
after Phase II is implemented. Ten to 15 million tons of sulfur 
dioxide will still be going into the air each year, creating 
continued acid rain, fine particles, and regional haze 
throughout the East. EPA's NOx Transport SIP call, while 
essential for reducing ozone, also won't do much for visibility 
because nitrates contribute little to haze in the East. And the 
new fine particle standard may not help much if it targets 
mainly urban hotspots rather than overall particulate levels.
    Thus, while EPA's proposed rule is a good first step in 
taking national visibility goals seriously, its progress target 
for the East is far too modest. It would take longer for many 
areas to achieve this goal than the United States has been a 
Republic. EPA should require more rapid progress in the hazier 
east--say, two to three deciviews per decade--than in the 
cleaner west. Alternatively, EPA could require a percentage 
improvement in deciviews, say, 10 percent per decade, to 
achieve the same impact.
    There are a few other things that Congress and the EPA 
could do to improve the regional haze program as well. First, 
give States the flexibility to integrate their efforts on 
regional haze with those on fine particles, acid rain, and 
ozone.
    Second, keep visibility improvement the primary measure of 
success, but require SIPs every 5 years or whenever progress is 
lacking.
    Third, develop Federal standards for Best Available 
Retrofit Technology to reduce the burden of case-by-case 
analysis, and to finally start addressing the problem of 
grandfathered old sources that pollute at far greater rates 
than new sources.
    Fourth, provide strong Federal leadership on national 
control measures, like new car and truck standards and lower 
sulphur fuel.
    Fifth, since fine haze particles can be transported 
thousands of miles, provide strong Federal oversight of 
interstate efforts and make sure that all areas do their parts 
to reduce regional haze.
    Sixth, seek similar emission reductions from other Federal 
agencies and from Canada and Mexico.
    And finally, provide adequate resources to implement an 
effective program.
    Senator I would like to introduce into the hearing record, 
with your permission, a letter from the New Hampshire Clean Air 
Strategy Public Advisory Committee which simply indicates that 
these sentiments are supported by New Hampshire's business and 
environmental communities.
    Senator Inhofe. Without objection, that will be entered as 
part of the record, Mr. Colburn.
    Mr. Colburn. Thank you.
    [The referenced letter follows:]

       New Hampshire Clean Air Strategy Advisory Committee,
                                                  December 4, 1997.
Hon. Carol M. Browner, Administrator,
Environmental Protection Agency,
Washington, DC.
           re: comments on proposed regional haze regulations
    Dear Ms. Browner: New Hampshire's Clean Air Strategy Advisory 
Committee (Advisory Committee) has reviewed the EPA's Proposed Regional 
Haza Regulations. The Advisory Committee is a joint public-private 
group consisting of representatives from business and industry, 
environmental and health groups, State agencies (including DES), State 
legislators, and others. The group was convened in August 1996 to 
update the first edition of the New Hampshire Clean Air Strategy 
(published in 1994) and to address other important air concerns 
regarding public health and the environment. The comments expressed in 
this letter attempt to reflect a consensus of the group. Individual 
members of the Advisory Committee may also be submitting comments that 
reflect individual perspectives.
    The Advisory Committee supports the EPA's Proposed Regional Haze 
Regulations. There are several Class I areas in New Hampshire 
comprising more than 100,000 acres of land. Protection of these natural 
resources is vital to New Hampshire, not only for the environment, 
which supports wildlife and plant ecosystems, but also the economy, 
which depends in large part on the scenic qualities of our wilderness 
areas, particularly the White Mountains and Presidential Range in 
northern New Hampshire. To improve vistas in our protected Class I 
areas in New Hampshire and nationwide, the Advisory Committee supports: 
(1) the proposed applicability of these regulations to all Class I 
wilderness areas, national parks and wildlife refuges in the United 
States, in addition to areas in the Colorado Plateau that were part of 
the Grand Canyon Visibility Transport Commission process; and (2) the 
setting of a target using a humanly perceptible progress metric using 
the deciview scale to identify and reduce emissions from all sources 
that contribute to visibility impairment in Class I areas.
    The Advisory Committee is concerned, however, that New Hampshire, 
due to its downwind location, could continue to bear the brunt of 
emissions reduction responsibilities while upwind jurisdications--the 
source of much of the emissions that lead to visibility impairment in 
the Class I areas of New Hampshire--could continue to evade similar 
reduction responsibilities. New Hampshire will continue to do its fair 
share to reduce its emissions, but if upwind sources do not do their 
fair share, the opportunity for significant improvement in the vistas 
in New Hampshire's Class I areas may be lost. The Advisory Committee 
asks EPA to work towards a resolution of this circumstance of the 
current regulatory scheme as soon as possible.
    The Advisory Committee urges EPA to address the implementation of 
these regulations by ensuring that any and all implementation 
requirements achieve improved visibility through fair, reasonable, 
flexible, and cost-effective measures. Please let us know if the Clean 
Air Strategy Advisory Committee can be of further assistance in this 
effort.
            Sincerely,
                            Henry Veilleux, Vice-President,
                            Business & Industry Association of N.H.
                     L. Bruce Hill, Senior Staff Scientist,
                                         Appalachian Mountain Club.

    Senator Inhofe. Thank you very much.
    Mr. Seitz, when you--I didn't get this from your written 
testimony, but you said in the final remarks of your 
abbreviated statement that you are coordinating with the 
PM<INF>2.5</INF> program. You've heard this stated by Governor 
Leavitt and the rest that there is not a coordination between 
the two.
    I would like to have you elaborate on that because that's a 
major item that everyone is concerned with.
    Mr. Seitz. Thank you, Senator.
    Clearly, in the proposal--and we've heard this again; we 
have a proposal that solicited comments, and we have heard this 
from all commenters--that there is a need to coordinate these 
activities, not only across PM but ozone as well, to ensure 
that both the control strategies that are considered and the 
implementation timelines that are used are coordinated so that 
the most efficient utilization of State resources goes to 
identifying and addressing this problem.
    As a matter of fact, in the preamble I think we even said 
in there that we put a target date for the submission of the 
control strategies for the haze, and put parentheses and said, 
``or at the time the PM control strategies were done.'' So 
clearly it was our intent at the proposal to ensure that these 
control programs and strategies were developed together so that 
they could be submitted together and coordinated.
    Senator Inhofe. Well, the timeline, Mr. Seitz, is what I'm 
concerned with. It is my understanding--of course, you are 
familiar with the timeline insofar as the NAAQS is concerned, 
and with my amendment to ISTEA that locks in those timelines of 
9 years, in this case. Unless my staff has all of a sudden 
become very inefficient, I've been told that the timeline here 
is somewhere around 5 years.
    Are you suggesting, since you did specifically mention 
timeline in coordinating the two programs, that the timeline 
would be the same?
    Mr. Seitz. Once again, in terms of the proposal and taking 
comment and the comments you've heard today----
    Senator Inhofe. I'm talking about from now to 
implementation, will it be the same?
    Mr. Seitz. Let me go to that specifically. Since I don't 
know what your staff is telling you, let me review the timeline 
to ensure that there is no confusion.
    There is a requirement under the Clean Air Act that 1 year 
after the rule is final, a submission has to come in from the 
State. That is a requirement of the statute. What we are trying 
to say in that submission is that it is a planning submission. 
The State basically will come in and give us a timeline that 
coordinates that planning activity. So it is our intent to 
coordinate those and harmonize those schedules together.
    So the answer is yes.
    Senator Inhofe. So then your final implementation would 
meet the timeline of the final implementation of the NAAQS 
PM<INF>2.5</INF>?
    Mr. Seitz. It would coordinate the SIP control submissions, 
which would be at the same time, and then the implementation 
would be at the same time, yes.
    Senator Inhofe. The implementation would be at the same 
time?
    Mr. Seitz. You have State-to-State laws that govern when 
rules apply, etc.
    Senator Inhofe. But that's true also with NAAQS.
    Mr. Seitz. Yes.
    Senator Inhofe. What I'm saying is--I'm trying to get this 
on line, and you are representing, on behalf of the EPA, that 
it wouldn't be the same?
    Mr. Seitz. I am representing that the intent of the rule 
was to harmonize it. I will also say, Senator, that some of the 
comments that we have received in the public comment period 
have objected to that. They have suggested that in some areas 
of this country, PM-Fine is not an issue, ozone is not an 
issue, haze is an issue, and you shouldn't wait for those.
    So as you've heard here at this table today, public comment 
elicits and gets different views. It was our intent, on 
proposal, to harmonize them. This is still our intent. We have 
received comment on both sides of the issue.
    Senator Inhofe. Is there any reaction to that comment by 
any of the other members of this panel, from the States?
    Mr. Wood. Mr. Chairman, our comment is that, first, that 
continues to assume that States like Nebraska are contributing 
to a problem of regional haze in Class I areas. Now, we don't 
have any Class I areas in Nebraska. We have some beautiful 
vistas and we have very clean air. We are, perhaps, one of the 
few States that do not have any nonattainment areas at this 
point in time.
    So starting with that assumption, that we have a problem, 
yes, I would disagree that that's an appropriate approach, to 
say that we have to develop a SIP when in fact there is no 
rational demonstration that we contribute to a problem.
    Senator Inhofe. OK.
    Mr. Seitz. Could I respond to that, sir?
    Senator Inhofe. Yes.
    Mr. Seitz. Let me say that Mr. Wood brings up another issue 
of administrative burden. We took into consideration in the 
public comments that paper for paper's sake does not make 
sense, and the Agency agrees with that. You are caught on the 
issue that the Governor mentioned here, and Mr. Wood takes a 
little bit of a different viewpoint. Does the Federal 
Government prescribe who is in? Or does collective deliberation 
decide that?
    Senator Inhofe. Mr. Seitz, I am going to turn over to 
Senator Allard, since he has a time he has to leave, to use the 
remaining time until you have to leave, and then I have some 
questions. I want to get into this whole cost area and some of 
the other areas that we need to elaborate on.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman. I appreciate your 
indulgence and everyone else's as far as my time is concerned.
    I would like to follow up on Mr. Wood's testimony and 
direct a question to Mr. Seitz in that regard.
    In your view, what are emissions from field burning from 
agricultural activities, and how do they contribute to regional 
haze?
    Mr. Seitz. Again, with your permission, I would like to 
submit a detailed answer for the record.
    [The information follows:]
Environmental Protection Agency, Office of Air Quality and 
                                                 Radiation,
                         Research Triangle Park, NC, June 16, 1998.

Honorable James M. Inhofe, Chairman
Subcommittee on Clean Air, Wetlands, Private Property and Nuclear 
Safety
Committee on Environment and Public Works
United States Senate
Washington, DC 20510

Dear Mr. Chairman: As follow-up to my testimony before your 
subcommittee on April 23, I indicated that I would be sending you more 
information for the record. During the course of the hearing, I 
promised two items, which I have enclosed.
    The first insert relates to how the emissions from field burning 
associated with agricultural activities may contribute to regional 
haze. The second insert relates to the exact factors that we used as 
the basis for our monetary benefits calculation for the proposed 
regional haze rule. As noted in my testimony, the benefits include 
health benefits that are above and beyond those attributed to meeting 
the national ambient air quality standard. The calculation of the 
categories of benefits for the proposed regional haze rule can be found 
in Chapter 12. The benefits specific to the regional haze provisions 
are summarized in Chapter 13, Section 13.3.3. I have included a copy of 
both chapters for the record. \1\
---------------------------------------------------------------------------
    \1\ This information is reproduced later in the hearing record, 
following the prepared statement by Mr. Seitz.
---------------------------------------------------------------------------
    Please let me know if you have any questions or require additional 
information.
            Sincerely,
                                                 John Seitz
        Director, Office of Air Quality Planning and Standards, EPA
                                 ______
                                 
                 response to senator allard's question
    Question: In your view, what are emissions from field burning from 
agricultural activities, and how do they contribute to regional haze?
    Response: It is important to note that emissions from fire 
(including wildfire, prescribed fire and agricultural burning) all are 
episodic contributors to visibility-impairing aerosols (these include 
organic carbon, elemental carbon, and fine particles 
(PM<INF>2.5</INF>). The impacts of emissions from agricultural burning 
are difficult to quantify directly for several reasons. For example, 
there is a current lack of air quality monitoring data; there are 
confounding emissions from other combustion sources with similar 
chemical composition such as the other burning categories; and because 
of the episodic nature of the burning activities which varies across 
the country. Our current best estimate of the emissions is based on the 
1985 National Acid Precipitation Assessment Program (NAPAP) inventory 
for PM<INF>10</INF>. The PM value is scaled according to a particle 
size distribution for combustion sources to arrive at PM<INF>2.5</INF> 
estimates. There has been some controversy surrounding this approach 
and we are working with USDA and their Agriculture Air Quality Task 
Force (AAQTF) to develop emission estimates that both agencies can 
agree will give the best estimates possible. In the mean time, using 
the NAPAP inventory approach and applying a Bureau of Economic Analysis 
growth factor for the farm sector, we estimate that the direct 
emissions from this source category in 1996 were 99,233 tons of 
PM<INF>10</INF>, of which approximately 90,211 tons were 
PM<INF>2.5</INF>. Once new emission estimates are available, which may 
or may not be significantly different from the current estimates, we 
will provide them to you. We expect the new estimates to be available 
next year.
    With respect to the impact of open burning emissions on visibility 
impairment, the Grand Canyon Visibility Transport Commission 
recommended, and I agree, that all types of fire must be addressed 
equitably as a part of a comprehensive visibility protection strategy. 
Some States already use a permit system for open burning activities 
that allows the State to manage burning in order to keep smoke out of 
populated areas, and to avoid too many burns occurring in the same area 
at the same time. Some include requirements to follow smoke management 
programs to minimize smoke impacts. Not all States do this, and not all 
States regulate all open burning categories. Whether States will need 
to regulate open burning more stringently is a matter for the States to 
decide individually or in partnership arrangements. EPA does have 
policies to deal with prescribed burning emissions and wildfires. The 
EPA does not have a policy for agricultural burning emissions. However, 
the EPA has agreed to work with the USDA and take recommendations from 
the AAQTF on a policy for these emissions.
      
    Mr. Seitz. I would agree that in some of the aspects of the 
agricultural community, they would not be a significant 
contributor to regional haze as indicated in a lot of the data 
that I have seen. I think we've said that previously.
    Senator Allard. From field burning, to sort of put things 
in layman's terms, if it's weeds or cleaning ditches or 
whatever, basically it's smoke? I mean, there's nothing more 
than just, in common terms, smoke. Is that right?
    Mr. Seitz. Well, I was not talking about agricultural 
burning. I was thinking of the question in terms of timber. If 
you bring up the issue----
    Senator Allard. No, no. I'm talking in terms of field 
burning from agricultural activity. So this is things like 
burning a ditch or cleaning out a field for one reason or 
another.
    Mr. Seitz. I would say that any burning activity has the 
potential to produce particles that could contribute to 
regional haze.
    Senator Allard. OK.
    Mr. Seitz. That does not necessarily say that, in the end, 
that is the area that is controlled. I think as a matter of 
fact, right now, the U.S. Department of Agriculture has a task 
force in place to develop policy on this exact issue.
    Senator Allard. But we're not talking about ozone. We're 
not talking about sulfur dioxide. We're not talking about 
anything except, basically, suspended particulate matter----
    Mr. Seitz. Fine particles.
    Senator Allard [continuing]. Commonly defined as smoke. Is 
that correct? Do you agree with that?
    Mr. Seitz. If you're trying to say the common definition of 
smoke, consists of a lot of particles, including small 
particles, yes.
    Senator Allard. OK.
    Now, we have the same type of emissions with trees burning 
or forested areas burning, I would assume. Would you agree with 
that?
    Mr. Seitz. We have a variety of emissions----
    Senator Allard. But we don't have sulfur dioxide, we don't 
have ozone, we don't have a lot of----
    Mr. Seitz. I'm not in a position to comment on the 
technical makeup of the two types of smoke, but my initial 
answer would have to be no.
    Senator Allard. OK.
    Mr. Seitz. Any time you're dealing with agricultural 
burning, you're dealing with potentially----
    Senator Allard. Particulate matter, basically?
    Mr. Seitz. You're dealing with particulate matter, which 
could also carry a lot of other materials with it. So the issue 
of agricultural burning goes way beyond just the issue of fine 
particles, as you know.
    Senator Allard. Yes. OK.
    In your calculations, will emissions from Federal lands be 
calculated into baseline conditions that States would have to 
work from, should the proposed rule become final? In other 
words, with the final rule, will there be figured in emissions 
from Federal lands?
    Mr. Seitz. The rule requires that before the final control 
SIP comes in, which will be integrated with the PM-Fine, the 
baseline will be developed by the States. So the total emission 
inventory, which will include all sources, would come out at 
that time.
    Senator Allard. So a State like Colorado, which may be 
impacted by a forest fire that was set by the Forest Service in 
Idaho, for example, and that haze sets into our mountains for 3 
weeks, that would be figured into the baseline? Or else 
Colorado has the option of figuring it into that baseline, and 
I would see no reason why Colorado wouldn't figure it in? Is 
that correct?
    Mr. Seitz. I'm not sure I follow.
    Senator Allard. If we have a forest fire that was set--it 
was a fire that was not natural, but was set by the Forest 
Service in Idaho, and this is a real case situation, by the 
way--it creates a haze in Colorado for 3 to 4 weeks. The State 
of Colorado could move that into their baseline and say, 
``Look, our communities should not be penalized for Federal 
agency activities in another State that impacted the haze 
standards in our State''?
    Mr. Seitz. There are three or four answers to that. No. 1, 
I go back to Ms. Shaver's comment that the Federal Government 
has no intention of penalizing any individual State or area----
    Senator Allard. I know you don't have that intention, but I 
want to make sure that you understand and won't do it.
    Mr. Seitz. Well, that goes to the second issue of the 
wildland fire. Let me talk about the wildland fire issue, the 
policy that was agreed to that Christine talked about between 
the Department of the Interior and the Department of 
Agriculture, which was endorsed by EPA.
    As a follow-up to that, there are three pieces. There is 
the activity that Ms. Shaver talked about, which is training 
for smoke management and prescribed burning activities, 
coordinated with the States, and in this case on a regional 
issue, which would be regional-scale burning, hopefully across 
Colorado to, for example, Utah--whatever your example was----
    Senator Allard. Well, it happened in Idaho, but the same 
thing can happen in Utah and any of the States. We've had 
volcanic haze, which is natural, from Oregon, for example. But 
go ahead.
    Mr. Seitz. That coordination is required to take place. And 
then in addition, the Agency is working with the State Air 
Directors to put into place smoke management planning 
activities, which would then go to ensure that there are plans 
in place that are coordinated with the activities and the 
Federal land managers, to ensure that to the extent possible, 
this burn activity is considered and done in such a way that it 
will not impact the regional haze levels in those other States. 
If it does, our response to that is not to sanction the State, 
but our response, as the policy is being put in place, is to go 
back and review the planning for why the burn took place.
    But clearly, we will not be going after stationary services 
to make it up, or punish the receiving State for that.
    Senator Allard. Particularly in the western side of 
Colorado, in the Rocky Mountains, this is one of the major 
problems, forest fires in the west of the State. There are 
other activities, too, that come in that are not part of 
activities in Colorado. So that's why I wanted to get some type 
of definitive answer from you in that regard.
    Mr. Seitz. Senator, I appreciate your comment. It has 
been--as you've heard from the Governor and the testimony here, 
it's one of the biggest comments we've heard from Western 
States on how to deal with fire. So we hope to put these plans 
in place. We're looking and want to consider it in the final 
rule.
    Your question about the baseline really goes to the 3- to 
5-year period. We put this baseline in place before the control 
strategies go in. Again, as going back to the testimony from 
Ms. Shaver, we don't believe that prescribed burns, done 
correctly--taking a look at that baseline--will have an adverse 
impact.
    Senator Allard. Will be figured in in the baseline as an 
adverse impact. They do have an impact. I want to make sure 
that you have it as part of your formula so that Colorado--if a 
Federal agency decides to burn a forest west of our borders, 
our communities are not penalized from that.
    Are we on the same track on that?
    Mr. Seitz. I'm hearing you, Senator.
    Senator Allard. OK. Very good.
    Ms. Shaver, you want to exempt the Park Service from the 
visibility protection program of the Clean Air Act?
    Ms. Shaver. Oh, not at all, Senator.
    Senator Allard. OK.
    Is that EPA's position also?
    Mr. Seitz. Correct.
    Senator Allard. OK.
    Ms. Shaver. If I may, I would like to further note that the 
Clean Air Act as currently written does hold the Federal 
Government responsible for complying with all the State and 
local regulations to the same extent as any nongovernmental 
agency.
    Senator Allard. OK.
    Ms. Shaver. We agree with that.
    Senator Allard. And I appreciate your clarifying that for 
the record. That's most helpful.
    OK. I was interested in your testimony from New Hampshire, 
Mr. Colburn. Your areas are not Class I visibility areas? Are 
they Class II or something, and they have some lesser standard 
than what the West would be dealing with?
    Mr. Colburn. I'm sorry, Senator, we have two Class I 
airsheds in the White Mountains, yes.
    Senator Allard. And your testimony was directed to those 
Class I areas? Or was it directed to other areas that had a 
lesser classification than Class I?
    Mr. Colburn. No, it was primarily directed to those Class I 
areas, and then to the region at large.
    Senator Allard. On your Class II areas, do you want a 
tighter restriction on Class II?
    Mr. Colburn. I am not in a position to comment on that at 
this point, Senator. I haven't studied that issue.
    Senator Allard. Do you have a problem with air moving 
between Class II and Class I areas?
    Mr. Colburn. Senator, as you might expect, for the 
Northeast dealing with ozone and particulates for, lo, these 
many years, regional haze is a relatively new issue for us, and 
my staff has focused my education on Class I areas. So I can't 
comment really intelligently on Class II areas.
    Senator Allard. In listening to your testimony my question 
was, how do we clear up your Class I problems? You said you 
wanted tougher--if you don't do anything with Class II, if you 
have the air moving between Class II and Class I areas, and you 
haven't done anything to clean up Class II----
    Mr. Colburn. Certainly, the transport of pollutants is a 
substantial problem throughout the East. Due to New Hampshire's 
position as a north-south State, with winds coming from west to 
east, most of that is from interstate transport, Senator.
    Senator Allard. Thank you very much.
    Mr. Chairman, I believe that's all the questions I have. 
Thank you.
    Senator Inhofe. Thank you, Senator Allard. Your questions 
have cut down the time of my questions because you asked some 
of the same things.
    I do want to get back to the cost question that we're 
talking about. First of all, one of the unique things about the 
issue addressed in the 1990 Clean Air Act amendments was that 
future haze regulations should also address cost as an 
important factor in determining any final decision. It is not 
my intention to argue cost benefit here, but rather try to 
understand how much cost should weigh in the final decision.
    Mr. Seitz, how do you adequately determine the cost-benefit 
ratio of a deciview of improvement in terms of the proposed 
regional haze regulation?
    Mr. Seitz. Again, I think the assumption is that the 
deciview of improvement is the place where that is applied. 
Once again, going back to the intent of the proposal, there are 
two parts of ``reasonable progress,'' and reasonable progress 
is where you apply your test. The statute provides, I believe, 
four factors to determine whether or not the cost and whether 
reasonable progress has been achieved. One of those factors is 
cost of compliance. That is a straight analysis of the cost of 
compliance of the facilities, or the strategy that you are 
putting in place as a stationary source strategy, a mobile 
source strategy, whatever that strategy is. There are costs 
associated with that strategy.
    Another issue you look at is the continued life of the 
sources where you are imposing the strategy. It's a factor to 
consider. Do you impose those costs on facilities whose useful 
life may only be several more years?
    There are, I believe, two other factors set forth in the 
statute. So as you correctly point out, the statute provides 
that as you develop--and the Grand Canyon did this--you take a 
look at your emission reduction strategies; you take a look at 
the cost factors; and if in fact those analyses result in that 
this is unreasonable cost, then you adjust the deciview goal.
    Senator Inhofe. You've addressed the cost side. I'm really 
thinking of the cost and the benefit. Now, it's my 
understanding that the EPA has come up with a range of--is it 
from $0 to $5.7 billion in terms of benefits?
    Mr. Seitz. I believe that's right, $0 to $5.7 billion. That 
is correct.
    Senator Inhofe. Then how do you measure benefits? What 
benefits are you measuring?
    Mr. Seitz. Well, for instance, one of the factors here that 
clearly benefits is that as you reduce these fine particles, 
which are constituents to regional haze, they also have an 
immediate effect over and beyond the PM-Fine. So you have 
significant benefits associated with health effects that are 
tangential to the reduction of the haze.
    Senator Inhofe. But the benefits of the health effects have 
already been addressed in our NAAQS issue.
    Mr. Seitz. No, this is incremental over the standard that 
we're talking about, depending on how you go over the standard.
    In addition, there are benefits equated to some of the 
measurements as far as the vistas and the issues associated 
with some of these parks, the Park Service and the visits that 
we've talked about. If you'd like, I can submit for the record 
the exact benefits analysis factors that we used in it. I am 
not fully versed on all of them, but I would be more than 
pleased to submit it to you.
    [Excerpts of the EPA report, Regulatory Impact Analyses for 
the Particulate Matter and Ozone National Ambient Air Quality 
Standards and Proposed Regional Haze Rule, are reproduced 
following Mr. Seitz' prepared statement:]
    Senator Inhofe. You were here, I assume, when Governor 
Leavitt was here and you heard his testimony and my questions 
to him. Were you here?
    Mr. Seitz. Yes, sir.
    Senator Inhofe. We talked about the costs that had been 
estimated by the EPA as being approximately $2.1 billion or 
$2.7 billion, depending on whether we're using 15 years or 10 
years. Is that accurate?
    Mr. Seitz. That's correct.
    Senator Inhofe. And I also contrasted that with their 
projected anticipated costs during our NAAQS debate, being $6 
billion; and then when the President's Economic Council came up 
with their figure for the same exposure, it was $60 billion, 
and then the group out in California that did the extensive 
study that came up with a range of between $90 billion and $150 
billion.
    I guess the question I would ask you is, you may be having 
the same people making these estimates. How comfortable are you 
with this estimate of $2.1 billion?
    Mr. Seitz. Let me say again, since this particular portion 
of the statute provides specifically for costs to be a factor 
that is applied before the strategy, to be correct, I believe 
the range in the Regulatory Impact Analysis (RIA) was $0 to 
$2.7 billion, depending on whether it was based on 10 to 15 
years, because we cannot here say what the predicted strategies 
would be. We costed out strategies in that RIA that we thought 
were reasonable. I think one of the issues the Governor was 
talking about, was the $2.7 billion. If I'm not mistaken on 
this, he was answering questions to you with respect to the 
Grand Canyon deliberation, which is the cost in 16 parks, 
rather than our national costs. So the $0 to $2.7 billion range 
that we refer to is the national cost.
    Senator Inhofe. The national cost, overall?
    Mr. Seitz. Overall. The Governor was referring to--that in 
implementing market-based approaches, that they are suggesting 
in the Grand Canyon report, which the Agency endorses, that 
there can be significant cost savings. We do not disagree with 
the Governor on that issue.
    Senator Inhofe. Well, I'd like to get a State response to 
this.
    Mr. Colburn, you had expressed your gratitude to this 
commitment, that everything is fully funded, so we will start 
with you. Do you feel, first of all--I don't know whether 
you've had time to look into what you think costs would be, but 
do you find any major disagreement with what Mr. Seitz has 
said? And then, following up, give me your comfort level as to 
the commitment as you understand it from the EPA to fully fund 
this.
    Mr. Colburn. Senator, I am not in a position to comment on 
the EPA's overall cost total because I can only reflect from 
the eastern perspective. As you have heard, the difficulties in 
the West with haze are much more complex and difficult to 
relate between cost and emission reduction and actual deciview.
    In the East, however, there is as much greater ability to 
relate reductions to deciviews and to costs, and those costs 
have actually gone the opposite of the cost scenario that you 
indicated. For sulfur reductions, the industry initially 
estimated that costs would be in the neighborhood of $1,600 to 
$1,800 a ton. I think even EPA estimated that they would be on 
the order of $500 to $600 a ton. The sulfur market, however, 
has traded in the last year between $65 and $130 or so per ton. 
We believe the real cost of technology to be about $300, on the 
order of only 20 percent of initial industry estimates.
    We believe the same story holds true with NOx, so that the 
nitrate fraction of eastern particulate will be similarly 
controlled at a reasonable price. Industry estimates are 
between $1,000 and $2,000 a ton. New Hampshire has controlled 
for $400 a ton. We believe that those numbers will typically 
come in under $500.
    Senator Inhofe. Mr. Wood.
    Mr. Wood. Mr. Chairman, I don't get a great deal of comfort 
from EPA's analysis of the cost and the benefits, particularly 
as you start talking about the ancillary benefits in terms of 
health versus the PM and the ozone standards. As I remember the 
Clean Air Act, properly, it requires EPA to establish ambient 
air quality standards which are requisite for protection of the 
public health, with an adequate margin of safety. And as they 
have done that in the past, they have added up a large benefit 
column, and yet they seem to be either double-counting some of 
that now, or they are saying, ``Well, we are looking at 
additional benefits because we're going to have a reduction in 
fine particles that we didn't count over there,'' but if they 
dealt with their duty under the Clean Air Act, they should have 
already counted whatever was necessary to improve public 
health.
    So I'm not comfortable at all with the cost and benefit 
analysis that I hear.
    Senator Inhofe. Ms. Terry.
    Ms. Terry. From California's standpoint, obviously we have 
major public health issues to deal with, so we will be spending 
a lot of money to clean the air from a purely public health 
standpoint. I can't speak to the national costs of the program, 
but nonetheless, despite what we are doing for public health, I 
have concern about if EPA remains on the deciview track, it 
would be very uncertain, even from California's standpoint, 
what the costs might be because of the inability to say exactly 
what emissions would need to be reduced to meet an absolute 
target of one deciview, for example.
    So even though we're spending, in many cases, more than 
$10,000 a ton control for the last increments of control in 
California, it is impossible to say what ultimately the costs 
would be in the West because we cannot make that direct 
connection between what sources and how many reductions will be 
needed to meet the specific target that has been proposed.
    Senator Inhofe. But regardless of what it is, and staying 
with the three of you, you have heard and apparently have been 
led to believe that this is going to be not an unfunded mandate 
but something that would be paid for by the Federal Government. 
Is that your understanding?
    Mr. Wood. Mr. Chairman, I would say that I haven't had that 
kind of assurance, that the Federal Government is going to at 
least pay all of the administrative processes. Clearly, they 
have said, ``We're going to pay for all of the PM<INF>2.5</INF> 
monitors.'' And at all PM<INF>2.5</INF> monitoring stations----
    Senator Inhofe. So you are saying that there are costs over 
and above the assurances that you were given that you would--
that would be imposed upon your State?
    Mr. Wood. That is correct.
    Senator Inhofe. The other two of you, if you could kind of 
shorten your answer, do you agree with that?
    Mr. Colburn. Yes, we would concur with that.
    Senator Inhofe. Ms. Terry.
    Ms. Terry. Yes.
    Senator Inhofe. Mr. Seitz, this is a concern. I think I 
mentioned when the Governor was here that I was in a similar 
position, and unfunded mandates are a subject that I am very 
sensitive to.
    Would you agree that the policy of the EPA as you 
understand it, in terms of reimbursement, is that it still 
would not reimburse all the costs of the States for 
implementation of these standards?
    Mr. Seitz. Well, I think it is important that we go back to 
the funding mechanism that is being used. Frankly, just to be 
clear, I'm a little confused. We seem to be going between the 
economic analysis and the RIA and the benefits that are 
realized from the immediate reductions associated with haze, 
which is the comment that Mr. Wood raised. We will go back and 
review Nebraska's comments on the RIA to ensure that we did not 
double-count and that we did that RIA in accordance with 
established governmental procedures. So that is one issue.
    The issue that we are now talking about on the 
administrative costs associated with implementation of the PM 
program. As you have alluded to, and you have an amendment to 
solidify the Agency's intention here, we will be--particularly 
in the early years of this--doing our part in funding the 
monitoring network as far as tools, models, technical issues 
that need to be put in place. We will be totally funding that.
    Senator Inhofe. You will be funding that. What will the 
mechanism be? Will it be grants?
    Mr. Seitz. Well, there are two issues here. The one 
mechanism is the monitors. We have worked with all the States. 
We have a national contract in place that, on behalf of the 
Government, we are using at their request, 105 grant moneys, to 
purchase these monitors. That program is well under way and in 
place.
    The second issue goes to EPA's contract dollars that are 
being used to develop regional models that are used to develop 
the control strategies.
    The final piece that has been talked about here is the 
administrative burden associated with preparing the SIP. I 
think the issue here is that we've taken comment on the rule--
and the Agency has heard in numerous comments from the States--
I think you mentioned in your introductory remarks that 44 
States raised comments concerning the proposed rule. A great 
number of those comments were directed exactly at this issue. 
They weren't opposing the rule; they were suggesting how to do 
things differently to reduce the costs, to reduce the 
administrative burden, so they can be done efficiently. We have 
heard that.
    And then in addition, the Administrator has committed to 
work with the States to identify the costs and take a look at 
the mechanisms----
    Senator Inhofe. I'm trying to keep within our timeframe 
here.
    Would you say on behalf of the EPA that insofar as the 
grants are concerned, that those grants would come and would 
not replace other grants that otherwise would be going to the 
States? In other words, this would be new money for a new 
program that would come from the EPA, from here in Washington, 
and not just be replacing other grants that are perhaps for 
other purposes?
    Mr. Seitz. We're talking about the year 2000 and the budget 
process that is underway. I think that's what I was saying, 
that, working with the States, we would develop those budget 
proposals.
    Senator Inhofe. OK. As far as----
    Mr. Seitz. But I feel compelled to respond to this.
    If we are saying that 105 money is here, as you know, there 
is a required match by the States on those funds. In addition, 
I think it is incumbent upon the Agency--and the Governor would 
be the first one to agree--that we should have a joint 
partnership in assuring correct use of those moneys, and if 
that requires a budget initiative, the Agency----
    Senator Inhofe. This answers the questions. Thank you very 
much.
    On the issue of the timeline, for the three States here, 
you have heard what Mr. Seitz has said concerning that. Would 
you respond to that as to your degree of comfort? Because all 
three of you had this as one of your concerns.
    Ms. Terry.
    Ms. Terry. I was happy to hear Mr. Seitz say that that was 
the intent in the preamble language, so we certainly would 
expect them to follow through. It is an absolutely critical 
issue, given the complexity of the problem and the relationship 
with----
    Senator Inhofe. Would that assurance make your trip here 
worthwhile?
    Ms. Terry. The results would.
    Senator Inhofe. Thank you.
    Mr. Colburn. Or Mr. Wood; either.
    Mr. Colburn. I would echo Ms. Terry's comments, Senator.
    Senator Inhofe. All right.
    Mr. Wood.
    Mr. Wood. Same answer.
    Senator Inhofe. All right.
    Just one last thing. We are down to about three more 
minutes here before we have to vacate this room.
    Mr. Colburn, in your statement you said that the East and 
the West should be treated differently regarding control 
requirements, and that the same standards should not apply 
because the East has more experience in reducing emissions, and 
that the western haze is more complex. So I would assume by 
that that you are saying that the East probably is ahead in 
that area and that it wouldn't take us long?
    Mr. Colburn. Senator, I can't ascribe it to our leadership 
in this regard. I have to ascribe it to chemistry, that our 
problem is different, mostly sulfates, and we do have more 
experience with how to reduce sulfates.
    So it is not leadership; in fact, our problem is much 
worse. So while I think a national program is appropriate, 
applying the same standard--the same requirements--across the 
country is inappropriate. The East should have a greater burden 
than the West.
    Senator Inhofe. New York claims in the comments that were 
filed with the EPA that the West has more experience with haze 
and the East should be allowed to have time to bring their 
programs up to speed. Do you agree with the comments of the 
State of New York?
    Mr. Colburn. Certainly, in terms of institutional memory 
and the learning curve, but not in terms of need. The haze 
problems are worse in the East.
    Senator Inhofe. All right.
    Since we are out of time here, I would like to offer each 
one of you the opportunity to make any further comments, if you 
keep it very brief, on things that perhaps were not asked of 
you that you would like to offer at this time for the record. 
Later on, the record will be kept open for your written 
comments to be included as part of the record.
    Why don't we start with Mr. Seitz?
    Mr. Seitz. Just one comment, Senator. Again, the Agency is 
in the comment period. We are going to consider all comments 
before going final. Clearly, our intent was not ``one-size-
fits-all.'' It is a flexible approach that we strive to 
achieve, and I think that was supported by the November 1997 
Congressional Research Service article on this where they 
commended the Agency for it and recommended that the Agency was 
being flexible in its approach.
    Senator Inhofe. One thing that was kind of interesting, you 
were here when Governor Leavitt--I asked him this line of 
questioning about what he thought; they had gone through this 
thing with the Grand Canyon Commission, in which he had been 
very much involved. And then, of course, with the follow-up 
commission, on which he is the co-chair. And his response to my 
question, ``Is the EPA rule consistent with that, as was 
mandated by the Clean Air Act?'' And his answer was no.
    Do you disagree with Governor Leavitt?
    Mr. Seitz. Yes. Again, it's a proposal, and clearly we 
signaled in the proposal that we intended to recognize and 
endorse. I would agree with the Governor that the way that we 
did that was not to his satisfaction. We have had numerous 
meetings with him and his staff since then and hope to satisfy 
that concern on final.
    Senator Inhofe. Ms. Shaver, any further comments?
    Ms. Shaver. Only one comment, Senator, which is that we 
look forward in the National Park Service to working with the 
States, whether it is individually or collectively, in 
developing the kinds of programs that we need to protect our 
National Parks. We have a history of doing that. We have a lot 
of data, and we are very anxious to be working with all the 
stakeholders on this issue.
    Senator Inhofe. All right.
    Ms. Terry.
    Ms. Terry. Just one final clarification. While California 
is not officially a member of the follow-up organization to the 
Commission's work, we are technically involved in all the 
committees. We are supportive. We will work to implement the 
recommendations, and when some structural issues relative to 
voting are ultimately sorted out, I am optimistic that our 
participation may be expanded.
    In closing I would like to say that the emphasis on 
emission reductions is what we would like to see in terms of 
the progress target. That's what cleans the air, that's what 
gets us to health-based standards as well as visibility, and we 
want to see that concept that was agreed upon by the Commission 
be followed through in EPA's final regulation.
    Senator Inhofe. Thank you.
    Mr. Wood.
    Mr. Wood. Mr. Chairman, the two comments that we would like 
to make are, No. 1, that the focus to a large extent has been 
on point source emissions. Mr. Colburn talks about sulfate in 
the East, and the source of that is power plants and other 
industrial sources.
    With respect to Nebraska's concern, that's not an issue. 
The issue is rural fugitive emissions. Senator Allard talked 
about burning of fields; that's not the problem in Nebraska. 
It's normal farming kinds of activities.
    The second comment is one that hasn't been mentioned here, 
which is that--almost academically speaking--burning of 
forests, either prescribed burning or unprescribed burning in 
the Forest System, is something that I think we need to think 
about more theoretically as being almost an investment that was 
made in the past because we didn't have the natural burning 
that took place in the past. You can almost make an argument 
that any burning in the Forest System is and does contribute 
what should be considered part of the natural background, 
because in the past it either burned this year or it burned 
last year or it burned 30 years later. And as I think Ms. 
Shaver would agree, what we have done, both in the Forest 
Service as well as the National Park Service, is over the last 
50 years not allowed that burning to take place. We have 
increased the fuel loads, as Senator Allard talks about.
    So the question is, do we get charged now for that regional 
haze or that air pollution that results from what has 
historically been a natural activity?
    Senator Inhofe. Thank you. That's very helpful.
    Mr. Colburn.
    Mr. Colburn. Thank you, Senator, just two comments.
    The first is to respond somewhat to Senator Sessions' 
earlier question about why anybody would address any concern 
other than public health. I think the real goal isn't simply 
public health, but it is quality of life, which might be 
characterized as physical health, bodily health, but also 
environmental health, such that one can have adequate 
recreational opportunities and enjoy life. And economic health, 
such that you don't have to worry about your next meal.
    At least in New Hampshire's case, we believe that the 
regional haze initiative put forth by EPA, as modified by many 
of the comments for flexibility and such today, meets the 
purpose of addressing and improving quality of life.
    The second comment is simply that I am pleased that EPA has 
gone on the record today indicating that flexibility. We look 
forward to it.
    Senator Inhofe. Yes. Well, I am pleased with their going on 
the record with that, as well as the timeline, as well as some 
of the other things that they have stated here on behalf of the 
EPA, and I appreciate it very much.
    I think Senator Sessions--I want you all to understand what 
we've been through here for a year and a half. What he's trying 
to do, I think, is get health off the table right now and deal 
with this in a way that we don't have some of the hysteria, 
with kids coming in with masks, in spite of the fact that the 
scientific community doesn't agree with the relationship 
between NAAQS and respiratory diseases and all these things, 
and that a number of people are going to die prematurely and 
all this.
    So that's really where he's coming from. He was saying, 
``Let's try to get that over here. We've already addressed 
that; let's talk about this, isolate this problem.''
    Again, we are saved by the bell. We have 5 more minutes 
left in the vote.
    I appreciate very much the time that you have taken, you 
folks who are here, you folks who have come here from far away. 
I appreciate it very much. You have made a great contribution. 
I would remind you that any comments you want to make for the 
record can still be submitted. You will be receiving some 
questions from members of this committee whose staff is 
represented here today; I know there are a lot of questions 
that they will be sending to you that will become part of the 
record, and we will be able to use that as this issue 
progresses.
    Thank you very much for being here.
    [Whereupon, at 12:30 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
    Prepared Statement of Governor Michael O. Leavitt, State of Utah
    Good morning. I am Governor Mike Leavitt of Utah and lead governor 
for air quality issues for the Western Governors' Association. I also 
serve as Co-Chair of the Western Regional Air Partnership (WRAP) with 
Governor Reginald Pasqual of the Pueblo of Acoma. Thank you for the 
opportunity to provide testimony regarding the Environmental Protection 
Agency's proposed regional haze regulation.
    This issue is important to western governors. As governors, we are 
keenly aware of the need to protect visibility in parks and wilderness 
areas in our part of the country. We recognize the inherent social and 
spiritual value of the breathtaking vistas in the West. Our matchless 
visibility is important to our residents and tourists alike. We support 
efforts to protect this visibility. And we applaud Congress for its 
foresight. When Congress enacted the Clean Air Act Amendments of 1990, 
you created a remarkable opportunity for visibility protection through 
regional partnership. You directed the EPA Administrator to create the 
Grand Canyon Visibility Transport Commission (Commission). This 
Commission, of which I was Vice Chair, was charged to determine how to 
make progress toward the visibility goal established in the Clean Air 
Act of 1977. Neither Congress nor EPA told us how we were to do this 
job. Instead, you left us with flexibility and a challenge. I am proud 
to say we met that challenge.
    We brought together a partnership of States, tribes, Federal 
agencies, industry and business, environmental representatives, local 
government officials, and academicians, and charged them with 
developing consensus recommendations on how to protect visibility at 
the Grand Canyon and at 15 other parks and wilderness areas on the 
Colorado Plateau. EPA was a valued and effective player in this 
process. We reached consensus on a set of responsible recommendations 
to manage air quality in the West, so that we, as a region, could make 
the required ``reasonable progress'' toward the national visibility 
goal. On June 10, 1996, in a moving ceremony on the rim of the Grand 
Canyon, we delivered those recommendations to EPA. We have since also 
delivered them to Congress.
    However, we are very concerned the EPA's originally-proposal 
regional haze regulation is not consistent with the intent of Congress 
and does not create a framework for accepting the work of the Grand 
Canyon Commission. We have shared our concerns with EPA. Let me quote 
from a letter Governor Romer of Colorado and I recently sent to EPA 
Administrator Carol Browner on behalf of the Western Governors' 
Association. I have attached the letter to my testimony.
    As you are aware, Western Governors are vitally interested in the 
rule the EPA will soon issue regarding regional haze. In particular, we 
urge that it allow and facilitate regional, State and tribal strategies 
such as the widely endorsed recommendations of the Grand Canyon 
Visibility Transport Commission (Commission) and its successor, the 
Western Regional Air Partnership (WRAP).
    We strongly encourage EPA to take a bold step toward better 
environmental performance by accepting our recommendations for the 
regional haze rule. By doing so, EPA will not only set in motion a 
mechanism developed and agreed to by national and Western stakeholders 
to improve visibility in the West, but it will also send a strong 
signal that a new, more effective partnership for protecting the 
environment is underway.
    We learned a lot from this regional effort. There is a better way 
of doing the important business of environmental protection. Rather 
than following the old paradigm of prescriptive Federal laws and 
regulations, followed by State action, followed by often contentious 
Federal review, followed all to often by third party litigation, 
participants in the Commission's process focused jointly on problems 
and solutions.
    Based on the Commission experience, and faced with increasing 
environmental pressures of growth in the West, western governors have 
recently set about defining a new, shared environmental doctrine for 
our region. We will use the principles in this doctrine to guide us in 
seeking solution to a broad array of environmental and natural resource 
problems facing the West. Key principles include:
    <bullet> Collaboration, Not Polarization--Use Collaborative Process 
to Break Down Barriers and Find Solutions.
    Working collaboratively as we did in the Grand Canyon Commission 
process was key to our success.
    <bullet> Reward Results, Not Programs--Move to a Performance-based 
System.
    Everyone wants a clean and safe environment. Federal and State 
policies should encourage ``outside the box'' thinking in the 
development of strategies to achieve desired outcomes. Solving problems 
rather than just complying with programs should be rewarded.
    <bullet> Science For Facts, Process For Priorities--Separate 
Subjective Choices from Objective Data Gathering.
    As we found in the Commission work, there is a time in the 
collaborative process when interested stakeholders must evaluate the 
scientific evidence on which there may be disagreement and make 
difficult policy decisions.
    <bullet> Markets Before Mandates--Replace Command and Control with 
Economic Incentives Whenever Appropriate.
    The Commission recommended that emission reductions should be 
guaranteed through implementation of a regional emissions trading 
program if committed reductions were not realized after the year 2000.
    <bullet> Change A Heart, Change A Nation--Environmental Education 
is Crucial.
    A healthy environment is critical to the social and economic health 
of the Nation. One important way for government to promote individual 
responsibility is by rewarding those who meet their stewardship 
responsibilities, rather than imposing additional restrictions on their 
activities.
    <bullet> Recognition of Benefits and Costs--Make Sure Environmental 
Decisions are Fully Informed.
    Implementation of environmental policies and programs should be 
guided by an assessment of the costs and benefits of different options 
and a determination of the feasibility of implementing the options.
    <bullet> Solutions Transcend Political Boundaries--Use Appropriate 
Geographic Boundaries for Environmental Problems.
    We recognize that regional haze problems cannot be solved without 
working on the regional level across State, Federal, and tribal 
boundaries. The problem cannot be solved with singular solutions from 
Washington, DC, or anywhere else. The western airshed is distinctly 
different from the eastern airshed in meteorology and pollutant 
characteristics.
    Even as my colleagues and I flesh out this new environmental 
doctrine, we have already moved ahead, with our Commission partners and 
new partners, and formed the Western Regional Air Partnership, known as 
the WRAP. The WRAP is a partnership between States, tribes, EPA and the 
U.S. Departments of the Interior and Agriculture. Its purpose is to 
promote the implementation of the Grand Canyon Commission's 
recommendations and, when warranted, to address other air quality 
issues needing regional solutions. Like the Commission, the WRAP has 
invited interest groups and individuals to the table to develop 
consensus approaches for moving forward on current and future issues.
    We expected EPA, through its regional haze rule, to create a clear 
and unambiguous path for State implementation of the Commission's 
recommendations. We also expected that the regulation would create 
incentives for other commissions and processes like the Grand Canyon 
Commission and WRAP, to encourage and reward States that collaborate, 
seriously involve partners and stakeholders, and develop innovative 
regional approaches to regional haze.
    As EPA revises its proposed regulation, we hope the following 
concerns will be resolved:
    <bullet> EPA needs to be a participant in regional environmental 
partnerships which develop the strategies and recommendations for 
addressing regional haze.
    <bullet> Additional language is needed to define a clear and 
specific process for creation and adoption of alternative regional 
strategies to define and attain ``reasonable progress'' under the Clean 
Air Act. Specifically, when EPA concurs with the partnership's 
strategies for addressing regional haze, States and tribes expect 
approval of those strategies in their Plans. Implementation of the 
Commission's recommendations meets the Clean Air Act's requirement of 
making ``reasonable progress'' towards the national visibility goal. We 
are asking EPA to support the consensus recommendations of regional 
commissions in which they participate, prior to having those 
recommendations included in State and Tribal Implementation Plans (SIPs 
and TIPs).
    <bullet> The ``deciview target'' is not a workable regulatory 
measure because of the large uncertainty in the relationship between 
the measure and the identification of related, controllable emission 
sources. The proposed regulation has a presumptive requirement that 
each Class I area achieve a fixed increment of improvement of one 
deciview every 10 years. There are two problems with this requirement. 
First, it establishes a set of criteria to be used in determining what 
would constitute reasonable progress for each Class I area. These 
criteria include such things as cost and energy impacts. Setting a 
fixed requirement for each Class I area is contrary to this concept of 
evaluating what is reasonable for each Class I area. Secondly, there is 
significant uncertainty in measuring visibility. It makes much more 
sense to identify what emission reductions are needed for reasonable 
progress and hold States to making those reductions.
    <bullet> Group BART (Best Available Retrofit Technology) 
requirements are incompatible with other more effective State and 
tribal strategies. The proposed regulation has a requirement for 
evaluating whether specific technological controls should be required 
of certain major point sources. The Grand Canyon Commission opted to 
establish a decreasing emissions cap which includes emissions from 
these sources. If the cap is exceeded, a market trading program will go 
into place to bring emissions back under the cap. This is a much more 
efficient means of meeting ``reasonable progress,'' requirements. 
Furthermore, in assessing ``reasonable progress,'' we used the same 
criteria that would be used to determine if technological controls 
should be required. BART should remain as a possible tool in the State 
and tribal ``toolbox'' of regulatory options. However, the market-
trading proposal from the Commission is a much more efficient strategy 
for regional haze.
    <bullet> Prescribed fires, those fires planned by Federal and State 
land managers, will have a significant impact on visibility and 
regional haze in the West. Procedures, to coordinate the reduction in 
impacts from prescribed fires, are critical to the effectiveness of the 
regional haze regulation.
    We have identified a number of other issues which need to be 
corrected in the proposed regulation. These have been submitted to EPA 
under the auspices of both the Western Governors' Association and the 
WRAP. These comments are available to you upon request. Our success is 
dependent on a workable regulation and the investment of resources--
time and money--in regional strategies.
    I recognize that EPA cannot give up the statutory responsibilities 
you have bestowed upon it. We are not asking for that. We are only 
asking that EPA exercise its responsibility at the table, not after the 
fact, in inefficient, prolonged reviews. On the plus side, we have had 
positive discussions with EPA on these issues. I have met with John 
Seitz, Director of the Office of Air Quality Planning and Standards and 
received his assurances they have heard our concerns.
    In summary, the issue here is not about whether we want a 
visibility regulation or not, it is about developing the best way for 
protecting visibility. Western governors need the flexibility to 
develop strategies that meet the social, economic and environmental 
needs of States and tribes in the West. We want to protect our western 
skies using approaches that are cheaper and better.
    At the same time we want to address these issues in partnership 
with EPA and other Federal agencies, but we want the ``partnership'' to 
be real. Our western parks and wilderness areas are there to be enjoyed 
by all Americans. We will never protect them by engaging in endless 
bickering and litigation. EPA and other Federal agencies were good 
partners in the Grand Canyon Visibility Transport Commission. We need 
to return to that model. If we are serious about reinventing 
environmental management, lets start right here and now.
    Thank you for inviting me to testify.
                                 ______
                                 
                            Western Governor's Association,
                                         Denver, CO, April 8, 1998.
Hon. Carol M. Browner, Administrator,
U.S. Environmental Protection Agency,
Washington, DC.
    Dear Administrator Browner: As you are aware, Western Governors are 
vitally interested in the rule the EPA will soon issue regarding 
regional haze. In particular, we urge that it allow and facilitate 
regional, State and tribal strategies such as the widely endorsed 
recommendations of the Grand Canyon Visibility Transport Commission 
(Commission) and its successor, the Western Regional Air Partnership 
(WRAP). Individual Western States, the Western Governors' Association 
(WGA), and the WRPA all have provided comments. The WGA comments 
suggested specific language to allow and facilitate EPA's review and 
acceptance of regional strategies. We are supported in our efforts by 
the thirty member Western States Senate Coalition, who have also 
written urging you to write the final regional haze rule in a way that 
will specifically allow for incorporation of the Commission's 
recommendations. Because of the importance of this issue, we would like 
to meet with you at your earliest convenience to discuss these 
recommendations.
    Since 1991, governors, tribal leaders, State and Federal agencies, 
industry and interest groups in the West have invested an extraordinary 
amount of time, money and political capital in reaching a consensus on 
strategies for improving visibility in national parks and wilderness 
areas on the Colorado Plateau. In doing so, we also arrived at a new 
paradigm for creating and implementing environmental policy that may 
finally change our environmental protection system from one centered on 
denial and costly adversarial actions by the participants to one 
centered on acceptance, innovation, performance and efficiency. If the 
EPA fails to adopt the recommendations of the Commission, it will 
stymie not only innovative efforts to improve visibility in our 
national parks and wilderness areas, but also other collaborative 
processes in the environmental arena.
    We applaud EPA's participation in the Commission's process. During 
the Commission's deliberations, EPA scientists and technical experts 
sat at the same table with colleagues from other Federal agencies, 
State agencies, tribes, academia, industry and the environmental 
community to both share and defend their science, data and opinions. 
The Western Governors viewed this frank and professional collaboration 
as a breakthrough toward better environmental performance in the West. 
For the first time, an environmental process vested in our region 
created a more robust set of data and concomitantly a greater 
understanding about regional haze among a wide variety of public and 
private constituencies. Moreover, the process fostered a willingness 
among those same constituencies to solve the problem before it became 
severe.
    The Commission was able to carry out an extensive public process, 
create a comprehensive set of 70 recommendations, and set in motion a 
process to implement them with a minimum of EPA oversight and staff 
participation and only a modest amount of financial support. For 
example, 75 Federal, State, tribal, local government, industry and 
environmental representatives participated in the Commission's Public 
Advisory Committee where the consensus recommendations were created. We 
believe this is a sign of success in the State-Federal partnership and 
a true step toward the performance-based system that the States, 
Congress, and the Administration have been seeking. The collaborative 
process, where the synergy of diverse groups working together produced 
recommendations by the Commission that went beyond any one agency's 
statutory requirements, bolstered EPA's credibility and produced 
valuable results.
    EPA is part of the success, and you share the credit for your role 
in this effort. By bringing together diverse and talented individuals, 
far more expansive and creative technical findings and policy options 
were produced than would have been the case using the usual process of 
action plans by State and Federal governments, with a comment period 
from interest groups. However, all will be for naught if the final haze 
rule does not provide a clear and positive process for the adoption of 
regional strategies.
    We are also concerned that EPA's air division has been without a 
Presidential appointee for over eight months. It is at this level that 
the extraordinary consensus which the Commission achieved and the WRAP 
is attempting to implement, had been most clearly recognized. Those 
achievements have been undervalued in the proposed rule in favor of 
traditional, prescriptive strategies more amenable to highly 
centralized, bureaucratic control. The Western Governors believe that 
improved environmental outcomes are the true objectives of the 
Administration and Congress and that performance, not control, is the 
issue at hand.
    Based on lessons from the Commission, the Western Governors have 
committed to develop a shared environmental doctrine for the West to 
consecrate this new way of doing business. We intend to develop other 
partnerships to address to address natural resource management and 
environmental policy making. Western Governors unanimously adopted a 
resolution establishing principles to guide future efforts. These 
principles have bi-partisan support and are in keeping with the goals 
established by the Administration's National Partnership for 
Reinventing Government, particularly as they apply to developing 
partnerships. We are committed to future collaborative efforts if given 
the flexibility to undertake them and implement the results. But there 
will be little incentive to proceed or to bring other partners to the 
table in the West if our first major effort is quashed by the final 
Federal haze rule.
    In closing, we want to commend and thank your air quality planning 
staff for their willingness to explain the proposed rule and listen to 
our concerns. Mr. John Seitz and his staff have been gracious and 
professional. We believe they are seriously debating whether to 
recommend acceptance of our recommendations. However, we fear that 
without your personal understanding and intervention, tradition may 
outweigh innovation and squelch the Commission's achievements. We 
strongly encourage EPA to take a bold step toward better environmental 
performance by accepting our recommendations for the regional haze 
rule. By doing so, EPA will not only set in motion a mechanism 
developed and agreed to by national and Western stakeholders to improve 
visibility in the West, but it will also send a strong signal that a 
new, more effective partnership for protecting the environment is 
underway. We look forward to meeting with you to discuss these 
important matters.
            Sincerely,
                                        Michael O. Leavitt,
                                                  Governor of Utah.

                                                 Roy Romer,
                                              Governor of Colorado.
                                 ______
                                 
 Prepared Statement of John S. Seitz, Director, Office of Air Quality 
  Planning and Standards, Office of Air and Radiation, Environmental 
                           Protection Agency
    Mr. Chairman, members of the subcommittee, thank you for inviting 
me to discuss the Environmental Protection Agency's (EPA's) proposed 
rule to improve visibility and reduce regional haze in our Nation's 
national parks and wilderness areas.
    As you know, in July 1997 EPA revised the national ambient air 
quality standards for ground-level ozone and particulate matter. These 
updated standards have the potential to prevent as many as 15,000 
premature deaths each year, and up to hundreds of thousands of cases of 
significantly decreased lung function and aggravated asthma in 
children. In the review of the standards, EPA concluded that the most 
appropriate way to address the visibility impairment associated with 
particulate matter would be to establish a regional haze program in 
conjunction with setting secondary PM standards equivalent to the suite 
of primary standards. EPA proposed new regulations addressing regional 
haze in July 1997 as well.
    Mr. Chairman, as you know, virtually all of our national parks and 
wilderness areas are subject to some degree of regional haze visibility 
impairment. This fact has been extensively documented by monitoring 
conducted by the National Park Service, EPA, the United States Forest 
Service, and other agencies since 1978. Haze obscures the clarity, 
color, texture, and form of what we see, and it is caused by natural 
and anthropogenic pollutants that are emitted to the atmosphere through 
a number of activities, such as electric power generation, various 
industrial and manufacturing processes, car and truck emissions, 
burning activities, and so on. These emissions often are transported 
long distances to affect visibility in certain parks and wilderness 
areas that have been identified for protection by Congress under the 
Clean Air Act. The areas are known as ``Class I'' areas.
    We also know that the causes and severity of regional haze vary 
greatly between the East and the West. Average standard visual range in 
most of the Western U.S. is 60 to 90 miles, or about one-half to two-
thirds of the visual range that would exist without manmade air 
pollution. In most of the East, the average standard visual range is 15 
to 30 miles, or about one-sixth to one-third of the visual range that 
would exist under natural conditions. One of the major challenges 
associated with this problem is that these conditions are often caused 
not by one single source or group of sources near each park or 
wilderness area, but by mixing of emissions from a wide variety of 
sources over a broad region.

                               background

    The Clean Air Act established special goals for visibility in many 
national parks, wilderness areas, and international parks. Section 
169A, of the 1977 Amendments to the Clean Air Act, sets a national goal 
for visibility of the ``prevention of any future, and the remedying of 
any existing, impairment of visibility in mandatory Class I Federal 
areas which impairment results from manmade air pollution.'' This 
section also calls for EPA to issue regulations to assure ``reasonable 
progress'' toward meeting the national goal. EPA issued regulations in 
1980 to address the part of the visibility problem that is ``reasonably 
attributable'' to a single source or group of sources. These rules were 
designed to be the first phase in EPA's overall program to protect 
visibility. At that time, EPA deferred action addressing regional haze 
impairment until improved monitoring and modeling techniques could 
provide more source-specific information, and EPA could gain further 
knowledge about the pollutants causing impairment.
    As part of the 1990 Amendments, Congress added section 169B to 
focus on regional haze issues. Under this section, EPA was required to 
establish a visibility transport commission for the region affecting 
the visibility of the Grand Canyon National Park. EPA established the 
Grand Canyon Visibility Transport Commission in 1991 to examine 
regional haze impairment for the 16 mandatory Class I Federal areas on 
the Colorado Plateau, located near the Four Corners area of New Mexico, 
Colorado, Utah and Arizona. After several years of technical assessment 
and policy development, the Commission completed its final report in 
June 1996. The Commission's recommendations covered a wide range of 
control strategy approaches, planning and tracking activities, and 
technical findings which address protection of visibility in the Class 
I areas in the vicinity of the Grand Canyon National Park.
    Under the 1990 Amendments, Congress required EPA to take regulatory 
action within 18 months of receiving the Commission's recommendations. 
EPA proposed the regional haze rules in July of last year, in 
conjunction with the final national ambient air quality standards for 
particulate matter. In developing the proposed regulations, EPA took 
into account the findings of the Grand Canyon Visibility Transport 
Commission, as well as findings from a 1993 National Academy of 
Sciences Report, and information developed by the EPA Clean Air Act 
Advisory Committee.
    The National Academy of Sciences formed a Committee on Haze in 
National Parks and Wilderness Areas in 1990 to address a number of 
regional haze-related issues, including methods for determining the 
contributions of man-made sources to haze as well as methods for 
considering alternative source control measures. In 1993, the National 
Academy of Sciences issued a report entitled, ``Protecting Visibility 
in National Parks and Wilderness Areas,'' discussed the science of 
regional haze. Among other things, the Committee concluded that 
``current scientific knowledge was adequate and available control 
technologies exist to justify regulatory action to improve and protect 
visibility.'' The Committee also concluded that progress toward the 
national goal will require regional programs operating over large 
geographic areas. Further, the Committee felt strategies should be 
adopted that consider many sources simultaneously on a regional basis.
    In developing the proposed regional haze rule, EPA also took into 
consideration recommendations and discussions related to regional haze 
from our Clean Air Act Federal Advisory Committee and its Subcommittee 
on Ozone, Particulate Matter, and Regional Haze Implementation 
Programs. The Subcommittee included wide representation from States, 
local and Tribal governments, industry, environmental groups and 
academia. This Subcommittee met regularly over the past 2\1/2\ years to 
consider a variety of implementation issues associated with the revised 
national ambient air quality standards and the proposed regional haze 
rule. It also focused discussions on how best to develop more cost-
effective, flexible strategies for implementing these requirements.

                   epa's proposed regional haze rule

    EPA's proposed regional haze rule is designed to establish a 
program to address visibility impairment in the Nation's most treasured 
national parks and wilderness areas. In this rule, EPA is proposing to 
improve visibility, or visual air quality, in 156 important natural 
areas found in every region of the country. These areas range from 
Grand Canyon, Mesa Verde, and Bryce Canyon in the southwest; to 
Yellowstone, Glacier, and Mt. Rainier in the northwest; to Shenandoah 
and the Great Smokies in the Appalachians; to Yosemite, Sequoia, and 
Point Reyes in California; to Acadia, Lye Brook, and Great Gulf in the 
northeast; to the Everglades and Sipsey Wilderness in the southeast; to 
Big Bend, Wichita Mountains, Badlands, and the Boundary Waters in the 
central States. More than 60 million visitors experience the 
spectacular beauty of these areas annually. The proposed regional haze 
rule in conjunction with implementation of other Clean Air Act programs 
would significantly improve visibility in these areas. Further EPA 
expects visibility to improve well beyond these areas, across broader 
regions of the United States.
    The National Academy of Sciences report and other studies show that 
emissions from sources such as power plants, industrial sources, and 
motor vehicles generally span broad geographic areas and can be 
transported hundreds of miles, creating haze across large regions of 
the country. Therefore, the proposed regional haze regulations would 
require participation by all States throughout the country. This 
includes States which do not have Class I parks or wilderness areas 
because emissions from these States may contribute to impairment in 
downwind Class I areas in other States.
    The regional haze proposal establishes a requirement for States to 
implement strategies to meet ``reasonable progress targets'' for 
improving visibility in each Class I area. These targets would be 
designed to improve visibility on the worst days, and to prevent 
degradation of visibility on the best days. EPA is proposing to express 
the progress targets in a way that provides flexibility from one region 
of the country to another, by using the ``deciview'' as a measurement. 
The deciview index expresses the overall effect on visibility resulting 
from changing levels of the key components of fine particulate matter 
(sulfates, nitrates, organic and elemental carbon, soil dust) which 
contribute to the degradation of visibility. These components are 
routinely measured by an interagency visibility monitoring network that 
has been in place for several years in national parks and forests. Like 
the decibel scale which is used to measure sound, the deciview index 
measures perceived changes across the range of possible conditions (for 
example, from clean to dirty days). A change of one to two deciviews is 
considered to be perceptible by the average person for a typical 
complex view. Visibility monitoring data shows that over the past 
several years, visibility impairment on the worst days ranges from 27 
to 34 deciviews in eastern locations and 13 to 25 in western locations. 
A deciview of zero represents pristine conditions, meaning the absence 
of natural or manmade impairment in visibility.
    EPA's proposed presumptive ``reasonable progress target'' has two 
elements: (1) for the 20 percent of the days having the worst 
visibility, the target is a rate of improvement equal to 1.0 deciview 
over either a 10-year or 15-year period [we asked for comments on each 
option]; and (2) for the 20 percent of the days having the best 
visibility, the target is no degradation. For example, in a place like 
the Shenandoah National Park, where ambient fine particle levels for 
the worst days average 20 micrograms per cubic meter, a reduction of up 
to 2 micrograms per cubic meter would be needed to achieve a 1 deciview 
improvement. Whereas in the Grand Canyon, where ambient fine particle 
levels for the worst days average about 5 micrograms per cubic meter, a 
reduction of up to one-half a microgram would be sufficient to achieve 
a 1 deciview improvement.
    EPA's proposed rule also provides important flexibility to States 
by allowing them to propose alternate progress targets for EPA 
approval, as well. An alternate target can be proposed for a Class I 
area if the State can demonstrate that achieving the presumptive 
targets would not be reasonable. States can consider such factors as 
the availability and costs of controls, the time necessary for 
compliance, and the remaining useful life of the air pollution sources 
in determining whether achieving the target would be reasonable. 
Alternatively, some States may find they can go further and achieve up 
to a 2-3 deciview improvement at some parks or wilderness areas, or 
that programs already adopted or in the process of being implemented 
will achieve such an improvement. The proposal suggests that States 
consult with other contributing States, the Federal land managers, and 
EPA in developing alternate targets.
    Consistent with the requirements in the Clean Air Act, under EPA's 
proposal States would submit an initial revision to their 
implementation plans for visibility protection within 12 months after 
EPA issues the final regional haze rule. These initial implementation 
activities would require that State plans provide for adoption at a 
later date of any specific emission management strategies that may be 
necessary to meet the progress targets. These initial State plans would 
not require States to include emission reduction strategies, but merely 
provide for their future adoption. Initially, States would address a 
number of planning activities for implementing their regional haze 
programs. Since visibility impairment is caused primarily by fine 
particles, many planning activities could have benefits for 
implementation of the PM<INF>2.5</INF> standard where applicable as 
well. Our goal is to coordinate the State plan deadlines under the 
regional haze rule with those required for meeting the PM<INF>2.5</INF> 
standard. The proposal also encouraged States to work cooperatively to 
develop modeling approaches, emission inventories, and regional 
implementation strategies.
    We also proposed that either every 3 or 5 years thereafter (EPA has 
taken comment on both options), States would review progress in each 
Class I area in relation to the relevant progress targets. States would 
also be expected to include a plan for expanding the current visibility 
monitoring network so that it is ``representative'' of all 156 Class I 
areas. EPA is working with the States and Federal land managers to 
coordinate this network expansion with the deployment of the new 
monitoring network for the national air quality standard for fine 
particulates. EPA is evaluating ways to efficiently use resources such 
that existing and new visibility monitoring sites can also provide 
information about transport of fine particulate pollution as it relates 
to the newly revised national air quality standards. The new visibility 
monitoring sites should be deployed no later than December 1999.
    Also as part of this initial State plan submittal, States would 
need to address important technical activities to pursue on a regional 
basis, such as improvements in particulate matter emission inventories 
and modeling capabilities, as well as plans for assessing sources 
potentially subject to Best Available Retrofit Technology (or BART). As 
specified in the Clean Air Act, sources potentially subject to BART are 
any sources, from 1 of 26 groups of industrial ``source categories,'' 
which began operation between 1962 and 1977, and which have the 
potential to individually emit 250 tons per year or more of any 
pollutant that impairs visibility. The 26 source categories include 
such sources as electric utilities, smelters, petroleum refineries, and 
pulp and paper mills. If a State determines it is necessary to control 
any of these facilities, a BART determination would include an 
examination of the availability of control technologies, the costs of 
compliance, the energy and non-air environmental impacts of compliance, 
any pollution control equipment in use at the source, the remaining 
useful life of the source, as well as the degree of improvement in 
visibility as a result of compliance. As with all aspects of this 
proposal, we requested comments on how to develop BART and will 
incorporate these comments into the final rule.
    Under the proposed regional haze rule, State plans would provide 
for adoption of emission management strategies concurrently with other 
strategies for PM<INF>2.5</INF> nonattainment areas. These submittals 
would include measures to reduce emissions from sources located within 
the State, including provisions addressing the BART requirement, if 
applicable. I would like to make two important points about the 
emissions reduction strategy. First, it can take into account air 
quality improvements due to implementation of other programs, such as 
the acid rain program, mobile source programs, or the national ambient 
air quality standards program. And second, the emission reduction 
strategy can include a mix of strategies that address emissions from 
both stationary and mobile sources. EPA's proposed rule does not focus 
on stationary sources only, as some have claimed. The proposed planning 
framework provides States with flexibility in designing their overall 
program for improving visibility.

          process for developing the final regional haze rule

    EPA Administrator Browner signed the proposed haze rule on July 18, 
1997. At that time, we made the proposed rule, as well as other related 
materials, available to the public on the Internet and through other 
means. It was published in the Federal Register on July 31. EPA held a 
public hearing that I chaired in Denver, Colorado, on September 18. In 
response to requests by the public, we extended the public comment 
period by about 6 weeks, to December 5, 1997. We have held other 
sessions around the country to discuss the regional haze proposal, 
including a national satellite broadcast for all State and local air 
pollution agencies during which we discussed the proposal and answered 
questions from the viewers. I also am actively participating in 
meetings of the Western Regional Air Partnership, a follow-up 
organization to the Grand Canyon Visibility Transport Commission that 
is co-chaired by Governor Shutiva of the Pueblo of Acoma and Governor 
Leavitt of Utah. This is a voluntary organization, established by 
several States and Tribes, which EPA will be working with to address 
western visibility issues. Following our careful review of the 
comments, we intend to issue a final regional haze rule this summer.

                              conclusions

    In summary, we believe that EPA's new proposed regional haze rule, 
when finalized, would establish a framework to improve visibility in 
our Nation's parks and wilderness areas, as the Congress intended in 
the Clean Air Act. Over the past several months, we have been busy 
reviewing public comments and considering options for addressing the 
concerns of various commenters. At the request of various interested 
parties, including the Western Governors Association, STAPPA/ALAPCO, 
NESCAUM, and industry and environmental groups, we have held additional 
meetings to discuss issues related to the rule. I want to be clear that 
we still have not made final decisions on these matters. Our goal is to 
ensure that these new requirements are implemented in a common sense, 
cost-effective and flexible manner. We intend to continue working 
closely with State and local governments, other Federal agencies and 
all other interested parties to accomplish this goal.
    Mr. Chairman, this concludes my written statement. I will be happy 
to answer any questions that you might have.
                               __________

 [Executive Summary of a Report Prepared for the EPA on Regional Haze, 
                             July 16, 1997]

    Regulatory Impact Analyses for the Particulate Matter and Ozone 
 National Ambient Air Quality Standards and Proposed Regional Haze Rule

 (Prepared by Innovative Strategies and Economics Group, Office of Air 
   Quality Planning and Standards, Environmental Protection Agency, 
                      Research Triangle Park, NC)

                           executive summary
Purpose

    The Clean Air Act (CAA) directs the Environmental Protection Agency 
(EPA) to identify and set national standards for pollutants which cause 
adverse effects to public health and the environment. The EPA is also 
required to review these health and welfare-based standards at least 
once every five years to determine whether, based on new research, 
revisions to the standards are necessary to continue to protect public 
health and the environment. Recent evidence indicates that two 
pollutants, ground level ozone and particulate matter (PM), 
(specifically fine particles which are smaller than 2.5 <greek-m>g/
m<SUP>3</SUP> in diameter, termed PM<INF>2.5</INF> are associated with 
significant health and welfare effects below current regulated levels. 
As a result of the most recent review process, EPA is revising the 
primary (health-based) and secondary (welfare-based) National Ambient 
Air Quality Standards (NAAQS) for both of these pollutants. In 
addition, in the final action on PM, EPA recognized that visibility 
impairment is an important effect of PM on public welfare. The EPA 
concluded that the most appropriate approach for addressing visibility 
impairment is the establishment of secondary standards for PM identical 
to the suite of primary standards, in conjunction with a revised 
visibility protection program to address regional haze in certain large 
national parks and wilderness areas.
    To some degree, the problems of ground level ozone, PM and regional 
haze all result from commonly shared elements. Pollutants which are 
precursors to ozone formation are also precursors to the formation of 
fine PM. Both ozone and fine PM are components of regional haze. These 
similarities clearly provide management opportunities for optimizing 
and coordinating monitoring networks, emission inventories and air 
quality models, and for creating opportunities for coordinating and 
minimizing the regulatory burden for sources that would otherwise be 
required to comply with separate controls for each of these pollutants. 
Thus, these new standards are likely to be considered jointly by the 
various authorities responsible for their implementation. With this in 
mind, EPA has developed an economic impact analysis which looks at the 
coordinated implementation of all of these new rules. Pursuant to 
Executive Order 12866, this Regulatory Impact Analysis (RIA) assesses 
the potential costs, economic impacts, and benefits associated with 
illustrative implementation scenarios of these NAAQS for ozone and PM, 
including monitoring for these pollutants. It also assesses the costs, 
economic impacts, and benefits associated with the implementation of 
alternative regional haze programs.
    In setting the primary air quality standards, EPA's first 
responsibility under the law is to select standards that protect public 
health. In the words of the CAA, for each criteria pollutant EPA is 
required to set a standard that protects public health with ``an 
adequate margin of safety.'' As interpreted by the Agency and the 
courts, this decision is a health-based decision that specifically is 
not to be based on cost or other economic considerations. However, 
under the CAA, cost can be considered in establishing an alternative 
regional haze program.
    This reliance on science and prohibition against the consideration 
of cost in setting of the primary air quality standard does not mean 
that cost or other economic considerations are not important or should 
be ignored. The Agency believes that consideration of cost is an 
essential decision making tool for the cost-effective implementation of 
these standards. Over time, EPA will continue to update this economic 
analysis as more information on the implementation strategies becomes 
known. However, under the health-based approach required by the CAA, 
the appropriate place for cost and efficiency considerations is during 
the development of implementation strategies, strategies that will 
allow communities, over time, to meet the health based standards. The 
implementation process is where decisions are made--both nationally and 
within each community--affecting how much progress can be made, and 
what time lines, strategies and policies make the most sense. For 
example, the implementation process includes the development of 
national emissions standards for cars, trucks, fuels, large industrial 
sources and power plants, and through the development of appropriately 
tailored state and local implementation plans.
    In summary, this RIA and associated analyses are intended to 
generally inform the public about the potential costs and benefits that 
may result when the promulgated revisions to the ozone and PM NAAQS are 
implemented by the States, but are not relevant to establishing the 
standards themselves. This RIA also presents the benefits and costs of 
alternative regional haze goals which may be relevant to establishing 
provisions of the regional haze rule.
General Limitations of this Analysis
    Cost-benefit analysis provides a valuable framework for organizing 
and evaluating information on the effects of environmental programs. 
When used properly, cost-benefit analysis helps illuminate important 
potential effects of changes in policy and helps set priorities for 
closing information gaps and reducing uncertainty. However, 
nonmonetized benefits are not included here. Executive Order 12866 is 
clear that unquantifiable or nonmonetizable categories of both costs 
and benefits should not be ignored. It is particularly important to 
note that there are many unquantifiable and nonmonetizable benefits 
categories. Including many health and welfare effects.
    Several specific limitations need to be mentioned. The state of 
atmospheric modeling is not sufficiently advanced to adequately account 
for all the interactions between these pollutants and the 
implementation strategies which may be used to control them. 
Additionally, significant shortcomings exist as to the data available 
for these analyses. While containing uncertainties, the models used by 
EPA and the assumptions in the analysis are thought to be reasonable 
based on the available evidence.
    Another major limitation is the illustrative implementation 
scenario which EPA uses in this analysis to measure the cost of meeting 
the new standards. The strategies used are limited in part because of 
our inability to predict the breadth and depth of the creative 
approaches to implementing these new NAAQS, and in part by technical 
limitations in modeling capabilities. These limitations, in effect, 
force costs to be developed based on compliance strategies that may 
reflect suboptimal approaches to implementation, and therefore, may 
reflect higher potential costs for attaining the new standards. This 
approach renders the result specifically useful as an incentive to 
pursue lower cost options, but not as a precise indicator of likely 
costs.
    Another dimension adding to the uncertainty of this analysis is 
time. In the case of air pollution control, thirteen years is a very 
long time over which to carry assumptions. Pollution control technology 
has advanced considerably in the last thirteen years and can be 
expected to continue to advance in the future. Yet there is no clear 
way model this advance for use in this analysis.
    Furthermore, using 2010 as the analytical year for our analysis may 
not allow sufficient time for all areas to reach attainment. This 
analysis recognizes this by not arbitrarily assuming all areas reach 
attainment in 2010. Because 2010 is earlier than many areas are likely 
to be required to attain, especially for PM<INF>2.5</INF>, the result 
is a snapshot in time, reflecting progress and partial attainment but 
not complete attainment.
    What we know about 2010 is limited by several factors. This is 
because EPA's modeling was not able to identify specific measures 
sufficient to attain the standards in all areas by the analytical year. 
Further, in EPA's effort to realistically model control measures which 
might actually be put into practice, our analysis excludes control 
measures which historically have been seen to be cost-ineffective.
    However, even though the control measures identified in our models 
may be insufficient to reduce pollutants to reach the standards in all 
areas, there is sufficient evidence to predict that technological 
innovation and innovative policy mechanisms over the 13 years will make 
substantial progress towards improving techniques to remove pollutants 
in these areas in a cost-effective fashion. Chapter 9 of the RIA 
provides examples of how technological innovation has improved air 
pollution control measures over the last 10 years and lists emerging 
technologies which may be available in the year 2010. It also provides 
a rough estimate of full attainment costs that might result from the 
implementation of these and other control technologies yet to be 
developed.
    It is important to recognize that with the finalization of the new 
ozone and PM standards, the Act, and the implementation package 
accompanying the standards, allow for flexibility in the development of 
implementation strategies, both for control strategies as well as 
schedules. The actual determination of how areas or counties will meet 
the standards is done by States during the development of their State 
Implementation Plans (SIPs). These SIPs are generally based on the 
results from more detailed area specific models using more complete 
information than is available to EPA for the development of its 
national analysis. For this reason, while EPA believes that this RIA is 
a good approximation of the national costs and benefits of these rules 
(subject to the limitations described elsewhere), this analysis cannot 
accurately predict what will occur account for what happens in 
individual areas. In addition, this RIA does not take into account all 
the creativity and flexibility which a State will have when actually 
implementing these standards. Thus, cheaper ways of implementing the 
new standards and obtaining the same amount of benefits may well be 
found.
    Qualitative and more detailed discussions of the above and other 
uncertainties and limitations are included in the analysis. Where 
information and data exists, quantitative characterizations of these 
and other uncertainties are included. However, data limitations prevent 
an overall quantitative estimate of the uncertainty associated with 
final estimates. Nevertheless, the reader should keep all of these 
uncertainties and limitations in mind when reviewing and interpreting 
the results.
Overview of RIA Methodology: Inputs and Assumptions
    The potential costs, economic impacts and benefits have been 
estimated for each of the three rules. The flow chart below summarizes 
the analytical steps taken in developing the results presented in this 
RIA.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The assessment of costs, economic impacts and benefits consists of 
multiple analytical components, dependent upon emissions and air 
quality modeling. In order to estimate baseline air quality in the year 
2010, emission inventories are developed for 1990 and then projected to 
2010, based upon estimated national growth in industry earnings and 
other factors. Current CAA-mandated controls (e.g., Title I reasonably 
available control measures, Title II mobile source controls, Title III 
air toxics controls, Title IV acid rain sulfur dioxide (SO2) controls) 
are applied to these emissions to take account of emission reductions 
that should be achieved in 2010 as a result of implementation of the 
current PM and ozone requirements. These 2010 CAA emissions in turn are 
input to an air quality model that relates emission sources to county-
level pollutant concentrations. This modeled air quality is used to 
identify projected counties, based on these assumptions, that exceed 
the alternative pollutant concentration levels \1\. A cost optimization 
model is then employed to determine, based on a range of assumptions, 
the least cost control strategies to achieve the alternatives in 
violating counties. Given the estimated costs of attaining alternative 
standards, the potential economic impacts of these estimated costs on 
potentially affected industry sectors is subsequently analyzed. 
Potential health and welfare benefits are also estimated from modeled 
changes in air quality as a result of control strategies applied in the 
cost analysis. Finally, benefits and costs are compared.
---------------------------------------------------------------------------
    \1\ For the purposes of this RIA, the term ``attain'' or 
``attainment'' is used to indicate that the air quality level specified 
by the standard alternative is achieved. Because the analyses in this 
RIA are based on one-year of air quality data, they are only estimates 
of actual attainment; all standard alternatives are specified as 3-year 
averages.
---------------------------------------------------------------------------
    This RIA presents results for the coordinated implementation of 
these three rules as well as providing an estimate of their costs and 
benefits separately. Due to the lack of an integrated air quality 
model, it is impossible to concurrently estimate the joint impacts. In 
an attempt to provide as much information as possible regarding joint 
impacts, EPA is able to model the two NAAQS sequentially by assuming 
first the imposition of controls to meet the new ozone standard, 
followed by the new PM standard and regional haze target but was unable 
to sufficiently model adequately the imposition of controls to meet the 
new PM standard, followed by the new ozone and regional haze standards. 
Neither approach correctly models the actual process which would be 
used by decision makers trying to simultaneously develop an optimal 
program to control all three pollutants. The coordinated implementation 
national results do not show much difference from the sum of the three 
rules. This is thought to occur due more to model limitations than a 
true result.
    This analysis estimates the potential costs, economic impacts and 
benefits for three PM standard options, three ozone standard options 
and two regional haze options. The alternatives analyzed include:

For PM<INF>10</INF>
    <bullet>  the promulgated PM<INF>10</INF> standard set at 50 
<greek-m>g/m<SUP>3</SUP> annual mean, and 150 <greek-m>g/m<SUP>3</SUP>, 
99th percentile 24-hour average
For PM<INF>2.5</INF>
    <bullet>  the promulgated PM<INF>2.5</INF> standard set at 15 
<greek-m>g/m<SUP>3</SUP>, spatially averaged annual mean, and 65 
<greek-m>g/m<SUP>3</SUP>, 98th percentile 24-hour average and two 
alternatives: 1) an annual standard set at 15 <greek-m>g/m<SUP>3</SUP>, 
in combination with a 24-hour standard set at 50 <greek-m>g/
m<SUP>3</SUP>; and 2) an annual standard set at 16 <greek-m>g/
m<SUP>3</SUP>, in combination with a 24-hour standard set at 65 
<greek-m>g/m<SUP>3</SUP>.
For Ozone
    <bullet>  the promulgated ozone standard set at .08 parts per 
million (ppm) in an eight hour concentration based fourth highest 
average daily maximum form, and two alternatives: 1) .08 ppm in an 
eight hour concentration based third highest average daily maximum 
form; and 2) .08 ppm in an eight hour concentration based fifth highest 
average daily maximum form.
For Regional Haze
    <bullet>  a regional haze visibility target reduction of 0.67 and 1 
deciview. These reductions are analyzed incremental to the 
implementation of the new PM<INF>2.5</INF> standard.
    The RIA analyses have been constructed such that benefits and costs 
are estimated incremental to those derived from the combined effects of 
implementing both the 1990 CAA Amendments and the current 
PM<INF>10</INF> and ozone NAAQS as of the year 2010. These analyses 
provide a ``snapshot'' of potential benefits and costs of the new NAAQS 
and regional haze rule in the context of (1) implementation of CAA 
requirements between now and 2010, (2) the effects on air quality that 
derive from economic and population growth, and (3) the beneficial 
effects on air quality that the Agency expects will result from a 
series of current efforts to provide regional level strategies to 
manage the long range transport of NOx and SO2. It should be kept in 
mind that 2010 is earlier than attainment with the new standards will 
be required.
    This RIA does not attempt to force its models to project full 
attainment of the new standards in areas not predicted to achieve 
attainment by 2010. However, farther calculations are performed to 
attempt to project full attainment benefits and costs in this RIA. For 
the benefit estimates, the same general methodology used in our base 
analysis is extended to derive the estimates and are reported within 
this RIA. For the cost estimates a limited methodology is used to 
predict potential costs of full attainment, with the last increment of 
reductions being ``achieved'' through the use of unspecified measures 
having an average emission cost-effectiveness of $10,000 per ton. It is 
important to recognize that EPA has much less confidence in these cost 
estimates because of the length of time over which full attainment 
would be achieved.
    In that regard, the $10,000 cost estimate for these reductions is 
intended to provide an ample margin to account for unknown factors 
associated with fixture projections, and may tend to overestimate the 
final costs of attainment. In fact, EPA will encourage, and expects 
that States will utilize, market based approaches that would allow 
individual sources to avoid incurring costs greater than $10,000/ton. 
Chapter 9 discusses EPA's particular interest in applying the concept 
of a Clean Air Investment Fund that would allow individual sources to 
avoid incurring costs greater than $10,000 per ton. Based on this 
analysis, EPA believes that a large number of emissions reductions are 
available at under $10,000 a ton; sources facing higher control costs 
could finance through such a fund. Compliance strategies like this will 
likely lower costs of compliance through more efficient allocation, and 
can serve to stimulate technology innovation.
    The estimation of benefits from environmental regulations poses 
special challenges. The include the difficulty of quantifying the 
incidence of health, welfare, environmental endpoints of concern, and 
the difficulty of assigning monetized values to these endpoints. As a 
result, many categories of potential benefits have not been monetized 
at all, and those that have been are given in ranges. Specifically, 
this RIA has adopted the approach of presenting a ``plausible range'' 
of monetized benefits to reflect these uncertainties by selecting 
alternative values for each of several key assumptions. Taken together, 
these alternative sets of assumptions define a ``high end'' and a ``low 
end'' estimate for the monetized benefits categories.
    In choosing alternative assumptions, EPA has tried to be responsive 
to the many comment it received on the RIAs that accompanied the 
proposed rules. It should be emphasized, however, that the high and low 
ends of the plausible range are not the same as upper and lower bounds. 
For many of the quantitative assumptions involved in the analysis, 
arguments could be made for an even higher or lower choice, which could 
lead to an even greater spread between the high end and low end 
estimates. The analysis attempts to present a plausible range of 
monetized benefits for the categories that have been analyzed. Again, 
it must be stressed that many benefits categories have not been 
monetized at all, because of both conceptual and technical difficulties 
in doing so. These benefits are in addition to the plausible range of 
monetized benefits considered here.

                           summary of results

Direct Cost and Economic Impact Analyses

    Potential annual control costs (in 1990 dollars) are estimated for 
attainment of each alternative standard. Potential administrative costs 
of revising the PM<INF>10</INF> monitoring network and the costs of a 
new PM<INF>2.5</INF> monitoring network as well as the administrative 
costs of implementing the new rules are also reported.
    Possible economic impacts based on these control costs are 
estimated for the same alternative standards. This impacts analysis 
also include a screening analysis providing estimated annual average 
cost-to-sales ratios for all potentially affected industries.
Key Results and Conclusions
            Ozone
    Estimated annual identifiable control costs corresponding to the 
partial attainment of the promulgated ozone standard is $1.1 billion 
per year incremental to the current standard. This estimate is based on 
the adoption, where needed, of all currently identifiable reasonably 
available control technologies for which EPA has cost data, and which 
cost less than $10,000/ton.
    Under the partial attainment scenario, there are estimated to be 17 
potential residual nonattainment areas, 7 of which are also in residual 
nonattainment for the current ozone standard.
    The implication of residual nonattainment is that areas with a VOC 
or NOx deficit will likely need more time beyond 2010; new control 
strategies (e.g., regional controls or economic incentive programs); 
and/or new technologies in order to attain the standard.
    Under the illustrative scenario selected, at least one or more 
establishments (e.g. industrial plant) in up to 227 of U.S. industries 
(as defined by 3-digit SIC codes) which are estimated to have cost-to-
sales ratios of at least 0.01 percent by the chosen standard. 
Approximately 25 of these are industries which have some establishments 
which are estimated to have cost-to-sales ratios exceeding 3 percent, 
and therefore may experience potentially significant impacts. These 
results are highly sensitive to the choice of control strategy.
    A very small proportion of establishments are potentially affected 
for most of the SIC codes affected by the new ozone standard. The 
number of establishments potentially affected is 0.13 percent of all 
establishments in affected SIC codes for the selected standard.
    This RIA does not attempt to force its models to project full 
attainment of the new standard in areas not predicted to achieve 
attainment by 2010. However, full attainment costs of the selected 
standard are estimated at $9.6 billion per year incremental to the 
current standard. It is important to recognize that EPA has much less 
confidence in these cost estimates because of the inherent 
uncertainties in attributing costs to new technologies.

            PM

    Estimated annual identifiable control costs corresponding to the 
partial at attainment of the selected PM standard are $8.6 billion per 
year incremental to the current PM<INF>10</INF> standard. This estimate 
is based on the adoption of the majority of currently identifiable 
control measures for which EPA had cost-effectiveness data. For the PM 
analysis, a $1 billion/<greek-m>g/m<SUP>3</SUP> cut-off is used to 
limit the adoption of control measures. Control measures providing air 
quality improvements are less than $1 billion/<greek-m>g/m<SUP>3</SUP> 
are adopted where the air quality model and cost analysis identify 
control measures as being necessary.
    Under the partial attainment scenario, an estimated 30 potential 
residual nonattainment counties, 11 of which are also in residual 
nonattainment for the current PM<INF>10</INF> standard.
    The implication of residual nonattainment is that counties with 
PM<INF>2.5</INF> levels above the standard will likely need more time 
beyond 2010; new control strategies (e.g., regional controls or 
economic incentive programs); and/or new technologies in order to 
attain the standard.
    Under the illustrative scenario selected, at least one or more 
establishments (e.g. industrial plant) in up to 198 of U.S. industries 
(as defined by 3-digit SIC codes) which are estimated to have cost-to-
sales ratios of at least 0.01 percent by the chosen standard. 
Approximately 86 of these are industries which have some establishments 
which are estimated to have cost-to-sales ratios exceeding 3 percent, 
and therefore may experience potentially significant impacts. These 
results are highly sensitive to the choice of control scenario.
    A small proportion of establishments are potentially affected for 
most of the SIC codes affected by the new PM standards. The average 
number of establishments potentially affected is about 2.7 percent in 
total affected SIC codes for the selected standard.
    The year 2010 is prior to the time that full attainment is required 
under the CAA. This RIA does not attempt to force its models to project 
full attainment of the new standard in areas not predicted to achieve 
attainment by 2010. However, full attainment costs of the selected 
PM<INF>2.5</INF> standard in 2010 are estimated at $37 billion per year 
incremental to the current standard. It is important to recognize that 
EPA has much less confidence in these cost estimates because of the 
inherent uncertainties in attributing costs to new technologies.
Regional Haze
    The expected annual control cost for the year 2010 associated with 
the proposed regional haze rule ranges from $0 to a maximum of $2.7 
billion. The additional cost of implementation of the proposed regional 
haze rules will vary depending on the visibility targets selected by 
States. If targets are adjusted through that process to parallel the 
implementation programs for the new ozone and PM standards, the costs 
for meeting the adjusted targets in those areas will be borne by the 
ozone and PM programs. The proposed rule, however, includes a 
presumptive target of 1.O Deciview improvement over either 10 or 15 
years (on the 20 percent worst days); any adjustments to this target 
must be justified by States on a case-by-case basis. The high end costs 
in this analysis assume that 76 mandated Class I areas will need 
additional reductions to meet the 10 year presumptive target from 2000 
to 2010. The additional control cost associated with meeting the 
presumptive 1.0 deciview target in 10 years in 48 of these areas, and 
partial achievement in 28 areas is estimated to be $2.7 billion. If the 
1.0 deciview improvement in 15 years target is promulgated, this 
analysis projects that 58 Class I areas would not meet this target with 
NAAQS controls alone. To fully attain a 0.67 deciview improvement 
between 2000 and 2010 in 41 of these areas and partially attain the 
0.67 target in 17 areas would cost an estimated $2.1 billion.
Benefit Analysis
    Health and welfare benefits are estimated for attainment of the PM 
and ozone standards and visibility improvements resulting from the 
proposed regional haze program. The estimated change in incidence of 
health and welfare effects is estimated for each air quality change 
scenario as defined by the 2010 baseline and post-attainment air 
quality distributions. These estimated changes in incidence are then 
monetized by multiplying the estimated change in incidence of each 
endpoint by its associated dollar value of avoiding an occurrence of an 
adverse effect. These endpoint-specific benefits are then summed across 
all counties to derive an estimate of total benefit. Because there are 
potentially significant categories for which health and welfare 
benefits are not quantified or monetized due to a lack of scientific 
and economic data, the benefit estimates presented in this analysis are 
incomplete.
    Tables ES-l and ES-2 list the anticipated health and welfare 
benefit categories that are reasonably associated with reducing PM and 
ozone in the atmosphere, specifying those for which sufficient 
quantitative information exists to permit benefit calculations. Because 
of the inability to monetize some existing benefit categories, such as 
changes in pulmonary function and altered host defense mechanisms, some 
categories are not included in the calculation of the monetized 
benefits.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Key Results and Conclusions
    There are a number of uncertainties inherent in the underlying 
functions used to produce quantitative estimates. Some important 
factors influencing the uncertainty associated with the benefits 
estimates are: whether a threshold concentration exists below which 
associated health risks are not likely to occur, the valuation estimate 
applied to premature mortality and the estimation of post-control air 
quality. Additionally, there is greater uncertainty about the existence 
and the magnitude of estimated excess mortality and other effects 
associated with exposures as one considers increasingly lower 
concentrations approaching background levels. The high and low end 
benefits estimates, as discussed above, attempt to bracket a plausible 
range that accounts for some of these uncertainties.
            Ozone
    Partial attainment of the selected ozone standard results in 
estimated monetized annual benefits in a range of $0.4 and $2.1 billion 
per year incremental to the current ozone standard. The estimate 
includes from 0 to 330 incidences of premature mortality avoided.
    The major benefit categories that contribute to the quantified 
benefits include mortality, hospital admissions, acute respiratory 
symptoms and welfare effects. Mortality benefits represent about 90 
percent of the high end benefits estimates. However, this analysis 
excludes a number of other benefit categories.
    Full attainment of the preferred ozone standard results in 
estimated monetized benefits of in a range of $1.5 to $8.5 billion per 
year incremental to the current ozone standard. The estimate includes 0 
to 1,300 incidences of premature mortality avoided (corresponding to 
long-term mortality, respectively).
    There are benefits from ozone control that could not be monetized 
in the benefits analysis, which in turn, affect the benefit-cost 
comparison. Nonmonetized potential benefits categories include: effects 
in lung function; chronic respiratory damage and premature aging of the 
lungs; increased susceptibility to respiratory infection; protection of 
ornamental plants, mature trees, seedlings, Class I areas, and 
ecosystems; reduced nitrates in drinking water, and reduced brown cloud 
effects. The effect of our inability to monetize these benefits 
categories leads to an underestimation of the monetized benefits 
presented in this RIA.
            PM
    Partial attainment of the selected PM<INF>2.5</INF> standard 
results in estimated monetized annual benefits in a range of $19 to 
$104 billion per year incremental to the current PM<INF>10</INF> 
standard, including 3,300 to 15,600 incidences of premature mortality 
avoided.
    The major benefit categories that contribute to the quantified 
benefits include mortality, hospital admissions, acute respiratory 
symptoms and welfare effects. Mortality benefits represent about 12 
percent to 70 percent of the benefits estimates. However, this analysis 
excludes a number of other benefit categories.
    Full attainment of the preferred PM<INF>2.5</INF> standard results 
in estimated monetized benefits of in a range of $20 and $110 billion 
per year incremental to the current PM<INF>10</INF> standard, including 
3,700 to 16,600 incidences of premature mortality avoided 
(corresponding to short-term and long-term mortality, respectively). 
These numbers are significant underestimates because EPA has no 
procedure to predict full attainment benefits outside nonattainment 
county boundaries for PM<INF>2.5</INF>.
    There are benefits from PM control that could not be monetized in 
the benefits analysis, which in turn affect the benefit-cost 
comparison. Nonmonetized potential benefits categories include: effects 
in pulmonary function; increased susceptibility to respiratory 
infection; cancer; infant mortality; effects associated with exposure 
to mercury; protection of ecosystems; reduced acid sulfate deposition; 
reduced materials damage; reduced nitrates in drinking water, and 
reduced brown cloud effects. The effect of our inability to monetize 
these benefit categories leads to an underestimation of the monetized 
benefits presented in this RIA.

            Regional Haze

    The expected visibility and associated health and welfare annual 
benefits for the year 2010 associated with the proposed regional haze 
rule ranges from $0 to a maximum of $5.7 billion. The amount of 
benefits from implementation of the proposed regional haze rules will 
vary depending on the visibility targets selected by States. If targets 
are adjusted-through that process to parallel the implementation 
programs for the new ozone and PM standards, the benefits for meeting 
the adjusted targets in those areas will not exceed those calculated 
for ozone and PM programs. The proposed rule, however, includes a 
presumptive target of a 1.0 Deciview improvement over either 10 or 15 
years (on the 20 percent worst days); any adjustments to this target 
must be justified by States on a case-by-case basis. The high end 
benefits in this analysis assume that 76 mandated Class I areas will 
need additional emissions reductions to meet the 10 year presumptive 
target from 2000 to 2010. The additional benefits, resulting from 48 of 
the 76 areas meeting the presumptive 1.0 deciview target, and 28 of the 
76 areas having partial achievement, are estimated to range from $1.7 
to $5.7 billion. The additional benefits resulting from 41 Class I 
areas meeting the presumptive 0.67 deciview improvement target between 
2000 and 2010, and 17 areas partially meeting the 0.67 deciview target 
range from $1.3 to $3.2 billion.

Monetized Benefit-Cost Comparison
    Comparing the benefits and the costs provides one framework for 
comparing alternatives in the RIA. As noted above, both the Agency and 
the courts have defined the NAAQS standard setting decisions, both the 
initial standard setting and each subsequent review, as health-based 
decisions that specifically are not to be based on cost or other 
economic considerations. This benefit-cost comparison is intended to 
generally inform the public about the potential costs and benefits that 
may result when revisions to the ozone and PM NAAQS are implemented by 
the States. Costs and benefits of the proposed regional haze rule are 
also presented. Monetized benefit-cost comparisons are presented for 
both the full and partial attainment scenarios nonmonetized effects by 
definition cannot be included. In considering these estimates, it 
should be stressed that these estimates contain significant 
uncertainties as discussed throughout this analysis.
    Estimated quantifiable partial attainment (P/A) benefits of 
implementation of the particulate matter (PM) and ozone NAAQS exceed 
estimated P/A costs. Estimated quantifiable net P/A benefits (P/A 
benefits minus P/A costs) for the combined PM<INF>2.5</INF> 15/65 and 
ozone .08 ppm 4th max standards range from approximately $10 to $96 
billion.
    Considered separately, estimated quantifiable P/A benefits of 
PM<INF>2.5</INF> standard far outweigh estimated P/A costs. Estimated 
quantifiable net P/A benefits of the selected PM<INF>2.5</INF> 15/65 
standard range from $10 to $95 billion. Estimated quantifiable full-
attainment (F/A) benefits may or may not exceed estimated P/A costs for 
PM depending on whether the low end or high end estimates are used. Net 
benefits for the PM<INF>2.5</INF> F/A scenario range from negative $18 
billion to positive $67 billion. Estimated quantifiable P/A benefits of 
the ozone standard also exceed estimated quantifiable P/A costs, though 
by a smaller margin. Estimated quantifiable net P/A benefits of the 
ozone .08 ppm, 4th max standard range from $-0.7 to $1.0 billion. The 
full range of F/A benefit estimates are smaller than the F/A costs for 
ozone with net benefits ranging from negative $1.1 billion to negative 
$8.1 billion. Estimated quantifiable net benefits from the proposed 
regional haze program range from $0 to $3.0 billion.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 [Excerpts from Report, Regulatory Impact Analyses for the Particulate 
 Matter and Ozone National Ambient Air Quality Standards and Proposed 
  Regional Haze Rule, supplied in response to questions from Senator 
                                Inhofe)

                12.0 benefits of naaqs and regional haze
12.1 Results in Brief
    Partial attainment of the selected particulate matter (PM) National 
Ambient Air Quality Standards (NAAQS) is expected to yield national 
annual monetized benefits (health and welfare) of approximately $15 
billion to $104 billion. Partial attainment of the selected ozone NAAQS 
is expected to yield national annual monetized benefits of 
approximately $0.4 billion to $2.1 billion. In addition, the benefits 
associated with the proposed regional haze (RH) rule are estimated to 
be either, zero, on the assumption that no controls beyond those needed 
for the NAQS are imposed, a range of $1.3 to $3.2 billion, if all areas 
adopted a target of l d.v. in 15 years, or, $1.7 to $5.7 billion for 1 
d.v. in 10 years. To the extent that these estimates fail to quantify 
many benefit categories, such as damage to ecosystems, damage to 
vegetation in national parks, damage to ornamental plants, damage to 
materials (e.g., consumer cleaning cost savings), and acid sulfate 
deposition, these understate actual benefits. The health and welfare 
benefits categories examined in this analysis and the methodology used 
to estimate the monetized benefits are presented-below. Estimates of 
full attainment, though less certain than estimates for partial 
attainment, include a plausible range of benefits of $60 to $ 110 
billion for PM<INF>2.5</INF> and a plausible range of benefits for 0.08 
4th max of $5.2 to $8.5 billion.
12.2 Introduction
    This chapter presents the benefits methodology and results for the 
PM and ozone NAAQS and a proposed RH rule. In addition, this chapter 
also presents the methodology and results associated with visibility 
improvements due to a proposed RH rule. The analysis estimates the 
potential human health and welfare (all benefits categories except 
human health) benefits associated with the PM, ozone, and RH rules. The 
emissions and air quality changes presented in Chapters 6, 7, and 8 are 
used as inputs to this benefits analysis. The following sections in 
this chapter include:
    <bullet>  The economic concept of benefits;
    <bullet>  The methodology for estimating post-control air quality 
changes;
    <bullet>  The methodology for estimating human health effects and 
the economic value associated with those effects;
    <bullet>  The methodology for estimating welfare effects and the 
economic value associated with those effects, where feasible;
    <bullet>  The health and welfare benefits associated with 
alternative PM, ozone, and RH rules;
    <bullet>  A discussion of potential benefit categories that are not 
quantifiable due to data limitations;
    <bullet>  A list of analytical uncertainties, limitations, and 
biases;
12.3 Updates and Refinements
    The methodology for estimating health and welfare benefits 
associated with the PM and ozone NAAQS builds upon previous work 
conducted for the December 1996 PM and ozone draft regulatory impact 
analyses (RIAs). This analysis retains the majority of the 
concentration-response relationships used in the previous RIAs. 
However, a number of prominent revisions to the previous draft RIAs are 
made. Major updates and refinements include:
    <bullet>  Expansion of the plausible range of benefits by 
attempting to quantify several areas of uncertainty that were discussed 
qualitatively in the preamble and RIA to the proposed rules, through 
the adoption of a range of plausible assumptions for several key 
parameters in the analysis;
    <bullet>  Refined estimates of the high end of the plausible range 
of ozone-induced mortality through a meta-analysis of recently 
published studies;
    <bullet>  Consideration of PM-related benefits attributable to 
emission reductions associated with control strategies implemented to 
meet ozone NAAQS alternatives. These benefits are referred to as 
ancillary PM benefits;
    <bullet>  The estimation of ozone-related benefits in counties 
outside of defined ozone nonattainment areas;
    <bullet>  The concept of downwind transport areas is incorporated 
into the post-control ozone air quality;
    <bullet>  Refined estimates of willingness-to-pay values for 
benefits categories such as chronic bronchitis and visibility;
    <bullet>  Incorporation of a life-years extended approach to 
estimate and value premature PM mortality;
    <bullet>  Updated economic information for the agricultural models;
    <bullet>  The estimation of additional benefits categories such as: 
reduced nitrogen deposition in sensitive estuaries, tonics reductions 
attributable to ozone controls, commercial forest protection in the 
western U.S., and visibility improvements in national parks;
    <bullet>  A sensitivity analysis on the air quality rollback 
procedure employed to simulate post-control ozone air quality;
    <bullet>  The application of the PM source-receptor matrix to post-
control emissions on a nation-wide basis (rather than modeling region 
basis) to estimate PM post-control air quality. This step accounts for 
pollutant transport between 6 PM modeling regions.

           12.4 overview of to benefits analysis methodology

12.4.1 Introduction
    The Clean Air Act requires EPA to set NAAQS and to regulate 
regional haze in order to provide benefits to society by enhancing 
(improving and protecting) human health and welfare. This chapter 
provides information on the types and levels of social benefits 
anticipated from the proposed rulemaking. This information includes: 
(1) background information on benefits assessment, describing benefits 
categories and issues in benefits estimation; (2) qualitative 
descriptions of the types of benefits associated with alternative 
standards; (3) quantitative estimates of benefits categories for which 
concentration-response information is available; and (4) monetized 
estimates of benefits categories for which economic valuation data are 
available.

12.4.2 Benefits Categories Applicable to the Regulation
    To conduct a benefits analysis, the types or categories of benefits 
that apply need to be defined Figure 12.1 provides an example of the 
types of benefits potentially observed as a result of changes in air 
quality. The types of benefits identified in both the health and 
welfare categories can generally be classified as use benefits or non-
use benefits.
    Use benefits are the values associated with an individual's desire 
to avoid his or her own exposure to an environmental risk. Use benefits 
categories can embody both direct and indirect uses of affected ambient 
air. The direct use category embraces both consumptive and 
nonconsumptive activities. In most applications to air pollution 
scenarios, the most prominent use benefits categories are those related 
to human health risk reductions, effects on crops and plant life, 
visibility, and materials damage.
    Non-use (intrinsic) benefits are values an individual may have for 
lowering air pollution concentrations or the level of risk unrelated to 
his or her own exposure. Improved environmental quality can be valued 
by individuals apart from any past, present, or anticipated future use 
of the resource in question. Such nonuse values may be of a highly 
significant magnitude; however, the benefit value to assign to these 
motivations often is a matter of considerable debate. While human uses 
of a resource can be observed directly and valued with a range of 
technical economic techniques, nonuse values must be ascertained 
through indirect methods, such as asking survey respondents to reveal 
their values.
    Non-use values may be related to the desire to know that a clean 
environment be available for the use of others now and in the future, 
or may be related to the desire to know that the resource is being 
preserved for its own sake, regardless of human use. The component of 
non-use value that is related to the use of the resource by others in 
the future is referred to as the bequest value. This value is typically 
thought of as altruistic in nature. For example, the value that an 
individual places on reducing the general population's risk of PM and/
or ozone exposure either now or in the future is referred to as the 
bequest value. Another potential component of non-use value is the 
value that is related to preservation of the resource for its own sake, 
even if there is no human use of the resource. This component of non-
use value is sometimes referred to as existence value. An example of an 
existence value is the value placed on the ecological benefits of 
protecting areas known as wetlands because they play a crucial role in 
our ecological system, even if the wetlands themselves are not directly 
used by humans.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The majority of health and welfare benefits categories presented in 
this analysis can be classified as direct use benefits. These benefits 
are discussed in greater detail compared to other benefits categories 
presented in Figure 12.1 because more scientific and economic 
information has been gathered for the direct use benefits category. For 
example, scientific studies have been conducted to discern the 
relationship between ozone exposure and subsequent effects on specific 
health risks and agricultural commodities. In addition, economic 
valuation of these benefits can be accomplished because a market exists 
for some categories (making it possible to collect supply, demand, and 
price information) or contingent valuation studies have been conducted 
for categories that people are familiar with (such as willingness-to-
pay surveys for non-market commodities).
    Detailed scientific and economic information is not as readily 
available for the remainder of the benefits categories listed in Figure 
12.1. Information pertaining to indirect use, option value, aesthetic, 
bequest, and existence benefits is often more difficult to collect. For 
example, lowering ambient ozone concentrations in an area is expected 
to reduce physical damage to ornamental plants in the area. A homeowner 
living in the affected area with ornamental plants in his yard is 
expected to benefit from the reduced damage to his plants, with his 
plants possibly exhibiting an improved appearance or experiencing an 
extended life. Although scientific information can help identify the 
benefits category of decreased damage to urban ornamentals, lack of 
more detailed scientific and economic information (e.g., concentration-
response relationships for urban ornamentals and values associated with 
specific types of injuries and mitigation) prevent quantification of 
this benefits category.
    Another problem related to lack of information is the difficulty in 
identifying all benefits categories that might result from 
environmental regulation and in valuing those benefits that are 
identified. A cost analysis is expected to provide a more comprehensive 
estimate of the cost of an environmental regulation because technical 
information is available for identifying the technologies that would be 
necessary to achieve the desired pollution reduction. In addition, 
market or economic information is available for the many components of 
a cost analysis (e.g., energy prices, pollution control equipment, 
etc.). A similar situation typically does not exist for estimating the 
benefits of environmental regulation. The nature of this problem is due 
to the non-market characteristic of many benefits categories. Since 
many pollution effects (e.g., adverse health or agricultural effects) 
traditionally have not been traded as market commodities, economists 
and analysts cannot look to changes in market prices and quantities to 
estimate the value of these effects. This lack of observable markets 
may lead to the omission of significant benefits categories from an 
environmental benefits discussion.
    The inability to quantify the majority of the benefits categories 
listed in Figure 12.1 as well as the possible omission of relevant 
environmental benefits categories may lead the quantified benefits 
presented in this report to be underestimated relative to total 
benefits. It is not possible to estimate the magnitude of this 
underestimate.
    Tables 12.1 and 12.2 present the quantifiable and unquantifiable 
human health and welfare effects associated with exposure to PM, ozone, 
and RH. Note that since the pollutants contributing to RH formation are 
similar to those contributing to particulate formation, the health and 
welfare categories associated with PM are also associated with RH.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

12.4.3 Economic Benefits
    The general term ``benefits'' refers to any and all outcomes of the 
regulation that are considered positive; that is, that contribute to an 
enhanced level of social welfare. The economist's meaning of 
``benefits'' refers to the dollar value associated with all the 
expected positive impacts of the regulation; that is, all regulatory 
outcomes that lead to higher social welfare. If the benefits are 
associated with market goods and services, the monetary value of the 
benefits is approximated by the sum of the predicted changes in 
``consumer (and producer) surplus.'' These ``surplus'' measures are 
standard and widely accepted terms of applied welfare economics, and 
reflect the degree of well-being enjoyed by people given different 
levels of goods and prices. If the benefits are non-market benefits 
(such as the risk reductions associated with environmental quality 
improvements), however, the other methods of examining changes in 
relevant markets must be used. In contrast to market goods, non-market 
goods such as environmental quality improvements are public goods, 
whose benefits are shared by many people. The total value of such a 
good is the sum,of the dollar amounts that all those who benefit are 
willing to pay.
    This conceptual economic foundation raises several relevant issues 
and potential limitations for the benefits analysis of the regulation. 
First, the standard economic approach to estimating environmental 
benefits is anthropocentric--all benefits values arise from how 
environmental changes are perceived and valued by people in present-day 
values. Thus, all near-term as well as temporally distant future 
physical outcomes associated with reduced pollutant loadings need to be 
predicted and then translated into the framework of present-day human 
activities and concerns. Second, as noted above, it may not be possible 
to quantify the value of all benefits resulting from environmental 
quality improvements.

12.4.4 Linking the Regulation to Beneficial Outcomes
    Conducting a benefits analysis for anticipated changes in air 
emissions is a challenging exercise. Assessing the benefits of a 
regulatory action requires a chain of events to be specified and 
understood. As shown in Figure 12.2, which illustrates the causality 
for air quality related benefits, these relationships span the spectrum 
of: (1) institutional relationships and policy-making; (2) the 
technical feasibility of pollution abatement; (3) the physical-chemical 
properties of air pollutants and their consequent linkages to biologic/
ecologic responses in the environment, and (4) human responses and 
values associated with these changes.
    The first two steps of Figure 12.2 reflect the institutional and 
technical aspects of implementing the regulation (the improved process 
changes or pollutant abatement). The benefits analyses presented in 
this document begin at the step of estimating reductions in ambient 
ozone concentrations. The estimated changes in ambient PM or ozone 
concentrations are directly linked to the estimated changes in 
precursor pollutant emission reductions through the use of either a 
source-receptor matrix (see chapter 4) or an air quality rollback 
procedure given the predicted 2010 baseline air quality. Chapter 4 of 
this report presents the methodology used to estimate baseline ambient 
PM and ozone air quality in the year 2010.
    This RIA presents two scenarios for analyzing reductions in ambient 
PM and ozone air quality. The first, referred to as the partial 
attainment scenario, is intended to reflect residual nonattainment 
information as presented in the partial attainment cost analysis. For 
each area identified as not having sufficient control measures to allow 
it to attain a particular standard, the post-control air quality 
estimated for each area is intended to reflect the degree of residual 
nonattainment for that area. The health and welfare benefits estimated 
for this partial attainment scenario represent the identifiable 
benefits expected to result from the application of control measures as 
identified in the partial attainment cost analysis. The second 
scenario, referred to as the full attainment scenario, relies on the 
assumption that all areas will be able to attain any PM or ozone NAAQS 
being evaluated. The health and welfare benefits presented under this 
scenario represent the identifiable benefits that should accrue if all 
areas in the United States could comply with the standard being 
analyzed. Note that the benefits presented for the full attainment 
scenario will always exceed the benefits presented for the partial 
attainment scenario since the partial attainment scenario accounts for 
residual nonattainment. Chapter 4 presents a discussion of the models 
used to estimate baseline PM and ozone air quality.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Other information necessary for the analysis are the physical and 
chemical parameters and the consequent improvement in the environment 
(e.g., concentration-response data). Finally, the analysis reaches the 
stage at which anthropocentric benefits concepts begin to apply, such 
as reductions in human health risk and improvements in crop yields. 
These final steps reflect the focal point of the benefits analyses, and 
are defined by the benefits categories described above. Below, relevant 
benefits categories are described qualitatively, and where possible, 
quantitatively.

12.4.5 Plausible Range of Monetized Benefits
    As discussed throughout this RIA, there are many sources of 
uncertainty in estimating both the costs and the benefits of complex 
regulatory programs such as those that will be required to implement 
the ozone and PM NAAQS. These include uncertainties about the effects 
of emissions reductions on air quality, uncertainties about the effects 
of changes in air quality on health and welfare endpoints of concern, 
and uncertainties about the economic valuation of these endpoints. For 
this reason, this RIA has adopted the approach of presenting a 
``plausible range'' of monetized benefits that reflects these 
uncertainties by selecting alternative values for each of several key 
assumptions. Taken together, these alternative sets of assumptions 
define a ``high end'' and a ``low end'' estimate for the benefits that 
have been monetized in this analysis.
    In choosing alternative assumptions, EPA has attempted to be 
responsive to the many comments received on the RIAs that accompanied 
the proposed rules. As a result, the ranges of benefits presented here 
are substantially wider than the ranges that were presented in the RIAs 
for the proposed rules. It should be emphasized, however, that the high 
and low ends of the plausible range are not the same as upper and lower 
bounds. For many of the quantitative assumptions involved in the 
analysis, arguments could be made for an even higher or lower choice, 
which could lead to an even greater spread between the high end and low 
end estimates. The analysis attempts to present a plausible range of 
monetized benefits for the categorizes that have been analyzed. It 
should also be noted, as discussed in greater detail above, that a 
number of benefits categories have not been monetized, because of both 
conceptual and technical difficulties in doing so. These benefits are 
in addition to the plausible range of monetized benefits considered 
here.
    The uncertainties that have been incorporated into the analysis are 
noted throughout the discussion of the methodology that follows. 
However, a few key assumptions, which have a substantial impact on the 
analysis and which together account for most of the differences between 
the high and low end estimates are note here.
    For PM, one significant source of uncertainty is the possible 
existence of a threshold concentration below which no adverse health 
effects occur. As noted in the preamble to the rule, the 
epidemiological evidence for effects above the level chosen for the 
annual standard is substantially stronger than the evidence for effects 
below that level. As noted in the preamble, although the possibility of 
effects at lower annual concentrations cannot be excluded, the evidence 
for that possibility is highly uncertain and the likelihood of 
significant health risk, if any, becomes smaller as concentrations 
approach background. Consequently, in constructing the high and low end 
benefits estimates, the following alternative assumptions were used. 
The high end estimate assumes that health benefits from reductions in 
PM<INF>2.5</INF> occur all the way down to background levels for 
chronic bronchitis and 12 <greek-m>g/m<SUP>3</SUP> mean for long-term 
mortality. The low end estimate assumes that health benefits occur from 
PM<INF>2.5</INF> reductions only down to the level of the standard, or 
15 <greek-m>g/m<SUP>3</SUP> for all endpoints. Based on the risk 
assessment for mortality, approximately 60 percent of mortalities are 
estimated to occur above 15 <greek-m>g/m<SUP>3</SUP>; that adjustment 
is applied to all PM health benefits for the low end estimate.
    There is also substantial uncertainty about the extent of reduced 
mortality that may be associated with ozone reductions. A number of 
studies documenting a possible relationship between ozone and premature 
mortality are newly available, but these studies were not available at 
the time of the CASAC review of the Criteria Document and Staff Paper, 
and thus were not reviewed by CASAC and were not used in establishing 
the basis for the new 8-hour standard. The high end estimate for ozone 
benefits is based on a mete analysis (discussed in more detail below) 
of nine of the more complete of these recent epidemiological studies, 
while the low end estimate assumes no mortality benefits from ozone 
reductions.
    Furthermore, in the RIAs for the proposed rules, benefits that 
result from reductions in fine particles were attributed only to the PM 
standard, and benefits that result from reductions in ozone were 
attributed only to the ozone standard. In fact, however, NOx is a major 
precursor of both pollutants, so that control measures that reduce NOx 
emissions may lead to significant reductions in both ozone and fine 
particulates. It follows that even in the absence of an ozone standard, 
there would be some ozone benefits from a fine PM standard, and 
conversely, there would be some PM benefits from an ozone standard even 
in the absence of a PM<INF>2.5</INF> standard. There is thus some 
ambiguity about where to assign benefits that result from control 
measures that contribute to the attainment of both standards. To 
account for this ambiguity, the high end benefits estimate for ozone 
attributes to the ozone standard (``ancillary'' PM benefits), while the 
low end estimate for ozone does not include these ancillary benefits.
    Finally, there is substantial disagreement about the appropriate 
method for valuing reductions in risk of premature mortality. The RIAs 
for the proposed rule used a value per statistical life saved (VSL) of 
$4. 8 million. This represents an intermediate value from a variety of 
estimates that appear in the economics literature. It is a value that 
EPA has frequently used in RIAs for other rules. However, it has been 
pointed out that a substantial fraction of the premature deaths 
``avoided'' by reductions in fine PM may represent life shortening by 
as little as a few days or weeks among individuals already suffering 
from severe respiratory or cardiopulmonary disease. Further, the 
average age of individuals who die from causes associated with fine PM 
is significantly higher, and the age specific life expectancy 
correspondingly lower, than the average age and life-expectancy of 
individuals used in the studies from which estimates of VSL were 
derived.
    An alternative approach to valuing reductions in premature 
mortality that addresses these concerns is to estimate total life years 
extended, rather than premature deaths avoided, and multiply the result 
by the value of a statistical life-year extended (VSLY). This approach 
attempts to estimate not only how many premature deaths are avoided, 
but by how long these deaths are postponed. It is consistent with, but 
less refined than, the approach recommended in 1993 by the U.S. Public 
Health Service Panel on Cost-Effectiveness in Health and Medicine, 
which is the incorporation of morbidity and mortality consequences into 
a single measure quality adjusted life years (Haddix, et. al., 1996). 
This alternative approach then assigns a value to each life-year 
extended, rather than to each death postponed. In this analysis, the 
high-end estimate for mortality benefits used the VSL approach, with a 
value of $4.8 million per statistical life saved, while the low-end 
estimate uses the VSLY approach. While there is currently little 
quantitative evidence regarding the extent of life shortening reflected 
in the short term mortality studies, concerns have been raised that a 
significant fraction of this mortality may reflect life shortening by 
only a few days or weeks. In contrast, the CAA Section 812 Study notes 
that the life expectancy of 65-74 year olds, among whom much of the PM-
related mortality occurs, is 14 years. This figure does not account for 
the possibility that much of the premature mortality may occur among 
individuals who are already suffering from serious respiratory or 
cardiopulmonary disease. Consequently, in constructing the low-end 
estimate, the assumption is made that two-thirds of the PM-related 
mortality reductions estimated from short-term studies represent life 
shortening of no more than a few weeks, while one-third represents life 
shortening of 14 years. The resulting estimate of life years extended 
monetizes the life years lost estimate value of $120,000 per year. This 
represents the midpoint value from the range of published estimates 
(Tolley et. al., 1994, p.3 13).

12.4.6 Comparison of RIA to NAAQS Risk Assessment
    The process of proposing and promulgating a revised NAAQS requires 
the Agency to conduct a series of analyses, two of which examine the 
health and welfare implications of revising the NAAQS. The first of 
these analyses is the risk assessment and exposure analyses, summarized 
in the PM and ozone Staff Papers and supplemental analyses, which are 
part of the scientific rationale for these health-based standards. 
(U.S. EPA, 1996c, 1996d) The second is the benefits analysis included 
in this RIA. In general, this RIA adopts the basic methods employed in 
the exposure analyses and risk assessment but attempts to expand the 
scope of the exposure analyses and risk assessment in an effort to 
identify and quantify all potential benefits categories.
    To the extent possible, this health benefits analysis is 
methodologically consistent with analyses conducted for the PM and 
Ozone Staff Papers; however, this RIA's health benefits analysis 
differs from the exposure analyses and risk assessment in five ways.
    1.  This updated benefits analysis includes a number of health and 
welfare endpoints that were not included in the risk assessments. The 
two analyses are different because they serve different purposes: the 
risk assessment is used to provide a scientific basis for revising the 
current NAAQS while the purpose of this benefits analysis is to 
identify all potential health and environmental benefits associated 
with alternative NAAQS levels. Therefore, this benefits analysis must 
provide discussions or estimates of all health and environmental 
effects believed to be associated with exposure to ozone and PM. In 
addition to expanding the types of endpoints that are included in the 
analysis, this analysis estimates PM-related benefits attributable to 
emission reductions associated with control strategies implemented to 
meet the ozone NAAQS alternatives. These benefits are referred to as 
ancillary PM benefits associated with the ozone NAAQS. All health and 
welfare endpoints that are listed for the PM benefits analysis are also 
estimated for the ozone NAAQS analysis if ozone control strategies 
reduce NOx emissions, which also have an effect on PM air quality. The 
ancillary PM benefits occur mostly in areas that have PM concentrations 
below the 15 <greek-m>g/m<SUP>3</SUP> threshold assumed in the low-end 
estimate. Areas that have concentrations above 15 <greek-m>g/
m<SUP>3</SUP> would be out of attainment for PM<INF>2.5</INF>, and it 
is not clear how to ``divide up'' the PM benefits between the ozone and 
PM standards for these areas. Therefore, the PM ancillary benefits are 
not included in the low-end estimate.
    2.  This benefits analysis expands the geographical scope of the 
exposure analyses and risk assessment. The PM and ozone benefits are 
estimated for the continental U.S. (referred to as a national analysis) 
as opposed to the risk assessment's limited number of 2 cities for PM 
and 9 urban areas for ozone. In addition, the PM and ozone benefits are 
estimated for a full calendar year as opposed to the ozone risk 
assessments limitation to the ozone season (the PM risk assessment 
however, was also estimated for a hill year). The scope of the benefits 
analysis is expanded because the NAAQS are nationally applicable rules 
and control strategies implemented to reduce emissions are typically 
operated all year.
    3.   The exposure analyses and risk assessments use population and 
air quality data from relatively current years (1990 to 1993) to 
estimate risk reductions. In contrast, this benefits analysis estimates 
health and welfare effects for projected populations and ambient PM and 
ozone reductions in the year 2010. The year 2010 is an appropriate time 
period of analysis for this RIA because the purpose of this analysis is 
to identify potential benefits and costs associated with the standards 
when they are implemented. The year 2010 is believed to be a 
representative year for the purposes of this RIA.
    4.  The risk and exposure analyses employs a proportional air 
quality rollback procedure for both the PM and ozone NAAQS (with 
alternative rollback procedures as sensitivity analyses for ozone). 
This benefits analysis employs the same proportional air quality 
rollback procedure for the PM full attainment analysis (an air quality 
model is used to estimate partial attainment PM concentrations) but 
applies a hybrid version of the proportional rollback procedure, called 
quadratic rollback, to simulate post-control ozone air quality. The 
quadratic procedure is used for the ozone analysis because the scope of 
the benefits analysis, especially the time over which benefits are 
calculated (full year rather than ozone season only), is more broad 
compared to the ozone risk and exposure assessment. In response to 
public comments on the ozone exposure analyses and risk assessment, EPA 
has conducted sensitivity analyses using alternative air quality 
rollback procedures; including the quadratic rollback employed in this 
RIA. EPA believes the quadratic rollback procedure generally is more 
reflective of how ozone levels decreased for many geographic areas and 
thus, is more suitable for use in a national analysis for a full year. 
See section 12.6 for a more detailed explanation of the characteristics 
of the rollback procedures.
    5.  A significant difference between this benefits analysis and the 
PM and ozone risk and exposure assessment is the inclusion of the 
ozone-induced mortality category in the high-end estimate for this 
analysis. The inclusion of this category creates a significant 
difference in the benefits results because of the number of avoided 
mortality cases predicted in new epidemiological assessments and the 
monetary estimate used to value these avoided cases. A short discussion 
of the ozone mortality issue is presented here due to this significant 
difference between this benefits analysis and the risk and exposure 
assessment.
    A number of community epidemiology studies have suggested a 
possible association of ozone with mortality. The ozone criteria 
document review of the literature concluded that although an 
association between high ozone levels and mortality has been suggested, 
the strength of any such association remained unclear (U.S. EPA, 
1996a). However, although early studies of this issue are flawed (e.g., 
due to poor control for confounders), a significant number of new 
studies (21 peer-reviewed studies, 12 since CASAC closure) have been 
published recently that provides more support for an association 
between ozone exposure and mortality. Although this benefits analysis 
uses data from these new studies to quantitatively estimate the 
relationship between ozone exposure and mortality for the high-end 
estimate, it is important to distinguish the role of this benefits 
analysis in comparison to the NAAQS risk and exposure assessment.
    Results generated by the NAAQS exposure analyses and risk 
assessment are directly used to determine the appropriate level at 
which to set a criteria pollutant standard such that public health is 
protected with ``an adequate margin of safety.'' The exposure analyses 
and risk assessment use only studies that have been reviewed by the 
Clean Air Science Advisory Committee (CASAC). The purpose of this 
benefits analysis is to identify and quantify, to the extent possible, 
all potential benefits categories that might result from implementation 
of the revised standards.
    The additional ozone mortality studies provide increasing evidence 
of associations between ozone exposure and daily mortality. While many 
of these studies show an association between ozone exposure and 
mortality, studies over longer time periods, which collect and use more 
data, show stronger statistical significance compared to studies 
conducted over relatively shorter time frames. See the Benefits 
Technical Support Document (TSD) (U.S. EPA, 1997a) for a more complete 
description of the ozone mortality meta-analysis. Because significant 
uncertainty still exists in the estimation of ozone-induced mortality, 
this category of benefits is included in the high-end estimate but 
excluded from the low-end estimate.

12.5 Scope of Analysis
    The goal of this analysis is to estimate national-level benefits 
associated with the revised PM and ozone standards as well as the 
regional haze program for the year 2010. As was previously explained in 
this RIA, baseline PM air quality data are reported in two ways: an 
annual distribution and a daily distribution. Baseline hourly ozone air 
quality data are generated for the entire year in 2010. Both PM and 
ozone air quality are projected at their respective existing monitor 
sites. The monitor-site air quality data are then used to interpolate 
PM and ozone air quality for all unmonitored counties in the 
continental U.S. Post-control air quality is then estimated (using 
either the source-receptor matrix or the air quality rollback 
procedure) for each of the baseline air quality values. The air quality 
rollback procedure is applied to the appropriate baseline air quality 
values for the entire year.
    This benefits chapter presents national-level summary results 
associated with the NAAQS and RH alternatives analyzed in this report. 
However, readers interested in smaller units of aggregation (e.g., each 
of the six PM regions or each of the ozone nonattainment areas) can 
refer to the Benefits TSD.

              12.6 estimation of post-control air quality

12.6.1 Introduction
    The discussion accompanying Figure 12.2 explains that the starting 
point for this benefits analysis is the estimation of reductions in 
ambient concentrations of PM and Ozone. Previous chapters in this 
analysis have provided information on the development of baseline 
emissions and air quality as well as the estimation of emission 
reductions and costs associated with implementation of the various 
NAAQS alternatives. This chapter continues the analysis by converting 
the estimated emission reductions into decreased ambient PM and ozone 
concentrations. The air quality change is defined by two scenarios: (1) 
Partial Attainment (to reflect air quality improvement expected given 
the adoption, where needed, of reasonably cost-effective emissions 
controls for which adequate cost-effectiveness data exist, and (2) Full 
Attainment (to reflect the potential benefits if all areas are able to 
meet the standards).

12.6.2 Derivation of Annual Distribution of Daily PM Concentrations
    As described in Chapter 4, baseline PM air quality predicted by the 
source-receptor matrix is used as input to the benefits analysis. 
Because the annual distribution of daily PM concentrations cannot be 
predicted by the model, they must be derived from other predicted 
information A reasonable functional form for county-specific air 
quality distributions can be assumed, based on an examination of PM 
distributions in recent years for which actual data exist. Once a 
functional form is chosen, all that is unknown about a given county-
specific distribution are the values of its parameters. The model-
predicted statistics, the annual mean and the 98th or 99th percentile 
daily maximum, can then be used to estimate these parameters, for each 
county-specific distribution, completing the estimate of the county-
specific distribution of daily PM concentrations in the year 2010. For 
the baseline PM<INF>10</INF> alternative, the fourth highest daily 
maximum value is used. For the selected PM<INF>10</INF> alternative, 
the 99th percentile daily maximum value is used. For the 
PM<INF>2.5</INF> alternatives, the 3-year average 98th percentile daily 
maximum value is used. Daily PM concentrations are then generated from 
this estimated distribution.
    To determine the most reasonable annual distributional form for the 
daily PM concentrations in each county in the United States for the 
year 2010, PM data for recent years in each of four locations 
(Philadelphia, PA; St. Louis, MO; Provo, UT; and El Paso, TX) were fit 
to a number of distributions (including, but not limited to, the 
lognormal, the beta and the gamma distributions). The gamma 
distribution was chosen because it generally provided the best fit. The 
above procedure was carried out for each county in the national 
analysis, generating 36S daily PM<INF>10</INF> and 365 daily 
PM<INF>2.5</INF> concentrations for each county in the analysis. The 
procedure used to estimate the two parameters of the gamma distribution 
and to then generate a year's worth of daily PM concentrations from the 
fully specified distribution is described in detail in the Benefits TSD 
(U.S. EPA, 1997a).

12.6.3 Partial Attainment Air Quality Estimation
    The partial attainment benefits scenario is assessed to account for 
the presence of residual nonattainment for both PM and ozone (as 
described in Chapters 6,7, and 8). Under the partial attainment 
scenario, the goal is to approximate post-control air quality related 
to emission reductions achieved by the specific control measures 
identified in the cost analysis. The reader should keep in mind that 
even under this partial attainment scenario, there are some areas that 
the cost analysis estimates will be able to fully attain either the PM 
and/or the ozone standards. The difference between the full and partial 
attainment scenarios is that for the partial attainment scenario, under 
each alternative NAAQS evaluated, a number of areas are identified as 
residual nonattainment areas where insufficient control measures are 
identified to simulate full attainment. Given that the goal of the 
partial attainment benefits scenario is to link projected emission 
reductions, costs, and the resulting air quality improvements, the 
benefits results presented under the partial attainment scenario should 
be viewed as the results most comparable to the partial attainment cost 
estimates presented in Chapters 6, 7, and 8.
    As described in chapter 4 and chapter 6, the source-receptor matrix 
and PM cost optimization model are is used to estimate least-cost 
reductions of primary PM and PM precursors to attain alternative PM 
standards. Ambient PM concentrations are expected to be affected by 
both the type of emissions reduced [i.e., nitrogen oxides (NOx), sulfur 
oxides (SOx), volatile organic compounds (VOC), PM<INF>10</INF>, 
PM<INF>2.5</INF>, or ammonia] and the location of the emission 
reductions. Note that since NOx and VOC are precursor emissions for 
both PM and ozone, the source-receptor matrix can be used to estimate 
ambient particulate reductions expected to result from controls imposed 
under both the PM and the ozone NAAQS. Once control measures are 
identified in the control strategy/cost analysis, post-control 
emissions are input to the source-receptor model to predict nationwide 
post-control PM air quality. This step is conducted to account for 
pollutant transport between the 6 modeling regions delineated in 
chapter 6.
    The estimation of ambient ozone concentration reductions is more 
problematic compared to the PM procedure described above. Lack of a 
national ozone air chemistry model precludes creating a direct link 
between the imposition of pollution control strategies (as identified 
in the cost analysis) and the resulting ambient ozone concentration. 
Rather, this analysis relies on an air quality adjustment procedure 
(referred to as quadratic rollback) to reduce hourly baseline ozone 
concentrations. This approach uses a quadratic formula such that 
relatively higher ozone concentrations get reduced by a greater 
percentage than relatively lower ozone concentrations. The partial 
attainment air quality rollback procedure is intended to reflect the 
degree of nonattainment for each residual nonattainment area.
    For each ozone standard analyzed, the cost analysis attempts to 
identify control strategies that will enable each nonattainment area to 
achieve its targeted emission reductions. Two outcomes are possible 
within the analysis: (1) emission reduction targets are achieved or (2) 
controls likely to be imposed do not fully achieve the emission 
reduction targets by 2010. Starting with the first example, if an area 
initially classified as nonattainment is projected to be able to meet 
its targeted emission reductions that area is classified as an initial 
nonattainment area that, with the implementation of additional control 
strategies, will be able to attain the standard. Under this example, 
the design value for the nonattainment area (i.e., the recorded monitor 
value that causes the area to be classified as a nonattainment areas) 
is reduced by X percent to comply with the standard. All other monitor 
values within the nonattainment area are also reduced by some smaller 
percentage compared to X, as determined by the quadratic equation. 
Also, under this attainment case, the rounding convention of .005 parts 
per million (ppm) is employed in the air quality rollback procedure. 
For example, if the standard under evaluation is an 8-hour, .08 ppm 
standard, the quadratic rollback procedure is employed to reduce the 
design value ozone concentration to a value of.084 ppm.
    The partial attainment scenario also contains a number of areas 
that belong in the second category. Since the area cannot be deemed to 
be able to attain the.standard within the study period, the air quality 
rollback procedure must be modified to reflect the presence of residual 
nonattainment. Relevant information that is known for each 
nonattainment area includes: (1) the design value causing the area to 
be classified as nonattainment; (2) the targeted VOC and NOx emission 
reductions believed to be necessary to enable the area to comply with 
the standard being analyzed; and (3) the total VOC and NOx emission 
reductions thought to be possible given identifiable control measures. 
Using the above information along with an assumption of linearity 
between emission reductions and ambient ozone concentrations, it is 
possible to employ the quadratic rollback procedure to approximate 
partial attainment air quality. Targeted VOC and NOx emission 
reductions are summed. Achieved NOx and VOC emission reductions are 
treated equally. A ratio of total achieved to targeted emission 
reductions is then calculated. This ratio provides the degree of 
partial attainment that is then applied to the air quality rollback of 
the design value to meet a particular ozone standard. For example, if 
an area is estimated to be able to only achieve 50 percent of its 
targeted emission reductions, then the 50 percent value is used to 
reduce the design value to only 50 percent towards attainment of the 
standard (where 100 percent implies full attainment because the 
emission reductions targets are fully met). Downwind transport areas as 
described in chapter 4 are also rolled back the same amount as their 
upwind nonattainment areas. Once these partial attainment rollbacks are 
complete, the centroid model (see section 4.5.4) is re-run to provide 
nationwide post-control ozone air quality.

12.6.4 Full Attainment Air Quality Estimation
    Because full attainment of the alternative NAAQS nationwide will 
require use of new technologies whose costs cannot yet be assessed 
accurately, full attainment of each alternative is simulated by 
changing the distribution of daily PM or ozone concentrations. The 
methods described below for adjusting baseline air quality to simulate 
full attainment apply to both the PM and ozone benefits analyses. The 
procedure used to adjust both the PM and ozone air quality is referred 
to as the air quality rollback procedure.
    In the absence of historical PM<INF>2.5</INF> air quality 
monitoring data, it may be reasonable to simulate full attainment of 
the PM alternatives by employing a proportional rollback procedure 
(i.e., by decreasing the appropriate baseline PM and ozone 
concentrations on all days by the same percentage). An assessment of 
the plausibility of estimating full attainment air quality by using a 
proportional (also referred to as linear) rollback procedure is 
presented in the PM risk assessment (Johnson, 1997). The assessment 
examines historic changes in PM<INF>2.5</INF> and concludes that the 
proportional rollback procedure is a good approximation for the 
historical decrease in PM levels.
    As with the ozone partial attainment scenario, the quadratic air 
quality rollback procedure is employed to simulate full attainment of 
the ozone alternatives because historical monitoring data indicates 
that lower ozone concentrations may decrease by a smaller proportion 
compared to higher ozone concentrations when control strategies are 
implemented.
    For the PM NAAQS, the full attainment benefits analysis begins 
where the partial attainment analysis ended. Under the PM full 
attainment benefits analysis, the proportional rollback procedure is 
employed to simulate full attainment in the residual nonattainment 
areas (i.e., by decreasing the appropriate baseline PM concentrations 
on all days by the same percentage). The PM percent reduction is 
determined by the controlling standard. For example, suppose both an 
annual and a daily PM 2.5 standard are proposed. Suppose P. is the 
percent reduction required to attain the annual standard (i.e., the 
percent reduction of daily PM necessary to get the annual average at 
the monitor with the highest annual average down to the standard). 
Suppose Pd is the percent reduction required to attain the daily 
standard with one exceedance (i.e., the percent reduction of daily PM 
necessary to get the second-highest monitor-day down to the daily 
standard). If Pa is greater than P., then all daily average PM 
concentrations are reduced by Pa percent. If P. is greater than Pd. 
then all daily average PM concentrations are reduced by P. percent. A 
rounding convention is also employed in the rollback procedure. Using 
the proposed PM<INF>2.5</INF> standard of 15/50 <greek-m>g/
m<SUP>3</SUP> as an example, the annual value is reduced to a value of 
15.04 <greek-m>g/m<SUP>3</SUP> while the daily value would be reduced 
to a value of 50.4 <greek-m>g/m<SUP>3</SUP>.
    For ozone, the process is slightly simpler since there is only one 
standard to attain at any given time. For example, the design value for 
a nonattainment area (i.e., the recorded monitor value that causes the 
area to be classified as a nonattainment area) is reduced by X percent 
to comply with the standard. Accordingly, the quadratic air quality 
rollback procedure employed in the ozone partial attainment scenario is 
also employed in the full attainment scenario. The only difference 
between the two scenarios is that the ozone full attainment scenario 
always reduces each nonattainment area's design value to exactly the 
level of the evaluated standard. The full attainment scenario adheres 
to the same rounding convention of .005 ppm.

12.6.5 Air Quality Background Levels and Benefits Thresholds
    The term background air quality refers to pollution caused by 
natural sources (as opposed to those caused by anthropogenic sources) 
and is defined as the distribution of air quality that would be 
observed in the U.S. in the absence of anthropogenic emissions of PM, 
VOC, NOx, and SOx in North America. For example, volcanoes emit sulfate 
precursors and trees emit VOC (i.e., terpenes), which each contribute 
to PM and ozone formation, respectively.
    The health benefits estimation for PM uses two alternative 
assumptions about benefits from reductions below the level of the 
standard. The high-end estimate assumes benefits from fine particulate 
reductions down to 12 <greek-m>g/m<SUP>3</SUP> mean for mortality due 
to long-term exposure and reductions down to background levels for 
chronic bronchitis. The PM Staff Paper provides background values for 
PM<INF>10</INF> versus PM<INF>2.5</INF> and west versus east (USEPA, 
1996d). Midpoint background values for PM<INF>10</INF> are estimated at 
6 <greek-m>g/m<SUP>3</SUP> for the west and 8 <greek-m>g/m<SUP>3</SUP> 
for the east. Midpoint background values for PM<INF>2.5</INF> are 
estimated at 2.5 <greek-m>g/m<SUP>3</SUP> for the west and 3.5 
<greek-m>g/m<SUP>3</SUP> for the east. This analysis uses background PM 
concentrations for benefits models that do not report a lowest-observed 
PM concentration or if the reported lowest-observed concentration is 
below background. For models that report a lowest-observed 
concentration (the lowest PM concentration at which the concentration-
response function is supported) at a higher value than background 
levels, benefits estimates are only calculated for air quality changes 
down to the lowest observable level. For example, the Pope et al. study 
reports a lowest observed annual median PM<INF>2.5</INF> level as 9 
<greek-m>g/m<SUP>3</SUP>. Therefore, the concentration-response 
function is relied upon only down to the 9 <greek-m>g/m<SUP>3</SUP> 
annual median concentration. The short-term PM-mortality studies 
generally do not report lowest observed concentrations and are 
therefore, Estimated down to background concentrations. Similarly, most 
PM-mortality studies do not report lowest-observed levels and are also 
estimated down to background concentrations. As discussed in the 
preamble to the rule, benefits from reductions below the standard are 
significantly more uncertain than those from reductions above the level 
of the standard. The low-end estimate thus uses a threshold 
concentration of 15 <greek-m>g/m<SUP>3</SUP>, below which further 
reductions are not assumed to yield additional health benefits. This 
has the effect of reducing the incidence of estimated health benefits 
by about 40 percent.
    A background level is also imposed on the ozone concentration-
response models. A midpoint background value estimated in the ozone 
Staff Paper is 0.04 ppm (U.S. EPA, 1996c). This analysis accounts for 
background ozone concentrations by evaluating benefits models only down 
to the 0.04 level but not below this level. This limitation is placed 
on models that do not report thresholds or report thresholds below 0.04 
ppm. For example, while most ozone-mortality studies report lowest 
observed ozone concentrations, the concentrations are uniformly lower 
than 0.04 ppm. Ozone concentration-response functions are therefore, 
estimated down to background levels. In addition, some clinical studies 
introduce additional thresholds which are above the assumed background 
level, in which case, benefits estimates are only calculated for air 
quality changes down to the reported threshold level.
12.6.6 Ozone Air Quality Rollback Sensitivity Analysis
    As mentioned earlier when comparing this benefits analysis to the 
NAAQS risk and exposure assessment, a point of departure between the 
two analyses is the air quality rollback procedure applied to ozone 
data. The risk and exposure assessment applied a proportional air 
quality rollback procedure to ozone-season air quality values in 9 
sample urban areas. In addition, the assessment also conducted several 
air quality rollback sensitivity analyses, comparing results using a 
weibull distribution as well as the quadratic rollback procedure.
    As noted above, that the quadratic rollback procedure reduces non-
peak ozone values (e.g., wintertime ozone values) by a smaller 
proportion compared to peak ozone values (e.g., ozone concentrations at 
design-value monitors). The quadratic rollback procedure is deemed to 
be appropriate for this benefits analysis because the procedure is 
employed to adjust baseline air quality values for a full calendar 
year. However, this benefits analysis also conducts a sensitivity 
analysis using the proportional air quality rollback procedure. In 
general, the use of a proportional air quality rollback procedure 
compared to the proportional rollback procedure yields results that are 
2 times larger. See the Benefits TSD for more details (U.S. EPA, 
1997a). The weibull rollback procedure is data intensive and lack of 
historical data on a national basis for the analysis year prevents a 
sensitivity analysis of the weibull rollback procedure to be conducted.

                       12.7 human health benefits

12.7.1 Introduction
    Exposure to PM, ozone, and RH can result in a variety of health and 
welfare effects. The relevant PM, ozone, and RH human health and 
welfare effects that are quantified (expressed in terms of incidences 
reduced) and monetized (expressed in terms of dollars) are presented in 
Tables 12. 1 and 12.2. Note that since the pollutants contributing to 
RH formation are similar to those contributing to particulate 
formation, the health and welfare benefits categories associated with 
PM are also associated with RH. Additionally, note that all health and 
welfare effects identified for PM and RH in Table 12.1 are also 
applicable in the high-end estimate to ozone reductions because ozone 
control strategies may also reduce particulate concentrations through 
the control of NOx emissions. All categories of benefits listed in 
Tables 12.1 and 12.2 that are monetized are also quantified. However, 
some quantified benefits categories are not monetized due to one of two 
reasons: (1) economic valuation information is not available or (2) a 
concern about double-counting or an overlapping of effects categories 
led to a decision to omit a particular benefits category from the 
aggregation scheme. These issues are discussed in greater detail in 
Appendix I of this RIA.
    For benefits categories listed as unquantified, scientific data are 
not available for quantifying the relationship between ozone and 
incidences of each symptom. However, the unquantifiable health benefits 
categories are listed because evidence in the scientific literature 
creates a reasonable connection between PM and ozone exposure and these 
health and welfare effects categories. For example, the collective 
toxicologic data on chronic exposure to ozone garnered in animal 
exposure and human population studies provide a biologically plausible 
basis for considering the possibility that repeated inflammation 
associated with exposure to ozone over a lifetime may result in 
sufficient damage to respiratory tissue such that individuals later in 
life may experience a reduced quality of life. However, such 
relationships remain highly uncertain due to ambiguities in the data.
    The result of having potentially significant gaps in the benefits 
calculations may lead to an underestimation of the monetized benefits 
presented in this report. The effect of this potential underestimation 
is to limit the conclusions that can be reached regarding the monetized 
benefits and net benefits estimates of each of the PM, ozone, and RH 
altemative standards.

12.7.2 Health Benefits Methodology
    As illustrated in Figure 12.2, the next step in this benefits 
analysis is to estimate the change in adverse human health effects 
expected to result from a decrease in ambient PM and/or ozone 
concentrations. To accomplish this task, a series of scientific studies 
evaluating the relationship between PM and/or ozone exposure and human 
health effects are.identified. Statistical techniques are employed to 
estimate quantitative concentration-response relationships between 
pollution levels and health effects.
    A correction has been made from the November DraD RIA in the 
calculation of the reductions in long-term exposure mortality 
associated with attainment (or partial attainment) of alternative 
PM<INF>2.5</INF> standards. In the previous analysis, changes in long-
term PM<INF>2.5</INF> concentrations in each county were characterized 
by changes in the annual mean concentration for the county. Changes in 
the incidence of long-term exposure mortality associated with changes 
in annual mean concentrations were estimated using the concentration-
response relationship reported by Pope et al., 1995. However, it 
appears that Pope et al. estimated the relationship between changes in 
mortality incidence and changes in the median, rather than the mean, of 
daily average concentrations across the year (or across several years). 
long-term exposure mortality incidence was re-estimated,based on 
changes in annual median concentrations rather than annual mean 
concentrations, for each scenario considered. The reductions in the 
estimates of monetized benefits associated with long-term exposure 
mortality reduction due to this correction are generally about 20 
percent. The lowest observable value reported in the Pope et al. study 
is a 9 <greek-m>g/m<SUP>3</SUP> median value. A corresponding mean 
value is estimated to be approximately 12 <greek-m>g/m<SUP>3</SUP>.
    Of special interest is the mortality benefits category for both PM 
and ozone since this category contributes a major portion of the 
estimated total monetized benefits-(except for the low-end estimate for 
ozone). As explained earlier, the PM concentration-response functions 
included in this analysis are generally consistent with the PM NAAQS 
risk and exposure assessment. The studies included in the analyses were 
reviewed by the CASAC and judged against a set of criteria (e.g., must 
be published) as detailed in the Benefits TSD (see Appendix I). Also, 
as explained earlier in this chapter, the relatively newer ozone 
mortality studies that have been published or accepted by a peer-
reviewed journal, but have not yet been through the CASAC or Criteria 
Document review process. In the absence of this review, this analysis 
includes in the high-end estimate a detailed assessment of the new 
ozone mortality studies through a meta-analysis. A subset of 9 ozone 
mortality studies are chosen for this benefits analysis and are also 
cross-referenced to the list of PM mortality studies. See Appendix J 
for details on the studies and the selection criteria.
    Of the 9 ozone mortality studies, only two studies providing 
information for PM-related mortality had not already been included in 
the PM analysis. One of these studies was conducted in Amsterdam while 
the other was conducted in Chile. It is believed that the mix of 
precursor and primary emissions contributing to particulate formation 
varies widely due to factors such as geography and human and economic 
activity. It is also believed that the health effects associated with 
PM exposure are dependent upon the chemical constituents of ambient PM 
concentrations. For these reasons, one of the criteria used to select 
studies for inclusion in the PM risk and exposure analysis (and 
therefore, the PM benefits analysis) is that the studies had to have 
been conducted in the U.S. or Canada, where the population and human 
and economic activity patterns are relatively similar. The use of this 
criterion eliminates the possibility of including data from studies 
conducted elsewhere, such as Europe or South America. Unlike PM, there 
are only two precursor emissions for ozone. Although the mix of these 
pollutants may vary from area to area, the difference of the mix is not 
believed to cause a significant difference in the type or degree of 
health effects believed to be associated with ozone exposure (USEPA, 
1996b). Therefore, although the ozone mortality meta-analysis includes 
new studies published since review of the Criteria Document and 
conducted in areas outside the U.S. or Canada, the scope of the PM 
mortality analysis is not expanded to include the two new studies.
    Tables I.1 and I.2 in Appendix I provide information on the studies 
this analysis uses to quantify health effects. Table I. 1 lists the 
studies relevant to PM exposure. Since the pollutants contributing to 
RH formation are similar to those contributing to PM formation, all 
studies listed for PM exposure are also applicable to the RH benefits 
analysis. As can be seen from the table, the various health and welfare 
effects studies have used different air quality indicators for 
particles. This analysis assesses benefits for both PM<INF>10</INF> and 
PM<INF>2.5</INF>. For functions using PM<INF>10</INF> as an indicator, 
PM<INF>10</INF> data for each alternative NAAQS is used. For functions 
using PM<INF>2.5</INF> as an indicator, PM<INF>2.5</INF> data for each 
alternative NAAQS is used. However, in the case of consumer cleaning 
cost savings, assumptions regarding the air quality indicator are 
necessary to evaluate the concentration-response function. (See section 
12.8.2.5 for more details.)
    Table I.2 lists the studies relevant to ozone exposure. The ozone 
benefits analysis uses data from a combination of clinical studies 
(where human subjects are exposed to various levels of air pollution in 
a carefully controlled and monitored laboratory situation) as well as 
epidemiological studies (where the relationship between ambient 
exposures to ozone and health effects in the human population are 
typically studied in a '`natural'' setting). The portion of the ozone 
benefits analysis using clinical studies evaluates the concentration-
response functions for the total U.S. population as well as two sub-
population groups: outdoor children and outdoor workers. These sub-
populations are of particular interest because individuals in these 
sub-populations are believed to experience higher than average exposure 
to ozone due to the amount of time they spend outdoors as well as the 
level of physical activity they engage in while outdoors.
    Not listed in Table I.2 but also included in the ozone benefits 
analysis is an additional health category related to toxic air 
pollutant emission reductions. This category is not listed in Table I.2 
because a different methodology is used to estimate the benefits 
associated with this category. The Benefits TSD provides more 
information on this methodology (U.S. EPA, 1997a). As explained 
earlier, reductions in ozone concentrations are achieved by reducing 
emissions of VOC and NOx. Many of the components of VOC are listed,as 
hazardous air pollutants (HAP) under section 112 of the Clean Air Act 
(CAA). HAPs, also known as ``air tonics,'' are associated with a 
variety of adverse human health effects such as cancer, reproductive 
and developmental effects, and neurological disorders, as well as 
adverse ecological effects. This analysis estimates the benefits of 
reduced exposure to carcinogens potentially resulting from 
implementation of a revised ozone NAAQS. The analysis focuses on three 
particular HAP's expected to account for almost all cancer benefits 
from reductions of VOC HAP emissions: benzene, 1,3-butadiene, and 
formaldehyde. Non-cancer human health benefits and ecological benefits 
resulting from reduced emissions of air toxics are not quantified due 
to lack of available methods and data.
    Other than the air toxics analysis described above, the majority of 
the models used in both the PM and ozone benefits analysis are 
epidemiological models. For most concentration-response functions, 
baseline incidences of health effects are needed for evaluation of the 
functions. For example, in the case of mortality, county-specific 
mortality rates were obtained for each county in the United States from 
the National Center for Health Statistics. Because those studies that 
estimated concentration-response functions for short-term exposure 
mortality considered only non-accidental mortality, county-specific 
baseline mortality rates used in the estimation of PM-related short-
term exposure mortality are adjusted to reflect a better estimate of 
county-specific non-accidental mortality. Each county-specific 
mortality rate is multiplied by the ratio of national non-accidental 
mortality to national total mortality. County-specific baseline 
mortality rates are left unadjusted when applied to long-term exposure 
mortality functions because the study estimating a concentration-
response function for long-term exposure mortality included all 
mortality cases.
    Baseline incidence rates used for the year 2010 baseline are 
projected using current baseline incidence rates. The extent to which 
these current rates correspond to projected incidence rates in the year 
2010, given either 2010 baseline or post-control PM and/or ozone 
concentrations, is not known.
    This RIA assesses benefits estimates for the year 2010 As explained 
above, much of the benefits projections are calculated on a county-
specific basis. Therefore, county-level population projections must be 
estimated for the year 2010. This analysis relies on population 
projections reported by the U.S. Census for the year 2010. However, 
these projections are available at the State level only. To estimate 
county-specific 2010 populations, the benefits model distributes the 
State-level projections to census block groups using the proportion of 
the 1990 State population accounted for by each block group. Thus, the 
geographic distribution of each State's population is retained. The 
population of the continental United States in the year 2010 is 
projected to be approximately 295.5 million.

12.7.3 Economic Valuation

            12.7.3.1 Introduction
    The social benefits associated with a change in the environment is 
the sum of each individual's willingness to pay for (or to avoid) the 
change. This analysis employs three techniques to value the social 
benefits resulting from reduced mortality and morbidity due to an 
environmental change.
    One approach is called the ``cost of illness'' (COI) approach. This 
approach estimates the value of health improvements as the sum of the 
direct and indirect costs of illness: the health expenditures made and 
the loss of labor productivity. An advantage of the cost of illness 
approach is that economists can rely on observed human behavior. In 
addition, data are not difficult to collect. This method is commonly 
accepted by many researchers in the health care industry because it 
provides estimates for the value of a wide range of health effects. 
However, the COI approach does not provide a conceptually correct 
measure of willingness-to-pay (WTP) because it does not account for 
many factors associated with experiencing or avoiding an adverse health 
symptom (e.g., the value of discomfort an individual feels when 
experiencing an adverse health symptom). This analysis uses the COI 
approach to derive one component of the total value used to monetize 
the hospital admissions category but enhances that value by attempting 
to account for other components associated with illness, such as the 
value of avoiding pain caused by the illness.
    The second approach involves conducting a survey and directly 
asking people what they would be willing to pay for a good, 
hypothetically assuming (contingent upon) the existence of a market for 
the good. This method, referred to as contingent valuation (CV), has 
been applied to a variety of non-market goods, including adverse health 
symptoms. CV is based on sophisticated survey techniques that may be 
able to yield valid and reliable WTP values. CV surveys also may 
address the issues of existence and bequest values because survey 
responses may include the moral satisfaction of contributing to public 
goods and charity. Although CV has been increasingly accepted in recent 
years, its application is controversial. Potential biases in 
willingness to pay estimates include hypothetical bias, strategic bias, 
starting point bias, vehicle bias, and information bias.
    Finally, the value of a statistical life saved is based on a set of 
26 studies, most of which are wage-risk studies. These studies attempt 
to estimate what workers are willing to pay to reduce their risks of 
premature mortality by statistical examinations of the wage premiums 
that are paid for higher risk jobs. The value of a statistical life 
year extended is based on the results of several studies that attempt 
to adjust the value of statistical lives saved by the life expectancy 
of individuals in the studies.
    Each of the three methods discussed above is a method to estimate 
mean willingness to pay for a risk reduction or an adverse health 
effect avoided. WTP is the maximum amount of money an individual would 
pay such that the individual would be indifferent between having the 
good or service and having kept the money.
    For both market and non-market goods, WTP values reflect 
individuals' preferences. Because preferences are likely to vary from 
one individual to another, WTP values for both market and non-market 
goods such as improvements in environmental quality are likely to vary 
from one individual to another. In contrast to market goods, however, 
non-market goods are public goods whose benefits are shared by many 
individuals. The individuals who ``consume'' the environmental quality 
improvement may have different WTP values for this non-market good. The 
total social value of the good is the sum of the WTP values of all 
individuals who consume the good.
    If different subgroups of the population have substantially 
different WTP values for a unit risk reduction and substantially 
different numbers of units of risk reduction conferred upon them, then 
estimating the total social benefits by multiplying the population mean 
WTP value for a unit risk reduction by the predicted number of units of 
risk reduction could yield a biased result. For example, in the case of 
PM-induced premature mortality, there is evidence that most of those 
individuals receiving the benefits of a reduction in the probability of 
dying in the current year as a result of a reduction in ambient PM 
concentrations are the elderly. If WTP values for mortality risk 
improvement among the elderly are substantially different from WTP 
values for mortality risk improvement among younger individuals, then 
using the population mean WTP will give a biased result. This issue is 
addressed in this assessment of PM through the use of a statistical 
life-year extended approach in the low-end estimate. Unlike PM, there 
is not enough evidence at this time to assert that ozone mortality is 
age-dependent.
    While the estimation of WTP values for a market good is not a 
simple matter, the estimation of a WTP value for a non-market good, 
such as a decrease in the risk of having a particular health problem, 
is substantially more difficult. Estimation of WTP values for decreases 
in specific health risks (e.g., WTP to avoid 1 day of coughing or WTP 
to avoid admission to the hospital for respiratory illness) is further 
limited by a paucity of information. Appendix I provides a brief 
description of the derivation of some of the more prominent WTP 
estimates used in this analysis. A more detailed description of the 
methodology is provided in the Benefits TSD (USEPA, 1997a).
    If exposure to pollution has any cumulative or lagged effects, then 
a given reduction in pollution concentrations in one year may confer 
benefits not only in that year, but in future years as well. Because 
this benefits analysis pertains to a single year only, any benefits 
achieved in other years are not included in this analysis. On the other 
hand, benefits even for a single year may not be fully realized until 
long after the year in which the exposure occurs. In this case it would 
be appropriate to discount such benefits. Because there is currently 
inadequate data to determine the lag with which various health benefits 
are realized, benefits are assumed to occur fully in the same year as 
exposure.

            12.7.3.2 Valuation Estimates

    Table 12.3 presents the WTP values available to monetize the 
reduced adverse health effects presented earlier in this chapter. Each 
value presented in Table 12.3 represents the point estimate of the 
monetary value associated with avoiding a unit of a given adverse 
health effect and is known as a unit dollar value. Although the WTP 
estimates presented in Table 12.3 are represented as point estimates, 
this analysis addresses the uncertainty associated with each of the 
unit dollar values. To further capture the plausible range of monetized 
values for premature mortality, the low-end estimate values these 
benefits using a life year extended rather than a lives saved approach. 
See Appendix I for more information on a sensitivity analysis of 
uncertainty.
    The monetary values used in this analysis are generally consistent 
with monetary values reported in the Section 812(a) draft report, with 
the exception of the hospital admissions categories (U.S. EPA, 1997b). 
The section 812(a) analysis uses the COI approach to derive an economic 
value for the hospital admissions categories. However, since COI 
estimates do not measure values associated with pain and suffering (as 
well as other potential reductions in well-being) resulting from 
illness, they may significantly understate the true WTP value to avoid 
illness. For this reason, an adjustment factor is employed to scale the 
hospital admissions COI estimate upward to reflect a WTP estimate. 
Following the strategy employed by Chestnut, the hospital admissions 
COI estimate as reported in the section 81 2(a) draft report is 
multiplied by a factor of two. This factor is based on results from 
three studies providing evidence on COI/WTP ratios for the same study 
population addressing the same change in an air pollution-related 
effect. While this adjustment approach is based on limited evidence, 
the resulting hospital admissions valuation estimate is not clearly 
biased.

12.7.4 Health Benefits Aggregation Issues

    Aggregation refers to the adding together of the monetized benefits 
associated with different health or welfare endpoints to derive a total 
monetized benefits attributable to a change in air quality. The dollar 
benefits from ozone reductions resulting from a specified air quality 
change is simply the sum of dollar benefits from the reductions in 
incidence of all non-overlapping health and welfare endpoints with 
which PM and/or ozone are associated.
    Ideally, the effects of air pollution could be divided into 
mutually exclusive categories that, combined, account for all the 
effects. Even if health endpoint categories are overlapping, they are 
mutually exclusive, and can therefore be aggregated, if the populations 
for which their concentration-response functions are estimated are 
mutually exclusive. For example, respiratory illnesses among children 
and respiratory illnesses among adults are mutually exclusive 
categories. If two endpoints are overlapping, then adding the benefits 
associated with each endpoint results in double-counting some benefits. 
Although study-specific point estimates of dollar benefits associated 
with specific, possibly overlapping endpoints are reported separately 
in the technical supporting documentation to this RIA, the total 
benefits estimates presented in this chapter requires that only 
benefits from non-overlapping endpoints be included in the total 
calculation.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Appendix I provides a summarized description of the aggregation 
procedure used in this RIA. In general, four non-overlapping broad 
categories of health and welfare endpoints are included in the 
estimation of total dollar benefits in this analysis: (1) mortality, 
(2) hospital admissions, (3) respiratory symptoms/illnesses not 
requiring hospital admissions, and (4) welfare endpoints.

12.7.5 National Health Benefits Results
    National health benefits estimates for PM and ozone are presented 
in Tables 12.4 through 12.10. Tables 12.4 and 12.5 present incidence 
and monetized results, respectively, for alternative PM<INF>2.5</INF> 
standards. Tables 12.6 and 12.7 present benefits results for the 
selected PM<INF>10</INF> standard. Tables 12.8 and 12.9 present 
incidence and monetized results, respectively, for alternative ozone 
standards. These results represent partial attainment of each 
alternative. PM benefits estimates are presented incremental from 
partial attainment of the current ozone and PM NAAQS. Ozone benefits 
estimates are presented incremental from partial attainment of the 
current ozone NAAQS, for the high-end estimate, and incremental from 
partial attainment of the current ozone and new PM NAAQS for the low-
end estimate. Benefits estimates associated with the current standards 
are presented in Appendix C.
    All health effects models are evaluated using baseline 2010 air 
quality and post-control or post-rollback air quality. Results produced 
by the benefits model represent the reduction in the number of 
incidences given imposition of a particular PM or ozone NAAQS upon the 
2010 air quality baseline. These results are then monetized using WTP 
estimates.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Tables 12.4 and 12.5 present national annual health incidence 
reductions and the associated monetized benefits associated with 
partial attainment of the alternative PM<INF>2.5</INF> standards. Based 
on these results, partial attainment of the selected PM<INF>2.5</INF> 
would result in decreasing premature mortality within the range of 
3,300 to 16,000 cases (depending on whether short-term exposure or 
long-term exposure mortality is included and on whether a threshold at 
15 <greek-m>g/m<SUP>3</SUP> or effects down to background are assumed). 
The selected standard would also be expected to reduce the development 
of chronic bronchitis by approximately 45,000 to 75,000 cases and 
hospital admissions for all respiratory illnesses by approximately 
3,600 to 6,000 cases. Total annual monetized health benefits estimates 
associated with the selected standard are expected to be approximately 
$ 14.5 billion when the estimate is based on the low-end assumptions 
and $96 billion when the estimate is based on the high-end assumptions. 
These estimates are incremental to partial attainment of the current PM 
and ozone NAAQS. Incremental from the current standard in the year 
2010, population estimates associated with people living in predicted 
PM<INF>2.5</INF> nonattainment counties are approximately: 23.6 million 
for the 16/65 standard; 45.5 million for the 15/65 standard; 52.0 
million for the 15/50 standard.
    Tables 12.6 and 12.7 present benefits results associated with the 
selected PM<INF>10</INF> standard. Based on these results, partial 
attainment of the selected PM<INF>10</INF> standard is expected to 
decrease premature mortality by approximately 350 cases, hospital 
admissions for all respiratory illness by approximately 200 cases and 
chronic bronchitis cases by approximately 7,000 cases. Total annual 
monetized health estimates associated with the selected standard are 
expected to be approximately $3.4 billion to $3.5 billion.
    Tables 12.8 and 12.9 present national annual health incidence 
reductions and the associated monetized benefits associated with 
partial attainment of the alternative ozone standards. Note that ozone 
benefits include ancillary PM benefits for the high end estimate. Based 
on these results, partial attainment of the selected ozone standard is 
expected to decrease premature mortality by approximately 160-330 
cases, hospital admissions due to all respiratory illnesses by 
approximately 300, and acute respiratory symptoms by approximately 
30,000 cases. Total annual monetized benefits associated with the 
selected standard are expected to be approximately $0.1 billion for the 
low-end estimate and $2.1 billion for the high-end estimate. 
Incremental from the current standard in the year 2010, population 
estimates associated with people living in predicted ozone 
nonattainment areas are approximately: 30.6 million people for the 0.08 
5th max., 40.2 million people for the 0.08 4th max., and 62.2 million 
people for the 0.08 3rd max. standard.
    Table 12.10 presents national annual health incidence reductions 
and monetized benefits estimates associated with the RH targets. Health 
benefits can be estimated for a RH target because the control 
strategies (described in chapter 8) implemented to reduce RH also 
reduce particulate concentrations. This commonality between the control 
strategies for the two different programs allows the benefits analysis 
to estimate health as well as visibility benefits attributable to the 
RH target. The RH benefits estimates are calculated incremental from 
partial attainment of both the selected PM and selected ozone 
standards. The method for estimating visibility changes is presented in 
chapter 8. As explained in chapter 8, the analytical baseline 
understates the visibility progress achieved by CAA-mandated controls 
and implementation of a new ozone standard over the period 2000 to 
2010. Additionally, the RH benefits are affected by the inability to 
model full attainment of the selected PM<INF>2.5</INF> standard as well 
as the degree to which some Class I area counties reach background air 
quality conditions. Given this analytical baseline, benefits are 
calculated using air quality changes incremental from partial 
attainment of the selected PM<INF>2.5</INF> standard. Under a 
visibility target of 0.67 equivalent to a 1 deciview improvement in the 
haziest days over 1 S years, premature mortality is expected to 
decrease by approximately 120-200 cases; the development of chronic 
bronchitis cases is expected to be reduced by 2,600-4,400 cases; and 
hospital admissions for all respiratory illnesses is expected to 
decrease by 140-230 cases. Total annual monetized health benefits 
estimates associated with the 0.67 visibility target is expected to be 
as much as $0.8 to $2.1 billion. Under a visibility target of 1.0 
equivalent to a 1 deciview improvement in the haziest days over 10 
years, premature mortality is expected to decrease by approximately 
360-600 cases; the development of chronic bronchitis cases is expected 
to be reduced by 3,500-5,900 cases; and hospital admissions for all 
respiratory illnesses is expected to decrease by 250-420 cases. Total 
annual monetized health benefits estimates associated with the 1.0 
deciview visibility target is estimated to be as much as $1.1-4.5 
billion.
    The monetized health benefits estimates presented in this section 
are likely to be underestimates of the total health benefits associated 
with these standards due to a number of data and modeling limitations. 
See section 12.10 for a discussion of these limitations.

                         12.8 welfare: effects

12.8.1 Introduction
    The term ``welfare benefits'' encompasses all benefits categories 
other than human health effects. This section presents the welfare 
benefits methodology and results associated with reductions in ambient 
PM and ozone. These results include the economic benefits associated 
with reductions in the yield of some ozone-sensitive important 
commercial crops and forests and reduction of nitrogen deposition in 
estuarine and coastal watersfor alternative standards. Adequate data 
are currently available to assess economic benefits for the commodity 
crops studied in the National Crop Loss Assessment Network (NCLAN) 
project (discussed in section VII-D.2 of the U.S, EPA Staff Paper for 
Ozone, June 1996) and for fruits and vegetables grown in California. 
Data are also available to estimate potential reductions in yield of 
some important ozone-sensitive commercial forest species nationwide, 
and to calculate nitrogen deposition avoided in estuaries, visibility 
improvements, consumer cleaning cost savings, and enhanced worker 
productivity.

12.8.2 Welfare Benefits Methodology
    A number of models are used to estimate the welfare benefits 
presented in this analysis. This section briefly describes the welfare 
benefits categories and the methods employed to estimate the economic 
benefits associated with them.

            12.8.2.1 Commodity Crops

    The economic value associated with varying levels of yield loss for 
ozone-sensitive commodity crops is analyzed using a revised and updated 
(Mathtech, 1994; Mathtech, 1995; EPA 1 997a) Regional Model Farm (RMF) 
agricultural benefits model. The RMF is an agricultural benefits model 
for commodity crops that account for about 75 percent of all U.S. sales 
of agricultural crops (Mathtech, 1994). The results of the model are 
extrapolated to account for all commodity crops nationwide. A rough 
approximation of a national estimate can be calculated by 
proportionally scaling the monetized estimates to the entire market. It 
is recognized, however, that factors such as the sensitivity to ozone 
of crops not formally analyzed, regional air quality, and regional 
economics introduce considerable uncertainty to any approach that 
develops a national estimate. The RMF explicitly incorporates exposure-
response functions into microeconomic models of agricultural producer 
behavior. The model uses the theory of applied welfare economics to 
value changes in ambient ozone concentrations brought about by 
particular policy actions such as attaining ambient air quality 
standards.
    The measure of benefits calculated by the model is the net change 
in consumers' and producers' surplus from baseline ozone concentrations 
to the ozone concentrations resulting from attainment of alternative 
standards. Using the baseline and post-control equilibriums, the model 
calculates the change in net consumers' and producers' surplus on a 
crop-by-crop basis. Dollar values are aggregated across crops for each 
standard. The total dollar value represents a measure of the change in 
social welfare associated with the policy scenario. Although the model 
calculates benefits under three alternative welfare measures (perfect 
competition, price supports, and modified agricultural policy), results 
presented here are based on the ``perfect competition'' measure to 
reflect recent changes in agricultural subsidy programs. Under the 
recently revised 1996 Farm Act, most eligible farmers have enrolled in 
the program to phase out government crop price supports for the RMF-
relevant crops: wheat, com, sorghum, and cotton.
    For the purpose of this analysis, the six most economically 
significant crops are analyzed: corn, cotton, peanuts, sorghum, 
soybean, and winter wheat. The model employs biological exposure-
response information derived from controlled experiments conducted by 
the National Crop Loss Assessment Network (NCLAN) (Lee et al., 1996). 
Four main areas of the RMF have been updated to reflect the 1996 Farm 
Act and USDA data projections to 2005 (the year farthest into the 
future for which projections are available) These four areas are: yield 
per acre, acres harvested, production costs, and model farms. 
Documentation outlining the 2005 update is provided in U. S EPA, 1 
997a.
    The benefits from the RMF commodity crops range from for partial 
attainment of the .08 ppm,4thmax. standard are $11 million. See Table 
12.15.

            12.8.2.2 Fruit and Vegetable Crops

    There are currently no national-level economic models that 
incorporate fruits and vegetables, although more comprehensive modeling 
efforts are underway. A regional model, the California Agricultural 
Resources Model (CARM), has been developed and used by the California 
Air Resources Board. This model is used in this analysis to calculate 
the benefits of reducing ambient ozone on sensitive crops grown in 
California (Abt, 1995a). Among these sensitive crops are the 
economically important fruits and vegetables endemic to California and 
other states with similar climate, such as Florida and Texas. The crops 
included in the CARM analysis are: almonds, apricots, avocados, 
cantaloupes, broccoli, citrus, grapes, plums, tomatoes, and dry beans. 
In 1990, California crops accounted for almost 50 percent of the U.S. 
fruit and vegetable production. Results of the model are extrapolated 
to include 100 percent of the crops. The results of the model are 
extrapolated to account for fruits and vegetables grown nationwide. A 
rough approximation of a national estimate can be calculated by 
proportionally scaling the monetized estimates to the entire market. It 
is recognized, however, that factors such as the sensitivity to ozone 
of crops not formally analyzed, regional air quality, and regional 
economics introduce considerable uncertainty to any approach that 
develops a national estimate.
    The California Air Resources Model (CARM) is a nonlinear 
optimization model of California agricultural practices which assumes 
that producers maximize farm profit subject to land, water, and other 
agronomic constraints. The model maximizes total economic surplus and 
predicts producers' shifts in acreage planted to different crops due to 
changing market conditions or resources. The version of the CARM used 
for this analysis is calibrated to 1990 production and price data. 
Similar to RMF, the CARM production and price data will be updated 
using USDA projections to 2005 (Abt, 1997. Although this update is not 
completed yet, the CARM results have been extrapolated to reflect 
estimates for the year 2005.
    The benefits from the CARM fruits and vegetables for partial 
attainment of the .08 ppm, 4th max. standard are $23 million. See Table 
12.15.

            12.8.2.3 Commercial Forests

    Any attempt to estimate economic benefits for commercial forests 
associated with attaining alternative ozone standards is constrained by 
a lack of exposure-response functions for the commercially important 
mature trees. Although exposure-response functions have been developed 
for seedlings for a number of important tree species, these seedling 
functions cannot be extrapolated to mature trees based on current 
knowledge. Recognizing this limitation, a study (Pye, 1988 and 
deSteiger & Pye, 1990) involving expert judgment about the effect of 
ozone levels on percent growth change is used to develop estimates of 
ozone-related economic losses for commercial forest products.
    An analysis by Mathtech in conjunction with the USDA Forest Service 
(Mathtech, 1997) of forestry sector benefits describes quantitatively 
the effect of ozone on tree growth and the demand and supply 
characteristics of the timber market. The analysis employs baseline and 
post control ozone data equivalent to, and consistent with, the data 
used for the RMF and CARM models. The estimates do not include possible 
non-market benefits such as aesthetic effects. Forest aesthetics is 
discussed qualitatively later in this chapter.
    The economic value of yield changes for commercial forests was 
estimated using the 1993 timber assessment market model (TAMM). TAMM is 
a U.S. Forest Service (Adams and Haynes, 1996) spatial model of the 
solidwood and timber inventory elements of the U.S. forest products 
sector. The model provides projections of timber markets by geographic 
region and wood type through the year 2040. Nine regions covering the 
continental U.S. are included in the analysis. While the Pye et al. and 
deSteiger, Pye et al. studies present estimates of O3 damage to forest 
growth rates for a variety of wood types by region, they present no 
damage estimates for western hardwoods. As a result, the forestry 
sector benefit estimates exclude the potential benefits of improved 
growth rates for western hardwoods. However, hardwoods account for only 
about 11 percent of total western growing stocks. TAMM simulates the 
effects of reduced O3 concentrations on timber markets by changing the 
annual growth rates of commercial forest growing-stock inventories. The 
model uses applied welfare economics to value changes in ambient O3 
concentrations. Specifically, TAMM calculates benefits as the net 
change in consumer and producer surplus from baseline O3 concentrations 
to the O3 concentrations resulting from full or partial attainment of 
alternative standards.
    Table 12.11 presents estimates of the annual benefits to the 
commercial forestry sector for two ozone scenarios incremental to the 
current ozone standard: the 0.08 ppm, 3rd max partial attainment and 
full attainment. These benefits are estimates of the annual payments 
that society would be willing to pay over the period 2010 through 2040 
for higher growth rates in commercial forests.
    Because of the long harvesting cycle of commercial forests and the 
cumulative effects of higher growth rates, the benefits to the future 
economy will be much larger than the estimates reported in Table 12.11. 
For example, the .08 ppm 3rd max standard under the full attainment 
scenario would generate about $370 million in undiscounted economic 
surplus to the U.S. economy during the year 2040 and result in about 
$3.69 billion additional forest inventories by 2040. The estimated 
annualized benefits for this scenario, $65 million, are much lower 
because of smaller benefits in earlier years (i.e., the 2010 and 2020 
decades) and because the higher benefits realized in later years are 
heavily discounted. Also, the estimates presented in Table 12.11 are 
slightly conservative based on the interpretation of the Pye 1988 
report versus the deSteiger and Pye 1990 article. Another reason for 
describing the estimates as conservative is the uncertainty that exists 
about the relationship between carbon assimilation and how assimilated 
products affect overall tree growth. A complicating factor is the tree 
aging process, since ``the relative amount of photosynthetic to non-
photosynthetic tissue changes with age'' (Fox, 1995).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            12.8.2.4 Nitrogen Denosition in Estuarine and Coastal 
                    Waters
    The December 1996 RIA did not estimate the benefits of reducing the 
amount of air-borne nitrogen which is entering our nation's estuaries. 
Excessive amounts of nitrogen entering our estuaries are linked with 
the outbreak of large algal blooms. The resulting large fish kills 
cause a decaying, odoriferous situation which can shut down local 
tourism. Partially in response to public comments which asked for some 
proof of the assumed size of these unquantified benefit categories, 
scientists from EPA and NOAA have developed a methodology to measure 
the potential benefits from the reduction of atmospheric nitrogen in 
the estuaries of the East Coast of the United States accrued from 
implementation of the PM and ozone NAAQS (US EPA, 1997cj.
    The benefits to surrounding communities of reduced nitrogen 
loadings resulting from various control strategies for atmospheric NOx 
emissions were calculated for 12 East and Gulf Coast estuaries, and 
extrapolated to all 43 Eastern U.S. estuaries. See Table 12.12. The 12 
Eastern estuaries represent approximately half of the estuarine 
watershed area in square miles along the East coast. Benefits are 
estimated using an average, locally-based cost for nitrogen removal 
from water pollution (US EPA, 1997c). The benefits to the 12 estuaries 
are estimated at $ 112 million for partial attainment of the .08 ppm, 
4th max. standard. The benefits for the Eastern U.S. are estimated at 
$193 million for partial attainment of the .08 ppm, 4th max standard. 
Total Eastern U.S. projections are made by scaling results based on 
watershed area and a annualized benefits computed over the period 2010 
through 2040, discounted at a 7 percent annual rate NOAA surveys of 
nitrogen loadings. These benefits are probably below the actual 
benefits because they do not include: improved recreation, wildlife 
habitat, commercial fishing, and other public health benefits.

            12.8.2.5 Visibility
    Visibility effects are measured in terms of changes in deciview, a 
measure useful for comparing the effects of air quality on visibility 
across a range of geographic locations. This measure is directly 
related to two other common visibility measures: visual range (measured 
in km) and light extinction (measured in km). The deciview measure 
characterizes visibility in terms of perceptible changes in haziness 
independent of baseline conditions. The visibility improvement is 
modeled on a county-specific basis. Based on the deciview measure, two 
types of valuation estimates are applied to the expected visibility 
changes: residential visibility and recreational visibility.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The residential visibility valuation estimate is derived from the 
results of an extensive visibility study (McClelland et al., 1991). A 
household WTP value is derived by dividing the value reported in 
McClelland et al. by the corresponding hypothesized change in deciview, 
yielding an estimate of $14 per unit change in deciview. This WTP value 
is applied to all households in any county estimated to experience a 
change in visibility.
    Recreational visibility refers to visibility conditions in national 
parks (referred to as Class I areas). Chestnut (Chestnut, 1997a) has 
developed a methodology for estimating the value to the U.S. public of 
visibility improvements in Class I areas. Based on contingent valuation 
studies, Chestnut calculates a household WTP for visibility 
improvements, capturing both use and non-use recreational values, and 
attempts to account for geographic variations in WTP.
    Chestnut divides the recreational areas of the U.S. into three 
regions: California, Southwest, and Southeast. The regions are 
developed to capture differences in household WTP values based on 
proximity to recreational areas. That is, in-region respondents 
typically place higher value on visibility improvements at a local 
recreational area than out-of-region respondents. Chestnut reports both 
in-region WTP and out-of-region WTP for each of the three regions. 
Chestnut concludes that, for a given region, a substantial proportion 
of the WTP is attributable to one specific park within the region. This 
so called ``indicator park'' is the most well-known and frequently 
visited park within a particular region. The indicator parks for the 
three regions are Yosemite for California, the Grand Canyon for the 
Southwest, and Shenandoah for the Southeast. In accordance with the 
Chestnut methodology, this analysis calculates out-of-region and in-
region benefits for a particular regions for a given change in Class I 
areas visibility.
    In theory, summing benefits out-of-region and benefits in-region-
would yield the total monetary benefits associated with a given 
visibility improvement in a particular recreational region, which could 
then be summed across regions to estimate national benefits. However, 
as described earlier, this analysis also estimates benefits associated 
with residential visibility improvements. To reflect the uncertainties 
raised by the use of CV methodology, the low-end estimate does not 
included visibility improvements in non-indicator parks.

            12.8.2.6 Consumer Cleaning Cost Savines

    Welfare benefits also accrue from avoided air pollution damage, 
both aesthetic and structural, to architectural materials and to 
culturally important articles. At this time, data limitations preclude 
the ability to quantify benefits for all materials whose deterioration 
may be promoted and accelerated by air pollution exposure. However, 
this analysis addresses one small effect in this category, the soiling 
of households by particulate matter. Table I. 1 documents the function 
used to associate nationwide PM levels with household WTP to avoid the 
cleaning costs incurred for each additional <greek-m>g/m<SUP>3</SUP> of 
PM.
    Assumptions regarding the air quality indicator are necessary to 
evaluate the concentration-response function. For each alternative 
scenario, the function for household soiling damage, originally derived 
using total suspended particulates (TSP) as an indicator of PM, is 
evaluated using the indicator under consideration for that scenario. 
PM<INF>10</INF> and PM<INF>2.5</INF> are both components of TSP. 
However, it is not clear which components of TSP cause household 
soiling damage. The Criteria Document cites some evidence that smaller 
particles may be primarily responsible, in which case these estimates 
are conservative.

            12.8.2.7 Worker Productivity

    Crocker and Horst (1981) and U.S. EPA present evidence regarding 
the inverse relationship between ozone exposure and productivity in 
exposed citrus workers. This analysis applies the worker productivity 
relationship (reported as income elasticity with respect to ozone) to 
workers engaged in strenuous outdoor labor in the U.S. (approximately 
one percent of the population). Baseline income for these workers is 
reported as $73 per day. Table I.2 in Appendix I details the 
concentration response function.

12.8.3 National Welfare Benefits Results
    Table 12.13 presents the welfare benefits associated with partial 
attainment of the alternative PM<INF>2.5</INF> standards. PM welfare 
benefits categories that are monetized in this analysis include: 
consumer cleaning cost savings, improved visibility and decreased 
nitrogen deposition. Based on the results presented in Table 12.13, 
total welfare benefits associated with the selected PM<INF>2.5</INF> 
standard range from $4.3 to $8.1 billion annually. These results are 
incremental to partial attainment of the current ozone and PM NAAQS.
    Table 12.14 presents national annual welfare benefits estimates 
associated with the selected PM<INF>10</INF> standard. Total annual 
monetized welfare benefits are estimated to be approximately $5 
billion.
    The welfare benefits associated with partial attainment of the 
alternative ozone standards are presented in Table 12 15: Monetized 
ozone welfare benefits categories include increased yields of commodity 
crops and fruits and vegetables, increased yields in commercial 
forests, decreased nitrogen deposition, improved visibility, consumer 
cleaning cost savings, and increased worker productivity. Based on the 
results presented in Table 12. 15, total welfare benefits associated 
with the selected ozone standard are expected to be approximately $320 
million annually. These results are incremental to partial attainment 
of the current ozone NAAQS.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Table 12.16 presents national annual welfare benefits associated 
with the regional haze targets. These estimates are calculated 
incremental from partial attainment of both the PM and ozone selected 
standards. Monetized welfare benefits associated with reducing RH 
include consumer cleaning cost savings and improved visibility. The 
method for estimating visibility changes is presented in chapter 8. The 
same low-end and high-end assumptions are used in the visibility 
calculations as are used in the ozone and PM NAAQS benefits analyses. 
As explained in chapter 8, the analytical baseline understates the 
visibility progress achieved by CAA mandated controls and 
implementation of a new ozone standard over the period 2000 to 2010. 
Additionally, the baseline visibility target may be understated due to 
the inability to model full attainment of the selected PM<INF>2.5</INF> 
Given this analytical baseline, benefits are calculated using air 
quality changes incremental from partial attainment of the selected 
PM<INF>2.5</INF> standard. Under a visibility target of 0.67 equivalent 
to a 1 deciview improvement in the haziest days over 1 S years, 
economic benefits associated with consumer cleaning cost savings is 
estimated as $23 million; increased residential visibility is estimated 
to yield approximately $ 140 million; and increased visibility in Class 
I areas is estimated to yield approximately $340-850 million annually. 
Based on these results, total annual welfare benefits associated with 
the 0.67 deciview visibility target range from approximately $0.5 to $1 
billion. Under a visibility target of 1.0 equivalent to a 1 deciview 
improvement in the haziest days over 10 years, economic benefits 
associated with consumer cleaning cost savings is estimated as $31 
million; increased residential visibility is estimated to yield 
approximately $200 million; and increased visibility in Class I areas 
is estimated to yield approximately $370-920 million annually. Based on 
these results, total annual welfare benefits associated with the 1.0 
deciview visibility target range from approximately $0.6 to $1.2 
billion.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

12.9 Summary of Health and Welfare Benefits
    The purpose of this section is to summarize the health and welfare 
benefits discussions presented earlier in this chapter. Annual 
monetized benefits have been presented separately for health and 
welfare effects. It is now possible to sum these health and welfare 
benefits to provide a more complete depiction of the total benefits 
expected to result from the various alternative standards examined in 
this RIA. The national monetized health and welfare benefits associated 
with PM, ozone and RH are presented in Tables 12.17through 12.20.
    The monetized benefit results presented in this benefits chapter 
cover a plausible range of estimates, from a high end to a low end, 
reflecting some of the uncertainties in this estimation. A Monte Carlo 
uncertainty analysis of the monetized benefits of attaining the 
PM<INF>2.5</INF> 15/65 standard, the PM<INF>10</INF> 50/150 standard 
(99th percentile), and the ozone .08, 4th max. standard are presented 
in Benefits TSD (USEPA 1997a).
    The reduction of ambient ozone concentrations is achieved through 
the control of precursor emissions. These precursor emissions consist 
of volatile organic compounds (VOCs) and nitrogen oxides (NOx). The 
cost analysis shows that many control measures employed in the a 
numbers may not completely agree due to rounding ozone analysis are 
successful at removing both types of precursor emissions. In addition 
to contributing to ozone formation, VOC and NOx react with other air-
borne pollutants to form particulates. The PM air quality model, 
consolidated regional deposition model (CRDM), is used to estimate a 
quantifiable relationship between the ozone precursor emissions and 
ambient PM concentrations (i.e., the source-receptor relationship). An 
analysis of the ozone-related VOC and NOx emission reductions shows 
that particulate concentrations as estimated by the source-receptor 
matrix will decrease as a result of implementation of the ozone 
controls. These PM reductions are used to estimate ancillary PM 
benefits attributable to ozone control measures. The PM reductions 
attributable to implementation of the ozone control measures are then 
used in conjunction with all PM-related concentration-response 
functions to estimate total ancillary PM benefits. For example, all PM 
benefits categories listed as quantifiable in Table 12.1 are also 
applicable in the ozone benefits analysis because reductions of ozone 
precursor emissions will also reduce particulate concentrations.
    The inclusion of ancillary PM benefits in the estimation of ozone 
benefits raises the issue of possible overlap between PM and ozone 
benefits estimation when using when using single-pollutant and co-
pollutant models. A discussion of a possible overlap between PM and 
ozone mortality effects is presented here since mortality is the single 
largest contributor to total benefits for both PM and ozone reductions.
    The PM-mortality relationship is currently more well established 
than the ozone-mortality relationship, and the magnitude of the PM 
effect on mortality appears to be significantly larger than that of 
ozone. To avoid falsely attributing the PM effects on mortality to 
ozone, therefore, inclusion of PM in the model was a criterion for 
inclusion of a study in the analysis of ozone and mortality. Most 
ozone-mortality studies met this criterion. It might be argued that the 
inclusion criteria for PM-mortality studies should mirror those of 
ozone-mortality studies, and that PM-mortality studies that did not 
include ozone in the concentration-response model should be excluded. 
The situation with PM-mortality studies, however, is not symmetrical to 
that of ozone-mortality studies. Because evidence of a significant 
association between ozone and premature mortality is quite recent, most 
PM-mortality studies have not included ozone in the concentration-
response model. Excluding PM-mortality studies that did not include 
ozone would therefore substantially reduce the database on the 
relationship between PM and mortality. Because it appears that the 
magnitude of the ozone effect on mortality is substantially smaller 
than that of the PM effect, and because PM and ozone are generally not 
highly correlated, the omission of ozone from a concentration-response 
model is likely to have only a very small effect on the estimated PM 
coefficient. Any potential double counting of benefits from adding the 
PM-related benefits estimated from models without ozone to the ozone-
related benefits is therefore also likely to be quite small. Avoiding 
that small amount of possible double counting does not seem worth the 
substantial loss of information on the PM-mortality relationship that 
would result from restricting the analysis to only those studies with 
both PM and ozone in the model.
    As shown in Table 1 2.1 7, total annual monetized health and 
welfare benefits associated with partial attainment of the selected 
PM<INF>2.5</INF> standard range from a high-end estimate of $104 
billion to a low-end estimate of $19 billion. Table 12.18 shows that 
the high-end estimate of total annual monetized health and welfare 
benefits associated with partial attainment of the selected 
PM<INF>10</INF> standard range from $5.1 to $5.2 billion. Table 12.19 
shows that total annual monetized health and welfare benefits 
associated with partial attainment of the selected ozone standard range 
from a high-end estimate of $2.1 billion to a low-end estimate of $0.4 
billion. Table 12.20 presents total annual health and welfare benefits 
of alternative regional haze targets.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    For a visibility target of 0.67 deciview (i.e., 1.0 deciview goal 
over 15 years), total annual monetized benefits are expected to range 
from $1.3 billion to $3.2 billion. For a visibility target of 1.0 
deciview (i.e., 1.0 deciview goal over 10 years), total annual 
monetized benefits are expected to range between $1.7 billion and $5.7 
billion. The $1.3 billion to $5.7 billion plausible benefits range 
presented in this analysis may be potentially overstated due to the 
inability to quantify all visibility improvements prior to 
implementation of the RH visibility targets. The benefits associated 
with the RH targets are directly. linked to the eventual choices made 
by States on the reasonable progress targets for the period 2000 to 
2010 of this RH analysis. Should the States submit appropriate State 
implementation plans (SIPs) with reasonable progress target levels set 
close to those that would be achieved by implementation of the NAAQS 
and other CAA requirements, then visibility improvements and benefits 
attributed to the RH program program will be minimal and could be as 
low as zero.
    The monetized benefits presented above are likely to be under-
represented for a number of reasons. First, modeling limitations 
prevent the estimation of ancillary ozone benefits associated with 
implementing control strategies designed to reduce particulate 
concentrations. For example, low NOx burners imposed on industrial 
combustion sources is a control measure selected in the PM cost 
analysis. In addition to contributing to PM formation, NOx is also an 
ozone precursor. Therefore, the use of low NOx burners to reduce 
particulate concentrations would also concurrently reduce ozone 
concentrations. To the extent that such controls are used in area that 
would be imposing them anyway to meet the ozone standard, they may 
provide additional ozone benefits beyond those included in this 
analysis. There are also reasons to think that the benefits presented 
here could be overstated. There are likely to be lags associated with 
the relationship between changes in air quality and changes in 
mortality (as measured by long-term studies) and on chronic bronchitis. 
EPA does not know the magnitude of this lag, but if it did, it would 
discount the benefits appropriately. EPA has not prepared such 
estimates here.
    A second reason for the under-representation of monetized benefits 
is the inability to model achievement of RH targets. A discussion of 
the unquantified benefits as well as uncertainties associated with this 
analysis are presented in the next section.
    Not presented in Table 12.17 are full attainment PM<INF>2.5</INF> 
benefits. Estimation of full attainment PM benefits is more uncertain 
than partial attainment estimation because the sources from which 
additional emissions will be reduced will not be identified until 
further monitoring and modeling are performed. The PM partial 
attainment analysis indicates that PM control strategies outside of a 
violating county are often selected to help the violating county attain 
the standard. This procedure often causes PM air quality to change 
across an entire region rather than only in the violating county. 
However, for benefits analysis purposes, it is not possible to predict 
PM air quality distribution changes in areas other than the small 
number of residual nonattainment counties. This procedure is likely to 
underestimate the benefits associated with full attainment because it 
does not account for possible air quality changes and the associated 
population outside of the few remaining residual nonattainment 
counties. This method of adjusting partial attainment PM air quality to 
a full attainment scenario will show only a small change between 
partial and full attainment of the alternative standards. In the 
residual nonattainment counties only, the air quality is adjusted using 
the procedure described in section 12.6. Because regionwide PM air 
quality changes cannot be estimated, full attainment visibility 
benefits are assumed equal to the partial attainment visibility 
benefits for this analysis. This is an underestimate of the full 
attainment visibility benefits expected from full attainment of the 
selected PM<INF>2.5</INF> standard. This procedure results in a high-
end estimate of annual full attainment monetized benefits (health and 
welfare) of approximately $110 billion and a low-end estimate of $20 
billion for the 15/65 alternative. These full attainment PM estimates 
are presented incremental from full attainment of the current ozone and 
PM NAAQS.
    Full attainment ozone benefits are also not presented in the 
summary table. The ozone full attainment benefits estimation is limited 
for the same reason as the PM full attainment analysis. For the high-
end estimate in the ozone partial attainment analysis, emission 
reductions achieved by ozone controls are processed by the source-
receptor matrix to predict ancillary PM air quality by ozone controls 
are processed by the source-receptor matrix to predict ancillary PM air 
quality changes attributable to each ozone alternative. However, full 
attainment ozone air quality is estimated by using the air quality 
adjustment procedure as described in section 12.6. The ozone air 
quality rollback procedure reduces baseline ozone concentrations to the 
level specified by each alternative ozone standard. However, it is not 
possible to know how the PM air quality distributions will change given 
full attainment of the ozone alternatives. It is not possible to adjust 
PM air quality distributions in the same manner because, in this 
context, there is no PM standard against which the PM distributions can 
be evaluated. Given this limitation, the ancillary PM benefits are 
proportionally scaled from partial to full attainment using the ratio 
of ozone full attainment to partial attainment benefits. Using this 
procedure, high-end annual full attainment monetized ozone benefits 
(health and welfare) are estimated to be approximately $8.5 billion and 
low-end benefits are estimated to be approximately $1.5 billion for the 
0.08 4th max. alternative These full attainment ozone estimates are 
presented incremental from full attainment of the current ozone NAAQS.

   12.10 analytical uncertainties, limitations, and potential biases

12.10.1 Introduction
    Given incomplete information, this national benefits analysis 
yields inexact results because associated with any estimate is the 
issue of uncertainty. Potentially important sources of uncertainty 
exist and many of these are summarized in Table 12.21. In most cases, 
there is no apparent bias associated with the uncertainty. For those 
cases for which the nature of the uncertainty suggests a direction of 
possible bias, this direction is noted in the table.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

12.10.2 Projected Income Growth
    This analysis does not attempt to adjust benefits estimates to 
reflect expected growth in real income. Economic theory argues, 
however, that WTP for most goods (such as environmental protection) 
will increase if real incomes increase. The degree to which WTP may 
increase for the specific health and welfare benefits provided by the 
PM, ozone, and RH rules cannot be estimated due to insufficient income 
elasticity information. Thus, all else equal, the benefit estimates 
presented in this analysis are likely to be understated.

12.10.3 Unquantifiable Benefits
    In considering the monetized benefits estimates, the reader should 
be aware that many limitations for conducting these analyses are 
mentioned throughout this RIA. One significant limitation of both the 
health and welfare benefits analyses is the inability to quantify many 
PM and ozone-induced adverse effects. Tables 12.1 and 12.2 lists the 
categories of benefits that this analysis is able to quantify and those 
discussed only in a qualitative manner. In general, if it were possible 
to include the unquantified benefits categories in the total monetized 
benefits, the benefits estimates presented in this RIA would increase.
    The benefits of reductions in a number of ozone- and PM-induced 
health effects have not been quantified due to the unavailability of 
concentration-response and/or economic valuation data. These effects 
include: reduced pulmonary function, morphological changes, altered 
host defense mechanisms, cancer,-other chronic respiratory diseases, 
infant mortality, airway responsiveness, increased susceptibility to 
respiratory infection, pulmonary inflammation, acute inflammation and 
respiratory cell damage, and premature aging of the lungs. Indirectly, 
SOx emissions controls applied for the purpose of implementing the 
PM<INF>2.5</INF> standard are expected to result in considerable 
reductions of mercury (approximately 16%). Mercury's toxic effects 
include human neurotoxicity; fish deaths and abnormalities; plant 
damage (e.g., senescence, reduced growth, decreased chlorophyll 
content, leaf injury, and root damage); and impaired reproduction, 
liver damage, kidney damage, and neurotoxicity in birds and other 
mammals.
    In addition to the above non-monetized health benefits, there are a 
number of non-monetized welfare benefits of PM and ozone controls from 
reduced adverse effects on vegetation, forests, and other natural 
ecosystems. The CAA and other statutes, through requirements to protect 
natural and ecological systems, indicate that these are scarce and 
highly valued resources. In a recent attempt to estimate the 
``marginal'' value (changes in quantity or quality) of ecosystem 
services, Costanza et al. (1997) state that policy decisions often give 
little weight to the value of ecosystem services because their value 
cannot be fully quantified or monetized in commercial market terms. 
Costanza et al. warn that ``this neglect may ultimately compromise the 
sustainability of humans in the biosphere''. Lack of comprehensive 
information, insufficient valuation tools, and significant 
uncertainties result in understated welfare benefits estimates in this 
RIA. However, a number of expert biologists, ecologists, and economists 
(Costanza, 1997) argue that the benefits of protecting natural 
resources are enormous and increasing as ecosystems become more 
stressed and scarce in the future. Just the value of the cultural 
services (i.e., aesthetics, artistic, educational, spiritual and 
scientific) may be considered infinite by some, albeit in the realm of 
moral considerations. Additionally, agricultural, forest and ecological 
scientists (Heck, 1997) believe that vegetation appears to be more 
sensitive to ozone than humans and consequently, that damage is 
occurring to vegetation and natural resources at concentrations below 
the selected ozone NAAQS. Experts also believe that the effect of ozone 
on plants is both cumulative and long-term. The specific non-monetized 
benefits from ozone reductions in ambient concentrations would accrue 
from: decreased foliar injury; averted growth reduction of trees in 
natural forests; maintained integrity of forest ecosystems (including 
habitat for native animal species); and the aesthetics and utility of 
urban ornamentals (e.g., grass, flowers, shrubs and trees3. Other 
welfare categories for which there is incomplete information to 
estimate the economic value of reduced adverse effects include: 
existence value of Class I areas (e.g., Grand Canyon National Park); 
materials damage; reduced sulfate deposition to aquatic and terrestrial 
ecosystems; and visibility impairment due to ``brown clouds'' (i.e., 
distinct brown layers of trapped air pollutants close to the ground).

            Infant Mortality

   A recent study in the U.S. has found an association between infant 
mortality and PM<INF>10</INF> (Woodruff et al., 1997). This conclusion 
is similar to conclusions in previous studies (Ministry of Public 
Health, 1954; Bobak et al., 1992; Knobel et al., 1995 and Penna et al., 
1991). These last 3 studies were reviewed by the CASAC but not relied 
on by EPA in standard setting. The most recent study finds that high 
PM<INF>10</INF> exposure is associated with increases in total infant 
mortality. Evaluation by cause of death finds a higher association for 
respiratory mortality and sudden infant death syndrome for normal 
birthweight infants. Although the association between PM exposure and 
increased postneonatal mortality risk is important, this category could 
not be included in the quantified benefits analysis because the new 
study was not published at the time the benefits analysis was 
conducted.

            Other Human Health Effects

    Human exposure to PM and ozone is known to cause health effects 
such as: airway responsiveness, increased susceptibility to respiratory 
infection, acute inflammation and respiratory cell damage, premature 
aging of the lungs and chronic respiratory damage. An improvement in 
ambient PM and ozone air quality is expected to reduce the number of 
incidences within each effect category that the U.S. population would 
experience. Although these health effects are known to be PM or ozone-
induced, concentration-response data is not available for quantifying 
the benefits associated with reducing these effects. The inability to 
quantify these effects leads to an underestimation of the monetized 
benefits presented in this analysis.

            Mercury Emission Reductions

    Emissions of mercury from human activity are thought to contribute 
between 40 to 75 percent of the current total annual input of mercury 
to the atmosphere. This RIA imposes a national SOx strategy for the 
purpose of implementing the PM<INF>2.5</INF> alternatives. From the 
2010 baseline, the SOx strategy is estimated to reduce 11 tons of 
mercury, which is approximately a 16 percent reduction.
    Once emitted to the atmosphere, mercury can deposit to the earth in 
different ways and at different rates, depending on its physical and 
chemical form. The form of mercury emitted influences its atmospheric 
fate and transport, as do conditions specific to its site of release. 
The result is that mercury deposition is a local, regional, and global 
issue. Mercury can be deposited directly to water bodies or can be 
transported from land by run-off and enter many different types of 
water bodies. The water bodies contain microorganisms that have the 
metabolic capability to carry out chemical reactions which bind mercury 
to methyl groups, producing methylmercury. Methylmercury is the form of 
mercury to which humans and wildlife are generally exposed, usually 
from eating fish which have accumulated mercury in their muscle tissue.
    Methylmercury is biologically concentrated or bioaccumulated. That 
is, an animal at a higher position in the foodweb may have mercury 
concentrations thousands of times higher than an animal at a lower 
position in the foodweb. The transfer of mercury in the foodweb to 
progressively higher concentrations in large fish is key to 
understanding how release of mercury to the atmosphere results in 
exposure to high concentrations of mercury in fish, and ultimately 
humans and wildlife which consume fish. Humans are most likely to be 
exposed to methylmercury through fish consumption, although exposure 
may occur through other routes as well. In addition, mercury is a known 
human toxicant which has been associated with occupational exposure and 
with exposure through consumption of contaminated food. The range of 
neurotoxic effects can vary from subtle decrements in motor skills and 
sensory ability to tremors, inability to walk, convulsions, and death. 
Neurotoxicity can also affect a developing embryo or fetus.
    The environmental impacts of mercury on fish include death, reduced 
reproductive success, impaired growth, and developmental and behavioral 
abnormalities. Exposure to mercury can also cause adverse effects in 
plants, birds, and mammals. Effects of mercury on plants include plant 
senescence, growth inhibition, decreased chlorophyll contents leaf 
injury, root damage, and inhibited root growth and function. 
Reproductive effects are the primary concern for avian mercury 
poisoning and can include liver and kidney damage as well as 
neurobehavioral effects. Although clear causal links between mercury 
contamination and population declines in various wildlife species have 
not been established, mercury may be a contributing factor to 
population declines of the endangered Florida panther and the common 
loon.
    Current levels of mercury in freshwater fish in the U.S. are such 
that advisories have been issued in 37 states warning against the 
consumption of certain amounts and species of fish that are 
contaminated with mercury. Seven states have statewide advisories. Such 
widespread contamination is a concern for several reasons including: 
potential health risk to people who continue to catch and eat fish from 
these waters; economic losses to tourism, commercial and recreational 
fisheries; health and economic impacts to people, including subsistence 
fishers, who can no longer eat fish from these waters.

            Urban Ornamentals

    Urban ornamentals represent an additional vegetation category 
likely to experience some degree of effects associated with exposure to 
ambient ozone levels and likely to impact large economic sectors. In 
the absence of adequate exposure-response functions and economic damage 
functions for the potential range of effects relevant to these types of 
vegetation, no direct quantitative economic benefits analysis has been 
conducted. Ornamentals used in the urban and suburban landscape include 
shrubs, trees, grasses, and flowers. The types of economic losses that 
could potentially result from effects that have been associated with 
ozone exposure include: 1) reduction in aesthetic services over the 
realized lifetime of a plant; 2) the loss of aesthetic services 
resulting from the premature death (or early replacement) of an injured 
plant; 3) the cost associated with removing the injured plant and 
replacing it with a new plant; 4) increased soil erosion, 5) increased 
energy costs from loss of shade in the urban environment; 6) reduced 
seedling survivability; and 7) any additional costs incurred over the 
lifetime of the injured plant to mitigate the effects of ozone-induced 
injury. It is estimated that more than $20 billion (1990 dollars) are 
spent annually on landscaping using ornamentals (Abt, 1 995b), both by 
private property owners/tenants and by governmental units responsible 
for public areas, making this a potentially important welfare effects 
category. However, information and valuation methods are not available 
to allow for plausible estimates of the percentage of these 
expenditures that may be related to impacts associated with ozone 
exposure. While recognizing this limitation, an estimate of ozone-
induced damage to ornamentals can be made based on data assessing 
retail expenditures on environmental horticulture at $23 billion in 
1991 (Abt, 1995b). If only half of a percent of public expenditures on 
ornamentals could be traced to ozone-induced damage avoided with a 
revised ozone standard, then benefits would amount to $115 million.

            Aesthetic Injury to Forests

    Ozone is a regionally dispersed air pollutant that has conclusively 
been shown to cause discernible injury to forest trees (Fox, 1995). One 
of the welfare benefits expected to accrue as a result of reductions in 
ambient ozone concentrations in the United States is the economic value 
the public receives from reduced aesthetic injury to forests. There is 
sufficient scientific information available documenting that ambient 
ozone levels cause visible injury to foliage and impair the growth of 
some sensitive plant species. Ozone inhibits photosynthesis and 
interferes with nutrient uptake, causing a loss in vigor that affects 
the ability of trees to compete for resources and makes them more 
susceptible to a variety of stresses (U.S. EPA, 1996a, p. 5-251). 
Extended or repeated exposures may result in decline and eventual 
elimination of sensitive species. Ozone concentrations of 0.06 ppm or 
higher are capable of causing injury to forest ecosystems.
    The most notable effects of ozone on forest aesthetics and 
ecosystem function have been documented in the San Bernardino Mountains 
in California. Visible ozone-related injury, but not necessarily 
ecosystem effects, have also been observed in the Sierra Nevada in 
California, the Appalachian Mountains from Georgia to Maine, the Blue 
Ridge Mountains in Virginia, the Great Smoky Mountains in North 
Carolina and Tennessee, and the Green Mountains in Vermont (U.S. EPA, 
1996a, pp. 5-250 to 5-251). These are all locations where there is 
substantial recreation use and where scenic quality of the forests is 
an important characteristic of the resource. Economic valuation studies 
of lost aesthetic value of forests attributed to plant injuries caused 
by ozone are limited to two studies conducted in Southern California 
(Crocker, 1985; Peterson et al., 1987). Both included contingent 
valuation surveys that asked respondents what they would be willing to 
pay for reductions in (or preventions of increases in) visible ozone 
injuries to plants. Crocker found that individuals are willing to pay a 
few dollars more per day to gain access to recreation areas with only 
slight ozone injury instead of areas with moderate to severe injury 
Peterson et al. estimated that a one-step change (on a 5 point scale) 
in visible ozone injury in the San Bernardino and Angeles National 
Forests would be valued at an aggregate amount of between $27 million 
and $144 million for all residents of Los Angeles, Orange, and San 
Bernardino counties. A reassessment of the survey design, in light of 
current standards for contingent valuation research, suggests that it 
is plausible that concerns for forest ecosystems and human health could 
have been embedded into these reported values. The extent of this 
possible bias is uncertain.
    Present analytic tools and resources preclude EPA from quantifying 
the national benefits of improved forest aesthetics expected to occur 
from the selected ozone standard. This is due to limitations in our 
ability to quantify the relationship between ozone concentrations and 
visible injury, and limited quantitative information about the value to 
the public of specific changes in visible aesthetic quality of forests. 
However, there is sufficient supporting evidence in the physical 
sciences and economic literature to support the finding that the 
proposed changes to the ozone NAAQS can be expected to reduce injury to 
forests, and that reductions in these injuries will likely have a 
significant economic value to the public.

            Nitrates in Drinking Water

    Nitrates in drinking water are currently regulated by a maximum 
contaminant level (MCL) of 10 mg/L on the basis of the risk to infants 
of methemoglobinemia, a condition which adversely affects the blood's 
oxygen carrying capacity. In an analysis of pre-1991 data, Raucher, et 
al. (1993) found that approximately 2 million people were consuming 
public drinking water supplies which exceed the MCL. Supplementing 
these findings, the National Research Council concluded that 42 percent 
of the public drinking water users in the U.S. (approximately 105 
million people) are either not exposed to nitrates or are exposed to-
concentrations below 1.3 mg/L (National Research Council, 1995).
    In a recent epidemiological study by the National Cancer Institute, 
a statistically significant relationship between nitrates in drinking 
water and incidence of non-Hodgkin's lymphoma were reported (Ward, et 
al., 1996). Though it is generally acknowledged that traditional water 
pollution sources such as agricultural runoff are mostly responsible 
for violations of the MCL, other more diffuse sources of nitrate to 
drinking water supplies, such as that from atmospheric deposition, may 
also become an important health concern should the cancer link to 
nitrates be found valid upon further study.

            Brown Clouds

  NOx emissions, especially gaseous NO2 and NOx aerosols, can cause a 
brownish color to appear in the air (U.S. EPA, 1993). In higher 
elevation western cities where wintertime temperature inversions 
frequently trap air pollutants in atmospheric layers close to the 
ground, this can result in distinct brown layers. In Denver, this 
phenomenon has been named the ``brown cloud.'' In the eastern U.S., a 
layered look is not as common, but the ubiquitous haze sometimes takes 
on a brownish hue. To date, economic valuation studies concerning 
visual air quality have focused primarily on the clarity of the air in 
terms of being able to see through it, and have.not addressed the 
question of how the color of the haze might be related to aesthetic 
degradation. It may be reasonable to presume that brown haze is likely 
to be perceived as dirty air and is more likely to be associated with 
air pollution in people's minds. It has not, however, been established 
that the public would have a greater value for reducing brown haze than 
for a neutral colored haze. Results of economic valuation studies of 
visibility aesthetics conducted in Denver and in the eastern U.S. 
(McClelland et al., 1991) are not directly comparable because changes 
in visibility conditions are not defined in the same units of measure. 
However, the WTP estimates for improvements in visibility conditions 
presented in this assessment are based on estimates of changes in 
clarity of the air (measured as deciview) and do not take into account 
any change in color that may occur. It is possible that there may be 
some additional value for reductions in brownish color that may also 
occur when NOx emissions are reduced.

            Other Unquantifiable Benefits Categories

    There are other welfare benefits categories for which there is 
incomplete information to permit a quantitative assessment for this 
analysis. For some endpoints, gaps exist in the scientific literature 
or key analytical components and thus do not support an estimation of 
incidence. In other cases, there is insufficient economic information 
to allow estimation of the economic value of adverse effects. 
Potentially significant, but unquantified welfare benefits categories 
include: existence and user values related to the protection of Class I 
areas (e.g., Grand Canyon National Park), tree seedlings for more than 
10 sensitive species (e.g., black cherry, aspen, ponderosa pine), non-
commercial forests, ecosystems, materials damage, and reduced sulfate 
deposition to aquatic and terrestrial ecosystems. Although scientific 
and economic data are not available to allow quantification of the 
effect of ozone in these categories, the expectation is that, if 
quantified, each of these categories would lead to an increase in the 
monetized benefits presented in this RIA. For example, the National 
Acid Precipitation Assessment Program (NAPAP) reports that user values 
for visibility changes at recreation sites in the east and west are in 
the range of $1 to $10 per visitor per day. Similarly, estimates of the 
economic effects of acidic deposition damages on recreational fishing 
in the Adirondack region of New York range from $1 million to $13 
million annually.

Potential Disbenefits

    In this discussion of unquantified benefits, -a discussion of 
potential disbenefits must also be mentioned. Several of these 
disbenefit categories are related to nitrogen deposition while one 
category is related to the issue of ultraviolet light.

            Passive Fertilization

    Several disbenefit categories are related to nitrogen deposition. 
Nutrients deposited on crops from atmospheric sources are often 
referred to as passive fertilization. Nitrogen is a fundamental 
nutrient for primary production in both managed and unmanaged 
ecosystems. Most productive agricultural systems require external 
sources of nitrogen in order to satisfy nutrient requirements. Nitrogen 
uptake by crops varies, but typical requirements for wheat and corn are 
approximately 150 kg/ha/yr and 300 kg/ha/yr, respectively (NAPAP, 
1990). These rates compare to estimated rates of passive nitrogen 
fertilization in the range of 0 to 5.5 kg/ha/yr (NAPAP, 1991). 
Approximately 75 percent (70 -80 percent) of nitrogen deposition is in 
the form of nitrates (and thus can be traced to NOx emissions) while 
most of the remainder is due to ammonia emissions (personal 
communication with Robin Dennis, NOAA Atmospheric Research Lab, 1997).
    Elsewhere in this analysis, it is estimated that a 0.08 3rd max 
ozone standard would result in NOx emissions reductions of 
approximately 0 3 million tons/yr for partial attainment or 1.4 million 
tons/yr for full attainment from a 2010 baseline. These reductions are 
roughly equivalent to 1-6 percent of 1990 emission levels (i.e., the 
approximate year of the NAPAP deposition estimates).
    NOx reductions resulting from a 0.08 3rd max ozone NAAQS could 
therefore, in theory, increase the nitrogen fertilization requirement 
for wheat from 0-0.03 percent for partial attainment and from 0-0.17 
percent for full attainment. For corn, the increase would be from 0-
0.01 percent for partial attainment and from 0-0.08 percent for full 
attainment. However, given the extremely small magnitude of these 
increases, it is highly unlikely that farmers could detect them and 
increase their fertilization application accordingly nor even control 
their nitrogen applications with this degree of precision.
    Information on the effects of changes in passive nitrogen 
deposition on forest lands and other terrestrial ecosystems is very 
limited. The multiplicity of factors affecting forests, including other 
potential stressors such as ozone, and limiting factors such as 
moisture and other nutrients, confound assessments of marginal changes 
in any one stressor or nutrient in forest ecosystems. However, 
reductions in deposition of nitrogen in could have negative effects on 
forest and vegetation growth in ecosystems where nitrogen is a limiting 
factor (U.S. EPA, 1993).
    However, there is evidence that forest ecosystems in some areas of 
the United States are nitrogen saturated (U.S. EPA, 1993). Once 
saturation is reached, adverse effects of additional nitrogen begin to 
occur such as soil acidification which can lead to leaching of 
nutrients needed for plant growth and mobilization of harmful elements 
such as aluminum. Increased soil acidification is also linked to higher 
amounts of acidic runoff to streams and lakes and leaching of harmful 
elements into aquatic ecosystems.

            Ultraviolet Light

    A reduction of tropospheric ozone to meet health and welfare-based 
standards is likely to increase the penetration of ultraviolet light, 
specifically W-B, to ground level. W-B is an issue of concern because 
depletion of the stratospheric ozone layer (i.e., ozone in the upper 
atmosphere) due to chlorofluorocarbons and other ozone-depleting 
chemicals is associated with increased skin cancer and cataract rates. 
EPA is not currently able to adequately quantify these effects for the 
purpose of valuing benefits for these standards. If EPA were able to do 
so it would attempt to quantify these effects.
    Other EPA programs exist to address the risks posed by changes in 
W-B associated with changes in total column ozone. As presented in the 
Stratospheric Ozone RIA (U.S. EPA, 1992), stratospheric ozone levels 
are expected to significantly improve over the next century as the 
major ozone depleting substances are phased out globally. This expected 
improvement in stratospheric ozone levels is estimated to reduce the 
number of nonmelanoma skin cancers (NMSC's) by millions of cases in the 
U.S. by 2075.

                            12.11 references

    Adams, D.M. and Haynes, R.W. (1966). The 1993 Timber Assessment 
Market Model: Structure, Projections and Policy Simulations. U.S. 
Department of Agriculture, Forest Service, Technical Report PNW-GTR-
368; November.
    Abt Associates, Inc. (1995a), Ozone NAAQS Benefits Analysis: 
California Crops. Prepared for the U.S. Environmental Protection 
Agency, Office of Air Quality Planning and Standards; Research Triangle 
Park, N.C.; July.
    Abt Associates, Inc. (1995b), Urban Ornamental Plants: Sensitivity 
to Ozone and Potential Economic Losses. Prepared for the U.S. 
Environmental Protection Agency, Office of Air Quality Planning and 
Standards; Research Triangle Park, N.C.; July.
    Abt Associates, Inc. (1996a), A Particulate Matter Risk Assessment 
for Philadelphia and Los Angeles. Prepared for the U.S. Environmental 
Protection Agency, Office of Air Quality Planning and Standards; 
Research Triangle Park, N.C.; July.
    Abt Associates, Inc. (1996b), Supplement to A Particulate Matter 
Risk Assessment for Philadelphia and Los Angeles. Prepared for the U.S. 
Environmental Protection Agency, Office of Air Quality Planning and 
Standards; Research Triangle Park, N.C.; December.
    Abt Associates, Inc. (1997), Memorandum to Rosalina Rodriguez U.S. 
EPA, OAQPS on Changes to the Method for Estimating Benefits to 
California Agriculture from Ozone NAAQS Using the CARM Model; July.
    Bobak, M. And Leon, D.A. (1992), Air Pollution and Infant Mortality 
in the Czech Republic, 1986-1988. Lancet, 340: 1010-1014.
    Chesnut, L. (1995), Human Health Benefits from Sulfate Reductions 
Under Title IV of the 1990 Clean Air Act Amendments. Prepared by Hagler 
Bailly Consulting, Inc. for the U.S. Environmental Protection Agency, 
Office of Air and Radiation, Office of Atmospheric Programs; 
Washington, D.C.
    Chesnut, L. (1997a), Methodology for Estimating Values for Changes 
in Visibility in National Parks. Prepared by Hagler Bailly Consulting, 
Inc. for the U.S. Environmental Protection Agency, Office of Air and 
Radiation; Washington, D.C.
    Chesnut, L. (1997b), Potential Effects of Ambient Changes on Values 
Related to Forest Aesthetics. Prepared by Hagler Bailly Consulting, 
Inc. for the U.S. Environmental Protection Agency, Office of Policy 
Planning and Evaluation and the Office of Air Quality Planning and 
Standards; April.
    Costanza, R.; d'Arge, R.; de Groot, R.; Farber, S.; Grasso, M.; 
Hannon, B.; Limburg, K; Naeem, S.; O'Neill, R.V.; Paruelo, J.; Raskin, 
R.G.; Sutton, P.; and van den Belt, M. (1997), The Value of the World's 
Ecosystem Services and Natural Capital. Nature, Vol. -387: 253-259.
    Crocker, T:D. (1985), On the Value of the Condition of a Forest 
Stock. Land Economics 61(3):244-254.
    Crocker, T.D. and Horst, R.L., Jr. (1981) Hours of Work, Labor 
Productivity, and Environmental Conditions: A Case Study. The Review of 
Economics and Statistics 63 :361 -368.
    Dennis, R. (1997), Personal communication. NOAA Atmospheric 
Research Lab; Research Triangle Park, N.C.; June.
    DeSteiger, J.E.; Pye, J.M.; Love, C.S. (1990), Air Pollution Damage 
to U.S. Forests. Journal of Forestry, 88-8: 17-22.
    Fox, S. and Mickler, R.A. (1995), Impact of Air Pollutants on 
Southem Pine Forests. Ecological Studies 118; Springer-Verlag; New 
York.
    Haddix, A., S. M. Teutsch, P. A. Schaffer, and D. O. Dunet (1996), 
Prevention Effectiveness: A Guide to Decision Analysis and Economic 
Evaluation; January.
    Heck, W.W. and Cowling, E.B. (1997), The Need for a Long Temm 
Cumulative Secondary Ozone Standard--An Ecological Perspective. EM, 
January 1997: 23-33.
    Johnson, T.; Capel, J.; Mozier, J.; McCoy, M. (1996), Estimation of 
Ozone Exposures Experienced by Outdoor Children in Nine. Urban Areas 
Using a Probabilistic Version of NEM. Prepared by IT/Air Quality 
Services for the U.S. Environmental Protection Agency, Office of Air 
Quality Planning and Standards; Research Triangle Park, N.C.; August.
    Johnson, T. (1997), Sensitivity of Exposure Estimates to Air 
Quality Adjustment Procedure. Prepared by TRJ Environmental, Inc. and 
IT/Air Quality Services for the U.S. Environmental Protection Agency, 
Office of Air Quality Planning and Standards; Research Triangle Park 
N.C.; June.
    Knobel, H.; Chen, C.; and Liang, K. (1995) Sudden Infant Death 
Syndrome in Relation to Weather and Optimetrically Measured Air 
Pollution in Taiwan. Pediatrics 96: 1106-1110.
    Lee, E.H.; Hogsett, W.E. (1996), Methodology for Calculating Inputs 
for Ozone Secondary Standard Benefits Analysis: Part II. Prepared for 
the U.S. Environmental Protection Agency, Office of Air Quality 
Planning and Standards; Research Triangle Park, N.C.; March.
    Lutter, R. And Wolz, C. (1997), W-B Screening by Tropospheric 
Ozone: Implications for the National Ambient Air Quality Standard. 
Environmental Science & Technology, Vol. 31, No. 3:142-146.
    Madronich, E. (1997), memorandum to Reva Rubenstein, Office of 
Atmospheric Programs, Washington, DC.
    Mathtech, Inc. (1994), The Regional Model Farm (RMF): An 
Agricultural Sector Benefits Assessment Model, Version 3.0 for Personal 
Computers. Prepared for the U.S. Environmental Protection Agency, 
Office of Air Quality Planning and Standards; Research Triangle Park, 
N.C.; September.
    Mathtech, Inc. (1995. Addendum to the Regional Model Farm (RMF) 
User's Guide, Version 3.0 for Personal Computers. Prepared for the U.S. 
Environmental Protection Agency, Office of Air Quality Planning and 
Standards; Research Triangle Park, N.C.; June.
    Mathtech, Inc. (1997), Forestry Sector Benefits of Alternative 
Ozone Standards. Prepared for the U.S. Environmental Protection Agency, 
Office of Air Quality Planning and Standards; Research Triangle Park, 
N.C.; July.
    McClelland, G.; Schulze, W.D.; Irwin, J:; Schenk, D.; Waldman, D.; 
Stewart, T.; Deck, L.; Slovic, P.; Thayer, M. (1990), Valuing 
Visibility: A Field Test of the Contingent Valuation Method (Draft). 
Prepared for the U.S. Environmental Protection Agency, Office of Air 
and Radiation; Washington, D.C.; Cooperative Agreement #CR-812054.
    McClelland, G., W.D. Schulze, D. Waldman, J. Irwin, D. Schenk, T. 
Stewart, L. Deck, and M. Thayer. (1991). Valuing Eastern Visibility: A 
Field Test of the Contingent Valuation Method (Draft). Cooperative 
Agreement #CR-815183-01-3, U.S. Environmental Protection Agency, 
Washington, D.C.
    Ministry of Public Health (1954). Mortality and Morbidity During 
the London Fog of December 1952 on Public Health and Medical Subjects. 
Her Majesty's Stationary Office, London.
    NAPAP (1990), Acidic Deposition: State of Science and Technology, 
Report 18: Response of Vegetation to Atmospheric Deposition and Air 
Pollution. National Acid Precipitation Assessment Program, Office of 
the Director; Washington, D.C.
    NAPAP (1991), National Acid Precipitation Assessment Program 1990 
integrated Assessment Report National Acid Precipitation Assessment 
Program, Office of the Director; Washington D.C.
    National Research Council (1995), Nitrate and Nitrite in Drinking 
Water. Subcommittee on Nitrate and Nitrite in Drinking Water, National 
Academy Press; Washington, DC.
    Penna, M.L.F. and Duchiade, M.P. (1991), Air Pollution and Infant 
Mortality from Pneumonia in the Rio de Janeiro Metropolitan Area. 
Bulletin of PAHO:47-54.
    Peterson, D.C.; Rowe, R.D.; Schulze, W.D.; Russell, G.W.; Boyce, 
R.R.; Elliott, S.R.; Hurd, B. (1987), Improving Accuracy and Reducing 
Costs of Environmental Benefit Assessments: Valuation of Visual Forest 
Damages from Ozone. Prepared for the U.S. Environmental Protection 
Agency, Office of Air and Radiation; Washington, D.C.; Cooperative 
Agreement #CR812054-02.
    Pope, C.A., III; Thun, M.J. ; Namboodiri, M.M. ; Dockery, D.W., 
Evans, J. S.; Speizer, F.E., and Heath, C.W., Jr. (1995), Particulate 
Air Pollution as a Predictor of Mortality in a Prospective Study of 
U.S. Adults. Am. J. Respir. Crit. Care Med. 151:669-674.
    Pye, J.M.; deSteiguer, J.E.; Love, C. (1988), Expert Opinion Survey 
on the Impact of Air Pollutants on Forests of the USA. Proceedings of 
Air Pollution and Forest Decline; Interlaken, Switzerland; October.
    Raucher, R. S.; Drago, J. A.; Trabka, E.; Dixon, A.; Patterson, A.; 
Lang, C.; Bird, L.; Ragland, S. (1993), An Evaluation of the Federal 
Drinking Water Regulatory Program under the Safe Drinking Water Act as 
Amended in 1986, Appendix A: Contaminant-Specific Summaries. Prepared 
for the American WaterWorks Association;
    Richmond, H. (1997), Supplemental Ozone Exposure and Health Risk 
Analyses. EPA--memorandum to Karen Martin, Office of Air Quality 
Planning and Standards; Research Triangle Park, N.C.; February.
    U.S. Environmental Protection Agency, (1992), Regulatory Impact 
Analysis: Protection of Stratospheric Ozone. Vol. II, Part I. 
Stratospheric Protection Program. Washington, DC.
    U.S. Environmental Protection Agency (1993), Air Quality Criteria 
for Oxides of Nitrogen. Volume II. Office of Research and Development; 
Washington, D.C.; EPA report no. EPA/600/8-91 /049bF.
    U.S. Environmental Protection Agency (1996a), Air Quality Criteria 
for Ozone and Related Photochemical Oxidants. Office of Research and 
Development; Office of Health and Environmental Assessment; Research 
Triangle Park, N.C.; EPA report nos. EPA/600/P-93/004aF-cF.
    U.S. Environmental Protection Agency (1996b), Air Quality Criteria 
for Particulate Matter. Office of Research and Development, Office of 
Health and Environmental Assessment; Research Triangle Park, N.C.; EPA 
report no. EPA/600/P-95/001cF; April.
    U.S. Environmental Protection Agency (1996c), Review of National 
Ambient Air Quality Standards for Ozone: Assessment of Scientific and 
Technical Information. OAQPS Staff Paper. Office of Air Quality 
Planning and Standards; Research Triangle Park, N.C.; EPA report no. 
EPA/452/R-96-007.
    U.S. Environmental Protection Agency (1996d), Review of the 
National Ambient Air Quality Standards for Particulate Matter: Policy 
Assessment of Scientific and Technical Information. OAQPS Staff Paper. 
Office of Air Quality Planning and Standards; Research Triangle Park, 
N.C.; EPA report no. EPA/452/R-96-013.
    U.S. Environmental Protection Agency (1997a), Benefits Technical 
Support Document for the Regulatory Impact Analysis for the PM and 
Ozone NAAQS, and Proposed Regional Haze Rule. Office of Air Quality 
Planning and Standards; Research Triangle Park, N.C.
    U.S. Environmental Protection Agency, (1997b), The Benefits and 
Costs of the Clean Air Act, 1970 to 1990. Draft Report for the U.S. 
Congress. Office of Air and Radiation; Washington, D.C.
    U.S. Environmental Protection Agency, (1997c), Benefits of Reducing 
Atmospheric Deposition of Nitrogen in Estuarine and Coastal Water; 
July.
    Ward, M. H.; Mark, S. D.; Cantor, K.P..;Weisenburger, D.D.; Correa-
Villasenor, A.; Zahm, S.H. (1996), Drinking Water Nitrate and the Risk 
of Non-HodgLin's Lymphoma. Epidemiology 7:465-471; September.
    Whitfield, R.G.; Biller, W.F.; JuskO, M.J.; Keisler, J.M. (1996), A 
Probabilistic Assessment of Health Risks Associated with Short-Term 
Exposure to Tropospheric Ozone. Prepared by Agronne National Laboratory 
for the U.S. Environmental Protection Agency, Office of Air Quality 
Planning and Standards; Research Triangle Park, N.C.; June.
    Whitfield, R.G. (1997), Sensitivity of Risk Estimates to Air 
Quality Adjustment Procedure. Prepared by Agronne National Laboratory 
for the U.S. Environmental Protection Agency, Office of Air Quality 
Planning and Standards; Research Triangle Park, N.C.; June.
    Woodruff, T.J.; Grillo, J.M.; and Schoendorf, K.C. (1997), The 
Relationship Between Selected Causes of Postneonatal Infant Mortality 
and Particulate Air Pollution in the United States. Environ. Health 
Perspectives. June.

                     13.0 benefit-cost comparisons

13.1 Results in Brief
    Estimated partial attainment (P/A) benefits of implementation of 
the particulate matter (PM) and ozone NAAQS greatly exceed estimated P/
A costs. Estimated combined net P/A benefits (P/A benefits minus P/A 
costs) for the combined PM<INF>2.5</INF> 15/65 and ozone 0.08 4th max 
alternatives range from approximately $9.5 to $96 billion.
    Considered separately, estimated PlA benefits of alternative 
PM<INF>2.5</INF> standards far outweigh estimated P/A costs. Estimated 
quantifiable net PIA benefits of the selected PM<INF>2.5</INF> 15/65 
standard range from $10 to $95 billion. Estimated quantifiable full-
attainment (F/A) net benefits range from -$17 to $73 billion. Estimated 
quantifiable net P/A quantified and monetized benefits of the ozone 
0.08 4th max standard range from -$0.7 to $1.0 billion. F/A benefit 
estimates are somewhat smaller than F/A cost estimates. Quantifiable 
net benefits for full attainment of the 0.08 4th max. ozone standard 
are estimated to range from -$8.1 to $1.1 billion.

13.2 Introduction
    This Regulatory Impact Analysis provides cost, economic impact, and 
benefit estimates potentially useful for evaluating PM, ozone, and RH 
control alternatives. Benefit-cost analysis provides a systematic 
framework for assessing and comparing such alternatives. According to 
economic theory, the efficient alternative maximizes net benefits to 
society (i.e., social benefits minus social costs). However, both the 
Agency and the courts have defined the primary National Ambient Air 
Quality Standards (NAAQS) setting process as a fundamentally health-
based decision that specifically is not to be based on cost or other 
economic considerations. This benefit-cost comparison for the PM and 
ozone NAAQS, therefore, is intended to generally inform the public 
about the potential costs and benefits that may result when revisions 
to the PM and ozone NAAQS are implemented by the States. The benefit-
cost comparison for the RH rule, however, may be used to support the 
decision making process for this program.

13.3 Comparisons of Benefits to Costs

            13.3.1 Separate PM and Ozone NAAQS
                13.3.1.1 Results
    Tables 13.1 and 13:2 present the estimated P/A benefits, costs, net 
benefits, and residual nonattainment area (RNA) results for alternative 
PM<INF>2.5</INF> NAAQS and ozone NAAQS, respectively.
    Full attainment (F/A) cost and benefit estimates of alternative 
PM<INF>2.5</INF> and ozone NAAQS are presented in Chapters 9 and 12. 
Estimated F/A costs of the selected PM<INF>2.5</INF> 15/65 standard 
equal $36.7 billion, while estimated F/A benefits range from $19.8 to 
$109.7 billion. Estimated F/A costs of the ozone 0.08 4th max standard 
equal $9.6 billion, while estimated F/A benefits range from $1.5 to 
$8.5 billion.

                13.3.1.2 Key Results and Conclusions

    Monetized net benefit estimates are positive and substantial for 
all three PM<INF>2.5</INF> alternatives for the P/A scenario. For the 
selected PM<INF>2.5</INF> 15/65 standard, estimated net annual P/A 
benefits range from $10 to $95 billion, depending whether the estimates 
are based on the low end and high end assumptions.
    Monetized net benefit estimates are ambiguous for the three ozone 
standards assessed for the P/A scenario. For the selected ozone 0.08 
4th max standard, estimated net annual P/A benefits range from -$0.7 
billion to $1.0 billion, depending on whether the estimates are based 
on the low or the high end assumptions. Note that significant 
categories of nonmonetized benefits are omitted from these estimates.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            13.3.2 Combined PM and Ozone NAAQS
    Based on results from sensitivity studies performed for the 
sequential implementation of a PM and an ozone standard (see Appendix 
D), the sum of estimated P/A costs and benefits associated with 
separate PM and ozone standards, regardless of sequence, is likely to 
exceed the P/A costs and benefits associated with coordinated 
implementation of both standards, but only by a small percentage. Thus 
the benefits and costs of coordinated implementation of a 
PM<INF>2.5</INF> 15/65 and ozone 0.08 4th max standards can be 
estimated roughly by summing results from the separate standards-
analyses.

            13.3.3 Regional Haze Rule
                13.3.3.1 Results
    The estimated benefits and costs associated with achieving a .67 
and 1 deciview visibility improvement, incremental to the application 
of controls to attain the PM<INF>2.5</INF> 15/65 standard, are 
presented in Table 13.3.
                13.3.3.2 Key Results and Conclusions
    Net monetized benefit estimates are ambiguous for both RH 
alternatives assessed.
    Actual benefits and costs associated with the proposed RH rule will 
depend on the reasonable progress target levels included in State 
Implementation Plans (see Chapter 8).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            13.4 limitations to the benefit-cost comparisons
    As discussed throughout this document, there are significant 
analytical uncertainties associated with these benefit-cost 
assessments. Various emission inventory, air quality modeling, cost, 
health and welfare effect, and valuation uncertainties and limitations 
are discussed throughout this analysis. An effort has been made to 
account for some of these uncertainties through the estimation of a 
plausible range of monetized benefits as described in chapter 12. 
Additional limitations specific to the comparison of estimated benefits 
and costs for the various alternatives include the following:
    Some identified benefit categories associated with PM and ozone 
reductions could not be quantified or monetized. Nonmonetized benefit 
categories include changes in pulmonary function, altered host defense 
mechanisms, and cancer. Thus, this chapter presents a comparison of 
estimated monetized benefits versus estimated total costs.
    The uncertainty associated with the benefit estimates may be 
greater than the uncertainty associated with the P/A cost estimates. In 
particular, benefit estimates vary greatly depending on the mortality 
risk reduction effect and valuation measures employed.
    Full-attainment cost estimates are speculative and should be 
compared with full-attainment benefit estimates with caution.
    Comparisons of P/A costs and benefits across alternatives examined 
should be made with caution because of the existence of residual 
nonattainment (RNA). P/A costs associated with more stringent standards 
may not increase at an increasing rate because the additional violating 
counties may have low-cost controls available to attain the more 
stringent standards. The number of RNA areas, however, increases with 
the stringency of the standards.
    The cost and benefit estimates presented in this chapter do not 
account for market reactions to the implementation of these rules. 
These estimates represent the direct but not the true social benefits 
and costs (calculated after market adjustments to price and output 
changes, etc.) associated with alternative standards. Social costs are 
typically somewhat smaller than direct control costs while social 
benefits may be greater or less than direct benefits depending on the 
specific market adjustments and substitutions that occur.

                              13.5 summary

    Despite numerous limitations and uncertainties, the analysis 
provided in this document provides a basis for believing that in the 
reference year 2010 benefits resulting from efforts to meet both new 
NAAQS are likely to exceed costs. Though uncertainties associated with 
estimates after the next decade trend toward lower costs, it is not 
clear today what those out-year costs will be. The history of 
compliance with the Clean Air Act indicates, however, that a commitment 
to continue progress today does not require rigid adherence to 
timelines that, in ten or more years, prove to be impractical.
                                 ______
                                 
Prepared Statement of Kenneth A. Colburn, Director of the Air Resources 
      Division, New Hampshire Department of Environmental Services
    Good day. My name is Ken Colburn. I am the air director for the 
State of New Hampshire. I appreciate the opportunity to share with this 
committee a northeastern State's perspective on the problem of regional 
haze.
    Although this problem has not received the same degree of attention 
as acid rain and ozone pollution over the last several years, the 
Northeast States have an equally long history of concern about 
visibility impairment. In fact, in 1979 the eight northeast States 
adopted a resolution calling for Federal action to address the long 
range transport of visibility impairing pollutants. In part it reads:

          Whereas the Northeastern States are particularly susceptible 
        to the effects of pollution transport and have been 
        experiencing significant increases in the acidity of 
        precipitation and decreases in visibility;

    The resolution calls on EPA to take several actions including, and 
again I quote:

          Promulgate improved ambient air particulate standards which 
        reflect the health and welfare effects of the respirable and 
        corrosive fractions of the particles [and]  . . . Ensure that 
        environmental consequences beyond those that directly affect a 
        national ambient air quality standard are factored into 
        reviews, evaluations and decisions involving fossil fuel 
        consumption and other contributors to secondary air pollutants 
        and acid precipitation.

    The full resolution is attached to my written comments.
    That resolution, adopted almost 20 years ago recognized that the 
problems of regional haze, particulate pollution, ozone, and acid 
deposition are all connected. Moreover, it recognized that the 
interstate transport of pollutants, especially sulfur dioxide 
(SO<INF>2</INF>) from large coal-fired power plants, lies at the heart 
of these problems in the Northeast. Unfortunately, two decades later. 
these sources continue to harm our public health, damage our natural 
environment, and impair our tourism-based economy.
    Haze is typically perceived as a Western concern, but it is 
actually much worse in the Eastern United States. Visibility impairment 
2-3 times worse than in the West is pervasive throughout the East. And 
while we do not have the concentration of Class I areas found in the 
West, we do have a large number of wilderness areas that are very 
important both as a recreational resource for our densely populated 
region and as a source of tourist revenue. All of our wilderness areas, 
whether they are designated Class I or not, are significantly impacted 
by haze and will benefit from regional efforts to improve visibility.
    In my own State of New Hampshire, for example. tourism is our 
second largest industry after manufacturing. I am told that New 
Hampshire's White Mountain National Forest--which contains two of New 
England's six Class I airsheds--receives 7 million visitor days per 
year, an amount which exceeds that of Yellowstone and Yosemite National 
Parks combined. This is not surprising since about one-quarter of the 
U.S. population lives within one day's drive of the White Mountains. 
The 48 million tourists who visit New Hampshire each year spend over 
$2.5 billion dollars in our State. Tourism directly supports 1 out of 
every 12 jobs in New Hampshire and contributes almost $150 million 
annually to our State budget.
    Surveys of hikers in the White Mountains indicate that people 
notice haze and are affected by it. They see it as a visible sign of 
unhealthy air, and they're right: the small particles that scatter 
light and cause haze are also the small particles that have been shown 
in numerous epidemiological studies to cause serious human health 
impacts. The bottom line is that visibility is a key measure used by 
the public to discern whether or not we are making progress in cleaning 
up the air.
    That is why New Hampshire and other Northeast States generally 
support EPA's efforts to address the problem of regional haze. We agree 
that we should strive for steady, perceptible progress in reducing 
haze. And we agree with EPA that for these efforts to be successful, 
they must be broadly regional in scope and must include upwind States 
throughout the eastern part of the country, not just those with 
designated Class I areas. We also support EPA's use of the ``deciview'' 
metric. The Clean Air Act requires that visibility be protected, and 
the deciview is a visibility metric. Like ozone reduction, visibility 
improvement is a non-linear (exponential) effort. Unlike linear 
``parts-per-billion'' metrics commonly applied to ozone, however, 
deciviews are appropriately logarithmic in nature.
    We are concerned, however, that EPA may inappropriately impose the 
same control requirements on Western States as on Eastern States. Even 
though regional haze is a problem in both the East and the West, it's a 
very different problem in these two regions of the country. In the 
West, the causes of haze are complex and vary from one location to 
another. In the East, the causes of haze are well understood and are 
much the same from one place to the next. In fact, haze is a simpler 
problem in the East because it is dominated by the same sources and 
types of pollution that we are already dealing with from the standpoint 
of acid rain, fine particles, and ozone. To put it bluntly, we know how 
to cost-effectively reduce haze in the East.
    The key, as I indicated before, is sulfates. Sulfates formed from 
sulfur dioxide (SO<INF>2</INF>) emissions, primarily from coal-fired 
power plants, are typically responsible for more than half of the 
visibility impairment found in our part of the country. We are making 
an important dent in SO<INF>2</INF> emissions under the Acid Rain 
Program, but it is becoming clear to us in the Northeast that further 
reductions will be necessary even after the second phase of the program 
is implemented. The fact is that very significant quantities of 
SO<INF>2</INF>--10 to 15 million tons per year--will still be going 
into the atmosphere at that point, creating continued problems of acid 
rain, fine particulates, and regional haze throughout the East. The NOx 
reductions sought in EPA's 22-State Transport SIP call, while essential 
for lowering ozone concentrations, will do relatively little for 
visibility in the East because nitrates are a comparatively small 
fraction of fine particulate matter in the East. In addition, it is not 
clear that the new PM<INF>2.5</INF> standard will help reduce 
visibility substantially, since it is likely to apply primarily to 
urban areas, and not to large sulfur emission sources located in 
cleaner areas upwind. The good news is that SO<INF>2</INF> emission 
reductions are one of the best buys in pollution control to be had 
right now; further substantial SO<INF>2</INF> cuts are not only 
available, they are quite cost-effective.
    In this context, I want to say a couple of words about EPA's 
proposed regional haze rule. First, the rule represents a good step 
toward finally taking haze seriously. The fact is that a national goal 
of no man-made visibility impairment in Class I areas has been on the 
books for decades, and we have never really done much about it. 
Nevertheless, the progress targets EPA has proposed are quite modest 
for the Eastern U.S. If they are followed, it will take longer for many 
Eastern parts of the country to achieve the Clean Air Act's goal than 
the United States has existed as a Nation! Since we in the East can 
make greater visibility improvements more quickly by going after 
further SO<INF>2</INF> reductions, reduction requirements in the hazier 
East should reflect more rapid progress (e.g., 2-3 deciviews per 
decade) than in the clearer West (e.g., 1 deciview per decade).
    Alternatively, EPA could implement a visibility improvement target 
of 10 percent per decade--measured in deciviews--over existing 
visibility conditions. This target would allow for more rapid 
improvement in the East, where our visibility impairment approaches 30 
deciviews on the haziest days, while automatically providing a less 
aggressive target in the West, where baseline visibility conditions are 
considerably cleaner.
    Second, while the Northeast States are generally supportive of the 
haze program, they are feeling the combined burden of multiple 
regulatory obligations very keenly at this time. Fortunately, there are 
a few things that Congress and EPA can do to help out. First, give 
States the flexibility to integrate our efforts on regional haze with 
our efforts on fine particles, acid rain, and ozone since all these 
programs target many of the same pollutants. Second, keep visibility 
improvement the measure of SIP success, but don't make SIP cycles 
unnecessarily rapid or burdensome; a 5-year cycle should be adequate. 
Third, give us the added resources and support we'll need to implement 
an effective regional haze program. Fourth, develop a Federal 
presumptive BART (Best Available Retrofit Technology) program at a 
national or at least OTAG-wide level. This would relieve States of the 
burden of individual BART assessments and would finally begin to 
address the problem of ``grandfathered'' old facilities which have been 
allowed to continue polluting at rates far in excess of technically 
feasible, cost-effective emissions control levels. Finally, provide 
strong Federal leadership where appropriate, as in the case of national 
control measures such as lower-sulfur fuels.
    In closing, I'd like to amplify a bit on the need for Federal 
leadership. EPA's proposed haze rule puts a lot of emphasis on regional 
solutions. That's appropriate because haze is a regional problem. But 
the fact is that Federal leadership is sometimes needed to make 
regional solutions work. That's proven to be the case in the OTAG 
context with respect to the long-range transport of ozone and ozone 
precursors. EPA action has been necessary to ensure that the regional 
NOx reductions we need to deal with ozone throughout the East will be 
realized--and, as we all know--that fight isn't over yet. The Federal 
Acid Rain program--which is currently doing more to reduce regional 
haze in the East than any other pollution control program--provides 
another case in point. In fact, this program may provide the best model 
for future efforts to address regional haze in the East. The fine 
particulate matter that makes up regional haze is sufficiently stable 
in the atmosphere to enable it to be transported over much greater 
distances than ozone and ozone precursors. In such circumstances, a 
strong Federal role to facilitate interstate cooperation--and if it 
becomes necessary, to make culpability assignments--is essential in 
ensuring that each State's sources do their part in reducing visibility 
impairment.
    Thank you again for the opportunity to share these views. I look 
forward to answering your questions.
                                 ______
                                 
 NESCAUM Resolution on Production, Transport and Effects of Secondary 
                             Air Pollutants

    Whereas the long distance transport of sulfur oxides and the 
formation of secondary air pollutants have been demonstrated; and
    Whereas tall stacks and other dispersion-enhancement techniques 
increase the effects of such secondary pollutants in areas downwind of 
their precursor emission sources; and
    Whereas adverse health, welfare, economic, and environmental 
consequences of secondary pollutants have been documented; and
    Whereas the Northeastern States are particularly susceptible to the 
effects of pollutant transport and have been experiencing significant 
increases in the acidity of precipitation and decreases in visibility; 
and
    Whereas low-visibility, high-sulfate, and high-ozone events occur 
simultaneously within the same air masses; and
    Whereas current projections for fossil fuel consumption point 
toward an imminent increase in the combustion of coal, one of the major 
contributors to secondary pollutants; and
    Whereas there is a distinct movement by utilities and other fossil 
fuel consumers to seek relaxations of the existing standards for sulfur 
in fuels and for particulate emissions because of economic and supply 
factors;
    Now, therefore, NESCAUM urges EPA to take the following actions:
    1. Revise its estimates of anticipated fossil fuel consumption and 
of the concurrent emissions of sulfur oxides and nitrogen oxides.
    2. Assess the effects of such emissions in the formation of acid 
precipitation and of the secondary pollutants; sulfates, nitrates, and 
photochemical oxidants.
    3. Project the health and welfare effects which may be caused by 
these pollutants.
    4. Promulgate improved ambient air particulate standards which 
reflect the health and welfare effects of the respirable and corrosive 
fractions of the particulates.
    5. Thoroughly examine the effects of relaxations to standards for 
sulfur in fuels and particulate emissions, particularly on the eastern 
part of the country.
    6. Foster regional consistency by developing short and long range 
programs calling for fuel quality sufficient to maintain air quality 
and to prevent economic and social disruptions and inequities.
    7. Establish policy, guidance, and procedures to ensure that 
environmental consequences beyond those that directly affect a national 
ambient air quality standard are considered in reviews, evaluations, 
and decisions involving fossil fuel consumption and other contributors 
to secondary air pollutants and acid precipitation.
                                 ______
                                 
 Prepared Statement of Christine L. Shaver, Chief of the Air Resources 
      Division, National Park Service, Department of the Interior
    Mr. Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today at this oversight hearing on 
proposed regulations under Section 169A of the Clean Air Act (CAA).
    The National Park Service (NPS) manages 48 of the ``Class I'' areas 
that will be affected by the proposed regulation. Under the Clean Air 
Act, Class I areas are the larger national parks and wilderness areas 
that were established prior to 1978. As noted by the U.S. Environmental 
Protection Agency (EPA) in its proposed rulemaking, over 10 years ago 
(November 1985), the Federal Land Manager (FLM) for the Department of 
the Interior (DOI), the Assistant Secretary for Fish and Wildlife and 
Parks, stated that all of these Class I areas experience visibility 
impairment in the form of regional haze virtually all the time, in 
varying degrees. (See attached Figure 1 for map of all mandatory Class 
I areas).
    There were over 275 million recreational visits to units of the 
National Park System last year. To put this number of recreational 
visits in perspective, that is roughly one visit for each member of the 
U.S. population. The economic impact of park visitation is enormous--
the total economic impacts associated with travel-related expenditures 
is estimated to be $10-19 billion and between 144,000-276,000 jobs. 
These numbers only reflect direct and indirect expenditures and 
employment. They do not reflect the value people--including visitors 
and non-visitors--place on our national parks and the natural, scenic 
and cultural resources they contain. Surveys indicate that the ability 
to see--and see clearly--the spectacular scenery of our parks and 
wilderness areas is very important to the millions of people who visit 
these areas. Even people who do not visit our national parks and 
wilderness areas want these resources to be protected.
    Although we have an affirmative responsibility under the Clean Air 
Act and our own organic legislation to protect the resources and values 
of these areas, we generally lack the regulatory authority to bring 
about emission reductions needed to carry out our responsibilities, 
particularly with respect to pollution sources located outside our 
boundaries.
    Therefore, we applaud EPA's decision to develop regional haze 
regulations and commend the thoughtful way in which EPA has addressed 
this very complicated issue in the proposed rule. In general, we 
believe EPA's proposal provides a good foundation and direction for the 
development of emissions management programs that will be needed to 
unveil the spectacularly scenic resources that this nation has had the 
foresight and wisdom to encompass in our park and wilderness systems as 
part of our national legacy for present and future generations.
    We look forward to working with EPA, as well as the States, Tribal 
governments, and all interested parties, in the development of 
reasonable, yet protective programs to make ``reasonable progress'' 
toward the Clean Air Act's national goal of remedying any existing, and 
preventing any future, man-made visibility impairment in Class I areas.
    The Department of the Interior submitted formal comments on EPA's 
proposal in December.

                     visibility monitoring efforts

    Since 1978, DOI has conducted visibility monitoring in most of the 
Class I areas we manage. Our current visibility monitoring program 
includes the monitoring of fine particulate matter in 36 NPS areas, and 
the monitoring of light extinction (a measure of visibility impairment) 
in 18 NPS areas.\1\ (See attached Figures 2 and 3 for map of current 
monitoring sites and visibility conditions). All our monitoring is done 
in cooperation with the IMPROVE (Interagency Monitoring of Protected 
Visual Environments) program, and the data are publicly available and 
routinely reported. Current visibility research efforts include the 
development and application of analytical methods to identify the 
airborne particles responsible for visibility impairment, and when 
possible, determine the source of the particles.
---------------------------------------------------------------------------
    \1\ Fine particle monitoring consists of two weekly 24-hour 
samples, which provide: undifferentiated mass; specific elemental, ion 
(sulfate, nitrate and chloride), and organic and inorganic carbon 
concentrations; and atmospheric adsorption. Visibility monitoring 
comprises continuous measurement of impairment of either total 
atmospheric extinction or the fraction due to scattering.
---------------------------------------------------------------------------
    The current NPS program, in conjunction with the other IMPROVE 
sites, provides the estimates of ``current'' conditions in many 
locations necessary for implementation of EPA's proposed rule. The data 
can also be used to assess trends over time, since visibility data have 
been collected at 30 IMPROVE sites for at least nine years. The IMPROVE 
particulate matter monitors separate the fine particles into their 
chemical species, including sulfates, nitrates, and organics, thus 
providing a useful existing database for developing regional haze 
improvement strategies. The IMPROVE data will also help States with the 
EPA's Particulate Matter<INF>2.5</INF> National Ambient Air Quality 
Standards.
    The implementation of the proposed rule and the new National 
Ambient Air Quality standard for fine particulate matter will rely on 
the NPS visibility monitoring network that can monitor both fine 
particles and extinction in Class I areas.

                          impact on visibility

    The Clean Air Act requires EPA to adopt regulations to ensure 
``reasonable progress'' toward the national visibility goal of 
remedying any existing, and preventing any future, visibility 
impairment in Federal mandatory Class I areas. EPA's proposal includes 
measurable targets and criteria for assessing the effectiveness of the 
visibility program, but allows States to propose alternative 
approaches.
    First, we support the concept of having a reasonably consistent 
method for tracking progress toward the national visibility goal. This 
would not only provide a check on whether current and future emission 
management programs are having the expected effect on visibility, but 
also a benchmark that can be used to let the public know whether 
visibility is getting better or worse.
    Based on a preliminary examination of data from 30 IMPROVE 
monitoring sites,\2\ we predict that all these sites are meeting EPA's 
proposed presumptive reasonable progress targets of no degradation for 
``clean'' days (i.e., the best 20 percentile visibility conditions), 
and over 80 percent of the sites are meeting EPA's proposed presumptive 
reasonable progress targets of measured improvement on the ``dirty'' 
days (i.e., the worst 20 percentile visibility conditions). This 
progress is both expected and reassuring, reflecting the progress that 
has been made nationally in reducing pollution. Far more substantial 
progress will be needed, however, to remedy the man-made visibility 
impairment experienced at heavily impacted Class I areas, like 
Shenandoah National Park and Great Smoky Mountains National Park.
---------------------------------------------------------------------------
    \2\ The method we used to analyze the data would be acceptable 
under EPA's proposal; however, any number of methods would be 
acceptable (e.g., EPA allows use of a 1-to-9-year period for 
calculating ``baseline''). We understand that others have reached 
different conclusions using alternative methods for calculating the 
baseline and trends. This discrepancy suggests the need for a more 
standardized approach.
---------------------------------------------------------------------------
    If continuing progress can be assured over the long term from 
already existing and planned air pollution control programs, then the 
proposed regional haze regulations will have minimal independent 
impact. However, there may be areas where existing programs will have 
diminishing impacts on visibility conditions in the future.\3\ Given 
the value we place on our parks and the importance our visitors place 
on the ability to see the spectacular scenery, these areas will benefit 
from the kind of ``insurance policy'' that EPA's proposal would create.
---------------------------------------------------------------------------
    \3\ For example, in the West, health-based air quality standards 
have been met in most urban areas (outside of California, Phoenix and 
Salt Lake City), and further efforts to reduce pollution may not occur 
in spite of rapidly growing populations. Therefore, projections suggest 
a relatively flat progress line for the first part of the next 
century--2005-2035. Still, visibility impairment plagues our scenic 
western Class I areas.
---------------------------------------------------------------------------
    We have suggested some ways the proposed program could be improved. 
In order to reduce the administrative burden on States and Federal land 
managers, the NPS commented to EPA on the rule in support of a regional 
approach to defining current and ``natural'' conditions, establishing 
emission reduction objectives that will ensure reasonable progress 
toward the national visibility goal, and developing a relatively 
uniform approach for regularly tracking progress. The State-by-State 
approach could result in substantial duplication of effort and 
inconsistencies that might frustrate planning efforts. In particular, 
some of our Class I areas straddle State boundaries, and all of our 
Class I areas in the lower 48 United States are affected by interstate 
transport of pollution. Guidelines might also be helpful to promote 
consistency across regions.
    To ensure that the rate of progress is ``reasonable'' and to 
increase our ability to carry out our stewardship responsibilities, we 
need to consider whether EPA's suggested ``no degradation'' approach 
for the best days is adequate in Class I areas where these 20 percent 
``cleanest'' days are now substantially impaired. In addition, the 
suggested ``reasonable progress'' target for the most impaired days 
needs to be closely examined as it would allow 220-330 years to achieve 
the national visibility goal in those areas, such as Shenandoah and 
Great Smoky Mountains National Parks, where visibility is currently 
very degraded. We do not believe this is acceptable to our park 
visitors. Based on an examination of current trends, we find that the 
proposed criteria could allow for a slower rate of progress than is 
actually being achieved in many areas.
    We support the use of the ``deciview'' as a useful metric for 
expressing and comparing degrees of visibility impairment in a 
relatively simple way. EPA's recommended tracking of deciview changes 
over the long term is the best way to evaluate whether emission 
management strategies are working. However, one could argue that 
tracking emissions changes provides a useful supplemental measure for 
evaluating ``reasonable progress''.
         potential impacts on nps resource management programs
    Development of Regional Haze Programs: We generally agree with 
EPA's suggestion that regional haze programs be developed on a regional 
scale with participation from multiple governmental jurisdictions 
(State, Local, Tribal, as well as EPA and FLMs) and other interested 
parties. This type of process has been used to address a variety of air 
quality problems involving interstate transport of pollution (e.g., the 
Grand Canyon Visibility Transport Commission (GCVTC),\4\ the Southern 
Appalachian Mountains Initiative (SAMI), and the Ozone Transport 
Assessment Group.)
---------------------------------------------------------------------------
    \4\ The implementation of the GCVTC recommendations is the focus of 
the recently established Western Regional Air Partnership, initiated 
and organized by the GCVTC in cooperation with the Western Governors' 
Association and National Tribal Environmental Council.
---------------------------------------------------------------------------
    These processes have substantial benefits, particularly if 
consensus can be achieved in a timely manner. Like hundreds of others, 
the NPS has devoted significant time and resources to, in particular, 
the GCVTC and SAMI. The suggested regional planning fora would clearly 
benefit from our participation, because we are the collector and keeper 
of most of the visibility data, and provide expertise nationally 
through our visibility research program and policy activities. Were 
several such stakeholder processes to be initiated, or were State-by-
State consultations to intensify, NPS might need to direct more of its 
available staff and resources to meet these challenges.
    Impact on NPS Fire Programs: EPA has proposed to require States to 
consider, at a minimum, several factors during the development of long-
term strategies, including--``smoke management techniques for 
agricultural and forestry management purposes including such plans as 
currently exist for these purposes.'' As a practical matter, wildland 
fires cannot be eliminated. While NPS suppresses fire to protect public 
safety and to prevent unacceptable impacts on property and resources, 
NPS also uses fire for ecological purposes (many ecosystems are fire-
dependent), habitat protection and creation, and safety reasons (to 
reduce fuel loadings and prevent catastrophic wildfires).
    We recognize that the implementation of regional haze programs may 
affect the Federal Government's land management activities. With 
respect to the Department of the Interior, this includes a potential 
need (1) to develop and maintain a better inventory of fire emissions, 
(2) to increase visibility monitoring, (3) to prepare more detailed 
reports, (4) to conduct additional training requirements, and (5) to 
implement a more vigorous smoke management program or to consider 
alternatives to burning. The Department of the Interior has already 
committed to implementing the GCVTC recommendations regarding fire 
emissions and smoke management--not only within the Colorado Plateau. 
but nationally. We are also participating in EPA's Wildland Fires 
Issues Group, which is developing a national policy on how best to 
improve the quality of wildland ecosystems and to reduce threats of 
catastrophic fires through increased use of planned or managed fire, 
while achieving national clean air goals. Among other things, this 
group is examining a variety of emission reduction techniques that land 
managers can use to reduce smoke impacts from managed fires to the 
maximum extent possible.
    In implementing the visibility protection requirements of the Clean 
Air Act, we encourage EPA, regions, and States to include all fire 
users (Federal, State, or other publicly-owned or managed wildlands, 
Indian lands, and privately-owned agricultural and other lands) in the 
smoke management provisions of the long-term strategy.
    the grand canyon visibility transport commission recommendations
    DOI was actively involved in the GCVTC process, devoting 
significant time and resources to help forge the consensus that 
emerged. We support the ``reasonable progress'' objectives adopted by 
the GCVTC (``achieving continuous emissions reductions necessary to 
reduce existing impairment and attain steady improvement of visibility 
and managing emissions growth so as to prevent perceptible degradation 
of clean air days.''). We believe the ``reasonable progress'' targets 
and metrics proposed by EPA are consistent with the GCVTC 
recommendations.
    Like the States, Tribes, and other stakeholders who devoted similar 
resources to the GCVTC process, we do not want those efforts to be 
diminished or dismissed. We believe that EPA has made it clear in its 
proposal that the States included in the GCVTC are welcome and 
encouraged to submit SIP revisions that incorporate actions consistent 
with the GCVTC recommendations.
    Before deciding whether the GCVTC participants should be given 
carte blanche to proceed, however, it is important to remember that the 
recommendations--while comprehensive and far-reaching--are just that: 
recommendations. The GCVTC report specifically highlighted that some 
recommendations were presented as options, some as things to be studied 
or further fleshed out, and some as actions to be implemented.
    We encourage EPA to embrace the GCVTC recommendations, but to 
provide some incentive for the States and Tribes to proceed 
expeditiously with ongoing efforts to turn the recommendations into 
enforceable actions. One approach EPA might take would be to 
incorporate into the EPA final rule an ``action plan,'' based on the 
GCVTC recommendations, that would hold the States and Tribes 
accountable for the activities and actions they agreed to pursue and 
for the ``continuous emissions reductions'' they committed to produce. 
This could take the form of an enforceable schedule, with specific 
milestones, work products, decision points, and expected ``reasonable 
progress'' outcomes.
    This concludes my prepared testimony. I would be pleased to respond 
to any questions you might have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Prepared Statement of Lynn M. Terry, Deputy Executive Officer, Air 
      Resources Board, California Environmental Protection Agency
    Thank you for the opportunity to provide testimony regarding the 
U.S. Environmental Protection Agency's (U.S. EPA's) proposal for new 
regional haze regulations to improve visibility in Class I national 
parks and wilderness areas.
    California is home to some of the most beautiful scenery and vistas 
in the world. As a result, one-fifth of the areas affected by the 
proposed visibility regulations are in California, spanning the State 
from Redwoods National Park on the North Coast to Joshua Tree in the 
Southern Desert.
    In California, the Air Resources Board (ARB) is charged with 
overseeing the State's implementation of the Federal Clean Air Act, as 
well as our own California Clean Air Act. ARB is committed to 
protecting and improving visibility in both our scenic wild areas and 
our urban landscapes, in concert with our efforts to meet health-based 
air quality standards.
    While we support efforts to improve visibility, we strongly oppose 
the regulatory framework as outlined in U.S. EPA's December 1997 
proposed regional haze regulation.
    Visibility improvement programs must gain public support to 
succeed. To garner this support, the regulatory framework must be 
sensible, scientifically sound, and complement efforts to meet health-
based standards. In our evaluation, the proposed regional haze 
regulation fails to meet these criteria.
    Today, I would like to highlight some of our concerns and identify 
four key recommendations which need to be implemented in the final 
regulation to allow States to build successful visibility programs at 
the lowest cost.
    First, the most critical issue--drop the deciview approach as the 
test for visibility progress and replace it with steady reductions in 
emissions of pollutants shown to contribute to regional haze.
    As part of the Grand Canyon Visibility Transport Commission, 
California and 7 other Western States, 5 tribes, and 6 Federal entities 
wrestled with the question--what is reasonable progress? The Commission 
ultimately defined reasonable progress as ``continuous emission 
reductions . . .,'' parallel to the Clean Air Act's approach for 
progress towards the health-based air quality standards.
    Although the proposed regulation purports to offer States the 
flexibility to choose an appropriate progress target, States must 
demonstrate to the satisfaction of U.S. EPA that even obvious 
alternatives are justified. California knows all too well how difficult 
and how expensive it can be to pursue U.S. EPA approval for 
alternatives to federally-prescribed approaches, no matter how 
innovative or effective those alternatives may be.
    In California, regional haze, fine particulate matter, and ozone 
share some common components. So, our existing and planned air quality 
programs to address ozone pollution will also cut particulate levels 
and improve visibility throughout the State and beyond. California, and 
other States in similar situations, should be able to satisfy 
reasonable progress for haze by reducing emissions to meet the progress 
requirements for the health-based standards, until those standards are 
attained.
    The deciview metric is too subjective to be the basis for holding 
States accountable for visibility improvement. The technical tools 
necessary for translating emissions into increments of visibility 
improvement are not available.
    Congress created the Grand Canyon Visibility Transport Commission 
to advise U.S. EPA on strategies for improving visibility at national 
parks and wilderness areas on the Colorado Plateau. The Commission 
process resulted in the conclusion that emission reductions are the 
appropriate progress target for visibility. U.S. EPA should not ignore 
this conclusion.
    Second, change the timing for planning and implementation of the 
regional haze program to parallel and complement the schedule for fine 
particles.
    The timelines in the proposed regulation would preclude a 
thoughtful, efficient approach to visibility improvement. Most of the 
extensive technical work needed for fine particles is also critical to 
support visibility planning. The schedule should allow States to 
integrate these efforts to capitalize on the overlap between the 
sources of fine particles and haze.
    Third, provide new funding to support State, local, and tribal 
efforts to meet Federal requirements for regional haze.
    Visibility plans will be extremely resource-intensive, with 
monitoring, inventory, modeling, technology assessment, control measure 
development, public review, and Agency adoption and implementation. 
States, tribes and local agencies should not be asked to divert funds 
from existing programs focused on meeting health-based air quality 
standards to instead implement the regional haze program.
    Finally, ensure that Federal agencies are full partners in 
visibility solutions.
    National emission standards for sources under Federal control are 
key to meeting all of our air quality goals. While we are encouraged by 
the Federal Government's actions to require lower-emitting heavy-duty 
diesel engines in trucks, off-road equipment, and locomotives, a more 
proactive Federal approach is needed to make progress on cleaner 
engines for ships and aircraft.
    We also need improved coordination between Federal land managers 
and air agencies to accommodate increased burning for public safety and 
forest health, without ``smoking out'' downwind communities. California 
intends to continue to improve the State's smoke management programs to 
address both visibility and public health concerns. Federal land 
managers must be a partner in that process.

                               conclusion

    U.S. EPA has an opportunity to create a sound framework that will 
support visibility improvement through the next century; but the 
structure must be rebuilt to ensure common-sense implementation that is 
integrated with existing air quality programs. We appreciate this 
opportunity to share our recommendations to achieve that goal.
    California will continue to implement the State's clean air plan 
for achieving health-based air quality standards and incorporate 
additional strategies to meet the new ozone and fine particulate 
standards. These efforts will improve visibility as well. We all want 
to restore and preserve the scenic vistas in our Nation's most 
beautiful places for future generations to enjoy.
                                 ______
                                 
 Prepared Statement of Randolph Wood, Director, Nebraska Department of 
                         Environmental Quality

    Mr. Chairman, members of the subcommittee on Clean Air, Wetlands, 
Private Property, and Nuclear Safety, I am Randolph Wood, Director of 
the Nebraska Department of Environmental Quality. In that position, I 
am responsible for the administration and enforcement of all of the 
environmental programs within the State of Nebraska.
    I appreciate the opportunity to provide comments to this 
illustrious committee as you review EPA's activities and the proposal 
for regulations on ``regional haze''.
    EPA's proposed regulations on ``regional haze'' have created as 
much consternation for us as any set of regulations in my memory. This 
consternation is not because we do not believe in the concept of 
protection of visibility in important places such as our Class I 
national parks and wilderness areas. It's not because we are 
insensitive or that we don't understand the technical basis for the 
``regional'' approach, and it's not because we fail to grasp the nexus 
between sources of emission and the impact of those emissions. It's 
also not because we are not sympathetic with the responsibility of the 
Environmental Protection Agency in fulfilling their obligations, 
specifically those that are established by Congress as ``non-
discretionary''. We, too, have obligations under State statutory 
provisions that we must meet.
    As we have reviewed EPA's proposal over the past 8 months, we have 
identified a number of significant technical concerns within the 
proposal. But we have also come to the conclusion that it appears to us 
that EPA made a policy decision and then asked for technical 
justification for that policy decision.
    We all understand the difficulty that one State has in dealing with 
an air quality problem if some portion of the cause of that problem 
originates in an ``up-wind'' State. A most recent example of the 
recognition of this issue is the ozone transport assessment group 
(OTAG) process in the Eastern States. While some will question the use 
of the specific results in the development of implementation plans, few 
would argue that this has not been the most technically sound and 
rigorous analysis of long-range and interstate transport of pollutants 
ever conducted. That process produced the most widely accepted cause 
and effect relationship that has been developed to date.
    Contrast that to the technical analysis and cause and effect 
relationship upon which EPA is basing its proposal for the ``regional 
haze'' regulations. While I cannot and do not intend to argue the basis 
for all of the relationships developed within the technical documents 
used by EPA to support its proposal, Nebraska has serious concerns with 
the technical basis for this proposal as it applies to our State. I 
believe that I can provide a couple of examples to demonstrate that 
this technical analysis cannot and should not be used to impose a 
requirement for SIP development on Nebraska.
    First, while I know that most of you may have some familiarity with 
Nebraska, it is important to provide some demographic details for you 
in order to provide a background for the following comments. Nebraska 
is and personifies the Midwest. In fact, some have described us as the 
transition between the Eastern States and the square States, i.e., 
those west of us. The land form of Nebraska could be described as a 
tilted table top that rises from the eastern border on the Missouri 
River with an elevation of approximately 1,000 feet above sea level to 
the western border that abuts Colorado and Wyoming at elevations of 
some 5,000 feet at the highest point. There is a significant series of 
rivers that flow eastward across Nebraska ultimately draining into the 
Missouri River. Nebraska covers approximately 77,000 square miles with 
a population of approximately 1.6 million people. Two-thirds of the 
population reside in the eastern one-third of the State. Nebraska is a 
leading agricultural production State with corn, soy bean, sorghum, and 
other crops of national significance along with cattle, swine, and 
poultry production of very significant levels. Nebraska has never been 
a ``smokestack industry'' State even though we have significant 
industrial activity spread throughout the State. Nebraska has 93 
counties with Cherry County, the largest, at 5,961 sq. miles rivaling 
the area of some Eastern States. These are important factors, not just 
as a geography lesson but because they help us analyze and critique 
EPA's technical analysis of Nebraska's impact on ``regional haze''.
    Section 169A(b) requires EPA to adopt regulations to implement the 
visibility protection provisions for Federal Class I areas and 
specifically requires that ``each applicable implementation plan for a 
State in which any area listed by the Administrator under subsection 
(a)(2) is located (or for a State the emissions from which may 
reasonably be anticipated to cause or contribute to any impairment of 
visibility in such area) to contain such emission limits, schedules of 
compliance and other measures as may be necessary to make reasonable 
progress towards meeting the national goal specified in subsection (a). 
. . .''
    Quite clearly, it is incumbent upon EPA to conclude that there is a 
reasonable anticipation that emissions from a State cause or contribute 
to any impairment of visibility in a Class I area as a prerequisite for 
the determination that an implementation plan for that State is 
required. It is with the issue of ``may reasonably be anticipated'' 
that causes us great concern. As I noted previously, most people 
recognize that the technical basis for the OTAG conclusions was the 
most rigorous and most critically conducted ongoing peer review process 
of any air pollution cause and effect analysis conducted to date. That 
level of rigor creates confidence in the regulated community; it 
creates confidence in the regulatory community, and it creates 
confidence with the general public. While we do not argue even in the 
slightest that ``regional haze'' does not occur, we must argue very 
strongly that EPA's analysis as it relates to Nebraska and probably a 
number of other rural States is significantly deficient in its rigor. 
As such, it falls significantly short of what is necessary in order for 
EPA to reach a ``may reasonably be anticipated'' conclusion.
    The following two examples demonstrate that EPA's technical 
analysis is insufficient to draw a conclusion that a SIP is required 
from Nebraska:

          As I indicated earlier, much of Nebraska is rural 
        agricultural country with a low population density. Along with 
        the low population density the number of vehicle miles traveled 
        in these rural counties is low as is the number of road miles. 
        As a result, most of us who have been around the air pollution 
        control scene for a number of years would not expect a large 
        potential for air pollution emissions from travel related 
        activities in these rural counties. For instance, Cherry County 
        that I've already mentioned has an area of 5,961 square miles 
        with a population of 6,307 persons (slightly more than 1 person 
        per square mile) with 1,808 road miles. The neighboring county, 
        Sheridan County, is slightly less than half that size at 2,543 
        sq. miles with a slightly larger population of 6,750, but with 
        1,504 road miles. These two counties can certainly not be 
        described as bustling metropolises from which you would expect 
        significant automobile and travel-related emissions. They are 
        also not industrial complexes and in fact are not listed as 
        having any point source emissions that affect visibility or 
        create regional haze''. Rather, they are primarily livestock 
        ranching counties where the grass is the major product and the 
        livestock are simply used to harvest that grass. However, 
        Sheridan County is calculated in EPA's technical document as 
        contributing 2.2 percent to the regional haze indicator in the 
        badlands wilderness area and national park in South Dakota. At 
        the same time, Campbell County, Wyoming, which is the largest 
        single coal-producing area in the world with a potential to 
        produce more than 300 million tons of coal a year is listed in 
        this analysis as contributing only 3.21 percent of the regional 
        haze parameter in the badlands wilderness area and national 
        park. While Cherry County is listed as a 2.22 percent 
        contributor, Sheridan County is listed as a 1.79 percent 
        contributor. I would submit to the committee that this 
        comparison alone provides ample reason for EPA to conclude that 
        its technical analysis is flawed and therefore, that it should 
        withdraw its proposed regulations until it can conduct a more 
        justifiable analysis. EPA's contractor recognized that there 
        were problems with some of their modeling results when they 
        stated that ``modeled primary PM<INF>2.5</INF> concentrations 
        range from as low as 1 microgram per cubic meter in much of the 
        West to 13 to 107 micrograms per cubic meter in urban areas and 
        even in non-urban States like Oklahoma. The latter modeled 
        concentrations are definitely not in line with measurements. It 
        appears that fugitive dust emissions may be overestimated by as 
        much as an order of magnitude. Similar overestimates are also 
        made for primary PM<INF>10</INF>.''
          If States are to be required to prepare State Implementation 
        Plans, the basis for that requirement should certainly be 
        something better than an accuracy of ``an order of magnitude''. 
        In trying to understand the basis for the Cherry County and 
        Sheridan County contributions at the Badlands Wilderness Area 
        and National Park, we were advised that the total road dust 
        emissions for the State of Nebraska were apportioned to the 
        individual counties based upon the percentage of that county's 
        area to the State area of 77,000 square miles. Thus, even 
        though the Sheridan County population is only .398 percent of 
        the population, because it has 7.75 percent of the land area in 
        the State, the road dust emissions assigned to Cherry County 
        was 7.75 percent of the State total, or about 19 times what the 
        level would be if the travel emissions were apportioned on the 
        basis of population.
          Sheridan County suffers from the same kind of comparison. At 
        2,543 sq. miles it represents 3.19 percent of the total land 
        area and its population of 6,750 represents .426 percent of the 
        population, thus the road dust emissions for Sheridan County 
        are calculated as 3.19 percent of the State total or about 8 
        times what would be calculated if the apportionment was based 
        upon population. Quite clearly, this kind of analysis does not 
        incorporate the kind of rigor that should be required in order 
        to determine that Nebraska may reasonably be anticipated to 
        contribute to visibility impairment in the badlands wilderness 
        area or national park in South Dakota.
          The second example that highlights the problem of an 
        inadequate technical analysis involves two other counties in 
        Nebraska and the projection that the emissions from these two 
        counties cause an impairment in visibility in the Voyageurs 
        National Park on the Canadian-United States border in 
        Minnesota. Once again, the two counties implicated by the 
        technical analysis are rural counties that are agricultural in 
        nature. Cuming and Cedar Counties are located in the extreme 
        northeast portion of Nebraska with the northern border of cedar 
        county defined by the Missouri River. Keep in mind, that these 
        two counties in north-eastern Nebraska are some 750 miles (1250 
        km) south/southwest of the Voyageur Wilderness Area in 
        Minnesota. While Cherry and Sheridan Counties are primarily 
        characterized as grazing land, Cedar and Cuming Counties would 
        be characterized primarily as agricultural cropland with a 
        significant grazing land component. Corn and other grains are 
        the primary crops with beef and swine the primary non-crop 
        agricultural products. As with Sheridan and Cherry Counties, 
        Cuming and Cedar Counties are not bastions of industrial 
        production. This is not a ``smokestack industry'' area; the 
        emissions, whatever they might be, are ground level emissions 
        associated with agricultural production and people activity. 
        Cuming County is 575 square miles in size with a population of 
        10,117 while Cedar County has a population of 10,131 in 740 sq. 
        miles. While we in Nebraska know Cuming and Cedar Counties as 
        being industrious agricultural production areas, they are known 
        to the EPA as those two Nebraska counties that are ``reasonably 
        anticipated'' to cause impairment of visibility in the Voyageur 
        Wilderness Area in Minnesota. EPA's modeling analysis indicates 
        that Cuming County contributes .23 percent of the regional haze 
        indicator in Voyageur National Park while Cedar County 
        contributes .199 percent.

    While someone might be able to convince me that this analysis is 
sufficient to provide a basis for EPA to require Nebraska to develop a 
SIP, at this point in time it simply defies all logic.
    Having pointed to two examples in Nebraska that should certainly 
call into question the technical analysis on which EPA bases its 
proposed regulation, it is also of interest to look at the two Class I 
areas in these examples to ask a more basic question. That is, what do 
we know about the visibility impairment in these two areas and what do 
all of these numbers mean? With respect to the Badlands Wilderness Area 
National Park in South Dakota, we understand that the Environmental 
Protection Agency under a Federal implementation plan has gathered some 
data but has not provided an analysis of that data. In fact, we 
understand that a contractor is currently performing that analysis and 
expects to issue a report near the end of July. What that tells me is, 
we don't really know whether there is a visibility problem in that 
mandatory Class I area or not, but Nebraska under EPA's proposed 
regulation will be required to develop an implementation plan to 
address that impairment.
    Our inquiries about visibility data gathering in the Voyageur 
National Park in order to characterize actual visibility there has been 
unrevealing. We are not aware of any data that has been gathered. In 
fact, the actual technical reports present the modeling data and EPA 
has used this to make its proposed decision. In attempting to compare 
the modeling data with actual monitoring data, we are advised that the 
source attribution tables in the report were not meant to correlate 
with real numbers monitored in the Class I areas. Recent improved 
data--in the 30 sites that exist in Class I areas in the country--does 
show that the modeled total PM data in the report is frequently several 
times higher than the monitoring data.
    On the other hand, EPA's mathematical (not monitored) analysis 
calculates that there is a level of visibility-impairing pollution in 
the Badlands Wilderness Area National Park in South Dakota of 2.155 
micrograms per cubic meter. The calculated value for the Voyageurs 
National Park in Minnesota is 1.642 micrograms per cubic meter. These 
calculations are based upon a theoretical mathematical model. While 
this model may well have been compared to actual data gathered through 
analytical sampling processes, I would certainly question the precision 
that is inferred by the calculation of an impact down to 1/1000th of a 
microgram per cubic meter.
    Using the data presented, Cherry County, Nebraska is calculated to 
contribute .047 micrograms per cubic meter of visibility-impairing 
pollution in the badlands wilderness area. In the monitoring program 
protocol, this number would be rounded to zero. The corresponding 
calculation for the impact of Cuming County, Nebraska in the Voyageur 
wilderness area attributes .0033 micrograms per cubic meter to the 
total of 1.642 micrograms per cubic meter in Voyageurs National Park in 
Minnesota. This is certainly not a compelling case upon which to base a 
conclusion that the State of Nebraska reasonably attributes to 
visibility impairment in Voyageurs National Park.
    Developing implementation plans is a process that is extremely 
resource intensive. With respect to visibility-based implementation 
plans under EPA's proposed regulations, this would be an even more 
resource intensive process given EPA's expectation that States would 
form regional commissions or regional groups to develop regional plans. 
Even the development of an in-State implementation plan is a decision 
that is not made lightly. We are currently trying to address 
requirements for PM<INF>2.5</INF> and ozone as well as phase II of the 
acid rain program. All of these activities could well be thought of as 
surrogates to solve whatever visibility impairment problem that is 
caused by emissions from the State of Nebraska. We do not have unused 
resources waiting to be applied to the development of a visibility SIP 
called for in EPA's proposal. Additionally, we are not aware of any 
additional Federal resources that EPA is going to provide to us for the 
development of such a SIP. Therefore, resources that will have to be 
applied to the development of a visibility SIP will have to come off 
the top from something else that we are doing. I can not overemphasize 
the point that decisions to require the development of SIP is one that 
should not be taken lightly.
    As we have discussed our concerns with EPA, EPA has responded to us 
by saying that States could argue in the initial SIP submittal that 
their contribution was so small as to make further measures 
unreasonable. I would submit to you that if EPA can approve a ``do 
nothing'' strategy based upon a minimal impact contribution in a SIP 
demonstration, the same approach should and ought to be used to 
determine whether or not a State needs to submit a SIP revision at all. 
I am baffled by the rationale here that requires us to utilize scarce 
resources to develop an answer that says we don't have to do anything. 
This is analogous to EPA's saying ``we find you guilty, but we will now 
parole you because there was no basis for the guilty verdict; but by 
the way, you still have to develop the SIP and you have to have a 
process of revising that SIP every three years''.
    A more rigorous and technically sound rational requirement for 
imposing these provisions on a State should be required.
    Let me conclude by dispelling any notion that Nebraska is uncaring 
about the importance of visibility as an attribute with a value unto 
itself. The public unquestionably values the ability to enjoy and 
admire the beauty of our precious class I areas. We would not support a 
policy of neglect. In fact, we in Nebraska have beautiful scenes and 
vistas in our State that are as important to us even though they are 
not class I areas. We respect the concerns of South Dakota and 
Minnesota just as we know they respect ours.
    Again, I appreciate the opportunity to be able to provide this 
testimony to you. I would be very pleased to answer any questions that 
you may have. Thank you.
                                 ______
                                 
                 Clearing the Air on ``Regional Haze''

             (By Tom Alley, Michigan State Representative)

    Keeping the environment clean and protecting our natural resources 
is one of government's most important responsibilities.
    But that doesn't mean that every proposed environmental regulation 
is a good idea. And we should be especially wary if it is coming out of 
the EPA bureaucracy in Washington, DC. After all, this is an Agency 
with a history of overestimating the benefits and underestimating the 
costs of its usual one-size-fits-all regulations.
    On July 31, 1997, EPA issued a proposed regulation to address 
``regional haze.'' The purpose of the regulation is to improve 
visibility in 156 national parks and wilderness areas (referred to as 
``Class I'' areas in the Clean Air Act) in 35 States plus the Virgin 
Islands. Regional haze impairs visibility and is caused by both natural 
sources and man-made air pollution. Long-range transport of fine 
particles to regional haze. Visibility varies among Class I areas, but 
is generally better in the west than in the east.
    The goal of the proposed regulation is to achieve ``natural 
background'' levels of visibility in Class I areas (visibility that is 
not affected by man-made air pollution). The proposed regulation 
establishes a target--one ``deciview'' improvement per decade to be 
achieved in each Class I area until natural background visibility 
levels are reached. One deciview equates to an approximate 10 percent 
decrease in airborne particulate concentrations. Several decades of 
emission reductions will be required to reach natural background levels 
in Class I areas.
    The proposed regulation requires all States to control fine 
particles, as does the New Ambient Air Quality Standard for tiny 
particles (known as NAAQS or the PM<INF>2.5</INF> standard), which were 
designed to improve health conditions. Not only would the proposed 
regional haze regulations overlap NAAQS, but would be on a faster 
schedule (two years earlier) in some areas, affect more areas of the 
country, and require more drastic emission reductions to reach 
``background levels.''
    Under the regulation, distant sources may be subject to emission 
controls. Presently, it is uncertain how many miles away sources will 
be regulated, but it could be hundreds of miles from Class I areas. The 
exact distance will be based on analyses by the States and EPA.
    According to EPA's calculations, the benefits of achieving the 
first one deciview improvement exceed its costs. However, two-thirds of 
the benefits come from assumed health improvements, even though the 
purpose of the rule is not to improve public health. EPA has not 
analyzed the costs and benefits of just attaining natural background 
visibility levels.
    States will be charged with developing new plans (and revising them 
every three years) to implement the regional haze program at the same 
time many are faced with developing plans to implement the new 
standards for ozone and PM<INF>2.5</INF>. This is on top of the 
rulemaking that will come from the recommendations of EPA's Ozone 
Transport Assessment Group.
    A third of the States have questioned the need for a regional haze 
program because of Clean Air Act requirements, in particular the Clean 
Air Act Amendments of 1990, that will continue to improve air quality 
and visibility in many Class I areas without a new program. Forty-three 
of 44 States, along with business groups, have submitted comments on 
the regional haze program calling for significant changes to make the 
program flexible, less burdensome and scientifically sound.
    While the EPA has met with a handful of Western States to hear 
their concerns, much more input is needed from the other States that 
could be severely affected.
    It is very important that other States seek the opportunity to meet 
with the EPA this month.
    This is an extremely important issue that will have broad 
environmental, social and economic ramifications. I strongly encourage 
all legislators and other interested parties to contact their 
Governors, or State departments of environmental quality, to determine 
your State's policy on regional haze as well as to obtain information 
on how you can have input into this process.
    We all need to work diligently to make sure the final product is in 
the best interests of each of our States and our nation as a whole.
                                 ______
                                 
 Prepared Statement of Dr. T. Peter Ruane, President and CEO, American 
              Road and Transportation Builders Association

                           executive summary

    Good morning, Mr. Chairman. I am T. Peter Ruane, President and CEO 
of the American Road and Transportation Builders Association (ARTBA). 
ARTBA represents 4,000 member organizations in the Nation's 
transportation construction industry, including construction 
contractors, professional engineering firms, heavy equipment 
manufacturers, and materials suppliers. Our member companies employ 
more than 500,000 people in the transportation construction industry in 
the United States. I am pleased to provide this statement addressing 
our concerns about the Environmental Protection Agency's July 3, 1997 
proposed regional haze regulation.
    ARTBA studies indicate that the regional haze regulation could have 
an adverse economic impact even greater than a July 18, 1997 EPA rule 
setting national air quality standards for ozone and particulate 
matter. That rule, which gained headlines throughout the Nation, is 
widely projected to be the most expensive environmental regulation in 
history.
    The proposed regional haze regulation, if adopted as proposed, 
would have a major detrimental impact on public health and the economy 
in terms of highway safety, loss of jobs in the transportation 
construction industry, and decreased mobility. Such impacts are 
expected to occur primarily because of interactions of the proposed 
regulation with existing air quality enforcement mechanisms contained 
in the 1990 Clean Air Act Amendments and the 1991 Intermodal Surface 
Transportation Efficiency Act.
    Under existing law, States are required to develop State 
Implementation Plans (SIPs) delineating the actions they will undertake 
to bring all areas of the country into compliance with national air 
quality standards. Failure to achieve approval by EPA of SIPs by 
specified deadlines can result in the loss of Federal highway funding. 
In addition, Metropolitan Planning Organizations (MPOs) are prohibited 
from approving any transportation plan, program or project that does 
not conform to the applicable SIP and prohibits the Federal Government 
from supporting or approving any activity that does not conform to the 
SIP.
    The proposed regional haze rule would substantially increase the 
difficulty States face in gaining SIP approval from EPA. Even where 
this can be accomplished, difficulties in demonstrating the conformity 
of transportation plans, programs and projects with approved SIPs would 
be increased greatly.
    The bottom line for our industry is that the proposed regional haze 
rule, in conjunction with the highway funding sanction authorities and 
MPO approval requirements of the CAAA and ISTEA, poses a tremendous 
threat to the transportation construction industry throughout the 
Nation, endangering tens of thousands of jobs, creating major new 
constraints to mobility, and putting the safety of millions of highway 
users in greater jeopardy.
    Having said that, I also would like to point out that EPA has 
ignored several aspects of its legal responsibilities under the Small 
Business Regulatory Enforcement Fairness Act (SBREFA) in issuing the 
proposed rule. EPA is attempting to avoid its responsibilities by 
arguing that the rule, if promulgated as proposed, would not have a 
significant impact on small companies. That is despite the fact that, 
according to EPA's own estimates, annual costs of the rule could reach 
$2.7 billion annually, not including the impacts to the transportation 
construction industry that have been estimated by ARTBA to reach an 
additional $15 billion per year.
    In light of the huge economic impact the rule will have on the 
economy and the complete certainty that States would have no options 
available to them that do not heavily impact small entities, EPA's 
position is patently ridiculous. Instead of constituting an arguable 
position, it is a complete abdication of its statutory responsibilities 
under the Regulatory Flexibility Act and SBREFA.

                              introduction

    According to ARTBA's analyses, close to 90 percent of the counties 
in the United States are within a 250-mile radius of the 156 mandatory 
Federal Class I areas. Because the proposed rule has the potential of 
affecting so many areas of the country and because it includes an 
extremely ambitious schedule for compliance, it could have an economic 
impact greater than could the National Ambient Air Quality Standards 
for ozone and particulate matter that were promulgated on July 18, 
1997. When one considers the fact that the ozone and PM NAAQS rules 
were projected to be the most expensive in history when implemented, 
and the fact that the proposed regional haze regulations are not 
intended to protect human health, the wisdom of this proposal 
immediately becomes suspect.
    While we have a number of concerns about the proposed rule that are 
specific to the transportation construction industry, our primary 
concern is about the impacts the rule will have on public safety, 
transportation networks (public mobility), jobs and economic growth 
from increased applications of highway funding sanctions and the 
increased difficulty of Metropolitan Planning Organizations in 
demonstrating transportation conformity. Therefore, we will address 
that concern first, followed by an explanation of related concerns.

highway funding sanction and transportation conformity implications of 
                        the proposed regulations

    The 1991 Intermodal Surface Transportation Efficiency Act (ISTEA), 
combined with the Clean Air Act Amendments (CAAA) of 1990, injected 
major new environmental constraints into the transportation policy of 
the United States. Under the CAAA, States are required to develop State 
Implementation Plans (SIPs) delineating the actions they will undertake 
to bring all areas of the country into compliance with the National 

Ambient Air Quality Standards.
    Failure to achieve approval by EPA of SIPs by specified deadlines 
can result in the loss of Federal highway funding, which today 
represents 55 percent of all public investment in highway improvements. 
Highway funding sanctions also can be applied by EPA for failure of 
States to comply with other requirements of the CAAA, such as those 
under Title V. In addition, the CAAA prohibits Metropolitan Planning 
Organizations (MPOs) from approving any transportation plan, program or 
project that does not conform to the applicable SIP and prohibits the 
Federal Government from supporting or approving any activity that does 
not conform to the SIP.
    The proposed regional haze regulation, if promulgated in final form 
as proposed, would impose major new requirements on State and local 
governmental entities by establishing new presumptive reasonable 
progress targets, requirements for modified State Implementation Plans 
(SIP) and subsequent SIP revisions every three years thereafter, 
requirements for periodic demonstrations of reasonable progress by 
States, expansion of current monitoring networks, and the development 
of new strategies to reduce emissions of visibility impairing 
pollutants, particularly fine particles. Furthermore, in imposing these 
new requirements, EPA proposes to overlay an entirely new air quality 
metric, the ``deciview,'' over all existing air quality metrics.
    Each of these new requirements almost certainly will make it much 
more difficult for States to develop approvable SIPs by the specified 
dates. Even where this can be accomplished, the difficulty of 
demonstrating the conformity of transportation plans, programs and 
projects with approved SIPs will be increased dramatically. Thus, the 
proposed regional haze rule, in conjunction with the highway funding 
sanction authorities and MPO approval requirements of the CAAA and 
ISTEA, poses a tremendous threat to the transportation construction 
industry throughout the Nation, endangering tens of thousands of jobs, 
creating major new constraints to mobility, and putting the safety of 
millions of highway users in greater jeopardy.

   threats to transportation construction industry and highway safety

    EPA's regional haze regulation threatens not only the livelihoods 
of our member companies and their employees' jobs, but also the safety 
and physical conditions of our roads and bridges. The Federal Highway 
Administration, for example, reports that 12,000 highway fatalities 
each year are related to poor road and bridge conditions. Since the 
proposed rule is designed to protect and enhance visibility at national 
parks and wilderness areas, and not to protect human health, it is 
essential that EPA determine with clarity the number of additional 
lives that may be lost due to disinvestment in highway and bridge 
safety features resulting from promulgation of the proposed regulation 
and take such impacts into consideration in its decision making 
process, a consideration that is completely missing in the proposed 
rule and supporting Regulatory Impact Analysis.
    The proposed rule would require States to submit visibility SIP 
revisions for regional haze within 12 months of issuance of the final 
regional haze rule, requires SIP revisions four years later, then every 
three years thereafter. Each such revision is to contain ``such 
emission limits, schedules of compliance, and other measures as 
necessary'' to carry out the regulations. Because of the immediacy and 
continuing nature of the rule, impacts on highway safety, the economy 
and jobs will be felt very quickly and continue into the indefinite 
future.

                    need for more impact information

    Because of these facts, we believe that it is imperative for EPA to 
calculate and provide to the public information quantifying the 
potential impact on the transportation construction industry and the 
traveling public from highway funding sanctions that could result from 
the proposed regional haze regulations. This information should be 
provided on a geographical basis, disaggregated to the State and county 
levels. In addition, EPA should provide the results of a quantitative 
analysis of the impacts that their proposals will have on the ability 
of MPOs to approve transportation plans, programs and projects 
throughout the Nation.
    We believe that these analyses are required by Executive Order 
12866, which states that ``in deciding whether and how to regulate, 
agencies should assess all costs and benefits of available regulatory 
alternatives, including the alternative of not regulating.'' 
Unfortunately, all EPA offers in terms of EO 12866 compliance is the 
statement that ``there are an unusually large number of limitations and 
uncertainties associated with the analyses and resulting cost impacts 
and benefit estimates.'' Without better information, it is impossible 
to evaluate intelligently the impacts of the proposals.

                         application of sbrefa

    Closely related to EPA's neglect of its requirements under EO 12866 
is the Agency's apparent complete delinquency regarding the 
requirements of Small Business Regulatory Enforcement Fairness Act 
(SBREFA). As an organization that was intensively involved with the 
creation and passage of SBREFA, we are extremely concerned about EPA's 
interpretation of the applicability of the provisions of that Act to 
this rulemaking.
    Under SBREFA, the test of whether or not a Regulatory Flexibility 
Analysis must be performed is whether or not the rule will have a 
``significant economic impact on a substantial number of small 
entities.'' This test is not limited to small entities that are 
affected directly by the rule, but also small entities who are impacted 
by the rule. In addition, the Regulatory Flexibility Analysis requires 
a ``description of the steps the Agency has taken to minimize the 
significant economic impact on small entities.''
    According to the July 31, 1997 Federal Register notice containing 
the proposed rule, EPA has determined that the rule, if promulgated as 
proposed, will not have a significant impact on a substantial number of 
small entities. That is despite the fact that, according to EPA's own 
estimates, annual costs of the rule could reach $2,700,000,000 
annually, apparently not including the impacts to the transportation 
construction industry mentioned above. We believe that such excluded 
costs could reach an additional $15,000,000,000 per year and impact up 
to 22,000 jobs. (These costs were derived in an ARTBA study of the 
impacts of the recent ozone and PM NAAQS on the transportation 
construction industry, which we believe to be similar to the magnitude 
of potential impacts from the regional haze regulation.)
    According to the Regulatory Flexibility Act summary accompanying 
the proposed rule, the rationale behind EPA's finding is that, under 
the proposed regional haze rule, States will bear the primary 
responsibility for establishing control requirements and so therefore 
any attempt to determine impacts on small entities would be 
speculative. In EPA's words, ``(t)he regional haze rule being proposed 
today applies to States, not to small entities.'' In light of the huge 
economic impact the rule will have on the economy and the complete 
certainty that States would have no options available to them that do 
not heavily impact small entities, EPA's position is patently 
ridiculous. Instead of constituting an arguable position, it is a 
complete abdication of statutory responsibilities under the Regulatory 
Flexibility Act and SBREFA.

                  nationwide air quality is improving

    In considering the concerns expressed in these comments, one should 
note that EPA's proposed regional haze rule is being promulgated at a 
time when emissions visibility-reducing pollutants nationwide are 
decreasing and that the resulting quality of the lower troposphere is 
improving. EPA's recently released 1996 Air Quality and Emissions 
Trends Report, for example, shows that nationwide air quality for all 
pollutants has been improving for at least the past decade.
    Furthermore, it appears to be a consensus expectation that progress 
in reducing emissions and in consequent improvements in air quality 
will continue in the future, even in the absence of the proposed rule. 
This universal expectation is due to the control measures mandated by 
the CAAA, which will ensure further reductions of PM and PM precursors 
in the future without the proposed rules.

                             recommendation

    The American Road and Transportation Builders Association strongly 
recommends that EPA be required to defer its regional haze rulemaking 
process until it has (1) complied fully with the Regulatory Flexibility 
Act, the Small Business Regulatory Enforcement Fairness Act, and 
Executive Order 12866, including the small business consultation 
requirements of SBREFA, and (2) examined the human health aspects of 
its proposal relative to considerations of highway safety.
                                 ______
                                 

   [From the Congressional Research Service, The Library of Congress]

 Regional Haze: EPA's Proposal to Improve Visibility in National Parks 
                          and Wilderness Areas

                                summary

    On July 31, 1997, the Environmental Protection Agency proposed a 
new regulatory program to reduce ``regional haze.'' The proposed 
program would require the States to develop and implement long-term 
strategies to attain a congressionally mandated goal of remedying the 
impairment of visibility in national parks and wilderness areas 
resulting from man-made air pollution.
    Regional haze results from the presence of small particles, 
generally ranging in size from 0.1 to 1.0 micrometers in diameter, in 
the air. These particles absorb and scatter sunlight, with the effect 
of reducing contrasts, washing out colors, and making distant objects 
indistinct or invisible. Because of this pollution, the current visual 
range in the East is only about 20 miles, about one-fifth of the range 
one could expect in the absence of air pollution. In the West, 
visibility is better, ranging up to 90 miles, but even there it is only 
half to two-thirds of its natural range.
    Contributors to the regional haze problem include sulfates from 
fossil-fueled power plants and smelters; nitrates and organic matter 
from the same sources, as well as from cars and trucks; elemental 
carbon from forest fires, prescribed burns, and diesel engines; and 
soil dust from unpaved roads, construction, and agriculture. Some of 
these are emitted directly to the atmosphere; other particles form in 
the atmosphere, as a result of reactions involving gaseous precursors. 
Whatever their source, the fine particles that cause regional haze tend 
to remain suspended for long periods of time and to travel long 
distances. Thus, addressing the problem will require planning on a 
regional basis, and will involve measures in all 50 States.
    The proposed regulations would require the States to develop plans 
to improve visibility by one ``deciview'' (a measure of visibility) 
every 10 to 15 years. As a first step, the States would be required to 
review major stationary sources of pollution to identify those 
potentially subject to ``Best Available Retrofit Technology'' (BART), 
as required in Section 169A of the Clean Air Act.
    The visibility program is currently a proposal, subject to public 
comment. EPA will review the comments it receives before promulgating a 
final regulation, an action expected in the spring of 1998. Thus far, 
at least five groups of issues have arisen during the comment period. 
They include: (1) the potential impacts on industry and other economic 
sectors (with special concern directed at impacts on the use of 
prescribed burning in the forestry and agricultural sectors); (2) the 
choice of methodology (i.e., ``deciviews''), and more broadly whether 
improvement should be measured in terms of emission reductions or 
visibility improvement; (3) what constitutes reasonable further 
progress, as required in the Act--in particular whether a goal of one 
deciview improvement is sufficiently ambitious, or appropriate for all 
regions of the country; (4) whether EPA paid sufficient attention to 
the work of the Grand Canyon Visibility Transport Commission, which 
completed a five-year study of the visibility issue and made a series 
of recommendations in June 1996; and (5) issues related to the 
respective powers of Federal regulators and land managers and State 
governments.

                              introduction

    On July 31, 1997, the Environmental Protection Agency proposed a 
new regulatory program to improve visibility in the Nation's national 
parks and wilderness areas. This ``regional haze'' program uses the 
authority of section 169A of the Clean Air Act, first granted the 
Agency in 1977, and reinforced by Section 169B in the Act's 1990 
amendments.
    This report provides background concerning the regional haze 
program and the issues that have been raised concerning the proposed 
rule. The report is divided into five sections. Section I discusses the 
nature of the visibility problem and the sources of regional haze. 
Section II provides a brief history of legislative and regulatory 
attempts to address the problem. Section III discusses the proposed 
rule. Section IV places the rule in context, discussing how it relates 
to other EPA initiatives, including revision of the air quality 
standards for ozone and particulates and the acid rain program, and 
providing a brief discussion of benefits and costs. Section V discusses 
five sets of issues that have been raised since the rule was proposed.
    A formal public comment period on the proposed rule ends December 
5, 1997. EPA will review the comments received before promulgating a 
final regulation, an action expected in the spring of 1998. The rule 
would then be implemented over a multi-year period.
    EPA faces significant choices in finalizing the regulations, with 
potential impacts on a variety of economic sectors and regions. States 
will have decisions to make, too, once the rule is final. As a result, 
the Congress is likely to retain an interest in the program and its 
implementation.

                        i. nature of the problem
    Impairment of visibility due to air pollution occurs throughout the 
United States. According to the National Academy of Sciences,

          . . . the average visual range in most of the western United 
        States, including national parks and wilderness areas, is 100-
        150 km (about 60-100 miles), or about one-half to two-thirds of 
        the natural visual range that would exist in the absence of air 
        pollution. . . . In most of the East, including parklands, the 
        average visual range is less than 30 km (about 20 miles), or 
        about one-fifth of the natural visual range.\1\
---------------------------------------------------------------------------
    \1\ Committee on Haze in National Parks and Wilderness Areas, 
National Research Council, National Academy of Sciences, Protecting 
Visibility in National Parks and Wilderness Areas (Washington: National 
Academy Press, 1993), p. 1. hereafter cited as NAS Report.

    This reduction in visibility is caused by the presence of small 
particles, generally ranging in size from 0.1 to 1.0 micrometers in 
diameter, in the air. Such particles absorb and scatter sun light. In 
doing so, they reduce contrasts, wash out colors, and make distant 
objects indistinct or invisible. Especially in national parks and 
wilderness areas, but more generally in any area dependent on tourism, 
a reduction in visibility vitiates the experience sought by visitors 
and reduces the economic value of assets related to tourist 
services.\2\
---------------------------------------------------------------------------
    \2\ There may also be health benefits related to the reduction of 
fine particle pollution, but the proposed regulations are aimed 
primarily at improving welfare, not health.
---------------------------------------------------------------------------
    Some of the particles that create this reduction in visibility are 
emitted directly to the atmosphere. Others form as a result of 
atmospheric reactions involving gaseous precursors. Whatever their 
source, they tend to remain suspended for long periods of time and 
travel long distances, creating a widespread problem known as regional 
haze.
    The primary causes of regional haze are sulfates, organic matter, 
elemental carbon (soot), nitrates, and soil dust. As noted in the 
National Academy of Sciences report:

          The major cause of reduced visibility in the East is sulfate 
        particles, formed principally from sulfur dioxide 
        (SO<INF>2</INF>) emitted by coal combustion in electric utility 
        boilers. In the West, the other four particle types play a 
        relatively greater role than in the East. The causes and 
        severity of visibility impairment vary over time and from one 
        place to another, depending on meteorological conditions, 
        sunlight, and the size and proximity of emission sources.\3\
---------------------------------------------------------------------------
    \3\ NAS Report, p. 2.

    Humidity also plays a role. Because moisture in the air can 
facilitate the formation of fine particles in atmospheric reactions, 
visibility in the East would generally be less than that in the arid 
West, even in the absence of air pollution. Estimates of the natural 
visual range in the East are on the order of 90-100 miles, versus 140-
150 miles in the West. Because of pollution, however, the current 
visual range in the East is only one-fifth of the natural range, 
whereas in the West it is half to two-thirds what it would otherwise 
be.

                   ii. efforts to address the problem

    The Federal Government has had a long-standing interest in 
protecting national parks against a variety of perceived threats, 
including impaired visibility. The goal of Section 169A of the Clean 
Air Act, calling for the ``prevention of any future, and the remedying 
of any existing, impairment of visibility'' resulting from manmade air 
pollution in national parks and wilderness areas, is consistent with 
the purpose of the National Park Service Organic Act of 1916 which is: 
``To conserve the scenery and the natural and historic objects and 
wildlife therein, and to provide for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.''\4\
---------------------------------------------------------------------------
    \4\ 39 Stat. 535, Ch. 408, Act of August 25, 1916.
---------------------------------------------------------------------------
    Prevention of Significant Deterioration. Legislative developments 
that have led to the current attention to visibility and regional haze 
began with the Air Quality Act of 1967. In that Act, Congress inserted 
into one of the fundamental purposes of clean air legislation the 
phrase ``to protect and enhance the quality of '' the Nation's air 
resources. In 1972, this phrase was used by the Sierra Club in a 
lawsuit against EPA to argue that the Clean Air Act required EPA to 
disapprove any State Implementation Plan that permitted ``significant 
deterioration'' of air quality. The district court agreed, and rulings 
on appeal left the district court opinion intact.\5\ Thus, EPA had to 
review all State Implementation Plans (SIPs), disallow any that 
inadequately protected clean air areas, such as national parks, and 
promulgate regulations to prevent future significant deterioration of 
air quality in these areas. The resulting Prevention of Significant 
Deterioration (PSD) regulations were promulgated in 1974, with 
amendments in 1975.\6\ The regulations focused on preventing further 
deterioration of air quality in pristine areas of the country by 
specifying how much increase in pollution levels would be permitted. 
PSD regulation applied only to new sources of air pollution and only to 
sulfur dioxide and particulates.
---------------------------------------------------------------------------
    \5\ Sierra Club v. Ruckelshaus, 344 F. Supp. 253 (D.D.C. 1972), aff 
'd., 4 Environment Reporter (Cases) 1815, 2 Environmental Law Reporter 
20656 (D.C. Cir. 1972), aff 'd. by equally divided Court sub. nom. Fri 
v. Sierra Club, 412 U.S. 541 (1973).
    \6\ 40 CFR 52.21.
---------------------------------------------------------------------------
    1977 Amendments to the Clean Air Act. These PSD regulations for 
clean air areas were codified, with some changes, as Part C of Title I 
in the 1977 Amendments to the Clean Air Act. The primary change was to 
single out for maximum protection national parks and other important 
national sites (P.L. 95-95). Later regulation by EPA added nitrogen 
oxides to the pollutants covered by the PSD program.\7\ Mandatory class 
I areas--those areas that receive the maximum amount of protection--
include most national parks, national wilderness areas, and national 
memorial parks, currently 156 areas. In addition, the Congress added 
Section 169A to address visibility impairment caused by existing 
sources of pollution in any mandatory class I areas where visibility 
was an important value. Thus, PSD and Section 169A act in tandem, with 
PSD controlling new sources of impairment, and Section 169A controlling 
existing sources of impairment.
---------------------------------------------------------------------------
    \7\ 53 Federal Register 40656, October 17, 1988; 40 CFR Parts 51 
and 52.
---------------------------------------------------------------------------
    Implementation. Implementing these provisions protecting visibility 
has not been easy, particularly Section 169A respecting existing 
sources. First, EPA had to define what visibility was. In general, 
visibility impairment from human activities manifests itself in two 
ways: (1) plume blight, where a clearly identifiable plume of smoke 
emanates from one or more sources; and (2) regional haze, where a 
uniform reduction in visual range occurs, or a layered discoloration by 
hovering bands of air tinged brown, yellow, or red. Second, EPA had to 
promulgate regulations within 24 months of enactment to assure that 
State Implementation Plans (SIPs) required (1) reasonable progress 
toward meeting the national goal mentioned earlier, and (2) compliance 
with several very specific provisions, including Best Available 
Retrofit Technology (BART) requirements for existing sources.
    EPA promulgated rules in 1980 to address visibility impairment that 
was ``reasonably attributable'' to a single source or small group of 
sources--i.e., plume blight.\8\ As with many air pollution regulations, 
these visibility regulations are implemented by States through SIPs. In 
general, the 36 States with mandatory class I areas were required to 
revise their SIPs to assure reasonable progress toward the national 
visibility goal. The major elements of the regulation were: (1) 
identifying existing sources causing visibility impairment and creating 
procedures for determining which existing stationary sources should be 
subject to BART requirements; (2) assessing potential adverse impacts 
from proposed new sources (or modified old sources) and recommending 
remedial actions via the New Source Review process and the PSD program; 
(3) developing a 10-15 year long-term strategy to make ``reasonable 
progress'' toward the visibility goal; and (4) conducting visibility 
monitoring in mandatory class I areas.
---------------------------------------------------------------------------
    \8\ 45 Federal Register 80084, December 2, 1980, 40 CFR 51.300-
51.307.
---------------------------------------------------------------------------
    As noted, these regulations deal with plume blight only--regional 
haze reduction was explicitly delayed until some future date. This lack 
of aggressive implementation of Section 169A extended to the 
implementation of the 1980 regulations as well. After 35 of 36 States 
missed the September 1981 deadline for final visibility plans, the 
Environmental Defense Fund sued the EPA in 1982 to implement the plume 
blight regulations. The suit was settled in 1984 with the EPA 
developing a phased-in schedule for compliance with a December 1986 
deadline for States to revise their SIPs to include controls on 
existing sources that hinder visibility goals.\9\ This sequential 
implementation of plume blight regulations actually extended through 
1989. So far, the only BART installation to occur under the 1980 
regulations has been the installation of sulfur dioxide scrubbers at 
the Navajo Generating Station in 1991.\10\
---------------------------------------------------------------------------
    \9\ Environmental Defense Fund v. Gearstick, No. CO2-6850 (N.D. CA) 
(April 20, 1984). See 49 Federal Register 20647, May 16, 1984.
    \10\ 56 Federal Register 50172, October 3, 1991; 40 CFR 52.
---------------------------------------------------------------------------
    During the 1980s, EPA's decision to delay regulating regional haze 
was subject to a variety of challenges, partly because of the 
relationship between regional haze and acid rain (both involve sulfur 
dioxide and nitrogen oxide emissions). In April, 1986, Vermont 
submitted a visibility plan to EPA focused on visibility problems at 
Lye Brook National Wilderness Area--the State's only class I area. 
Arguing that out-of-state sources were responsible for impairing 
visibility (and thus impeding Vermont's attempts to assure reasonable 
progress toward the national visibility goal), Vermont proposed a long-
term strategy to combat the effects of regional haze. This strategy 
included a 48-State sulfate reduction plan and the disapproval of the 
SIPs of eight upwind States that were major contributors to visibility 
impairment at Lye Brook. In July, 1987, EPA decided to take ``no 
action'' on Vermont's regional haze proposal because EPA had yet to act 
under Section 169A.\11\ Vermont sued. Although sympathetic to Vermont's 
argument, the Second Circuit Court ruled in June, 1988, that EPA's 
action was in accordance with Federal law.\12\
---------------------------------------------------------------------------
    \11\ 52 Federal Register 26973, July 17, 1987.
    \12\ Vermont v. Thomas. 850 F.2d 99 (2d Cir. 1988).
---------------------------------------------------------------------------
    During this same time period, seven States sued EPA to compel 
issuance of regional haze regulations, under the citizen's suit 
provision of the Clean Air Act (Section 304). The District Court for 
Maine ruled in July, 1988 that it did not have jurisdiction in the 
matter, as EPA's 1980 rule represented a final action, and, therefore, 
was reviewable only in the D.C. Circuit Court within 60 days of the 
date of the rule.\13\ The States appealed the decision to the Circuit 
Court which affirmed the District Court decision.\14\ In affirming the 
District Court decision, the Circuit Court agreed that EPA had a 
mandate under Section 169A to control the ``vexing problem of regional 
haze,'' but the Court concluded it did not have jurisdiction to compel 
EPA to move.
---------------------------------------------------------------------------
    \13\ Maine v. Thomas. 690 F. Supp. 106 (D. Me. 1988).
    \14\ Maine v. Thomas. 874 F. 2d 883 (1st Cir. 1989).
---------------------------------------------------------------------------
    1990 Amendments. EPA's inaction during the 1980s prompted the 
Congress to act on visibility in the 1990 Amendments to the Clean Air 
Act. Those actions included a new title IV controlling precursors of 
acid rain and regional haze,\15\ and a new Section 169B. In some ways, 
Section 169B is a triggering mechanism to force EPA to move on Section 
169A with respect to regional haze. Specifically, the 1990 Amendments 
required EPA to establish a Grand Canyon Visibility Transport 
Commission within 12 months of enactment (and other commissions upon 
its own discretion or petition from at least two States). Commissions 
are required to assess the scientific, technical, and other data 
available on visibility impairment from potential or projected 
emissions growth in their region. Based on those data, the commissions 
are to issue a report within 4 years to EPA recommending what measures, 
if any, should be taken to remedy such impairment. Within 18 months of 
receiving a Commission's report, EPA is to carry out its 
responsibilities under Section 169A, including criteria for measuring 
``reasonable progress'' toward the national goal. Finally, States 
affected by any regulations promulgated under Section 169A are required 
to revise their SIPs within 12 months of such promulgation.
---------------------------------------------------------------------------
    \15\ As noted by Section 401(a)(1): ``the presence of acidic 
compounds and their precursors in the atmosphere and in deposition from 
the atmosphere represents a threat to natural resources, ecosystems, 
materials, visibility, and public health.''
---------------------------------------------------------------------------
    National Academy of Sciences Report. At the same time that Congress 
was considering revisions to the visibility provisions of the Clean Air 
Act, early in 1990, the National Research Council of the National 
Academy of Sciences established a Committee on Haze in National Parks 
and Wilderness Areas. The committee, consisting of 13 members, included 
experts in meteorology, atmospheric chemistry, air pollution monitoring 
and modeling, statistics, control technology, and environmental law and 
public policy, most of whom were drawn from academic institutions.
    The committee examined patterns of visibility degradation and haze-
forming pollutant concentrations in various parts of the United States 
resulting from natural and anthropogenic sources of gases and 
particles. It reviewed the scientific understanding of haze formation 
and visibility impairment, as well as chemical and physical measurement 
techniques. It evaluated methods for source identification and 
apportionment, discussed control techniques, and considered policy 
implications.
    In January 1993, the committee issued a final report, which reached 
eight broad conclusions: (1) progress toward the national goal of 
reducing visibility impairment will require regional control programs 
that operate over large areas; (2) strategies should be adopted that 
consider many sources simultaneously on a regional basis; (3) simple 
models are available now and could be used as the basis for designing 
regional visibility programs; more complex models could be used to 
refine those programs over time; (4) policy and strategies may need to 
be different in the West than in the East; (5) improving visibility in 
class I areas (national parks and wilderness areas) will improve it 
outside those areas as well; (6) reducing emissions to improve 
visibility will help alleviate other air quality problems, and vice-
versa; (7) achieving the national goal of improving visibility will 
require a substantial, long-term program; and (8) current scientific 
knowledge is adequate and control technologies are available for taking 
regulatory action to improve and protect visibility. At the same time, 
continued progress will require a greater commitment toward atmospheric 
research, monitoring, and emissions control R&D.\16\
---------------------------------------------------------------------------
    \16\ Summarized from NAS Report, pp. 6-11.
---------------------------------------------------------------------------
    Grand Canyon Visibility Transport Commission. As noted above, in 
Section 169B(f) of the Clean Air Act, the Congress specifically 
required EPA to establish a Visibility Transport Commission for the 
region affecting visibility in Grand Canyon National Park. In June 
1996, this commission (consisting of the Governors of Arizona, 
California, Colorado, Nevada, New Mexico, Oregon, Utah, and Wyoming, 
and the leaders of five Indian tribes) approved a set of 
recommendations for improving Western vistas.\17\ There were 9 primary 
recommendations:\18\
---------------------------------------------------------------------------
    \17\ Recommendations for Improving Western Vistas, Report of the 
Grand Canyon Visibility Transport Commission to the United States 
Environmental Protection Agency, June 10, 1996. A ninth State, Idaho, 
was included in the region, but chose not to participate in the 
Commission.
    \18\ The recommendations are summarized in Ibid., pp. i-iii.
---------------------------------------------------------------------------
    <bullet> Prevention. To prevent and reduce air pollution, the 
commission recommended policies based on energy conservation, increased 
energy efficiency, and promotion of the use of renewable resources for 
energy production.
    <bullet> Clean Air Corridors. The commission recommended careful 
tracking of emissions growth that may affect air quality in corridors 
of clean air that are sources of clear air at class I sites.
    <bullet> Stationary Sources. The Commission's Baseline Forecast 
anticipated that current regulatory programs will reduce emissions of 
sulfur dioxide from stationary sources (power plants, smelters, and 
other industrial sources) 13 percent by the year 2000, although 
additional measures under consideration might reduce emissions 20-30 
percent. In light of this uncertainty about the effects of current 
programs and the fact that emissions are being reduced in the short 
term without additional regulation, the Commission agreed to set 
regional targets for sulfur dioxide emissions in the year 2000. The 
ultimate targets would be in the range of 50-70 percent reduction by 
the year 2040, but ``interim targets may also be needed to ensure 
steady and continuing emission reductions and to promote investment in 
pollution prevention.'' \19\ If the targets are exceeded, this would 
trigger a regulatory program, probably including a regional cap on 
emissions, with market-based trading.
---------------------------------------------------------------------------
    \19\ Ibid., pp. 34-35.
---------------------------------------------------------------------------
    <bullet> Areas in and near Parks. The commission concluded that it 
lacked sufficient data regarding the visibility impacts of emissions 
from some areas in and near parks. ``Pending further studies of these 
areas, the Commission recommends that local, State, tribal, Federal and 
private parties cooperatively develop strategies, expand data 
collection, and improve modeling for reducing or preventing visibility 
impairment in areas within and adjacent to parks and wilderness 
areas.'' \20\
---------------------------------------------------------------------------
    \20\ Ibid., p. ii.
---------------------------------------------------------------------------
    <bullet> Mobile Sources. Recognizing that mobile source emissions 
are projected to decrease, the Commission recommended capping emissions 
at the lowest level achieved and endorsed the concept of a 49-State low 
emission vehicle.
    <bullet> Road Dust. The commission remained uncertain of the 
possible role of road dust: ``The Commission's technical assessment 
indicates that road dust is a large contributor to visibility 
impairment on the Colorado Plateau. As such, it requires urgent 
attention. However, due to considerable skepticism regarding the 
modeled contribution of road dust to visibility impairment, the 
Commission recommends further study . . . prior to taking remedial 
action.'' \21\
---------------------------------------------------------------------------
    \21\ Ibid.
---------------------------------------------------------------------------
    <bullet> Mexican Emissions. Mexican emissions, particularly sulfur 
dioxide, contribute significantly to visibility impairment on the 
Colorado Plateau. The Commission called for ``continued binational 
collaboration'' on this problem and better monitoring and emissions 
inventories.
    <bullet> Fire. The Commission recommended programs to minimize 
emissions and visibility impacts from prescribed fire, as well as to 
educate the public. In particular, the recommendations included 
establishment of annual emission goals for all fire programs, 
implementing enhanced smoke management programs, and removing 
administrative barriers to the use of alternatives to burning.\22\
---------------------------------------------------------------------------
    \22\ Ibid., pp. 47-50.
---------------------------------------------------------------------------
    <bullet> Future Regional Coordinating Entity. The Commission 
concluded that there was a continuing need for an entity like the 
Commission to oversee, promote, and support many. of the 
recommendations in the final report. Such an entity has subsequently 
been established: the Western Regional Air Partnership (WRAP).
    The Clean Air Act requires the EPA Administrator to take action 
under Section 169A within 18 months of receipt of a Commission report. 
This requirement was among the factors motivating proposal of the 
regional haze program at this time.
                         iii. the proposed rule
    The proposed rule appeared in the Federal Register on July 31, 
1997.\23\ Proposal began a public comment period that was originally 
scheduled to run until October 20. To solicit comments, the Agency also 
held a public hearing in Denver on September 18. At that hearing, 
numerous cementers requested extra time to submit comments. As a 
result, EPA extended the comment period 6 weeks, to December 5.
---------------------------------------------------------------------------
    \23\ 362 Federal Register 41138, July 31, 1997. For an overview, 
see http://ttnwww.rtpnc.epa.gov/naaqsfin/hazefs.htm.
---------------------------------------------------------------------------
    SIP Revisions. As proposed, the rule would require all 50 States to 
submit revised State Implementation Plans (SIPs) within 12 months of 
the rule's promulgation, with further revisions due 4 years after the 
initial revision and every 3 years thereafter. The SIP revision must 
contain a long-term strategy that demonstrates how measures implemented 
by the State will improve visibility in each class I area within the 
State and in class I areas outside the State that may be affected by 
the State's emissions. As described further below, the SIP must also 
identify facilities to be subjected to ``best available retrofit 
technology.''
    Many States, particularly in the Midwest, do not have class I areas 
(i.e., the national parks and wilderness areas that the rule is 
designed to protect), but EPA has included all States under the scope 
of the rule because the fine particles that cause regional haze can 
travel hundreds of miles.
    BART. The Clean Air Act requires the installation of best available 
retrofit technology (BART) on major stationary sources of pollution in 
existence on the date of enactment (1977), but not more than 15 years 
old as of that date. BART is less well-defined than other Clean Air Act 
terms, in part because it has only been used once in the 20 years since 
enactment (to impose controls on Arizona's Navajo Generating Station in 
1991).
    The statutory definition of BART stipulates numerous factors to be 
used in determining what BART is and to what sources it should be 
applied, including costs of compliance, energy and nonair quality 
environmental impacts, the degree of improvement in visibility which 
may reasonably be anticipated to result from the use of the technology, 
and such site-specific factors as the remaining useful life of the 
source and the nature of any pollution control equipment in use at the 
source.
    As part of the SIP revision process, States would be required to 
identify existing stationary facilities that are potentially subject to 
the imposition of BART. Such facilities are defined in Section 169A of 
the Act and 40 CFR 51.301(e). Under the statute, they include 
stationary sources that were placed in operation between 1962 and 1977 
and emit at least 250 tons per year of any air pollutant. There are 26 
industrial categories listed in the Code of Federal Regulations as 
potentially subject to BART requirements, including electric utilities, 
smelters, petroleum refineries, and Graft pulp mills.
    Regulations would not be imposed on these industries immediately. 
Rather, the regulations would give States 3 years after promulgation of 
the rule to ``evaluate BART for applicable sources.'' The States would 
then have an additional 2 years to address BART requirements in their 
State Implementation Plans. EPA would take up to 6 months to determine 
whether a SIP is complete and an additional 12 months to approve or 
disapprove the plan, with BART to be implemented ``no later than five 
years after plan approval''--the autumn of 2009, if all goes smoothly. 
EPA is also proposing, however, that States preparing SIPs for fine 
particulate matter (PM<INF>2.5</INF>) need not submit the regional haze 
SIP revisions until the required date for submittal of the 
PM<INF>2.5</INF> revisions. Because of the need to establish a 
monitoring network and collect 3 years of monitoring data before the 
States identify PM<INF>2.5</INF> nonattainment areas and begin the 
development of SIPS, the BART implementation deadline could slip an 
additional 5 years in these States, to 2014.\24\
---------------------------------------------------------------------------
    \24\ For a discussion of the PM<INF>2.5</INF> SIP deadlines, see 
Air Quality: EPA's New Ozone and Particulate Matter Standards, CRS 
Report 97-8 ENR July 29, 1997, p. 23-24 (note 54).
---------------------------------------------------------------------------
    Reasonable Further Progress. In addition to requiring the States to 
consider imposition of BART, the regulations would set ``presumptive 
reasonable progress targets,'' requiring the States to prevent 
visibility degradation on the least impaired days and to improve 
visibility on the most impaired days.
    The progress targets are expressed in terms of ``deciviews.'' A 
deciview is to vision what a decibel is to sound. As defined in the 
proposal, it is an index of atmospheric haze ``that expresses uniform 
changes in haziness in terms of common increments across the entire 
range of conditions, from pristine to extremely impaired 
environments.'' A one deciview change is ``a small but noticeable 
change in haziness under most circumstances. . . . `` \25\
---------------------------------------------------------------------------
    \25\ The quoted material is from Section I.F. of the preamble to 
the proposed regulation at p. 41145 of the July 31, 1997 Federal 
Register notice. The actual definition appearing on p. 41157 at 40 CFR 
51.301(bb) uses similar language and goes on to provide a mathematical 
formula for calculating deciviews based on atmospheric light extinction 
coefficients. As the explanatory material notes, ``the deciview is a 
means of expressing atmospheric light extinction, just as visual range 
is an expression of atmospheric light extinction. All three of these 
visibility metrics are mathematically related.''
---------------------------------------------------------------------------
    As proposed, the rule would require each State to develop a long-
term strategy that addresses regional haze visibility for each class I 
area within the State and each class I area outside the State which may 
be affected by emissions from within the State. The areas outside the 
State are to be defined in consultation with the appropriate Federal 
land managers. The ``long term'' to be addressed by the strategy is 
defined as either 10 or 15 years (the Agency is seeking comments on the 
choice of time period). The strategy must provide for an improvement 
over the long term period of 1.0 deciview in the average visibility on 
the 20 percent most impaired days, and no degradation (i.e., less than 
a 0.1 deciview deterioration) in the average visibility on the 20 
percent least impaired days.
    These reasonable further progress targets are presumptive, rather 
than mandatory: under the proposed rule, States can, if they wish, 
propose alternate progress targets. If they do so, however, they must 
provide a justification for the alternate target addressing the 
statutory factors used in identifying BART (availability of technology, 
cost of compliance, etc.) and demonstrate the justification to the 
satisfaction of EPA.
    Beginning 5 years after promulgation of the rule and continuing 
every 3 years thereafter, States must review their progress and revise 
their plan as appropriate.
    Regional Cooperation. The proposed regulations presume a great deal 
of regional cooperation. Coordination with other States and Federal 
land managers is mentioned frequently in the proposed rule. In most 
cases, a State will not be able to determine on its own its 
contribution to regional haze, but must coordinate monitoring, 
modeling, and strategies with Federal land managers, other States, and 
EPA.
    The rule also stipulates that measures to reduce emissions from 
sources contributing to regional haze ``should be consistent with 
strategies developed in conjunction with other States through regional 
planning processes to address related air quality issues,'' a reference 
to the regional planning necessary to combat ozone transport and to 
implement measures addressing EPA's new ambient air quality standards 
for ozone and fine particulates.\26\
---------------------------------------------------------------------------
    \26\ For an explanation of the ozone and fine particulate rules, 
see CRS Report 97-8, Air Quality: EPA's New Ozone and Particulate 
Matter Standards.
---------------------------------------------------------------------------

                        iv. the rule in context

    Related EPA Programs. While the Clean Air Act provides specific 
programs for protecting visibility in Sections 169A and 169B, other CAA 
programs to control air pollutants can reduce emissions that adversely 
affect visibility. Five of the most important are National Ambient Air 
Quality Standards, Prevention of Significant Deterioration, acid rain 
controls, New Source Performance Standards for stationary sources, and 
motor vehicle emission controls.

          National ambient air quality standards (NAAQS) establish 
        maximum levels of designated pollutants to protect health 
        (primary NAAQS) and public welfare (secondary NAAQS). 
        Pollutants for which NAAQS have been set are particulate matter 
        (PM), sulfur oxides, nitrogen oxides, ozone, carbon monoxide 
        and lead. The Act requires States to implement plans (State 
        Implementation Plans, or SIPs) to meet primary, health-based 
        NAAQS by federally enforceable deadlines; secondary standards 
        do not include such deadlines. In these plans, States have wide 
        latitude to determine which sources must reduce emissions--so 
        long as the NAAQS is met. Visibility is explicitly included 
        among the values to be protected by secondary NAAQS 
        (Sec. Sec. 109(b)(2) and 302(h)). EPA recently revised the 
        particulate matter (PM) and ozone NAAQS, primarily to address 
        adverse health effects; the net effect of the new primary 
        standards for fine particulates (PM<INF>2.5</INF>) and ozone 
        will be to require further reductions in emissions of 
        particulate matter and ozone precursors. Because these 
        pollutants also affect visibility, EPA included an analysis of 
        the impacts of the proposed regional haze rule in a combined 
        regulatory impact statement (RIA) for the final PM and ozone 
        NAAQS issued in July 1997. Moreover, in its discussion of the 
        visibility rule, EPA emphasizes at several points its effort to 
        coordinate the visibility requirements with the implementation 
        of the fine particulate rule: ``The planning schedule for the 
        long-term strategy has been developed to facilitate integration 
        with State planning for the PM and Ozone NAAQS. Similarly, EPA 
        intends to address specific visibility emissions control 
        strategies in more detail in conjunction with the PM and Ozone 
        NAAQS control strategies.'' \27\
---------------------------------------------------------------------------
    \27\ EPA, Regional Haze Regulations, 62 Federal Register 41142, 
July 31, 1997. Also, ``In light of EPA's intent to foster coordinated 
planning and implementation of the regional haze requirements proposed 
and the new PM<INF>2.5</INF> while still addressing the need to ensure 
reasonable progress in addressing visibility impairment, EPA is also 
proposing to allow States preparing nonattainment plans for fine 
particulate matter (PM<INF>2.5</INF>) to submit their regional haze 
emissions control strategy SIP revisions by but not later than the 
required date for submittal of the State's PM<INF>2.5</INF> attainment 
control strategy SIP revisions'' [Ibid., p. 41151]. Similarly, EPA 
foresees ``ultimate integration of monitoring data from the new 
PM<INF>2.5</INF> monitoring network and the visibility monitoring 
network. . . . '' [Ibid., p. 41152].
---------------------------------------------------------------------------
          Prevention of significant deterioration (PSD) (Part C, 
        Subpart 1 of Title I of the Act) is a program to protect air 
        quality where ambient concentrations of pollutants are better 
        than required by NAAQS. The provision classifies areas as to 
        the amount of degradation allowed. All international parks, 
        national parks larger than 6,000 acres, and national memorial 
        areas and wilderness areas larger than 5,000 acres are 
        mandatory class I areas--those for which the least increment of 
        pollution is allowed.\28\ Most other areas are classified class 
        II, which allows moderate degradation. Pollutants subject to 
        PSD increments include PM, sulfur oxides, and nitrogen oxides--
        all of which affect visibility. Major new sources in PSD areas 
        must undergo preconstruction review and must install ``best 
        available control technology'' (BACT); State permitting 
        agencies determine BACT on a case-by-case basis, taking into 
        account energy, environmental, and economic impacts. More 
        stringent controls can be required if modeling indicates that 
        BACT is insufficient to avoid violating an allowable PSD 
        increment or the NAAQS itself. Because visibility is such an 
        important value in class I areas, the visibility sections of 
        the CAA constitute a subpart under the PSD program.
---------------------------------------------------------------------------
    \28\ An ``increment'' is the ``maximum allowable increase'' over 
baseline concentrations. For PM and SO<INF>2</INF>, these increments 
are set by law. For example, for a class I area, the maximum allowable 
increase in concentration of PM is 5 micrograms per cubic meter annual 
geometric mean, and 10 micrograms per cubic meter for the 24-hour 
maximum.
---------------------------------------------------------------------------
          Acid rain controls added to the CAA in 1990 (Title IV) 
        protect natural resources, ecosystems, materials, visibility, 
        and public health (Sec. 401(a)(1)) by reducing emissions of 
        sulfur oxides and nitrogen oxides--reductions required even if 
        NAAQS are being met. These reduction requirements fall 
        primarily on utilities, mostly in the eastern portion of the 
        country. The acid rain control program establishes a two-stage 
        process to reduce emissions of sulfur oxides by 10 million tons 
        and nitrogen oxides by 2 million tons from 1980 levels by the 
        year 2000.
          New source performance standards (Sec. 111) ensure adoption 
        of best available control technologies (BACT) on all new 
        sources regardless of location, even where primary NAAQS are 
        being met; these standards apply to several pollutants 
        contributing to regional haze, including particulate matter, 
        sulfur oxides, and nitrogen oxides. The provision requires 
        these new sources to install the best system of continuous 
        emission reduction that has been adequately demonstrated. In 
        making this assessment, the CAA requires EPA to take into 
        account ``the cost of achieving such reduction and any nonair 
        quality health and environmental impact and energy 
        requirements'' (Sec. 111(a)(1)). Also, the provision explicitly 
        permits EPA to ``distinguish among classes, types, and sizes 
        within categories of new sources for the purposes of 
        establishing such standards'' (Sec. 111(b)(2)). To take into 
        account technological improvements in control technologies, the 
        Act requires EPA to review and, if appropriate, update the 
        standards of performance every 8 years, unless readily 
        available information indicates such a review is unnecessary. 
        The utility boiler NSPS for sulfur dioxide is currently under 
        review and an updated utility boiler NSPS for nitrogen oxides 
        has been proposed.\29\
---------------------------------------------------------------------------
    \29\ 62 Federal Register, July 9, 1997, pp. 36948-36963.
---------------------------------------------------------------------------
          Motor vehicle emission control requirements and nonroad 
        engine standards (Title II) regulate tailpipe emissions, 
        including nitrogen oxides and volatile organic compounds that 
        affect visibility; and also establish related controls, for 
        example on gasoline volatility and emissions from fuel handling 
        and auto refueling. These standards apply in all 50 States.

    All these air pollution control programs,\30\ although imposed 
primarily for reasons other than the protection and improvement of 
visibility, nevertheless will definitely contribute to that goal by 
controlling pollutants that diminish visibility by causing regional 
haze.
---------------------------------------------------------------------------
    \30\ For a list of major CAA requirements that EPA considered in 
modeling emissions related to the PM and ozone NAAQS, see EPA, 
Regulatory Impact Analyses for the Particulate Matter and Ozone 
National Ambient Air Quality Standards and Proposed Regional Haze Rule, 
July 16, 1997, Table 4.5, p. 4-20.
---------------------------------------------------------------------------
    The existence of these other programs that reduce emissions of 
pollutants impairing visibility means that visibility is likely to 
improve even while debate continues over the goals and requirements EPA 
is proposing for addressing regional haze. However, while visibility 
improvements may be marked in some areas, it is likely that emissions 
reductions required by these other programs will be insufficient to 
improve visibility significantly in numerous areas, especially in the 
West. Where visibility goals remain unmet, additional pollution control 
programs are likely to create tensions, as sources that successfully 
reduce emissions so as to comply with NAAQS implementation plans, acid 
rain controls, and/or new source performance standards may object to 
any further emission control requirements on the grounds that they 
chose the most cost-effective way to meet those prior requirements, and 
more controls would be costly and inefficient.
    Costs. Because of the overlaps among control regimens affecting 
emissions of pollutants that cause regional haze and impair visibility 
and because the proposed rule would allow States to adjust targets to 
parallel ozone and PM NAAQS programs and would give broad discretion to 
States in determining control measures to meet visibility requirements, 
it is very difficult to isolate prospective costs of a regional haze 
control program. EPA's analysis \31\ is confined to the 141 class I 
areas located in 121 counties in the 48 contiguous States. EPA projects 
that, in order to meet a presumptive target of improving the most 
impaired days (average of 20 percent highest days) in 2010 by 1 
deciview, 76 of 121 class I area counties would need reductions beyond 
those achieved by then to meet the PM<INF>2.5</INF> NAAQS. If the goal 
were 2015, 58 mandated class I area counties would need additional 
controls. Virtually all the areas needing further controls would lie 
west of the Mississippi. Largely because of the acid rain control 
program, all 29 class I counties in the Northeast, Midwest, and 
Southeast would meet the 2015 target and only 1 Southeast county would 
not attain the 2010 target.
---------------------------------------------------------------------------
    \31\ EPA, Regulatory Impact Analyses for the Particulate Matter and 
Ozone National Ambient Air Quality Standards and Proposed Regional Haze 
Rule, July 16, 1997, Chapter 8.
---------------------------------------------------------------------------
    EPA estimates that regional haze controls would cost $0 if the 
target does not go beyond the ozone and PM NAAQS implementation plans 
to a maximum of $2.7 billion per year (in 1990 $) for additional 
controls to meet the presumptive 2010 goal.\32\ This analysis shows, 
too, that even with additional controls some areas would still fall 
short of EPA's alternative 2010 or 2015 targets (28 counties for 2010 
and 17 for 2015); these areas would be concentrated in the south 
central and west regions, particularly in Arizona and southern 
California.
---------------------------------------------------------------------------
    \32\ Ibid.
---------------------------------------------------------------------------
    Benefits. EPA estimates that the benefits of the proposed regional 
haze control program range from $0 if the target does not go beyond the 
ozone and PM NAAQS implementation plans to a maximum of $5.7 billion 
annually for the presumptive 2010 goal.\33\ This $5.7 billion benefit 
is not, however, all attributable to the value of visibility 
improvements per se: it is the sum of the upper range estimates for 
visibility ($0.57-1.13 billion), incremental health benefits 
attributable to pollutant reductions beyond those being implemented for 
meeting NAAQS ($1.1-4.5 billion), plus consumer cleaning cost savings 
of $0.03 billion.\34\
---------------------------------------------------------------------------
    \33\ Ibid., Chapter 12.
    \34\ Ibid., pp. 12-49 and 12-66.
---------------------------------------------------------------------------

                               v. issues

    At least five sets of issues have been raised in the wake of EPA's 
proposal: (1) the potential impacts on industry and other economic 
sectors (with special concern for forestry and agriculture, where the 
use of prescribed burning is an important management tool); (2) the 
choice of methodology (i.e., ``deciviews''), and more broadly whether 
improvement should be measured in terms of emission reductions or 
visibility improvement; (3) what constitutes reasonable further 
progress, as required in the Act--in particular whether a goal of one 
deciview improvement is sufficiently ambitious or appropriate for all 
regions of the country; (4) whether EPA paid sufficient attention to 
the work of the Grand Canyon Visibility Transport Commission; and (5) 
questions concerning Federal and State government relations, in 
particular the authority of each level of government vis-a-vis the 
other, as well as the relationships between Federal or State regulators 
and Federal land managers. This section reviews each of these issues in 
turn.
    Concern over potential impacts. As previously noted, it is 
difficult to project specific private sector impacts of the proposed 
visibility rule, since States not only bear primary responsibility for 
establishing control requirements but also are given the option of 
adjusting the goal. Moreover, the proposal presumes that many 
requirements will develop through future regional agreements.\35\ As a 
result, EPA's impact assessment takes a very broad-brush approach to 
estimating impacts and costs; however, some commentators on the rule 
have been more forthright in speculating on specific ones.
---------------------------------------------------------------------------
    \35\ EPA's discussion of the proposed regulation notes that the 
application of visibility program to all States ``should not be 
interpreted by the States to mean that they will necessarily have to 
adopt control strategies for regional haze immediately. Instead, it 
means that a State subject to the program first should participate in a 
regional air quality planning group. . . .'' EPA, Regional Haze 
Regulations, 62 Federal Register 41145, July 31, 1997.
---------------------------------------------------------------------------
    As a practical matter, the first impacts of requirements derived 
from visibility regulations will probably occur in the West. This is 
because the acid rain program in the East will be reducing sulfur oxide 
emissions substantially over the next 10 years, and they are the 
primary cause of visibility degradation east of the Mississippi. In the 
West, existing CAA requirements will not be reducing the pollutants 
degrading visibility as much, meaning that controls specifically 
designed to improve visibility can be expected to come into play there 
sooner than in the East.
    Stationary Sources. The most immediate private sector impact could 
involve existing stationary sources potentially subject to ``Best 
Available Retrofit Technology'' (BART) requirements of the Act \36\ 
(listed at 40 CFR 51.301(e)). As noted previously, this includes 26 
source categories (e.g., electric utilities, smelters, petroleum 
refineries, and kraft pulp mills) which have the potential to emit 250 
tons per year of any air pollutant and which began operating between 
1962 and 1977.\37\ EPA's proposal would require States to inventory 
sources potentially subject to BART within 1 year of promulgation of 
the rule, and then would give the States 3 years to complete evaluation 
of BART for applicable sources (i.e., probably by sometime in 2001). It 
would remain up to States to determine which, if any, candidate sources 
would actually have to install BART.
---------------------------------------------------------------------------
    \36\ See ``Plan Revisions to Address Best Available Retrofit 
Technology (BART)'' in EPA, Regional Haze Regulations, 62 Federal 
Register 41149, July 31, 1997.
    \37\ After 1977, these sources would have been subject to the new 
source review requirements of PSD.
---------------------------------------------------------------------------
    There has been some complaint that EPA's proposal overemphasizes 
BART controls relative to controls on other sources of pollutants 
impairing visibility.\38\ The western Governors, as a group, prefer 
market-based approaches rather than BART for the control of stationary 
sources. The BART procedure is specified in Section 169A, however, and 
is the only specific regulatory tool mentioned in the section. As a 
result, EPA had little choice but to require the States to use it; to 
fault the Agency for doing so is to ignore the mandate that Congress 
imposed.
---------------------------------------------------------------------------
    \38\ See, for example, the statement of Michael O. Leavitt, 
Governor of Utah, before the Subcommittee on Forests and Public Land 
Management, Committee on Energy and Natural Resources, U.S. Senate, 
October 28, 1997.
---------------------------------------------------------------------------
    Even so, imposition of BART is to be left largely to the discretion 
of the States, who will implement the requirement through the SIP 
process. The proposed rule does not require the imposition of BART on 
all sources.
    Forestry and Agriculture. Another area of impact that could be felt 
soon involves both the private and public sectors: prescribed burning. 
In agriculture, fire is used to remove stubble and grass; in forestry, 
it is used to control brush and to diminish fuel buildup. Smoke from 
prescribed burning and from wildfires contributes to visibility 
impairment, and the 1980 visibility regulations included a requirement 
that States consider smoke management techniques for agricultural and 
forestry burning in developing long-term strategies for visibility 
protection. With the new, proposed rule, concern has been expressed 
that the EPA regulations could hinder prescribed burning in forests, 
with the potential effect of increasing damages from wildfires. 
Conversely, if prescribed forest burning were not impeded, then other 
sources of pollutants impairing visibility would necessarily be subject 
to more stringent controls (including, perhaps, controls on 
agricultural burning) to compensate for the impairment of visibility 
resulting from forest burning.\39\
---------------------------------------------------------------------------
    \39\ Statement of Greg E. Walcher before the Subcommittee on 
Forests and Public Land Management, U.S. Senate, Hearing: Impact of 
Regional Haze Rules on Federal Land Management, Oct. 28, 1997.
---------------------------------------------------------------------------
    EPA's position is that sound fire management of prescribed burning 
is possible, and the Agency is working jointly with States and the land 
management agencies in the Departments of Agriculture, Defense, and the 
Interior on a national policy for managing the impacts of prescribed 
fires. EPA anticipates issuing a Wildland Fire/Air Quality Policy in 
1998. Overall, it remains uncertain what, if any, impacts the proposed 
regulation will have on prescribed burning, or on agriculture and 
forestry more generally, particularly since it will be the States, 
individually or regionally, that determine local control 
requirements.\40\
---------------------------------------------------------------------------
    \40\ A related issue is the extent to which prescribed burning can 
be controlled by the States if it occurs on Federal land. For a 
discussion of this issue, see p. 23 below.
---------------------------------------------------------------------------
    Small Businesses. EPA has certified that the proposed rule will not 
have a significant impact on small businesses, because the States will 
be exercising ``substantial intervening discretion in implementing the 
proposed rule.'' \41\ This finding does not mean there will be no small 
business impact, although impacts are speculative; rather, by claiming 
that only subsequent State implementation would affect small business, 
EPA seeks to avoid procedural requirements that would otherwise be 
imposed by the Small Business Regulatory Enforcement Fairness Act 
(SBREFA). Nonetheless, EPA has undertaken small business outreach 
efforts on the impacts of the PM and ozone NAAQS and the regional haze 
rule--efforts that largely parallel the SBREFA requirements.\42\
---------------------------------------------------------------------------
    \41\ EPA, Regional Haze Regulations, p. 86.
    \42\ Ibid.
---------------------------------------------------------------------------
    Mobile Sources. The Grand Canyon Visibility Transport Commission 
report recommends additional attention to controlling mobile source 
emissions, particularly endorsing the concept of a 49-State low 
emission vehicle whose emissions would be substantially less than those 
allowed by current regulation. Mobile source emissions are directly 
regulated by Title II of the Clean Air Act, however, and are outside 
the purview of Section 169A. In addition, the 49-State car is a 
voluntary effort, the success of which is outside of EPA's control.
    Unpaved Roads. The Commission also notes that models attribute 
significant impairment to visibility on the Colorado Plateau from road 
dust--a finding that suggests paving unpaved roads could be an 
effective control measure. However, many question the technical 
accuracy of this finding, and the Commission gives high priority to 
further research on the issue.
    Mexican Sources. Finally, particularly in the Southwest, emissions 
from Mexican sources may significantly contribute to visibility 
impairment. The visibility regulation does not provide any mechanism 
for addressing this issue directly, but several U.S.-Mexican agreements 
provide for cooperation in solving environmental problems of the border 
region--including attainment and maintenance of primary and secondary 
NAAQS.\43\ Such cooperation could lead to controls on major Mexican 
sources of sulfur oxides, particularly smelters and/or coal-fired power 
plants.
---------------------------------------------------------------------------
    \43\ Notably, the ``Agreement between the United States of America 
and the United Mexican States on Cooperation for the Protection and 
Improvement of the Environment in the Border Area (La Paz Agreement)''; 
an annex to this agreement was used by EPA as the vehicle for 
implementing Sec. 815 of the CAA, ``Establishment of Program to Monitor 
and Improve Air Quality in Regions along the Border between the United 
States and Mexico'' (added by the 1990 Clean Air Act Amendments). See, 
EPA, U.S.--Mexico Border XXI Program Framework Document (October 1996 
[EPA 160-R-96-003]), Appendix I.
---------------------------------------------------------------------------
    Choice of Methodology. A second set of issues raised in debate over 
the proposed rule concerns the methodology chosen by EPA to be the 
measure of progress in improving visibility. As explained earlier in 
this report, the rule sets a target of improving visibility by 1.0 
deciview over either a 10- or 15-year period. EPA requested comments 
concerning both the choice of time period and the proposed use of 
deciviews as the means of measuring visibility improvement.
    A deciview is a small but noticeable change in haziness, determined 
by use of a mathematical formula that uses logarithmic values of 
atmospheric light extinction coefficients. The term was coined by Marc 
Pitchford of the National Oceanic and Atmospheric Administration (NOM) 
and William Maim of the National Park Service in a 1994 article that 
appeared in the journal Atmospheric Environment.\44\ The idea behind 
the use of deciviews is that changes on the scale have a linear 
relationship to human perception: i.e., a change from 10 to 11 and a 
change from 30 to 31 are both small, perceptible changes to a human 
observer. The other available measures (such as light extinction or 
visual range) ``do not express perception linearly. For example, a 5-
mile change in visual range can in some cases be very significant, such 
as a change from 5 to 10 miles in an impaired environment, whereas it 
may be barely perceptible on a clearer day (such as from 95 to 100 
miles).'' \45\
---------------------------------------------------------------------------
    \44\ Marc L. Pitchford and William C. Malm, ``Development and 
Applications of a Standard Visual Index,'' Atmospheric Environment, 
Vol. 28, No. 5, 1994, pp. 1049-1054.
    \45\ Regional Haze Regulations, Preamble, 62 Federal Register 
41145, July 31, 1997.
---------------------------------------------------------------------------
    EPA argues that use of this measure as the way of defining 
reasonable progress makes sense ``because of the importance that 
progress . . . be measured in terms of `perceptible' changes in 
visibility, and due to the simplicity of its useful scale.'' \46\ It 
also conforms closely to the recommendations of the National Academy of 
Sciences, whose Committee on Haze, writing before the appearance of 
Pitchford and Malm's article, concluded that existing measures of 
visibility, such as visual range, were not well-suited to measuring the 
``vague and qualitative'' definition of visibility impairment in the 
Clean Air Act. The NAS Committee recommended that an index of 
visibility impairment be developed:
---------------------------------------------------------------------------
    \46\ Ibid.

          The ability to make quantitative connections between optical 
        properties of the atmosphere and human judgments of visibility 
        is still in the developmental stage because of the complexity 
        of the physical and psychological phenomena. To quantify 
        visibility impairment. an index must be developed that can 
        incorporate the complexity of those phenomena; the index also 
        must be understandable and useful to the general public and 
        policy makers as well as to scientific researchers. Because 
        impairment is based largely on human judgments of the visual 
        environment, the human element must be incorporated in the 
        development of such an index. In addition, the index must be 
        based on properties of the physical environment that can be 
        readily measured and monitored to enable enforcement of air 
        quality standards.\47\
---------------------------------------------------------------------------
    \47\ NAS Report, p. 354

    Not everyone agrees that the deciview approach is the appropriate 
one, however. Gov. Michael Leavitt of Utah, testifying to a Senate 
subcommittee on behalf of the Western Governors' Association, argued 
---------------------------------------------------------------------------
that:

          Visibility improvement or ``reasonable progress'' should not 
        be based strictly on a visibility standard, a quantitative 
        deciview measurement. Given the current state of the science 
        and technical air quality management tools as well as the 
        inherent nature of visibility management in the West, 
        visibility measurement should be used as a tool but not a 
        standard.\48\
---------------------------------------------------------------------------
    \48\ Statement of Michael O. Leavitt, Governor of Utah, before the 
Subcommittee on Forests and Public Land Management, Committee on Energy 
and Natural Resources, U.S. Senate, October 28, 1997 p. 5.

    Instead, Leavitt and others would prefer to use emissions-based 
measures for determining progress. Such measures would be more in line 
with traditional air pollution control programs, and have the advantage 
of being more predictable for industry and other sectors subject to 
compliance.
    What Constitutes ``Reasonable Further Progress''. Whether or not 
one agrees with the methodology used to measure progress, a related 
issue concerns the amount of progress that States should be asked to 
make. EPA has defined reasonable further progress, in all areas of the 
country, as a 1.0 deciview improvement in visibility every 10 to 15 
years. Such a target implies that visibility will continue to be 
severely degraded for long periods of time in some parts of the West 
and particularly in the East. (For a map showing current levels of 
visibility in various regions of the United States, see Figure 1.)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Note: Increases on the deciview scale correspond to greater 
impairment of visibility. Zero on the scale represents visibility in 
particle-free air, a condition that is not achievable in most cases, 
even in the absence of pollution. Under normal unpolluted conditions, 
median visibility would range from 4 to 5 deciviews in the West to 
about 8 to 9 in the East.
    Source: Pitchford and Maim, ``Development and Applications of a 
Standard Visual Index,'' Atmospheric Environment, Vol. 28, No. 5, 1994, 
p. 1053.

    In testimony before a Senate subcommittee, Marcia Frienz of the 
National Parks and Conservation Association (NPCA), stated:

          Currently, Eastern States face a 15 deciview impairment from 
        non-natural haze. Even under the stricter one deciview per 10 
        years goal, it would take the region 150 years to remedy its 
        severe haze pollution problem! NPCA does not believe this is 
        reasonable progress, particularly when one considers that the 
        man-made haze problem has been created over the last 50 years. 
        For that reason, we recommend that a three deciview rate of 
        improvement over 10 years be adopted for Eastern States.\49\
---------------------------------------------------------------------------
    \49\ Statement of Marcia Frienz, National Parks and Conservation 
Association, before the Subcommittee on Forests and Public Land 
Management, Committee on Energy and Natural Resources, U.S. Senate, 
October 28, 1997, p. 3.

    An Associate Director of the National Park Service, speaking to the 
same subcommittee, was less direct in his recommendations, but painted 
---------------------------------------------------------------------------
an even more negative picture of the dimensions of the problem:

          EPA's suggested ``reasonable progress'' target for the most 
        impaired days needs to be closely examined as it would allow 
        220-330 years to achieve the national visibility goal in those 
        areas, such as Shenandoah and Great Smoky Mountains National 
        Parks, where visibility is currently very degraded. In 
        addition, the proposed criteria allow for a slower rate of 
        progress than is actually being achieved in many areas.\50\
---------------------------------------------------------------------------
    \50\ Statement of Dr. Michael Soukup, Associate Director, Natural 
Resource Stewardship and Science, National Park Service, before the 
Subcommittee on Forests and Public Land Management, Committee on Energy 
and Natural Resources, U.S. Senate, October 28, 1997, p. 6.

    In portions of the West, the reverse problem may occur: here, air 
quality is still sufficiently good that obtaining a noticeable (i.e., 
1.0 deciview) improvement would require substantial effort, and 
improvements of more than that amount may not be feasible. Anne Smith, 
who, as a consultant to the Grand Canyon Visibility Transport 
Commission, developed the model that projected impacts of control 
measures on visibility at the Grand Canyon, has concluded that the 
``Maximum Management Alternative'' on the Colorado Plateau ``generates 
only 1 deciview of improvement in 50 years in terms of the annual 
average (from 9 deciviews in 1990 down to 8 deciviews in 2040). In 
terms of the 20 percent worst days, which is the focus of the proposed 
rules, this `upper bound' generates approximately 1.5 to 2 deciviews of 
improvement.'' \51\
---------------------------------------------------------------------------
    \51\ Statement of Dr. Anne E. Smith, Decision Focus Incorporated, 
before the Subcommittee on Forests and Public Land Management, 
Committee on Energy and Natural Resources, U.S. Senate, October 28, 
1997, p. 3.
---------------------------------------------------------------------------
    However, this conclusion does not take into account certain control 
possibilities, and may overstate the difficulty of achieving visibility 
improvement, particularly in the near term. The Maximum Management 
Alternative, defined as the ``maximum visibility improvements possible 
regardless of the cost of the pollution controls used,'' did not 
include mobile source controls or measures that would require 
international cooperation.\52\ Further, the same analysis shows that, 
due to existing control requirements, visibility will improve until 
about 2010, by as much as one deciview.\53\ As a result, EPA's target, 
at least for the first 10 to 15 year period, appears to be relatively 
easily attained both in the West and the East.
---------------------------------------------------------------------------
    \52\ Ibid.
    \53\ Ibid., p. 2.
---------------------------------------------------------------------------
    Nevertheless, Dr. Smith's larger point is well-taken: beyond 2010, 
visibility improvements in the West may be difficult to achieve. 
Because air quality is less degraded there, a less stringent target may 
be justified, particularly if the first 10 to 15-year period yields 
projected improvements. Opponents have characterized EPA's proposal as 
a ``one-size-fits-all'' Federal regulation. In most respects, given the 
flexibility EPA is allowing the States to develop their own goals, 
strategies, and regulatory programs, this criticism seems out of place; 
but in requiring the same rate of progress in all areas of the country, 
EPA is establishing a sort of ``one-size fits all'' target, which may 
be too lenient in some areas, while being difficult to maintain long 
term in others.
    Setting different Federal standards for different parts of the 
country poses its own challenges, however. Typically, the Federal 
Government has imposed uniform Federal standards to protect health and 
to provide a level playing field for new major sources. Because States 
begin with different levels of pollution, the establishment of a 
uniform Federal standard (for example, a National Ambient Air Quality 
Standard) can have the effect of requiring more stringent measures in 
some States and local areas than in others.\54\ In addition, the States 
have authority under most environmental statutes to set their own 
standards (as long as they are more stringent than the federal), and 
have done so under other parts of the Clean Air Act.
---------------------------------------------------------------------------
    \54\ For a discussion of the setting of ambient air quality 
standards, see CRS Report 97-722, Air Quality Standards: The 
Decisionmaking Process.
---------------------------------------------------------------------------
    What is unique in the regional haze rule is that the standard is 
expressed in terms of units of progress, rather than as the ultimate 
goal. This choice seems mandated by the language of the Act itself, 
which requires ``regulations to assure . . . reasonable progress toward 
meeting the national goal. . . .'' Nevertheless, achieving sufficiently 
rapid progress in the East, while not setting impossible standards in 
the West, is a challenge that EPA faces in crafting the final 
regulations.
    Grand Canyon Commission Recommendations. A number of interested 
parties, including many of the participants in the Grand Canyon 
Visibility Transport Commission process, have complained that EPA's 
proposal pays insufficient attention to the Commission's 
recommendations. The Commission assembled a diverse group of interested 
parties from eight States and spent 5 years analyzing the problem of 
visibility in the national parks and wilderness areas of the Colorado 
Plateau, including the Grand Canyon, Bryce Canyon, Zion and other 
areas. As noted earlier in this report, the Commission reached 
consensus on a set of nine recommendations that addressed a wide range 
of contributors to the haze problem, including mobile sources, road 
dust, stationary sources, international sources, and prescribed 
burning, and recommended a wide array of measures, including further 
research needs, to address the problem.\55\
---------------------------------------------------------------------------
    \55\ For a summary of the recommendations, see the discussion 
above, on pp. 6-8.
---------------------------------------------------------------------------
    EPA's proposed rule discusses the work of the Commission in its 
preamble, but it does not strictly follow the Commission's 
recommendations for several reasons. First, the recommendations are 
useful in outlining future research needs (e.g., tracking emissions 
growth in clean air corridors, expanding data collection and improving 
modeling for areas in or near parks, and resolving uncertainties 
concerning the contribution of road dust to visibility impairment). The 
Commission report also identifies areas that need additional attention, 
such as collaboration with Mexico on emissions inventories and 
monitoring. But many of its recommendations do not address the 
regulation or reduction of emissions. In this regard, they do not offer 
a regulatory blueprint.
    Second, where the recommendations do address regulation, in many 
cases they recommend programs for which EPA has limited statutory 
authority. For example, the Commission endorsed ``national strategies 
aimed at further reducing tailpipe emissions, including the so-called 
49-State low emission vehicle.'' \56\ EPA and the auto industry have 
promoted this concept as an alternative to State-by-State adoption of 
California emission standards, but implementation has stalled because 
EPA lacks statutory authority to strengthen auto emission standards 
until the year 2004. Similarly, the Commission recommended ``policies 
based on energy conservation, increased energy efficiency and promotion 
of the use of renewable resources for energy production,'' including 
the adoption of emission fees to replace property or income taxes, and 
the adoption of stricter energy efficiency standards for motors, 
appliances, and lighting.\57\ But the Clean Air Act gives EPA no 
authority to promulgate any such requirements.
---------------------------------------------------------------------------
    \56\ Recommendations for Improving Western vistas, p. ii.
    \57\ Ibid., p. 30.
---------------------------------------------------------------------------
    Third, EPA's proposal is meant to address visibility problems in 
all areas of the country not just the eight States that participated in 
the Commission process. While there are many useful ideas in the 
Commission report, the visibility problem is substantially different, 
both in causes and in severity, in other parts of the country: 
recommendations intended to protect the Grand Canyon do not necessarily 
fit in the eastern or southern United States.
    What EPA has proposed focuses on State planning, allowing the 
States flexibility to adopt whatever measures they conclude will make 
progress toward the national goal. It requires the States to measure 
that progress and revise their plans at 3-year intervals. And it allows 
the States to adopt alternative progress targets, where they can 
justify doing so, using criteria spelled out in the Act. This degree of 
flexibility is unusual in an EPA regulatory program. It appears to be 
consistent with the statutory authority provided in Section 169A.
    Federal-State Issues. The proposed regional haze regulations have 
also called attention to certain perennial issues of federal-State 
relations under the Clean Air Act--in particular, the extent to which 
Federal entities can prevent or penalize actions by States, and vice 
versa. More specifically, three federal-State issues present 
themselves: (a) whether a Federal land manager can block State issuance 
of permits under the Prevention of Significant Deterioration (PSD) 
program; (b) whether the actions of Federal land managers (such as 
prescribed burns on Forest Service lands) are subject to State 
authority, and (c) what authority EPA has to enforce its visibility 
program requirements on States--in particular, whether sanctions under 
Sections 179 and 110(m) of the Clean Air Act apply to States that fail 
to submit or implement adequate State Implementation Plans.
    Federal Land Managers and Permits. Can a Federal land manager (FLM) 
\58\ block State issuance of emission permits because of the impact the 
emissions may have on visibility in class I areas? As a practical 
matter, it would seem not. It is true that the Clean Air Act gives the 
ELM an ``affirmative responsibility'' to protect visibility on Federal 
lands in class I areas.\59\ It is also true, more concretely, that 
where the FLM shows ``to the satisfaction of the State'' that emissions 
from a proposed major emitting facility will adversely affect 
visibility on such lands, the Act instructs that ``a permit shall not 
be issued.'' \60\ Read literally, this directive could be deemed a 
Federal veto. Realistically, however, the unqualified discretion 
afforded the State to determine when a showing has been made ``to [its] 
satisfaction'' means that the State retains control over whether the 
permit is issued.
---------------------------------------------------------------------------
    \58\ ``Federal Land Manager'' is defined as the Secretary of the 
department with authority over the Federal lands in question. CAA 
Sec. 302(i).
    \59\ CAA Sec. 165(d)(2)(B).
    \60\ CAA Sec. 165(d)(2)(C)(ii).
---------------------------------------------------------------------------
    Elsewhere in the Clean Air Act, it is required that a State 
``consult in person with the appropriate [FLM]'' before holding a 
hearing on proposed visibility-related SIP revisions.\61\ Plainly, this 
also falls short of an FLM veto authority over individual emission 
permits.
---------------------------------------------------------------------------
    \61\ CAA Sec. 169A(d).
---------------------------------------------------------------------------
    State Authority over Federal Land Managers. Turn now to the reverse 
situation. What authority do States have, through their SIPs as revised 
in accordance with the new visibility regulations, to regulate 
emissions on Federal lands? In particular, what authority do States 
have to regulate prescribed burning of National Forest lands? Because 
the Clean Air Act (like most other Federal pollution laws) contains a 
broad waiver of Federal supremacy, States appear to have broad 
authority to regulate emissions on Federal lands--whether the 
regulation is contained in a SIP or not. Under the Act, Federal 
agencies ``having jurisdiction over any property'' or ``engaged in any 
activity resulting . . . in the discharge of air pollutants'' must 
comply with State air pollution rules to the same extent as any 
nongovernmental entity.\62\
---------------------------------------------------------------------------
    \62\ CAA Sec. 118(a).
---------------------------------------------------------------------------
    Sanctions. Finally, there is the issue of sanctions, long a 
sensitive one under the Clean Air Act. (Title I of the Clean Air Act 
provides both mandatory and discretionary authority for the EPA 
Administrator to impose sanctions on States that have not submitted 
adequate State Implementation Plans. Sanctions take two principal 
forms: (1) withholding Federal highway funds, and (2) 2:1 offsets--
requiring permit applicants in nonattainment areas to assure offsetting 
emission reductions twice as great as the emissions to be released by a 
proposed facility. For a more thorough discussion of Clean Air Act 
sanctions, see Highway Fund Sanctions for Clean Air Act Violations, CRS 
Report 97-959 ENR.)
    What sanctions can be imposed on States for failing to revise their 
SIPs to meet the visibility-related requirements of EPA's regional haze 
regulation, when it is issued? \63\ Reading closely the mandatory 
sanctions provision \64\ and the discretionary sanctions provisions 
\65\ in the Act, it would appear that the latter fits this situation 
more closely. If this interpretation is correct, then in the event of a 
State's failure to make the SIP revision, EPA may, but does not have 
to, impose the highway sanctions and/or the 2:1 emissions offset 
sanctions (in nonattainment areas), and must, should the State's 
failure continue, promulgate a Federal implementation plan 
revision.\66\
---------------------------------------------------------------------------
    \63\ Such SIP revisions are required by CAA Sec. 169B(2).
    \64\ CAA Sec. 179(a).
    \65\ CAA Sec. 110(m).
    \66\ CAA Sec. 110(c)(1).
---------------------------------------------------------------------------
    But while CAA sanctions may be imposed for failure to submit an 
adequate SIP, they may not be imposed, following procedural compliance, 
for not achieving visibility goals. That is, where visibility-related 
SIP revisions are made by the State and approved by EPA, sanctions may 
not be imposed if the new SIP measures prove to be less effective than 
believed at the outset. As an initial matter, proposed 40 C.F.R. 
Sec. 51.306(d)(5) allows a State to adopt an ``alternate reasonable 
progress target'' if the original target can be shown to be 
unattainable due to such factors as availability of source control 
technology, costs of compliance with the original target, the remaining 
useful life of sources, etc. Only if the State cannot make the required 
showing, or simply refuses to try, would matters move to the next 
phase. In such event, the CAA calls for an EPA finding that the SIP is 
``substantially inadequate,'' and an EPA deadline of no more than 18 
months for the State's submission of plan revisions.\67\ If such SIP 
revisions are not timely submitted, the Act contemplates that 18 months 
after the determination of nonsubmission EPA must impose either the 
highway sanction or (in nonattainment areas) the 2:1 emissions offset 
sanction,\68\ may also withhold air pollution program grants,\69\ and 
must, should the non-submission continue, promulgate a Federal 
implementation plan revision.\70\
---------------------------------------------------------------------------
    \67\ CAA Sec. 110(k)(5). See also CAA Sec. 110(a)(2)(H)(ii) (State-
submitted SIP, to be approvable, must provide for revision of plan if 
substantially inadequate to comply with Act's requirements).
    \68\ CAA Sec. 179(a). Some ambiguity exists as to whether CAA 
Sec. 110(m), rather than CAA Sec. 179(a) might govern in this 
circumstance. If section 110(m) controls, then EPA imposition of the 
highway and emission offset sanctions is discretionary, not mandatory.
    \69\ CAA Sec. 179(a).
    \70\ CAA Sec. 110(c)(1).
---------------------------------------------------------------------------

                               conclusion

    The regional haze rule, on its own, appears unlikely to have much 
impact on air quality before the year 2010. It proposes relatively 
modest goals for visibility improvement. These goals appear likely to 
be met or surpassed in most sections of the country as a result of 
regulations already being implemented--notably the acid rain program 
and controls on mobile sources and non-road engines. In States required 
to implement programs to control fine particles--which EPA and other 
observers believe includes most of the States--implementation of the 
regional haze program will be delayed to coincide with PM control 
measures, which are unlikely to be determined before 2009.
    However modest its immediate impact, the proposed rule is one of 
several regulations that point in the same direction. Along with the 
nonattainment provisions of the 1990 Clean Air Act, the revised air 
quality standards for ozone and particulates (promulgated in July), the 
acid rain program, the regional efforts to control ozone transport 
developed by the Ozone Transport Assessment Group and the Ozone 
Transport Commission, the threat of action to control interstate 
sources of air pollution under Section 126 of the Act, the 
implementation of revised New Source Performance Standards for 
stationary sources of pollution, and new standards for mobile sources 
that are now being implemented, these regulations will help move the 
nation toward noticeably cleaner air.\71\ In this respect, the haze 
regulations may function almost as ``standby'' regulations: in case the 
other measures being implemented do not improve visibility in national 
parks and wilderness areas, the tools of the regional haze program are 
available to do so.
---------------------------------------------------------------------------
    \71\ For descriptions and discussion of these other programs, see 
CRS Issue Brief 97007, Clean Air Act Issues, and the Clean Air Act 
section of CRS Report 97-49 ENR, Summaries of Environmental Laws 
Administered by the Environmental Protection Agency.
---------------------------------------------------------------------------
    At the same time, EPA faces significant choices in finalizing the 
haze regulations, which could substantially affect the reach and impact 
of the rule. For example, adoption of more stringent targets for 
visibility improvement, or standards that emphasize emission reductions 
from specific types of sources rather than the more general goal of 
visibility improvement, could make regional haze regulation more of a 
controlling factor on the regulatory agenda.
    States will have decisions to make, too, once the rule is final. 
Successful implementation of the rule will require consultation and 
decision-making on a regional basis. In its proposal, EPA has placed 
significant emphasis on the regional consultations and decision-making 
required, but at present, the institutional structures necessary for 
regional decision-making are nonexistent. The regions themselves 
require definition.
    As a result, Congress is likely to retain an interest in the 
regional haze program and its implementation. Congress can express this 
interest in a number of ways. It can review regulations and their 
implementation under both its general oversight authority and under the 
new congressional regulatory review process; it can use the 
appropriations process to shape implementation; and it periodically 
revisits issues by considering amendments to the authorizing 
legislation--in this case, the Clean Air Act, whose authorization 
expires in 1998. Whether the regional haze program will be considered 
in any of these congressional fore is likely to depend on the final 
form of the rule that EPA chooses to promulgate.

                                   - 
</pre></body></html>
